<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-701, Part 7]
[From the U.S. Government Publishing Office]




                                                 S. Hrg. 111-701, Pt. 7

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3454

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2011 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               ----------                              

                                 PART 7

                            STRATEGIC FORCES

                               ----------                              

                    MARCH 10, 17; APRIL 14, 21, 2010


         Printed for the use of the Committee on Armed Services








                                                  S. Hrg. 111-701 Pt. 7

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3454

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2011 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               __________

                                 PART 7

                            STRATEGIC FORCES

                               __________

                    MARCH 10, 17; APRIL 14, 21, 2010

                               __________

         Printed for the use of the Committee on Armed Services

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Available via the World Wide Web: http://www.fdsys.gov/


                  U.S. GOVERNMENT PRINTING OFFICE
 62-160 PDF               WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                 ______

                    Subcommittee on Strategic Forces

                 E. BENJAMIN NELSON, Nebraska, Chairman

ROBERT C. BYRD, West Virginia        DAVID VITTER, Louisiana
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
BILL NELSON, Florida                 JAMES M. INHOFE, Oklahoma
MARK UDALL, Colorado                 LINDSEY GRAHAM, South Carolina
MARK BEGICH, Alaska                  SCOTT P. BROWN, Massachusetts
JEFF BINGAMAN, New Mexico

                                  (ii)







                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                        Military Space Programs
                             march 10, 2010

                                                                   Page

Payton, Gary E., Deputy Under Secretary of the Air Force for 
  Space Programs.................................................     2
Kehler, Gen. C. Robert, USAF, Commander, Air Force Space Command.     7
James, Lt. Gen. Larry D., USAF, Commander, 14th Air Force, Air 
  Force Space Command, and Commander, Joint Functional Component 
  Command for Space, U.S. Strategic Command......................    15
Federici, Gary A., Deputy Assistant Secretary of the Navy for 
  Command, Control, Communications, Computers, Intelligence, and 
  Space..........................................................    20
Dorsett, VADM David J., USN, Deputy Chief of Naval Operations for 
  Information Dominance (N2/N6), and Director of Naval 
  Intelligence...................................................    21
Chaplain, Cristina T., Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................    25

                       Strategic Forces Programs
                             march 17, 2010

Roberts, Bradley H., Ph.D., Deputy Assistant Secretary of Defense 
  for Nuclear and Missile Defense Policy.........................    82
Klotz, Lt. Gen. Frank G., USAF, Commander, Air Force Global 
  Strike Command.................................................    84
Shackelford, Lt. Gen. Mark D., USAF, Military Deputy, Office of 
  the Assistant Secretary of the Air Force for Acquisition.......    88
Alston, Maj. Gen. C. Donald, USAF, Assistant Chief of Staff, 
  Strategic Deterrence and Nuclear Integration, U.S. Air Force...    90
Scott, Maj. Gen. David J., USAF, Director, Operational Capability 
  Requirements, and Deputy Chief of Staff for Operations, Plans, 
  and Requirements, U.S. Air Force...............................    91
Johnson, RADM Stephen E., USN, Director, Strategic Systems 
  Programs, U.S. Navy............................................    93

      Strategic Forces Programs of the National Nuclear Security 
                             Administration
                             april 14, 2010

D'Agostino, Hon. Thomas P., Administrator, National Nuclear 
  Security Administration, Department of Energy..................   122

    Environmental Management Funding and Funding Under the American 
                     Recovery and Reinvestment Act
                             april 21, 2010

Triay, Hon. Ines R., Assistant Secretary for Environmental 
  Management, Department of Energy...............................   270

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                       WEDNESDAY, MARCH 10, 2010

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                        MILITARY SPACE PROGRAMS

    The subcommittee met, pursuant to notice, at 2:42 p.m. in 
room SR-232A, Russell Senate Office Building, Senator E. 
Benjamin Nelson (chairman) presiding.
    Committee members present: Senators Ben Nelson, Udall, and 
Vitter.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff member present: Daniel A. Lerner, 
professional staff member.
    Staff assistants present: Kevin A. Cronin and Paul J. 
Hubbard.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Ann Premer, assistant to Senator Ben 
Nelson; Jennifer Barrett, assistant to Senator Udall; Rob 
Soofer, assistant to Senator Inhofe; Sandra Luff, assistant to 
Senator Sessions; and Michael T. Wong, assistant to Senator 
Vitter.

   OPENING STATEMENT OF SENATOR E. BENJAMIN NELSON, CHAIRMAN

    Senator Ben Nelson. Good afternoon, and welcome to our 
witnesses this afternoon.
    I apologize for the delay in the start. Votes always seem 
to get in the way of our regular business, and so we suffer 
through that, as we must.
    We have with us this afternoon: Gary Payton, Deputy Under 
Secretary of the Air Force for Space; General Robert Kehler, 
Commander of Air Force Space Command; Lieutenant General Larry 
James, Commander of the 14th Air Force and the Strategic 
Command Joint Functional Component Command for Space; Vice 
Admiral David Dorsett, Deputy Chief of Naval Operations for 
Information Dominance; Gary Federici, Deputy Assistant 
Secretary of the Navy for Command, Control, Computers, 
Intelligence and Space; and Christina Chaplain, Director, 
Acquisition and Sourcing Management, from the Government 
Accountability Office (GAO).
    Welcome to all of you. We appreciate your being here.
    Space is an essential element of almost every military 
operation. As various exercises and studies have demonstrated, 
including the Shriever series of war games, space provides a 
distinct and unique advantage to U.S. forces, one that they 
won't operate and can't operate without. But, as that advantage 
is becoming more well understood, more attention and leadership 
must be paid to protect space and the assets on orbit and on 
ground.
    Improving Space Situational Awareness (SSA), and thus, 
improving the ability to protect space systems, is a major and 
welcome focus of the Air Force budget request for fiscal year 
2011, and so, we look forward to working with you to sustain 
this much-needed focus.
    After many years of discussing broken space acquisition 
programs that were years behind schedule and significantly over 
budget, it appears as if these programs have finally turned a 
corner. The Wideband Global Satellite (WGS) system now has 
three satellites on orbit, with more to come; the first of the 
IIF Global Positioning System (GPS) satellites, which should 
launch in the next few weeks; the first Advanced Extremely High 
Frequency communications satellite should launch this summer; 
and there is a possibility that the Space-Based Infrared 
Satellite-Geosynchronous Orbit (SBIRS-GEO) system will launch 
in late 2010 or early 2011. This is all excellent news.
    There are still issues. The Navy Mobile User Objective 
System (MUOS) is about 2 years late, and the ultra-high 
frequency (UHF) Constellation that it will replace is 
increasingly fragile.
    On the other hand, this week's decision to give serious 
consideration to an interim augmentation capability is 
positive. Launch costs have continued to increase, the space 
ranges need to be modernized, and there are growing concerns 
about the space industrial base. The operationally responsive 
space effort continues to wrestle with the challenges of 
establishing a responsive space capability, and small 
businesses still have difficulty bringing their innovative 
ideas to the table. Finally, the management coordination of 
space is fractured; some might even suggest, broken.
    I look forward to hearing some of the ideas on how to 
improve that situation, as both the Air Force and the Office of 
the Secretary of Defense (OSD) are actively studying this 
problem, as well as on all the many facets of operating in, 
from, and through space.
    We have quite a large panel this afternoon, a lot to cover. 
So, if we can, let's begin.
    My ranking member, Senator Vitter, will be with us shortly, 
but all of our witnesses have prepared written statements, and 
those will be included in the record, without objection.
    We're ready to go. Because we have this large panel, if we 
could highlight just the major issues, rather than giving a 
long, formal, oral presentation, and then we'll move straight 
to questions.
    We'll start first with Secretary Payton.

STATEMENT OF GARY E. PAYTON, DEPUTY UNDER SECRETARY OF THE AIR 
                    FORCE FOR SPACE PROGRAMS

    Mr. Payton. Yes, sir. Thank you, Senator.
    As you mentioned, for the record, I submitted my opening 
statement, and so, I will forego a verbal opening statement, in 
the interest of time.
    [The prepared statement of Mr. Payton follows:]
                  Prepared Statement by Gary E. Payton
                              introduction
    Chairman Nelson, Senator Vitter, and distinguished members of the 
committee, it is an honor to appear before this committee as the Deputy 
Under Secretary of the Air Force for Space Programs, and to discuss our 
military space activities. I support the Secretary of the Air Force 
with his responsibilities as the Service Acquisition Executive for 
Space Programs.
    I believe the overall soundness of our Air Force space program is 
best illustrated by our consecutive string of 64 successful national 
security space launches over the past 10 years, most recently 
demonstrated with the December 2009 launch of the third Wideband Global 
Satellite Communications (SATCOM) satellite aboard a Delta IV launch 
vehicle. This record is the result of a world-class team of space 
professionals across our government and industry, all dedicated to the 
single purpose of providing essential capabilities to our joint 
warfighters and allies around the world. With superior space systems we 
provide our leadership with intelligence and situational awareness that 
otherwise would be impossible to collect. Space enables us to employ 
military force in both irregular warfare and conventional situations--
we see the battlefield more clearly and destroy targets with greater 
precision. While acknowledging the ever increasing advantages that 
these space capabilities provide, we acknowledge that many of the 
satellites and associated infrastructure have outlived their intended 
design lives.
    To ensure the availability of these systems, the military space 
portion of the President's fiscal year 2011 budget submission is 
focused on the continuity of key mission areas including worldwide 
communication; global positioning, navigation and timing; global 
missile warning; weather; and launch. Simultaneously, we are enhancing 
the protection of our space capabilities through improved Space 
Situational Awareness (SSA), defensive counterspace, and reconstitution 
efforts. This calendar year we will bear the fruit of investments from 
previous years with the planned launches of four ``first of'' 
operational satellites. The four ``first of'' satellites are the 
Advanced Extremely High Frequency (AEHF) protected communications 
satellite, Space Based Space Surveillance (SBSS) satellite, Global 
Positioning System (GPS) II-F satellite, and Operationally Responsive 
Space (ORS) 1 satellite.
    Worldwide communication is enabled through a ubiquitous space-based 
system with government and commercial platforms. Our users stretch from 
the Oval Office to the mountains of Afghanistan. Using protected, 
wideband, or narrowband communications, the President can command the 
Nation's nuclear forces, our UAV pilots can fly Predators over Iraq and 
Afghanistan from the United States, and Special Forces teams can call 
for exfiltration or tactical air support.
    Global positioning, navigation and timing is a free worldwide 
service. It provides position accuracy down to the centimeter and time 
accuracy to the nanosecond over the entire planet, 24-hours a day, 7-
days a week, and in any weather. The Department of Defense and the 
Intelligence Community depend on our GPS to support a myriad of 
missions and capabilities including weapon system guidance, precise 
navigation, satellite positioning, and communication network timing. 
The civil and commercial communities are equally reliant on GPS as the 
underpinning for a vast infrastructure of services and products 
including search and rescue, banking, map surveying, farming, and even 
sports and leisure activities.
    Global missile warning through Overhead Persistent Infra-Red 
sensors is our unblinking eye ensuring that we know whenever a rocket 
launches from anywhere on Earth. Our missile warning system is fast, 
persistent, and accurate in determining missile launch directions. At 
the strategic level, it informs leadership as they determine courses of 
action to defend America and our allies, and at the tactical level our 
real-time warning provides theater commanders with superior battlespace 
awareness.
    Weather observation and forecasting has greatly improved over the 
last 4 decades primarily due to space-based environmental sensing. 
Global, high resolution measurements of atmospheric temperature, 
density, and humidity populate mathematic models for weather 
prediction. Our warfighters need accurate, time-sensitive weather data 
as a key enabler for maneuver planning, weapons employment, and 
intelligence collection.
    Our on-orbit assets continue to face greater threats that could 
deny, damage, or destroy our access to space capabilities. We must 
anticipate potential disruptions, either accidental or intentional, to 
our space operations or risk losing continuity of service. As such, we 
are expanding our ability to detect, identify, characterize, and 
attribute threats, as well as clearly discriminate between a hostile 
act and one that occurs naturally. In parallel, we are developing the 
organizational, operational, and technical enablers, including command 
and control systems, which will allow us to react swiftly and 
decisively when threats materialize.
    Congress' support has been a vital component in improving our 
acquisition of space systems, maintaining continuity of service, and 
charting a course for the next generation of space capabilities that 
will enhance American security, freedom, and prosperity.
                        update on space programs
    I would like to briefly discuss some of the achievements we have 
had over the last year and the progress we are making with regard to 
the mission areas I described earlier.
Missile Warning
    For over 35 years, our legacy Defense Support Program (DSP) 
satellites, in conjunction with ground based radars, have unfailingly 
met the Nation's missile warning needs. This legacy constellation, 
however, continues to age, while threats such as the proliferation of 
theater ballistic missiles and advanced technologies continue to grow. 
These threats are driving the need for increased coverage and 
resolution provided by the Space Based Infrared System (SBIRS).
    SBIRS supports four mission areas: missile warning, missile 
defense, technical intelligence, and battlespace awareness, and is 
comprised of both geosynchronous earth orbit (GEO) satellites and 
highly elliptical orbit (HEO) payloads. Two HEO payloads are fully 
operational and, along with the DSP constellation, continue to perform 
the missile warning mission while providing increased support to the 
other three mission areas. Completion of the first SBIRS GEO satellite 
is planned for the end of 2010.
    Our fiscal year 2011 funding request continues development and 
procurement of the GEO satellites, HEO payloads, and the necessary 
ground elements. This budget requests full procurement for a fourth GEO 
satellite, and contains future year requests for procurement of the 
fifth and sixth GEO satellites. The first GEO satellite completed 
environmental testing, and we continue to work the final qualification 
of flight software prior to a final integration test and delivery by 
the end of this year. Our budget request also continues the 
commercially hosted on-orbit Wide Field-of-View (WFOV) technology 
demonstration effort. By partnering with the commercial space industry, 
we will have the opportunity to conduct an early on-orbit scientific 
experiment of WFOV infrared data phenomenology using a Commercially 
Hosted IR Payload.
Communications
    The U.S. military is a highly mobile and dispersed force that 
relies heavily on wideband, protected, and narrowband satellite 
communications (SATCOM) for command, control, and coordination of 
forces. SATCOM enables forces to receive real-time images and video of 
the battlefield, thereby accelerating decision-making from the 
strategic to the tactical levels. These images and video often come 
from Unmanned Aerial Vehicles (UAVs) controlled via SATCOM links, 
allowing the UAVs to fly far beyond the line of sight and to collect 
information without endangering U.S. forces.
    On December 5, 2009 we successfully launched the third Wideband 
Global SATCOM (WGS) satellite as part of the Department's constellation 
of wideband satellites providing increased capability for effective 
command and control of U.S. forces around the globe. Each individual 
WGS satellite provides greater wideband capacity than the entire legacy 
Defense Satellite Communications System (DSCS) III constellation. Our 
funding request continues on-orbit support for WGS 1-3, continues 
production of WGS 4-6, contains full procurement for WGS 7, and advance 
procurement for WGS 8.
    In the protected SATCOM portfolio, we are conducting final 
confidence testing of the first Advanced Extremely High Frequency 
(AEHF) satellite with a projected launch in the third quarter of 2010. 
This initial AEHF launch will complete the worldwide Medium Data Rate 
(MDR) ring, increasing the data-rate for low probability of intercept/
detection and anti-jam communications from tens-of-kilobytes per second 
to approximately a megabyte per second. Our funding request supports 
the launch and on-orbit support of AEHF 1; assembly, integration, and 
test of AEHF 2-3 and the AEHF Mission Control Segment; and the 
production of AEHF 4. This budget requests advance procurement for AEHF 
5, and contains a future year request for procurement of AEHF 6.
    While near-term satellite communication needs will be met with a 
combination of military systems (WGS and AEHF) and leased commercial 
SATCOM, the Air Force continues to work closely with the other 
Services, the Office of the Secretary of Defense, Joint Staff, and the 
Combatant Commands to meet the Department of Defense's future protected 
and wideband communication needs. To this end, the Air Force will 
investigate options to harvest technologies matured by previous 
Transformational Satellite Communications System (TSAT) efforts, and 
evolve the next generation MILSATCOM architecture to provide 
connectivity across the spectrum of missions, to include land, air and 
naval warfare; special operations; strategic nuclear operations; 
strategic defense; homeland security; theater operations; and space 
operations and intelligence.
Positioning, Navigation, and Timing
    The U.S. GPS continues to be the world standard for positioning, 
navigation, and timing (PNT). As a result, GPS has been incorporated 
into military, commercial, and civilian applications, to include 
navigation, agriculture, banking, cartography, telecommunications, and 
transportation. The current GPS constellation is robust and healthy, 
consisting of 30 operational satellites.
    Last year, we launched the final of 20 GPS IIR satellites, the last 
8 of which were upgraded GPS IIR-M satellites with military code (M-
code) for additional anti-jam capability, and a second ``L2C'' civil 
signal for increased accuracy. The GPS IIR program was started over 20 
years ago, and represents one of our most successful, enduring space 
acquisition programs. This year, we will launch the first GPS IIF 
satellite, and 12 GPS IIF satellites will sustain the constellation 
over the next 6 years. GPS IIF will continue to populate the GPS 
constellation with military capability and introduce a third ``L5'' 
civil signal.
    Moving beyond GPS IIF, GPS III will offer significant improvements 
in navigation capabilities by improving interoperability and jam 
resistance. The procurement of the GPS III system will occur in 
multiple blocks, with the initial GPS IIIA contract awarded in May 
2008. GPS IIIA includes all of the GPS IIF capability plus a 10-fold 
increase in signal power, a new civil signal compatible with the 
European Union's Galileo system, and a new spacecraft bus that will 
support a graceful growth path to future blocks. The next generation 
control segment (OCX) for GPS III contract was awarded on February 25, 
2010, and is on-track to be in place to support the first GPS IIIA 
launch, as well as continue to support the legacy GPS satellites. 
Finally, development of Military GPS User Equipment (MGUE) continues 
with technology maturation of modernized receiver cards that will take 
advantage of the increased capability of GPS IIIA including a stronger 
and more secure M-code signal.
Weather
    The Defense Meteorological Satellite Program (DMSP) continues to be 
the Nation's workhorse for terrestrial forecasting and space 
environmental sensing. DMSP Flight 18 was successfully launched in 
October 2009. We have two DMSP satellites remaining with Flight 19 and 
20, and they are currently undergoing a Service Life Extension Program 
(SLEP) to repair, replace, and test components that have exceeded their 
shelf life. Flight 19 will launch in October 2012 and Flight 20 will 
launch in May 2014 or October 2016, depending on operational 
requirements.
    On February 1, 2010, the Executive Office of the President 
restructured the National Polar-Orbiting Operational Environmental 
Satellite System (NPOESS) program to assign responsibility for each of 
the three planned orbits to the agency holding the majority of the 
interest in that orbit. Accordingly, the Department of Commerce will 
populate the afternoon orbit, the Department of Defense (DOD) will 
populate the early morning orbit, and the U.S. Government will continue 
to rely on capabilities from our European partners for the mid-morning 
orbit. For the morning orbit, DMSP satellites will continue to ensure 
weather observation capability. The DOD, in cooperation with partner 
agencies, will conduct a short requirements analysis for the morning 
orbit to serve as the basis to restructure the program in fiscal year 
2011. While this analysis is conducted, DOD will work closely with the 
civil agency partners to ensure efforts to ensure continuity of the 
afternoon orbit continue productively and efficiently.
Operationally Responsive Space
    ORS is focused on meeting the urgent needs of the Joint Force 
Commanders using a combination of existing, ready to field, and 
emergent systems. This program builds on the ``back to basics'' 
approach we have cultivated over the past several years by providing 
enhanced mission capability through incremental blocks of small 
satellites and integration of other responsive space capabilities. Key 
tenets of the ORS program are to keep costs low, react rapidly to 
urgent warfighter needs, and reconstitute capability in contested 
environments. A clear example of these tenets is exemplified in the 
first ORS operational satellite (ORS-1), scheduled to launch at the end 
of 2010. It is being built for U.S. Central Command (CENTCOM) to 
monitor denied areas and will be taskable like other CENTCOM organic 
airborne ISR assets.
    In the fiscal year 2011 budget request, ORS will continue to 
develop the enabling infrastructure of on-demand space support with 
Rapid Response Space Capability, whereby plug-and-play spacecraft will 
be assembled, integrated, and tested with Modular Open System 
Architecture (MOSA) payloads, spacelift, satellite control, and data 
dissemination capabilities. Tactical Satellite 3 (TacSat-3), launched 
in May 2009, demonstrated this ``plug and play'' modular, low cost 
spacecraft with a hyper-spectral imaging payload. TacSat-3 provides a 
new capability for strategic and tactical reconnaissance from space, 
and continues to successfully provide military utility as a technology 
and test asset.
Launch
    National Space policy requires assured access to space. Currently 
this requirement is satisfied by the Evolved Expendable Launch Vehicle 
(EELV) program consisting of the Delta IV and Atlas V launch vehicles. 
The first 30 EELV launches have all been successful, and are part of 
our consecutive string of 64 successful national security space 
launches. Efficiencies are achieved through combined engineering, 
production, and launch operations while maintaining the separate Delta 
IV and Atlas V families of launch vehicles for assured access. The 
fiscal year 2011 budget request funds EELV launch capability (ELC), or 
infrastructure activities and ongoing support for over eight launch 
services planned for 2011. In addition, we request funding for three 
EELV launch vehicles which will launch in 2013. We combined the two 
launch vehicle families into the United Launch Alliance (ULA), 
resulting in some cost savings due to labor reductions and facility 
consolidations; however, launch costs are still rising. Factors 
contributing to rising launch costs are the depletion of inventory 
purchased in prior years, reduced number of annual buys increasing unit 
costs, and a deteriorating subcontractor business base without 
commercial customers. These industrial base factors will also be 
affected by the decision to replace NASA's Constellation program with a 
new, more technology-focused approach to space exploration, which will 
likely reduce the customer base for solid rocket motors and potentially 
increase demand for liquid engines and strengthen the liquid-fuel 
rocket industrial base. We have initiated several efforts to examine 
the severity of these business base issues and identify potential 
mitigation steps.
Space Protection
    The need for increased space protection of our space assets is 
paramount, and requires enhanced Space Situational Awareness (SSA) 
capabilities and a legitimate battle management system. We need 
improved accuracy, responsiveness, timeliness, and data integration to 
support the warfighter. Our fiscal year 2011 budget request continues 
development of the Joint Space Operation Center (JSpOC) Mission System 
(JMS) to provide this capability and replace our aging mission systems. 
The JMS program will provide a single, theater-integrated, command and 
control, information technology system to allow informed and rapid 
decisions with real-time, actionable SSA. An operational utility 
evaluation effort will deliver the foundational infrastructure and 
mission applications to deploy a services-oriented architecture (SOA) 
with user defined applications
    The JSpOC is our single focal point for monitoring space activity. 
Over the last year, the JSpOC has transitioned the Air Force's 
commercial and foreign entities (CFE) pilot effort into U.S. Strategic 
Command's (USSTRATCOM) SSA sharing program. This involved growing the 
capability to monitor and conduct conjunction assessments for all U.S. 
Government, commercial, and foreign active satellites, over 1,000 
systems. As a result, the SSA sharing program screens for collisions 
daily, and has a formalized information sharing process that reports 
potential conjunctions to commercial and foreign satellite owners and 
operators.
    The Space Fence and Space-Based Space Surveillance (SBSS) are two 
programs critical to providing increased SSA data. The Space Fence is a 
three station, worldwide, radar system to detect and track smaller 
sized space objects, while the SBSS satellite is an optical system to 
search, detect, and track objects in earth orbit, particularly those in 
geosynchronous orbit. The Space Fence replaces the Air Force Space 
Surveillance System (AFSSS), and SBSS builds upon our success with the 
Space Based Visible (SBV) technology demonstration. In the fiscal year 
2011 budget, the industry teams working on the Space Fence program will 
complete a Preliminary Design Review, and the SBSS program will conduct 
on-orbit operations of the SBSS Block 10 satellite, planned to launch 
this summer. Additionally, we will continue efforts toward a SBSS 
follow-on by completing the acquisition strategy and conducting a full 
and open competition.
Air Force Management of Space
    The Secretary of the Air Force recently directed a review on 
Headquarters Air Force management of space responsibilities. Since the 
Air Force's last reorganization of space management following the 2001 
Space Commission, events and new authorities have changed how 
responsibilities were assigned. This study will assess the impact of 
those changes for planning and programming, acquisition, oversight, and 
coordination with other DOD components and agencies.
    The Air Force Acquisition Improvement Plan serves as the strategic 
framework for re-instilling excellence in space systems acquisition. 
This plan focuses on workforce, requirements generation, budget 
discipline, source selections, and clear lines of authority. 
Additionally, the plan builds on our ``Back to Basics'' philosophy, and 
leverages enduring principles from over 50 years of space acquisition 
experience.
    The Air Force is committed to providing the best possible 
education, training, and career development to these professionals who 
operate, acquire, and enable our systems. Institutions like the Air 
Force Institute of Technology, Defense Acquisition University, and the 
National Security Space Institute are at the forefront of our efforts 
to educate and train these warriors. These organizations continue to 
provide the education and training necessary to sustain the space 
workforce, our most vital asset.
                               conclusion
    Our space systems are the envy of the world. Our infrared 
surveillance satellites are able to detect missile launches anywhere in 
the world; no other nation can do that. Our strategic communications 
systems allow the President precise and assured control over nuclear 
forces in any stage of conflict, and our wideband SATCOM systems 
rapidly transmit critical information between the continental United 
States to our front-line forces; no one else has global, secure, anti-
jam communications. Our weather satellites allow us to accurately 
predict future conditions half a world away as well as in space. Our 
GPS constellation enables position knowledge down to centimeters and 
timing down to nanoseconds; no one else has deployed such a capability. 
These sophisticated systems make each deployed soldier, sailor, marine, 
and airman safer and more capable.
    In the fiscal year 2011 budget, continuity of service across our 
space portfolio and improved space protection is paramount. Our `back 
to basics' strategy over the recent years is demonstrating results, as 
we continue toward securing the world's best space capabilities today 
and ensuring the same for our Nation's future.
    The space constellations and space professionals that deliver these 
capabilities are our critical asymmetric advantage. We must ensure the 
recapitalization and health of these constellations and continue the 
professional development of our future space leaders. Delivering space 
capabilities is complex, challenging, costly, yet rewarding. Although 
we have faced significant challenges, we are also making significant 
progress. I look forward to continuing to work with this committee and 
thank you for your continued support of military space programs.

    Senator Ben Nelson. Thank you.
    General Kehler.

STATEMENT OF GEN. C. ROBERT KEHLER, USAF, COMMANDER, AIR FORCE 
                         SPACE COMMAND

    General Kehler. Sir, thank you for inviting us.
    I will just make a couple of quick remarks.
    First of all, as an airman, I have to note that, earlier 
today, over in the Capitol Visitor Center, the Congressional 
Gold Medal was awarded to the Women Air Force Service Pilots 
(WASPs) from World War II fame. I would just note that at the 
beginning of the hearing here. I'll paraphase, our Secretary of 
the Air Force, Michael Donley, by saying that ``we have a 
better Air Force today, because of the service that the WASPs 
gave, and the groundbreaking work that they did for all of 
us.''
    Regarding space, it's a real pleasure for me to be 
representing the 46,000 men and women of Air Force Space 
Command (AFSPC). It's a mixed group of Active Duty folks, it's 
Air National guardsmen, it is Air Force reservists, it is 
government civilians, and it is a key contractor team. Without 
that entire team, we would not be able to do the job that we 
are doing.
    Everything that we do in our command begins and ends with 
the needs of the Joint Force commanders or the needs of the 
civil population or, in the case of GPS, that's really now a 
set of needs that we see from all over the world, and we take 
that responsibility very, very seriously.
    We like to say, around our command, that space and 
cyberspace capabilities provide something important for our 
Joint Forces; they provide them with the ability to see with 
clarity, communicate with certainty, navigate with accuracy, 
strike with precision, and operate with assurance. That's a 
tall order for us. It's one that we take seriously and that we 
are proud to provide on behalf of the Joint Force.
    The capabilities that we provide today are woven through 
the fabric of the Joint Force, and they're woven through our 
daily lifes. Farmers in Nebraska, of course, are, today, 
navigating their fields using GPS and other space products that 
they receive. This has become a way of doing business, 
certainly in the United States and elsewhere around the world.
    So, that means that as space is becoming more congested and 
contested, we have to be more mindful of ensuring that those 
capabilities are available when they're needed.
    That leads us to a space protection program that we've been 
very aggressive with over the last couple of years, along with 
our partners at the National Reconnaissance Office (NRO). I 
think we're making good progress there, and I'd be happy to 
talk about that further as we go along.
    Then, finally, I would just offer, sir, I would agree with 
you completely, that we have turned some very important 
corners, but there is also no question that we have some very 
tough challenges ahead. I would offer my thanks to the 
committee, the leadership of the committee, the members of the 
committee, who have spent quite a bit of time, over the last 
several years, number one, being patient with us, and number 
two, doing your own homework in understanding these issues and 
being very helpful as we worked our way through some tough 
issues.
    I look forward to your questions, sir.
    Senator Ben Nelson. I have to say, General Kehler, before 
we go to General James, you'll have to decide whether they were 
patient or acquired the appearance of patience. [Laughter.]
    [The prepared statement of General Kehler follows:]
           Prepared Statement by Gen. C. Robert Kehler, USAF
                              introduction
    Mr. Chairman, Senator Vitter, and distinguished members of the 
subcommittee, it is an honor to appear before you today as an airman 
and as the Commander of Air Force Space Command (AFSPC).
    I am proud to lead and represent over 46,000 Active Duty, Air 
National Guard (ANG) and Air Force Reserve Command (ARC) airmen, 
government civilians, and contractors who deliver space and cyberspace 
capabilities to U.S. Strategic Command (USSTRATCOM), Joint Force 
Commanders, and myriad other users every minute of every day. The men 
and women of AFSPC accomplish their mission from ``deployed in place'' 
locations across all 50 States, 3 territories, and Washington DC, while 
simultaneously serving from forward and deployed locations around the 
globe.
    We have completed an exciting and historic transitional year in 
AFSPC. In May 2009, we became the Air Force's (AF) lead Major Command 
(MAJCOM) for cyberspace, and in August, we established a new Numbered 
Air Force, 24th Air Force, as the AF cyberspace operational component 
to USSTRATCOM. In response to direction from the Secretary of Defense, 
24th Air Force has been designated Air Force Cyber (AFCYBER) to become 
the AF Component to U.S. Cyber Command, when approved. As we assumed 
responsibility for cyberspace, we transferred responsibility for the 
Nation's Intercontinental Ballistic Missile force to the new Air Force 
Global Strike Command (AFGSC) in December. The Air Force's top priority 
of reinvigorating our nuclear enterprise remains the number one goal of 
AFSPC.
    Space and cyberspace capabilities shape the American approach to 
warfare, are embedded in an ever-more effective arsenal of modern 
weaponry, and are threaded throughout the fabric of joint operations. 
Our integrated space and cyberspace capabilities provide access, 
persistence and awareness. Through networks, we put the power of a 
large force in the hands of smaller forces that operate on a 
distributed battlespace, across all domains and sometimes across 
different continents. Space and cyberspace capabilities also enable 
vital civil and commercial activities, including financial 
transactions, the electrical grid, mass transit operations, personal 
navigation, cellular communications, emergency services and better 
farming and fishing operations.
    At AFSPC, everything we do begins and ends with the Joint Force 
Commanders' needs, and our measure of merit is how well we contribute 
to joint operations. Our mission is to provide an integrated 
constellation of space and cyberspace capabilities at the speed of 
need, and our vision is to be the leading source of those capabilities 
in the years to come.
                            the way forward
    Joint Force Commanders today increasingly rely on space and 
cyberspace capabilities to enable vital effects across the spectrum of 
operational needs: irregular warfare, near peer competition, global 
assessment, and crisis management. Whether conducting combat operations 
or humanitarian relief efforts, they are facing security challenges 
that are diverse and dispersed, and an operational environment that is 
uncertain, contested, and changing. Emerging threats can be fleeting, 
anonymous, and distributed globally; they may strike anywhere at any 
time, increasingly taking advantage of the space and cyberspace 
domains.
    In response, AFSPC is pursuing five primary goals: reliable and 
safe nuclear forces; assured combat power for the joint fight; 
professionalism and expertise; modernization and sustainment; and 
better acquisition.
AFSPC Goal: Guarantee a Safe, Credible, Ready Nuclear Deterrent Force 
        with Perfection as the Standard
    The Air Force moved aggressively to reinvigorate the nuclear 
enterprise by consolidating all strategic nuclear forces under the 
AFGSC Commander, by aligning all nuclear weapons sustainment and 
support under the Air Force Nuclear Weapons Center, and by working to 
expand our nuclear experience and expertise. The transfer of 20th Air 
Force's three nuclear capable missile wings to AFGSC marked a new 
chapter in the long, proud history of our nuclear deterrent force. We 
remain committed to ensuring a safe, credible, ready deterrent force 
with perfection as the standard. AFSPC will continue to provide 
personnel, logistics, operations and fiscal support to AFGSC through 
fiscal year 2010.
AFSPC Goal: Deliver Assured Combat Power to the Joint Fight
    AFSPC delivers combat power that allows joint forces to navigate 
with accuracy, see with clarity, communicate with certainty, strike 
with precision, and operate with assurance. To do this, our airmen 
acquire, launch, operate, and protect U.S. and allied spacecraft, keep 
watch on adversary activity, and assure the cyberspace mission. As 
Joint Force Commanders rely on AFSPC-provided capabilities, the Air 
Force has requested approximately $11 billion in the Space Virtual 
Major Force Program, through the fiscal year 2011 PB to field and 
sustain leading-edge space capabilities. In addition, approximately $3 
billion will transfer to AFSPC in fiscal year 2011 to grow cyberspace 
professionals and provide integrated cyberspace capabilities to Joint 
Force Commanders.
Overseas Contingency Operations (OCO)
    In 2009, we forward-deployed more than 2,500 AFSPC Airmen to 
various locations around the globe in support of combat operations. 
Approximately 2,100 deployed to the U.S. Central Command (CENTCOM) Area 
of Responsibility (AOR) in support of Operations Enduring Freedom, 
Iraqi Freedom, and Joint Task Force-Horn of Africa. During these 
operations, 45 AFSPC airmen were awarded Bronze Stars and two received 
Combat Action Medals.
    Our humanitarian operations are also continuing. AFSPC is 
supporting disaster relief efforts during Operation Unified Response in 
Haiti. Precise GPS position and timing data, satellite communications, 
and real-time weather services, for example, help the Joint and multi-
national disaster relief team with command and control, search, rescue, 
and mobility operations, and they distribute sharable situational 
awareness. Airmen from the 689th Combat Communications Wing, Robins 
AFB, GA, established critical network and communications infrastructure 
supporting thousands of humanitarian aid flights. In addition, airmen 
of the 67th Network Warfare Wing from Lackland AFB, TX, are integrating 
the mission critical networks of U.S. Government agencies in support of 
relief efforts.
    The fiscal year 2011 budget request will allow us to continue this 
legacy of service by enhancing the protection of our space systems and 
cyberspace networks; improving Space Situational Awareness (SSA); 
assuring availability of launch; preparing to exploit new Overhead 
Persistent Infrared (OPIR) capabilities; increasing GPS navigational 
accuracy, availability, and signal security; modernizing military 
satellite communications (MILSATCOM); and enhancing our cyberspace 
posture and operations.
Space Protection
    In its first full year of existence, the Space Protection Program 
(SPP) delivered a comprehensive compilation of space system 
capabilities and interdependencies to our Nation's key operations 
centers. This history-making ``first'' moved us closer to our goal of 
integrated space system protection for military, intelligence, civil, 
commercial, and allied space systems vital to our national security. 
Through SPP, we have developed a future vision to assure our space 
capabilities and are evaluating the architecture's effectiveness 
through the Schriever War Game Series. On the strategic policy front, 
SPP personnel delivered the first Space Protection Strategy, supported 
the Quadrennial Defense Review (QDR), and are contributing to the 
development of the new National Space Policy and Space Posture Review 
(SPR).
Space Situational Awareness
    In concert with the SPP initiative, we continued to improve our SSA 
capability as the space domain becomes an increasingly contested, 
congested and competitive environment. The collision between an Iridium 
communications satellite and a Russian Cosmos communications satellite 
a year ago highlights the critical need for improved SSA. To posture 
our Nation for the future, AFSPC is filling critical SSA gaps with 
complementary programs to enhance our capability to detect, track, and 
identify smaller objects from low Earth orbit out to the geosynchronous 
belt. Modernizing and sustaining existing sensors greatly contribute to 
SSA capability. Complementary systems like the Space Based Space 
Surveillance system, Space Fence and the Space Surveillance Telescope 
(in cooperation with DARPA), will give us additional capacity to search 
and track more on-orbit objects, improve our ability to predict 
potential collisions, provide safety of flight, and rapidly track and 
catalogue new foreign space launches.
    Additionally, we are making sure that the USSTRATCOM Commander will 
have better C2 and SSA capabilities by combining three programs for the 
Joint Space Operations Center (JSpOC): Integrated Space Situational 
Awareness (ISSA), Rapid Attack Identification and Reporting System 
(RAIDRS) and Space C2. The effort, named ``JSpOC Mission System 
(JMS),'' is under development using a streamlined requirements and 
acquisition approach.
    Along with implementing capability solutions, we refined our 
tactics, techniques and procedures to reduce the possibility of future 
collisions. Through JSpOC SSA efforts, our ability to predict 
collisions increased 100 fold to include all active satellites, and now 
we conduct over 1,000 assessments per day. As a result, there have 
already been 56 instances where owner-operators maneuvered their 
satellites to avoid possible collisions.
    In addition, on 22 December 2009, we transferred the Commercial and 
Foreign Entities (CFE) pilot program to USSTRATCOM, with operational 
responsibility continuing at the JSpOC. Not only do we provide 
conjunction analysis for capabilities critical to national security and 
homeland defense, but also we expanded our services to provide 
positional data to over 40,000 users and a number of partner nations.
Launch and Range Enterprise Transformation (LET)
    It is our job to deliver assured space and cyberspace capabilities, 
and we can only do that if we have assured access to space. We now mark 
a full decade of successful national security space launches and over 7 
years of successful Evolved Expendable Launch Vehicle (EELV) launches. 
We must maintain that perfect record: launch failures are too 
expensive, in money and lost capability. LET is our effort to make sure 
that success will continue, and it involves four major efforts: (1) 
transforming launch services acquisition, (2) upgrading range 
capability, (3) fully leveraging ARC and the ANG, (4) improving 
business practices to better support commercial providers.
    As part of the launch services acquisition effort, we continue to 
look for ways to make EELV more cost-effective by working with the NRO 
and NASA for block buy opportunities. We are also defining ``new 
entrant'' criteria as part of our overall approach to space launch. We 
cannot neglect technology development; we are preparing a new reusable 
first stage demonstration and are pursuing technology for a new 
reusable rocket engine.
    Launch services will also be affected by the recent announcement 
cancelling NASA's Constellation program. Our initial steps will ensure 
that the industrial base interdependencies between EELV and other 
launch systems are considered to support a viable national launch 
industrial base.
    The effort to upgrade range capability has been long in coming; our 
range infrastructure has been increasingly unsustainable and, unless 
addressed, will impose costly delays on national security, civil, and 
commercial launches alike. Our national space launch and weapon system 
test and evaluation capabilities demand a flexible range architecture. 
To address these demands, we are divesting redundant instrumentation 
while modernizing and increasing the reliability and availability of 
essential range assets. In addition, our future range design 
incorporates a telemetry-based architecture with an integrated GPS 
metric tracking capability.
Position, Navigation, and Timing (PNT)
    The Global Positioning System (GPS) continues to provide highly 
accurate position and timing signals that enable highly precise Joint 
combat operations worldwide. GPS is also a free utility serving as an 
enabler for economic transactions and influencing the global economy by 
more than $110 billion annually. We at AFSPC, the Air Force, and the 
Department of Defense do recognize and embrace our special 
responsibility to maintain GPS as the ``gold standard'' for space-based 
PNT.
    We continue to modernize the system and are developing and fielding 
a more robust, taskable, third-generation GPS satellite which will 
provide improved operational capabilities to military and civil users. 
In 2009, we launched the last two GPS Block IIR-M satellites, and for 
2010 we continue preparations to launch, deploy, and operate the first 
GPS Block IIF satellites. For civil users, these new Block IIF 
satellites will broadcast the first operational signals in the L5 
frequency band, which is protected by internationally recognized 
spectrum rules to ensure robust service quality for safety-of-life 
applications, such as aircraft all-weather approach and landing. In 
addition, we are building the first increment of eight GPS III 
satellites and a new Next Generation Control Segment (OCX). Together, 
GPS III and OCX will improve user collaboration, incorporate an 
effects-based approach to operations, and establish a net-centric 
architecture accelerating the mission application of position and 
timing information.
    Recognizing the joint team's constant demand for enhanced GPS 
capabilities in geographically challenging areas where terrain can 
degrade GPS signal coverage, we partnered with USSTRATCOM and developed 
a plan called ``Expandable 24.'' This approach not only benefits 
military operations in places like Afghanistan, but all GPS users 
around the world, by taking advantage of the largest on-orbit GPS 
constellation in history. Over the next 2 years, we will gradually 
reposition GPS satellites to increase the number of satellites in view, 
thereby improving availability and accuracy worldwide.
    We continue to develop Military GPS User Equipment (MGUE) to 
exploit the features of our new GPS satellites and control segment 
features. A key aspect of MGUE is the development of a common GPS 
module facilitating easy integration of GPS solutions into multiple 
platforms. Overall, our GPS enterprise efforts maintain the highest 
service performance levels to the civil community while transforming 
and modernizing GPS into a robust, taskable system tailored to meet 
unique military needs in today's operational environments.
Satellite Communications (SATCOM)
    The Joint Force Commanders rely on military and commercial SATCOM 
(especially in austere environments) to communicate securely and 
receive data, imagery, and full motion video from Remotely Piloted 
Aircraft. Those services will depend heavily on our Wideband Global 
SATCOM (WGS) system. Mission operations began last August with the 
second WGS (WGS-2) satellite, positioned over the Southwest Asia AOR, 
and it is now delivering ten times the capability that we had with the 
legacy Defense Satellite Communications System (DSCS). Last December we 
launched the third WGS (WGS-3) which is being positioned over the EUCOM 
and AFRICOM AORs.
    The demand for wideband MILSATCOM capability never slows, and so we 
have requested $595 million to continue production of WGS-4 & 5 and 
procurement of WGS-7. Later this year we expect to accept and launch 
the first Advanced Extremely High Frequency (AEHF) satellite, a new 
system that will increase the protected communications data rate more 
than 5-fold and provide more coverage opportunities than Milstar. The 
end result will be enhanced national command and control satellite 
networks for the President, Secretary of Defense, and combatant 
commanders. Meanwhile, we are evaluating the right strategies to evolve 
future MILSATCOM capabilities to support COCOM requirements.
Overhead Persistent Infrared (OPIR)
    Only from space can we be assured of comprehensive missile warning 
and missile defense information. The first two Space Based Infrared 
System (SBIRS) Highly Elliptical Orbit-1 (HEO-1) and HEO-2 payloads 
provide our Nation with comprehensive missile warning and missile 
defense data. This critical information in the hands of warfighters, 
particularly in contested areas and where no other assets are 
available, is invaluable. Furthermore, Congress added $13.8 million in 
fiscal year 2010 for exploitation initiatives providing Joint Force 
Commanders with advanced Battlespace Awareness and Technical 
Intelligence.
    While the Joint Force Commanders benefit from the advanced SBIRS 
HEO detection and data exploitation efforts, we requested $530 million 
for the SBIRS Geosynchronous Earth Orbit (GEO) development program. As 
part of our OPIR portfolio, the SBIRS GEO payload will provide enhanced 
detection and data processing capabilities to the warfighter and the 
Intelligence Community. Recognizing a significant achievement, the 
first SBIRS GEO (GEO-1) space vehicle successfully completed Thermal 
Vacuum (TVAC) testing and is undergoing subsequent flight hardware 
replacement and software qualification. We look forward to final launch 
readiness and delivery to meet GEO-1 launch in 2011.
Space Control
    As we enter the 19th year of continuous combat operations in the 
Persian Gulf, AFSPC continues to provide sustained defensive 
counterspace capability to USCENTCOM. We are in our sixth year of 
continuous presence in theater with Silent Sentry which provides 
critical electromagnetic interference detection and geolocation tools 
and highlights the need for a global capability.
    As part of evolving our support to the Joint fight, we are 
developing and fielding a follow-on system, RAIDRS Block 10 (RB-10). 
RB-10 is integrated as part of JMS and will provide transportable 
ground systems located around the world. In addition, the RB-10 
capability will route SATCOM interference detection and geolocation 
data to the JSpOC thereby helping us protect military communication 
channels.
Operationally Responsive Space (ORS)
    The ORS program is exploring ways in which the urgent needs of 
Joint Force Commanders might usefully be addressed, and AFSPC works 
with the ORS office on projects involving communications, SSA, 
surveillance and reconnaissance. For example, TacSat-3 was launched on 
19 May 2009, as an experimental system designed to demonstrate the 
military utility of a small satellite, taskable by a tactical user in 
the field to search and collect specific hyper spectral images and 
downlink the results directly to deployed ground units. We are 
assessing the utility of transitioning TacSat-3 to a residual DOD-
operated reconnaissance system upon completion of its experimental 
period in May 2010.
    Later this year another ORS satellite, the ORS-1, should begin 
providing multi-spectral imagery of regions selected by ground force 
commanders. Existing ground systems will process and distribute the 
resulting images, and this development should also help inform a multi-
mission modular approach that might prove useful in the future.
Space Weather--National Polar-orbiting Operational Environmental 
        Satellite System (NPOESS)
    On 1 February 2010, the Executive Office of the President directed 
a major restructuring of the NPOESS program, whereby procurement of the 
system will no longer be joint. NOAA and NASA will take primary 
responsibility for the afternoon orbit, and the Air Force will take 
primary responsibility for the morning orbit. As we work through this 
transition, we will continue to foster our longstanding productive 
partnerships with NOAA and NASA, by sharing data, coordinating user 
needs and operating satellites.
AFSPC Goal: Forge a Battle-Ready Team by Attracting, Developing and 
        Retaining America's Best
    AFSPC will continue to be a leader in attracting, developing and 
retaining Airmen and civilians with the professional skills needed to 
succeed. Recognizing the critical roles of our families, we continue to 
extend the wingman culture to help nurture success on the home front. 
During 2010-2011, we will improve training and professional development 
programs; refine career paths and take necessary steps to care for our 
Airmen and their families.
Developing Airmen
    Over the past year, we integrated space education and training into 
mainstream Air Force processes to enhance professional development and 
ensure continued sustainment. This construct equips our space 
professionals with a sound foundation at Undergraduate and Initial 
Qualification Training, expands their operational and strategic 
perspective of space through Space 200 and 300 continuing education and 
adds tailored advanced operational training at subsequent career 
milestones. Our programs have now developed over 13,000 space 
professionals who are experienced in today's real-world and combat 
operations.
    Since my last appearance before your subcommittee, we worked with 
Air Education and Training Command (AETC) to restructure the National 
Security Space Institute (NSSI). In essence we created two 
complementary space academic organizations. The new NSSI is focused on 
``graduate level'' continuing education and is now aligned under Air 
University, charged with specific responsibility for Air Force-wide 
Professional Continuing Education (PCE). AFSPC retained responsibility 
for advanced operational system training, fundamentals courses and pre-
deployment training, now provided by the Advanced Space Operations 
School (ASOpS). Together the NSSI and ASOpS are the premier focal 
points for advanced space education and training, providing instruction 
to 1,728 students in 2009 including students from the Air Force, Army, 
Navy, Marine Corps, civil service and allied partners. This year, we 
will begin construction on a $19.9 million facility housing both 
schools on Peterson AFB, CO.
    We are carefully crafting a similar force development approach for 
our cyberspace professionals. Equipped with the vision outlined in 
``The Air Force Roadmap for the Development of Cyberspace 
Professionals,'' and the experience gained by our Space Professional 
Development Program, we are building a parallel career development 
model for cyberspace. The goal is to ensure that cyberspace 
professionals have the proper academic credentials, the right training 
and education and requisite experience to establish, protect and 
leverage this critical domain. This year AETC will open the doors to 
Undergraduate Cyber Training (UCT) courses for the newly established 
Cyberspace Operations officer specialty and the Cyberspace Defense 
Operations and Cyberspace Support enlisted specialties.
    Missions conducted in and through the cyberspace domain will 
require Airmen with specific technical education and network-savvy 
aptitude. Working with academia and industry partners, we have defined 
academic prerequisites for cyberspace accessions, and are addressing 
the challenge in identifying and recruiting such people. To do this 
right, we need effective, innovative recruiting strategies and 
meaningful incentives to attract and retain cyberspace professionals.
    In addition to UCT, we are working with Air University and the Air 
Force Cyberspace Technical Center of Excellence to establish Cyber 200 
and 300 courses along with advanced operations courses for cyberspace 
professionals. Course curricula are under development and we expect to 
teach classes on an interim basis in October 2010 with a permanent 
approach in place in fiscal year 2012.
Families and Quality of Life
    The year 2010 is the ``Year of the Air Force Family.'' In AFSPC, we 
recognize the sacrifices and contributions of our families by extending 
our wingman culture and emphasizing suicide prevention, safety and 
family support. In addition, we are working to attract and retain our 
Airmen and their families by providing quality housing and enhancing 
the sense of community on our installations.
    AFSPC significantly improved mission capabilities and the quality 
of life for its Airmen and their families in 2009 by investing $453 
million on over 700 projects to sustain and modernize facilities, 
infrastructure and housing. We also executed $149 million of American 
Recovery and Reinvestment Act funds on another 280 projects to improve 
our working, living, and recreational environments. The combined $602 
million was invested in areas to include housing, dormitories, a new 
child development center, fitness centers, community activity centers, 
launch and nuclear mission facilities; and electrical, heating/air 
conditioning, water and road infrastructure. For 2010, we will invest 
$118 million in MILCON projects for a child development center, 
facilities construction, and key projects across AFSPC.
AFSPC Goal: Modernize and Sustain AFSPC's Enduring Missions and Mature 
        Emerging Missions
    As the Air Force lead for cyberspace, AFSPC will provide cyberspace 
capabilities that, when integrated with air and space capabilities, 
enable combat effects in a new way. As we have done with our space 
capabilities, we will establish a path to grow cyberspace operations, 
education, training, and development. We will also identify specific 
areas to draw on the combined resources of the ANG, ARC, and government 
civilians. Our plan is laid out in the ``The United States Air Force 
Blueprint for Cyberspace,'' which we will use in working closely with 
our Joint fight partners to provide complementary capabilities. The 
blueprint describes how we will align cyberspace activities and 
functions, evolve and integrate these unique capabilities, and build 
operational capacity. We must ensure that we can both defend against 
attacks and ``fight through'' and respond to attacks, in order to 
assure mission accomplishment.
    The newly activated 24th Air Force serves as the Air Force's 
operational cyberspace component to USSTRATCOM and is charged to 
integrate, employ and present Air Force cyberspace capabilities. 
Structured pursuant to direction from the Secretary of the Air Force 
and Air Force Chief of Staff, the 24th Air Force achieved Initial 
Operational Capability (IOC) a few weeks ago (22 January 2010).
Total Force
    In 2009, AFSPC continued to leverage ARC support to AFSPC missions. 
Our Total Force Integration (TFI) Strategy capitalizes on existing ARC 
presence and inherent strengths of the Reserve and Guard components. As 
we stood up 24th Air Force, our TFI partnerships played a key role in 
our success. Across AFSPC, our ARC partnerships in satellite and launch 
range operations, SSA, and battlespace awareness provide critical 
continuity and surge capacity. We are also preparing to increase ARC 
presence in missile warning, space control, and cyberspace operations.
Schriever War Game Series
    The recurring Schriever War Game series has proven insightful in 
identifying key strategic and policy issues. At the end of our fifth 
Schriever War Game in March 2009, we addressed key issues involving 
space deterrence, capability employment, and policy implementation and 
planning with senior leaders throughout the national security 
community. This war game also identified areas requiring additional 
emphasis and highlighted the close relationships between space and 
cyberspace capabilities, and informed our strategic development efforts 
in both the QDR and SPR. We are now preparing for this year's wargame 
and look forward to increased international and industry participation.
AFSPC Goal: Reengineer Acquisition to Deliver Capability at the Speed 
        of Need
    No one doubts that we need to push relentlessly to improve 
acquisition. Our vision is to provide what the Joint Force Commander 
needs, when he needs it--capability at the speed of need. We have far 
to go, but recent successes show that we are on the right track. As 
mentioned earlier, in the past year we increased on-orbit capability 
with GPS IIR-20M and 21M, DMSP-18, WGS-2, and WGS-3. We are on track to 
deliver new capabilities as we have completed a GPS III Preliminary 
Design Review as well as GEO-1 and AEHF SV-1 TVAC testing.
    We will continue to pursue our ``back to basics'' philosophy and 
block-build approach, fund to the most probable cost, increase our 
acquisition workforce and expertise, improve relations with industry, 
and implement strict requirements control. Our Space and Missile 
Systems Center will deliver five major systems in the next 24 months 
for SBIRS, AEHF, GPS IIF, ORS-1 and SBSS. The GPS III, OCX and Space 
Fence development programs are on the right track.
    As we reengineer acquisition processes, we are focusing efforts to 
rebuild the acquisition workforce and strengthen relationships across 
Industry and DOD. In an effort to recapture acquisition excellence, the 
USAF implemented an Acquisition Improvement Plan (AIP) to revitalize 
the acquisition workforce; improve requirements generation processes; 
instill budget and financial discipline; improve major systems source 
selections; and establish clear lines of authority and accountability 
within organizations. Overall, the AIP increases accountability at 
higher leadership levels, increases communication between MAJCOMs and 
between product centers and MAJCOMs.
    Furthermore, we implemented a Human Capital Strategic Plan to 
recruit, develop and retain acquisition expertise. As part of the 
recruitment effort, we are developing and marketing a recruitment 
strategy that targets individuals with the desired education, 
experience, and skill sets. Taking advantage of favorable job market 
conditions and expedited hiring authorities, we hired over 300 recent 
college graduates.
                               conclusion
    Space and cyberspace capabilities allow warfighting commands to 
meet the challenge of protecting the American people, their livelihoods 
and interests with precision at the moment of need. At AFSPC, our 
vision, our mission, our job, and our dedication is to make sure those 
commanders have the very best capabilities that we can humanly provide. 
With the continued support of Congress, we will be able to assure that 
our country will have the space and cyberspace forces it needs tomorrow 
and in years to come.

    Senator Ben Nelson. Thank you very much.
    General James.

STATEMENT OF LT. GEN. LARRY D. JAMES, USAF, COMMANDER, 14TH AIR 
FORCE, AIR FORCE SPACE COMMAND, AND COMMANDER, JOINT FUNCTIONAL 
      COMPONENT COMMAND FOR SPACE, U.S. STRATEGIC COMMAND

    General James. Mr. Chairman, again, thank you for the 
opportunity to be here again this year.
    As the Commander of Joint Functional Component Command 
(JFCC) Space and 14th Air Force, I represent over 20,000 men 
and women around the world who really are responsible for 
conducting operations for all of our Department of Defense 
(DOD) space systems. Whether that's satellite systems, whether 
that's our missile warning systems, whether that's space 
surveillance systems, or our launch systems, these are the men 
and women that actually execute those operations and make sure 
that we get the job done, day in and day out--as General Kehler 
said, both for the military, the Joint Forces commander, and 
all the civil users and other users around the world that rely 
on the products we provide.
    Sir, we have a great task in front of us, but these men and 
women execute that mission every day, and they provide the 
support that the world needs from a space perspective.
    I look forward to your questions.
    [The prepared statement of General James follows:]
          Prepared Statement by Lt. Gen. Larry D. James, USAF
    Mr. Chairman, Ranking Member Vitter, and distinguished members of 
the subcommittee, I am honored to be here once again to appear before 
you as U.S. Strategic Command's (USSTRATCOM) Commander of the Joint 
Functional Component Command for Space (CDR JFCC SPACE) and 14th Air 
Force.
    It's an honor for me to represent the soldiers, sailors, airmen, 
and marines of JFCC SPACE who operate and protect some of our Nation's 
most critical systems for global communications, navigation, strategic 
warning, and situational awareness. These men and women are a tireless 
and innovative joint force, working hard to ensure critical space 
capabilities are available 24 hours a day, 365 days a year, for our 
global forces. We operate in an increasingly congested and contested 
environment and ensuring access to all our Department of Defense (DOD) 
space capabilities for worldwide users is an absolute priority.
    Today I will focus my discussion on the space operational 
environment and how it.s changed over the last year. I'll describe our 
priorities of Warfighter Support, Command and Control, Integration, and 
Readiness and then close with a look at new challenges we see in the 
months and years to come.
                    framing the overall environment
    Space continues to be the ultimate ``high ground'' from which to 
operate. Every military operation utilizes space capabilities in some 
way. Whether it.s the Global Positioning System (GPS), overhead 
imagery, secure communications, or meteorological reports, ground and 
air commanders rely upon space capabilities constantly. However, space 
is becoming an increasingly congested and contested environment. As of 
1 February 2010, the operators at the
    Joint Space Operations Center (JSpOC) track approximately 21,500 
objects on orbit. That is an increase of 1,700 from just last year. 
There are nearly 10,000 pieces of debris, 3,700 dead satellites and 
rocket pieces, and 6,800 unknown objects orbiting the Earth. Included 
in these objects are over 1,100 active satellites owned by more than 60 
different countries and corporations. As the environment continues to 
grow in its complexity, our need for real-time space situational 
awareness (SSA) is becoming more obvious. Our ground sensors are 
critical elements of our Space Surveillance Network (SSN) dedicated to 
watching the skies and keeping track of all space objects. Across the 
globe, we have dedicated radar and optical sensors. These sensors track 
thousands of objects every day and automatically upload their 
observations to a computer database. These sensors cannot cover all of 
the sky all the time, so to enhance coverage, we have more collateral 
and contributing sensors. These sensors are used for space tracking 
when not supporting in their primary mission. All orbital observations 
come together in the JSpOC at Vandenberg AFB, CA, for analysis and 
computational predictions.
    Sensors and computers cannot discriminate between active satellites 
and debris among the thousands of objects on orbit. That's where our 
most crucial component of JFCC SPACE comes in--its people. There are 
more than 29,000 military, civilians, and contractors conducting 
operations day to day for both JFCC SPACE and 14th Air Force. Our 
missions demand a continuous 24-7 focus. Members of JFCC SPACE and 14th 
Air Force live and work in places such as Greenland, Diego Garcia, 
Kwajalein Atoll, Guam, and Alaska. Such commitment takes the dedication 
of a Total Force. JFCC SPACE is built of a cadre of marines, sailors, 
soldiers, and airmen. Of the 7,500 military men and women, more than 
1,100 are Air National Guard, Air Force Reserves, and Individual 
Mobilization Augmentees from all Services. Of these, a relatively small 
number of people, only about 300, at the JSpOC are the single DOD focal 
point for monitoring all space activity.
    The JSpOC maintains our SSA, provides command and control of 
assigned forces, and supports all theater forces with space 
capabilities as needed. SSA is the cornerstone of JSpOC activities. The 
SSN central mission system is maintained and analyzed at the JSpOC by a 
collection of military and civilian analysts. These individuals keep 
track of what satellites are active, predict when pieces of debris or 
satellites will re-enter the atmosphere, recommend when a payload can 
be safely launched, and prevent potential satellite collisions. Over 
the last year, we have grown our JSpOC capabilities to not only monitor 
and protect DOD satellites, but monitor and conduct collision 
assessments for all commercial and foreign active satellites as well. 
After the COSMOS/IRIDIUM collision of 2009, we began increasing our 
personnel and computing power to allow for collision screening for all 
active satellites. I am proud to report that we achieved that goal 
ahead of schedule and now screen for collisions daily and report 
potential conjunctions to satellite owner/operators through 
USSTRATCOM's SSA Sharing Program. To date, we have reported hundreds of 
potential conjunctions, with more than 50 resulting in the owner 
maneuvering a satellite.
    While SSA is the cornerstone of our capability, our number one 
priority is supporting our deployed U.S. and coalition forces. We've 
provided more than 20,000 GPS accuracy predictions in the last year, 
supporting resupply air drops and personnel recovery actions. Space 
capabilities have aided in the recovery of 128 service men since 2003. 
We've covered more than 12 air and ground missions with tailored 
coverage by overhead sensors watching for hostile or insurgent activity 
within a specific area of concern.
    The criticality of space effects to the warfighter will continue to 
be vital to our Nation's success in ongoing operations. We must protect 
our space assets against intentional and unintentional acts in order to 
preserve our essential space capabilities to ensure USSTRATCOM's 
ability to execute and integrate operations across all lines of 
operations and provide real-time, actionable data to our joint 
warfighters, the combatant commanders.
                         jfcc space priorities
    To set a clear and unambiguous vision, we established four 
priorities for JFCC SPACE in late 2008: Warfighter Support, Command and 
Control, Integration, and Readiness. These priorities set the vector 
for all our efforts.
                           warfighter support
    Warfighter Support is our core focus and key factor in determining 
manpower requirements, technology needs, and operational processes. 
From launch through operational employment to re-entry disposal, our 
space capabilities are built around warfighter needs. Launch 
capabilities remain the foundation of our space program. Over the last 
year, we've seen a total of 27 successful launches from both Eastern 
and Western Ranges. Although our launch safety record is exemplary, we 
are transforming our launch operations to modernize our range safety 
equipment and streamline our range footprints. Sixty percent of the 
Western Range systems are being replaced or upgraded over the next 2 
years and the Eastern Range command system will receive upgrades during 
the next fiscal year.
    JFCC SPACE directly supports warfighter requests through the JSpOC. 
Recent direct support for deployed forces includes GPS accuracy, 
overhead infrared, and Military Satellite Communications (MILSATCOM) 
support. GPS is the most widely used space capability on the planet. 
Our forces use GPS for everything from urban foot patrols to Predator 
flights. We receive requests for GPS accuracy predictions daily through 
the JSpOC. On average, we send 400 GPS accuracy predictions to forward-
deployed forces each week. To enhance coverage to all GPS users, we are 
repositioning three of our GPS satellites to assist users in terrain-
challenged ground environments. The first of our new GPS IIF satellites 
will launch this Spring and add new capabilities for civilian and 
military users. GPS IIF will bring a civilian safety-of-life signal and 
provide a more robust signal availability for military users. To ensure 
warfighters understand the full capabilities and vulnerabilities of the 
GPS system, the Joint Navigation Warfare Center (JNWC), a component of 
JFCC SPACE, maintains an active outreach program with the Combatant 
Commands (COCOMs), Services, and agencies. The JNWC ensures that 
Navigation Warfare (NAVWAR) considerations are included across the 
spectrum of operations, to include COCOM planning, exercises, disaster 
response, to full conflict.
    Overhead Persistent non-Imaging Infrared (OPIR) capabilities have 
grown beyond providing strategic ballistic missile warning only. 
Today's OPIR can provide battlefield commanders a wider range of 
situational awareness of the ground and air environments. We have 
provided support to ground troops during base exfiltrations to ensure 
demolition activities were successful. Overwatch of high-priority 
missions can ensure threats in the area are detected and reported 
before they cause a problem for the aircraft or ground commander. 
Consequently, OPIR's traditional mission of ballistic missile detection 
and warning has seen remarkable increases in integration with 
intelligence systems. Launch information from multiple agencies flowed 
into the JSpOC, where operators had direct contact with higher 
headquarters. However, this operational picture is manually created by 
JSpOC operators. We need a system that automatically provides this to 
our operators and leaders.
    Technology advancements in overhead detection continue to advance 
and we are constantly finding new ways to provide better technical 
intelligence to the ground commanders. The Space-Based Infra-red System 
(SBIRS) in its Highly Elliptical Orbit (HEO) gives significant coverage 
over the northern hemisphere for infrared detection and technical 
intelligence gathering. We can now detect and report, in near real-
time, natural, and man-made infrared events. The quality of data 
provided by SBIRS HEO is a key part in our operators. ability to 
characterize launches and predict threatened areas within minutes. 
SBIRS Geosynchronous (GEO) satellites will give us the ability to stare 
and collect for days and weeks worldwide. We will be able to 
characterize events that paint a picture for national leadership of new 
foreign technology development and proliferation information. We will 
be able to expand our warfighter support beyond the ballistic missile 
threat to include enemy air defenses, surface to air missiles, and even 
personnel recovery actions.
    Information technologies have truly revolutionized our capability 
to operate globally. From combat operations to humanitarian assistance, 
we use MILSATCOM every day. Secure communications allows survivable, 
joint communications for diplomatic travels through orders 
dissemination such as Nuclear Force Command and Control. Our Integrated 
Tactical Warning and Attack Assessment (ITW/AA) dissemination relies 
heavily on our MILSTAR constellation that is exceeding design life 
expectations. The new Wideband Global SATCOM (WGS) is performing 
superbly and is an outstanding replacement to our aging Defense 
Satellite Communications System (DSCS) fleet. Our WGS system will have 
over 10 times the capacity of our DSCS system and provides enhanced 
information security. WGS gives us automatic Digital Network/automatic 
Secure Voice Communications, Secret Internet Protocol Router Network 
and Joint Worldwide Intelligence Communication System access from 
space. It can also carry Defense Message System, Defense Switched 
Network, Diplomatic Telecommunication Service Communications, and real-
time Unmanned Aerial Vehicle (UAV) video for ground mobile forces. WGS-
1 and WGS-2 will be joined by WGS-3 in spring 2010 after operational 
checkout and acceptance.
    Our priority of warfighter support stretches into the theater 
itself. For each theater's Director of Space Forces (DS4), we maintain 
a close and dedicated relationship to ensure they have the most 
relevant information and current operational view of our space 
capabilities. Quarterly DS4 conferences bring all theater DS4s together 
to share tactics and insight, as well as allow them to identify new 
requirements in front of the JFCC SPACE staff firsthand. Our Silent 
Sentry capability has developed into a premier interference detection 
tool for satellite communications. The Silent Sentry team monitors all 
friendly SATCOM for unintentional interference or hostile denial 
attempts. Additionally, JFCC SPACE maintains in-theater capabilities 
for counter space activities directly supporting forces in harm's way. 
Requested support from ground troops flows through the theater Air and 
Space Operations Center to the JSpOC and execution can occur within 
minutes of a request.
    JFCC SPACE is forging ahead in our efforts to provide new, 
operationally responsive space effects to the warfighter. We are 
actively engaged with Air Force Space Command and U.S. Strategic 
Command in developing the concepts and command relationships that may 
allow us to transition experimental capabilities to operational use. 
For example, TACSAT-3 is an experimental, hyperspectral imagery 
satellite that has shown great promise in areas such as which can be 
used to support ground troops. At the same time, we are supporting 
DOD's Operationally Responsive Space concept development with the goal 
of providing rapid replenishment of space capabilities on the order of 
days to weeks, not months to years, using deploy-on-need assets. We are 
working with our Service partners to finalize and field the command and 
control architecture for Operationally Responsive Space-1, a purpose-
built, small spacecraft that will supply urgently-needed imagery to 
USCENTCOM and other theater operators.
                          command and control
    JSpOC Mission System (JMS) is planned to replace our aging mission 
systems with a command and control information technology system 
consisting of infrastructure and mission applications. It will be a 
service-oriented architecture with the capability of user-defined 
applications. It will be much more than just a positional catalog. We 
envision a single, theater-integrated system with intelligence feeds, 
communications status, integrated missile warning, and status of forces 
all displayed on one operational picture. We expect it to automate much 
of what we do by hand today. Instead of the human analysis required in 
determining that a conjunction may occur, the system will automatically 
receive updates from sensors and alert operators to potential 
conjunctions. The operator will only need to confirm the conjunction 
and alert the owner of the satellite. JMS will be delivered in multiple 
releases, with Release 0 consisting of the initial Service-Oriented-
Architecture infrastructure, due this summer.
    SSA has seen the greatest advance in operational utility in its 
history over the past year. We have increased daily conjunction 
screening at the JSpOC from 110 primary satellites to over 1,000. With 
that increase, we have seen conjunction warning notifications increase 
from 5 to up to 35 per day and our interaction with commercial and 
foreign space agencies has increased likewise. Information sharing with 
commercial and foreign entities is now a formalized process within JFCC 
SPACE. We currently have data-sharing agreements with 16 commercial and 
foreign partners. However, we still suffer from an aged and limited 
sensor network to gather our most basic resource, orbital observations. 
Observations from the SSN are the foundational base of all SSA. Many of 
our SSN sensors operate on a one-object-at-a-time system and none of 
them are networked with one another. The CONUS-based space fence can 
detect and observe multiple objects at one time and contributes more to 
our network than any other sensor. Additionally, we have considerable 
gaps in coverage in the southern hemisphere. Objects can be un-observed 
for a significant period of time while over areas such as Antarctica, 
Australia, Africa, and South America. Placement of a space fence in the 
southern hemisphere will improve our coverage considerably. The Space-
Based Surveillance System (SBSS) will provide additional sensing 
capabilities. This sensor will operate from space, free of boundaries, 
borders, or atmospheric effects to distort or obscure viewing. The 
first SBSS satellite is scheduled to launch this summer and will be 
operated by the 1st Space Operations Squadron in Colorado. SBSS will 
revolutionize how we observe satellites. With a potential capability to 
track objects much smaller in size, we will detect more objects in 
orbit, re-enforcing the need for a replacement SSA analysis system such 
as JMS.
                              integration
    As space becomes even more critical to global operations and the 
access to space expands, it will be more critical than ever to work 
closely with friends, allies, the commercial space sector, and perhaps 
all space faring nations. Integration amongst all space agencies within 
the U.S. Government is essential to safe and effective operations. We 
continue to improve our linkages with intelligence community partners 
and build long-lasting, permanent relationships between our 
organizations. We continue to strengthen an already strong relationship 
with the National Reconnaissance Office through sharing facilities and 
permanent liaison positions and partnering during exercises and real-
world events. We are working to create a wider relationship between the 
space and intelligence communities through a data sharing and 
collaborative information systems. The Joint Exploitation Fusion Cell 
will fully integrate multiple intelligence sources into one database 
for operators. This will allow for efficient integration of 
intelligence data into our assessments and verification of operational 
successes.
    Coalition and commercial integration have taken significant leaps 
forward over the last year. Cross-Atlantic visits to and from the 
United Kingdom and France have forged significant relationships and 
continue the dialog to improve coalition space operations. Australia, 
Germany, and Japan have all sent delegations to tour the JSpOC and 
witnessed how we accomplish our missions. Our experiences in coalition 
exercises have taught us valuable lessons; most notably that threats 
can come from multiple venues, so it is prudent to act together with 
our allied and commercial partners. Schriever 5 Wargame impressed upon 
U.S., Allied, and commercial partners on the importance of 
relationships with threats in this type of integrated global domain. We 
will continue to develop partnership processes in Schriever 10 this 
year. Since the COSMOS/IRIDIUM collision, commercial space operators 
have realized how much capability JFCC SPACE has to offer protection 
for their systems. Likewise, commercial users in space maintain some of 
the most accurate positional information of their own systems. It 
benefits both sides to share relevant information.
    JFCC Network Warfare (NW) is tasked with operating and defending 
DOD networks under the command and control of U.S. Strategic Command. 
Cyber and space are inherently linked as effective force multipliers 
and share similarities in the non-kinetic warfare environment. Our 
staffs have established continuous linkages as we operate common and 
complementary capabilities supporting each other as well as global 
joint forces. We fully recognize the benefits and are sharing tactics, 
intelligence, and procedures. In many scenarios, capabilities JFCC 
SPACE lacks, cyber forces can fulfill, and vice versa. Our 
intelligence, plans, and operations divisions share information and 
processes to determine where capabilities overlap and they diverge. We 
have begun collaborative work on new tactics that will deliver new 
capabilities to theater commanders and will continue to develop 
linkages between the two components.
    Integration across domains, borders, and industries requires a 
significant investment by those involved. Critical to effective 
integration are systems and facilities. Today the JSpOC performs its 
operational mission using a converted missile assembly building. Over 
50 years old and designed for an entirely different purpose, the 
building presents significant challenges towards meeting our integrated 
space operations mission. Successful integration with U.S. and 
coalition forces, as well as commercial partners will depend upon 
facilities designed specifically for space command and control.
                               readiness
    ``Perfection is our Standard.'' This is our motto within JFCC SPACE 
and 14th Air Force. The readiness of our forces is a key priority. 
Without adequate and ready forces, we will fall short of achieving our 
goals as a joint force. Readiness includes health of the force, 
training, preparedness, and compliance. Our forces must be healthy and 
able to fight, trained for the fight, equipped to fight, and compliant 
with the law of armed conflict and other legal and policy constraints. 
Within JFCC SPACE and 14th Air Force, readiness issues exist in 
training and personnel numbers. Our Operational Readiness Inspections 
and Unit Compliance Inspections are the tools we use to evaluate unit 
readiness and compliance levels. Within the last 2 years, all 14th Air 
Force wings have been found compliant and ready, but are still lacking 
in resources and training to commit to a full-time, warfighting posture 
for extended periods. Every new satellite system brings new mission 
requirements. Acquisition of new missions, while continuing to maintain 
legacy missions, places more and more requirements on our personnel and 
hardware systems. Continued modernization of our systems and efficient 
use of our personnel are absolutely essential to the success of our 
future operations.
                               challenges
    We will face operational challenges in the space domain as 
capabilities expand and more nations utilize space systems. Improvement 
in data management will become increasingly important with the increase 
in the amount of observations from SBSS. Any future sensors will create 
even more additional data sources that we will have to integrate into 
our mission systems. We will continue to be challenged by the 
acquisition speed of new command and control systems and space 
capabilities. Off-the-shelf technologies have caught, if not surpassed, 
some of our own technology. We must acquire new systems, as General 
Kehler has put, ``At the speed of the need''. As long as forces are 
dispersed across the globe, we will have challenges with integrating 
with the joint warfighter. Multiple information systems across multiple 
theaters hurt efficiency and delay generation of desired effects for 
forces. Common information systems and a complete, integrated 
operational picture will allow commanders in direct and supporting 
roles to share common battlespace awareness. Advances in space 
technologies will not slow or end. Our operational environment will 
continue to grow in complexity as more nations, corporations, and even 
individuals place smaller and more capable satellites on orbit. 
Satellites will continue to get smaller and more capable. Our sensor 
network and mission systems are challenged to keep pace with the 
expanding orbital environment. Finally, as we venture into discussions 
with cyber forces, mission requirements will grow and our environment 
will expand to include the virtual as well. In our fixed-personnel and 
resource-restrained reality, we will have to find ways to operate more 
efficiently and effectively.
                               conclusion
    Space operations and needs will continue to rapidly evolve. We must 
continue to search out ways to better support our forces around the 
globe, especially those in harm's way. We will continue to coordinate 
with other government agencies to enhance overall support, ensuring the 
right effect is delivered at the right place at the right time. We will 
strive to strengthen our relationships with allied space partners, 
ensuring our global capabilities remain available for those requiring 
them. Perfection is our standard, and you can be proud of your 
soldiers, sailors, marines, and airmen that I am honored to lead. I 
thank the committee for your continued support as we work to preserve 
our critical space capabilities for our Nation.

    Senator Ben Nelson. Thank you.
    Dr. Federici.

 STATEMENT OF GARY A. FEDERICI, DEPUTY ASSISTANT SECRETARY OF 
   THE NAVY FOR COMMAND, CONTROL, COMMUNICATIONS, COMPUTERS, 
                    INTELLIGENCE, AND SPACE

    Dr. Federici. Chairman Nelson, thank you for the 
opportunity to appear before you today with Vice Admiral Jack 
Dorsett to discuss our space programs and space-related 
activities.
    The MUOS is clearly our most critical space program. We 
have had some challenges, and I think we are looking for a way 
ahead. We were pleased to submit a report to you last week with 
some options that may help mitigate gaps in the future and 
support the on-orbit fragile Constellation.
    So, thank you very much.
    Senator Ben Nelson. Thank you.
    Admiral?

STATEMENT OF VADM DAVID J. DORSETT, USN, DEPUTY CHIEF OF NAVAL 
 OPERATIONS FOR INFORMATION DOMINANCE (N2/N6), AND DIRECTOR OF 
                       NAVAL INTELLIGENCE

    Admiral Dorsett. Mr. Chairman, thank you for the 
opportunity to be here, especially on behalf of the men and 
women of the U.S. Navy. It's a privilege for me to be able to 
testify before you today.
    I want to reiterate one point for you, that I believe 
you're already aware of, and that's that the U.S. Navy is 
critically dependent upon space. Our ships, submarines, 
aircraft operate across the farflung reaches of the globe, 
often operating independently. The one thing that keeps them 
tied together, I think, is space-based capabilities, whether 
that's communications, the networks that support them, whether 
it's the navigation and precision geolocation data that comes 
from space, weather and environmental sensing information is 
absolutely vital to the U.S. Navy.
    Truly, when it comes down to precision weapons, we need 
that detailed precision geolocation information that can only 
come from space.
    Our intelligence resources, also, from space, provide a 
critical component of what the U.S. Navy's intelligence 
organization needs. Then, ultimately, I think the need for 
space to support our missile defense capabilities is on the 
rise.
    I have two points to make. One is regarding MUOS. Dr. 
Federici has mentioned it, and you have, as well. MUOS is in 
the midst of another delay. Last year, you were informed that 
MUOS was going to be delayed by about 11 months. Our estimate 
at this point is that the first MUOS satellite is expected to 
be launched in September 2011, with an on-orbit capability of 
December 2011. That's about a 10-month delay from what you were 
briefed previously. We can go into details regarding what the 
purpose or the reason for that delay is, if you'd like.
    The other point that I'd like to make is to inform you that 
we do have a mitigation plan. You've received the report from 
the Assistant Secretary of the Navy this past week. We do 
vigorously fund the mitigation plan. We are vigorously funding 
the MUOS capability itself to ensure that we deliver the entire 
capability. We are looking and working with our partners to 
mitigate the challenges that we face. It has our full 
attention, sir.
    With that, I'm certainly prepared to take any of your 
questions.
    [The joint prepared statement of Dr. Frederici and Admiral 
Dorsett follows:]
 Joint Prepared by VADM David J. Dorsett, USN, and Dr. Gary A. Federici
                              introduction
    Mr. Chairman, distinguished members of the subcommittee, we are 
honored to appear before you today to address your Navy's space 
activities. Navy Leadership expects to be prominent in the fields of 
intelligence, cyber warfare, command and control, knowledge management 
and space. By fusing these capabilities, he expects to attain command 
and control overmatch against any adversary. To achieve this important 
goal, Chief of Naval Operations (CNO) has restructured the Navy staff 
to bring all Navy information-related capabilities and systems under a 
single resource sponsor--Deputy Chief of Naval Operations (Information 
Dominance). In the information and cyberspace domain, the CNO has also 
established Fleet Cyber Command/U.S. Tenth Fleet as the global operator 
for many of Navy's critical mission areas, including space operations.
    Our Maritime Strategy demands a flexible, interoperable, and secure 
global communications capability to support the command and control 
requirements of highly mobile, geographically dispersed U.S. and 
coalition forces. Our satellite communications capabilities confer to 
our deployed forces a decisive advantage across the spectrum of 
military operations from peacetime engagements to humanitarian relief 
efforts to major combat. The Mobile User Objective System (MUOS), which 
is the next generation Ultra High Frequency (UHF) Satellite 
Communication system, is a critical element of our space architecture 
and will provide more capable tactical communications to meet the 
growing demands of our joint, mobile warfighters.
                        navy space requirements
    The Navy's interests in space, however, are not limited solely to 
communications. Intelligence, reconnaissance, surveillance, position, 
navigation, timing, missile warning, meteorology and oceanography each 
have significant space components. We must ensure that all of the 
Navy's space equities and interests are well understood throughout the 
Department of Defense (DOD) and by our interagency partners so that our 
combatant commanders and Navy's operating forces have the space 
capabilities they need to succeed in their missions.
    The Navy is critically dependent on space to conduct not only our 
wartime mission but also our core capabilities of forward presence, 
deterrence, sea control, power projection, maritime security, 
humanitarian assistance, and disaster response. A wide array of 
national, joint, and commercial satellites currently provides Navy 
commanders with essential worldwide support. Space capabilities are 
vital to our Nation's maritime operations and are foundational to our 
ability to operate in a networked and dispersed manner. These seminal 
space capabilities support tactical strike, expeditionary warfare, 
anti-submarine warfare, anti-surface warfare, mine warfare, special 
operations, undersea warfare, ballistic missile defense, maritime 
domain awareness, and information dominance missions.
    The Navy's mission of ensuring the security of our citizens at home 
and abroad requires a global reach and persistent presence. We must 
constantly be ready to deliver on a mission of mercy or rapidly deploy 
decisive combat power, while supporting a myriad of complex maritime 
operations that fall between these extremes. Our ability to respond, in 
concert with the other Services and coalition partners, depends on 
assured space capabilities with inherent flexibility and responsiveness 
to support our worldwide responsibilities.
    The Navy is one of the largest `users' of space in DOD, yet we rely 
on our partnership with the Air Force and the Intelligence Community 
(IC) to develop and field the majority of our space systems. Future 
U.S. satellite programs are now being developed that promise additional 
benefit and capabilities to Navy warfighters. Due to the long lead 
times involved in complex space programs, it is essential that naval 
requirements and maritime missions are factored into the pre-launch 
design and planned on-orbit operation of future satellite acquisitions. 
Your Navy is actively engaged with key national and joint space-related 
organizations to ensure current and future Navy needs in space are 
identified and incorporated. Venues for this engagement include the DOD 
Space Posture Review, the Quadrennial Defense Review, the National 
Security Space Program plans and assessments, and the Operationally 
Responsive Space Executive Committee.
                         navy space investments
    Of Navy's current fiscal contributions to space, nearly 50 percent 
is dedicated to the acquisition, development and management of the UHF 
Follow-On and MUOS communications satellite systems. The remainder is 
predominantly apportioned to acquisition of the various satellite 
receiver terminals and equipment for Navy units, and space based 
navigation, oceanography, and meteorology. All these acquisitions are 
consistent with DOD's High Priority Performance Goals in the 
President's Fiscal Year 2011 Budget's Analytic Perspectives volume 
(page 77-8).
    Navy's investment in space-related Science and Technology Research 
and Development has been modest--roughly 4 percent of our total space-
related funding. In this fiscally-constrained environment, investment 
in projects and studies that address maritime-related capability gaps 
is critical to the successful execution of our Nation's maritime 
strategy. The innovations produced by the Office of Naval Research, 
Naval Research Laboratory, and the OPNAV N2/N6 Technology Insertion 
Branch (Navy's Tactical Exploitation of National Capabilities (TENCAP) 
entity) are vital to this effort. Our active involvement and influence 
with non-Navy space-related research activities, centers and agencies 
are necessary to leverage ongoing efforts that complement and support 
our unique maritime challenges and requirements.
    The Navy depends on space capabilities now and expects the demand 
for space capabilities to grow in the future, especially for satellite 
communications (SATCOM). The Navy's major space segment responsibility 
to the joint community is the UHF narrowband satellite communications 
constellation. Today this constellation consists of eight UHF Follow-On 
satellites, two residual Fleet Satellites (FLTSAT), one Leased 
Satellite (LEASAT 5), and leased capacity on SKYNET 5C. MUOS will begin 
to replace these systems in 2011. Based on evolving warfighting 
concepts, UHF satellite communications requirements are expected to 
grow, and MUOS, as designed, will be able to support those 
requirements.
                      mobile user objective system
    MUOS, the next generation UHF satellite constellation, will consist 
of four operational satellites with one on-orbit spare. MUOS will 
support Unified Commands and Joint Task Force Components, DOD and non-
DOD agencies, and our allies by providing worldwide tactical narrowband 
netted, point-to-point, and broadcast voice and data services in 
challenging environments including double canopy foliage, urban 
environments, high sea states, and all weather conditions. MUOS will 
carry two distinct payloads. The legacy UHF payload will provide the 
capability of a UHF Follow-On satellite, while a new UHF waveform 
payload will significantly increase the number of accesses while also 
increasing available throughput to the Warfighter. The dual-payload 
design will allow backward compatibility with legacy UHF terminals 
while providing a next generation waveform to support ``communications 
on the move'' capabilities and provide disadvantaged platforms (hand 
held terminals, aircraft, missiles, UAVs, remote sensors) higher data 
rates per access (up to 64 kbps/access).
    MUOS will be the common denominator for future command and control, 
by enhancing the capability to communicate from the tactical edge to 
theater headquarters. MUOS will allow more comprehensive and 
coordinated support to regional engagement efforts, providing the 
capability to synchronize actions with other Services and agencies. 
This capability will be realized through the fielding of MUOS capable 
Joint Tactical Radio System (JTRS) terminals and by upgrading existing 
legacy UHF software programmable terminals.
                delivering mobile user objective system
    The timely delivery of MUOS is a high priority for Navy, and we 
recognize both our responsibility and commitment to providing this 
vital warfighting capability to all our DOD and IC partners. The delay 
in delivery of the MUOS, coupled with the age and fragility of the 
current UHF satellite constellation, has our full attention and focus. 
The program has been reviewed by an ASN (RDA) directed National Review 
Team, and the program has subsequently been re-baselined following the 
team's recommendations.
    If gaps in UHF satellite availability occur, a series of mitigation 
options have been developed and can be incrementally implemented to 
minimize the operational impact. One mitigation initiative that has 
already been employed is a payload reconfiguration to UFO satellite 
Flight 11, which increased the number of available channels. This 
action was completed at no cost and with very low risk to the 
spacecraft. The Navy continues to lease supplemental UHF resources from 
two commercial satellites, LEASAT and SKYNET. If necessary, we are also 
positioned to lease an additional channel on an Italian space-based 
communications system (SICRAL).
    We are also pursuing options to make more efficient use of 
available satellite resources. The Integrated Waveform (IW), a software 
upgrade to UHF SATCOM tactical terminals and Control System, is in 
development and will optimize UHF satellite channels by doubling the 
number of accesses that can be supported by a single 25 kHz channel. 
DOD is also coordinating a Memorandum of Understanding with the 
Australian Ministry of Defense to procure/use channels on an 
Australian-hosted payload covering the Indian Ocean region, in exchange 
for future use (commencing 2018) of equivalent UHF SATCOM accesses in 
the Pacific Ocean Region. Finally, we are exploring the use of TACSAT-
4, an Office of Naval Research and Naval Research Laboratory led 
development that supports Operationally Responsive Space Office 
efforts. TACSAT-4 may provide a very limited operational capability 
when it reaches on-orbit capability later this year.
                      environmental remote sensing
    The Navy continues to address vital interests in environmental 
remote sensing. In support of Undersea Warfare, we are procuring the 
Geosat Follow-On (GFO) II satellite altimeter to maintain continuity in 
mapping global ocean temperature profiles which provides critical input 
to our global and regional ocean models. The Navy relies upon 
partnerships with the Air Force and the National Oceanic and 
Atmospheric Administration for its general meteorological and 
oceanographic remote sensing capabilities and is involved in defining 
the requirements for the DOD portion of the restructure of the National 
Polar Orbiting Environmental Satellite System. The imagery and data 
collected by these satellites are essential to our ability both to 
characterize the environment and assemble vital maritime information 
that provides an asymmetric advantage over our adversaries. In support 
of the Navy's unique responsibility to provide precise positioning and 
navigation data, we are embarking on a new program, the Joint Milli-
Arcsecond Pathfinder Survey (JMAPS), which will enable necessary 
upgrades to the master star position catalogs to meet the DOD 
positioning accuracy requirements into the next decade.
             intelligence, surveillance, and reconnaissance
    The Navy applauds the National Geospatial Intelligence Agency and 
the National Security Agency's exploitation and dissemination of both 
geospatial and signals intelligence data, as well as the National 
Reconnaissance Office's (NRO) operation of the space-based sensors. A 
robust architecture of SIGINT and GEOINT systems to meet current and 
emerging requirements remains crucial to successful maritime 
operations. While much progress has been made in improving the planning 
and programming of space-based sensors, it is imperative that 
replacements for older systems be funded and fielded in sufficient 
quantity and capacity to sustain continuity of space-based intelligence 
data throughout the maritime domain. Accordingly, we fully support the 
Office of the Director of National Intelligence collaboration with 
combatant commands and Services to ensure emerging requirements are 
adequately supported by IC-funded future collection systems.
                        commercial space systems
    For Navy, commercially provided systems have the ability to 
augment, but not replace, national systems. These commercial 
capabilities have become increasingly useful in bridging the gap 
between requirements and capabilities. The Navy has utilized commercial 
communication satellites since the early 1990s to augment bandwidth 
requirements not satisfied by military communication satellites. 
Technical advances in the commercial sector can provide opportunities 
for rapid capability implementation, and are potential ``game-
changers'' in the National Security Space Strategy. The Navy continues 
to work with the commercial sector to explore options to address 
multiple maritime mission requirements, and we continue to field 
systems, such as Commercial Broadband Satellite Program terminals, to 
fully leverage available commercial capability.
                              space cadre
    Our Navy equities, requirements, operations and management of space 
resources are the responsibility of a small but agile corps of space 
professionals that make the Navy's use of space possible. The Navy's 
Space Cadre is comprised of approximately 1,350 Active Duty, Reserve, 
and civil service personnel from all warfighter designators and 
communities, and is a key component of the DOD's 15,000 military and 
civilian space professionals. Part of our Total Workforce strategy is 
to ensure that fully qualified Navy Space Cadre personnel are 
consistently assigned to our most critical and consequential space 
billets. This strategy requires the Navy to continue to recruit and 
retain a talented and highly skilled workforce to fill vital space 
leadership positions now and into the future. We are committed to 
providing active career management and continued opportunities for Navy 
Space Cadre professionals to ensure that Navy and Joint space-related 
assignments complement and enhance career progression paths and 
promotion opportunities while infusing naval operational expertise back 
into the space community.
    Approximately one third of active duty space billets and a number 
of our civil service personnel are acquisition billets located 
throughout the Space and Naval Warfare Systems Enterprise and at the 
NRO. The Navy is fortunate to hold a key Flag-level billet within the 
NRO. Rear Admiral Liz Young, who is ``triple-hatted'' as PEO Space 
Systems and Commander, SPAWAR Space Field Activity, oversees the 
largest concentration of Navy Space Cadre members, and provides space 
systems engineering and acquisition expertise to OPNAV N2/N6 as well as 
to all Navy systems commands and research centers. It is essential that 
we continue to assign talented personnel to represent unique Navy 
requirements for space systems in the joint acquisition processes at 
the NRO and at the Air Force Space and Missile Center. As the newly 
established Fleet Cyber Command and U.S. 10th Fleet reaches full 
organizational maturity, they will assume a leading role in Navy's 
space planning and operations.
                               conclusion
    In closing, we would like to reiterate that space capabilities have 
and will continue to be critical to our Nation's success in the 
maritime domain. We now operate in a dynamic and challenging global 
environment that demands increased capability and capacity to operate 
in a networked but geographically dispersed fashion. Space capabilities 
are no longer nice to have; they are essential.
    Thank you for the opportunity to share our efforts with you today. 
The continued support from Congress in general, and this subcommittee 
in particular, is deeply appreciated.

    Senator Ben Nelson. Thank you.
    Ms. Chaplain.

 STATEMENT OF CRISTINA T. CHAPLAIN, DIRECTOR, ACQUISITION AND 
     SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Chaplain. Thank you, Mr. Chairman.
    I'm focused on the acquisition side of space, and your 
opening statement covered a great deal of what I was going to 
say, so I'm just going to emphasize a couple of points about 
the efforts that DOD is making to improve space, and what we 
see are the remaining challenges.
    I think a lot of credit goes to DOD for the wide range of 
actions they've been taking to improve their acquisitions. They 
include such things as strengthening cost estimating, 
strengthening testing oversight, contractor oversight, 
strengthening the requirements process, strengthening their 
acquisition policy. Many of these began before the most recent 
Weapons Systems Reform Act (WSRA).
    But, we're not really out of the woods yet; there are still 
a lot of challenges. I think reform itself will take a long 
time to produce results, just because space programs take a 
long time themselves. We have very few new programs on the 
horizon.
    Reform will also be difficult to achieve if the right bench 
strength isn't there to execute space programs. This includes 
technical and program experts. It has been very challenging for 
DOD to address gaps in the space workforce.
    Likewise, reform will be difficult if there are gaps in the 
industrial base expertise, if there's lax contract management 
and oversight, if there are insufficient resources for testing 
new technologies, and, as you mentioned, if we can't get 
innovation in the form of our small businesses into the 
programs. All of these issues, we've identified before as 
needing attention.
    Moreover, there are still a lot of questions that need to 
be resolved about how space should be best organized, led, and 
supported. Studies concur that there's a need for stronger 
centralized authority for space, and our own studies 
consistently show space programs have difficulty coordinating 
their ground, user, and space components, as well as getting 
agreements on requirements that cross boundaries. Moreover, 
without a central point of accountability, it may be difficult 
to sustain reform efforts underway.
    With that, I would like to just conclude and say, I look 
forward to the questions you have.
    [The prepared statement of Ms. Chaplain follows:]
               Prepared Statement by Cristina T. Chaplain
    Mr. Chairman and members of the subcommittee:
    I am pleased to be here today to discuss the Department of 
Defense's (DOD) space acquisitions. Each year, DOD spends billions of 
dollars to acquire space-based capabilities to support current military 
and other government operations, as well as to enable DOD to transform 
the way it collects and disseminates information. Despite the 
significant investment in space, the majority of large-scale 
acquisition programs in DOD's space portfolio have experienced problems 
during the past two decades that have driven up costs by hundreds of 
millions and even billions of dollars and stretched schedules by years 
and increased technical risks. To address the cost increases, DOD 
altered its acquisitions by reducing the number of satellites it 
intended to buy, reducing the capabilities of the satellites, or 
terminating major space systems acquisitions. Moreover, along with the 
cost increases, many space acquisitions have experienced significant 
schedule delays--of as much as 8 years--resulting in potential 
capability gaps in areas such as missile warning, military 
communications, and weather monitoring. These problems persist.
    My testimony today will focus on: (1) the status of space 
acquisitions, (2) the efforts DOD is taking to address causes of 
problems and increase credibility and success in its space systems 
acquisitions, and (3) what remains to be done. Notably, DOD has taken 
the important step of acknowledging the acquisition problems of the 
past and is taking action to address them, including better management 
of the acquisition process and oversight of its contractors. Moreover, 
several high-risk space programs have finally resolved technical and 
other obstacles and are close to begin delivering capability. However, 
other space acquisition programs continue to face challenges in meeting 
their cost and schedule targets and aligning the delivery of space 
assets with the ground and user systems needed to support and take 
advantage of new capability. Additionally, it may take years for 
acquisition improvements to take root and produce benefits that will 
enable DOD to realize a better return on its investment in space. 
Lastly, DOD still needs to decide how to best organize, lead, and 
support space activities. If it does not do so, its commitment to 
reforms may not be sustainable.
                  space acquisition challenges persist
    A longstanding problem in DOD space acquisitions is that program 
and unit costs tend to go up significantly from initial cost estimates, 
while in some cases, the capability that was to be produced goes down. 
Figures 1 and 2 reflect differences in total program and unit costs for 
satellites from the time the programs officially began to their most 
recent cost estimates. As figure 1 shows, in several cases, DOD has had 
to cut back on quantity and capability in the face of escalating costs. 
For example, two satellites and four instruments were deleted from the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) and four sensors are expected to have fewer capabilities. This 
will reduce some planned capabilities for NPOESS as well as planned 
coverage. The figures below reflect the total program costs developed 
in fiscal year 2009. (Last year, we also compared original cost 
estimates to current cost estimates for the broader portfolio of major 
space acquisitions for fiscal years 2008 through 2013. However, we were 
unable to perform this analysis this year because, for most of its 
major weapon system programs, DOD in fiscal year 2009 did not issue 
complete Selected Acquisition Reports, which contain updated yearly 
program funding estimates needed to conduct the analysis.)
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Several space acquisition programs are years behind schedule. 
Figure 3 highlights the additional estimated months needed for programs 
to deliver initial operational capabilities (IOC). These additional 
months represent time not anticipated at the programs' start dates. 
Generally, the further schedules slip, the more DOD is at risk of not 
sustaining current capabilities. For example, according to Air Force 
officials, they have requested information from the space community on 
how best to address a potential gap in missile warning capabilities.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Some Acquisition Programs Have Overcome Problems and Have Satellites 
        Ready for Launch
    DOD has made progress on several of its high-risk space programs 
and is expecting significant advances in capability as a result. In 
2009, DOD launched the third Wideband Global SATCOM (WGS) satellite, 
broadening communications capability available to warfighters--and a 
fourth WGS satellite is slated for launch in 2011. DOD also launched 
two Global Positioning System (GPS) IIR-M satellites, although one has 
still not been declared operational because of radio signal 
transmission problems. Lastly, DOD supported the launch of a pair of 
Space Tracking and Surveillance System satellites, designed to test the 
tracking of ballistic missiles in support of missile defense early 
missile warning missions--these suffered many delays as well. The 
Evolved Expendable Launch Vehicle (EELV) program had its 31st 
consecutive successful operational launch last week.
    Moreover, though it has had longstanding difficulties on nearly 
every space acquisition program, DOD now finds itself in a position to 
possibly launch the first new satellite from four different major space 
acquisition programs over the next 12 months that are expected to 
significantly contribute to missions and capabilities. These include 
the GPS IIF satellites, the Advanced Extremely High Frequency (AEHF) 
communications satellites, and the Space Based Space Surveillance 
(SBSS) satellite--all of which struggled for years with cost and 
schedule growth, technical or design problems, as well as oversight and 
management weaknesses. Table 1 further describes the status of these 
efforts.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    One program that appears to be overcoming remaining technical 
problems, but for which we are still uncertain whether it can meet its 
current launch date, is the Space Based Infrared System (SBIRS) 
satellite program. The first of four geosynchronous earth-orbiting 
(GEO) satellites (two sensors have already been launched on a highly 
elliptical orbit) is expected to launch in December 2010 and is 
expected to continue the missile warning mission with sensors that are 
more capable than the satellites currently on orbit. Total cost for the 
SBIRS program is currently estimated at over $13.6 billion for four GEO 
satellites (and two sensors that have already been delivered and are 
operational), representing an increase of about $9.2 billion over the 
program's original cost, which included five GEO satellites. The most 
recent program estimate developed in 2008 set December 2009 as the 
launch goal for the first GEO satellite, but program officials indicate 
that the first GEO launch will be delayed at least another year, 
bringing the total delay to approximately 8 years. The reasons for the 
delay include poor government oversight of the contractor, technical 
complexities, and rework. The program continues to struggle with flight 
software development, and during testing last year, officials 
discovered hardware defects on the first GEO satellite, though the 
program reports that they have been resolved. The launches of 
subsequent GEO satellites have also slipped as a result of flight 
software design issues. Program officials indicate that they again 
intend to re-baseline the program to more realistic cost and schedule 
estimates by mid- to late-2010. Because of the problems on SBIRS, DOD 
began a follow-on system effort, now known as Third Generation Infrared 
Surveillance (3GIRS), to run in parallel with the SBIRS program. For 
fiscal year 2011, DOD plans to cancel the 3GIRS effort, but also plans 
to provide funds under the SBIRS program for one of the 3GIRS infrared 
demonstrations nearing completion.
Other Programs Still Susceptible to Cost and Schedule Overruns
    While DOD is having success in readying some satellites for launch, 
other space acquisition programs face challenges that could further 
increase cost and delay targeted delivery dates. The programs that may 
be susceptible to cost and schedule challenges include NPOESS, Mobile 
User Objective System (MUOS), and GPS IIIA. Delays in both the NPOESS 
and MUOS programs have resulted in critical potential capability gaps 
for military and other government users. The GPS IIIA program was 
planned with an eye toward avoiding problems that plagued the GPS IIF 
program, but the schedule leaves little room for potential problems and 
there is a risk that the ground system needed to operate the satellites 
will not be ready when the first satellite is launched. Table 2 
describes the status of these efforts in more detail.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Challenges in Aligning Space System Components
    This past year we also assessed the levels at which DOD's 
satellites, ground control, and user terminals were synchronized to 
provide maximum benefit to the warfighter.\1\ Most space systems 
consist of satellites, ground control systems, and user terminals, 
though some space systems only require ground control systems to 
provide capability to users. Ground control systems are generally used 
to: (1) download and process data from satellite sensors and 
disseminate this information to warfighters and other users; and (2) 
maintain the health and status of the satellites, including steering 
the satellites and ensuring that they stay in assigned orbits.
---------------------------------------------------------------------------
    \1\ GAO, Defense Acquisitions: Challenges in Aligning Space System 
Components, GAO-10-55 (Washington, DC: Oct. 29, 2009).
---------------------------------------------------------------------------
    User terminals, typically procured by the military services and 
managed separately from associated satellites and ground control 
systems, can range from equipment hosted on backpacks to terminals 
mounted on Humvees, airborne assets, or ships. Terminals can be used to 
help the warfighter determine longitude, latitude, and altitude via GPS 
satellites, or securely communicate with others via AEHF satellites. 
Some user terminals are not solely dedicated to delivering capability 
from a specific satellite system. For example, the Joint Tactical Radio 
System is the primary user terminal associated with the MUOS program, 
but the system is also designed to be the next generation of tactical 
radios, allowing extensive ground-to-ground communication as well.
    Overall, we found the alignment of space system components proved 
to be challenging to DOD. Specifically, we found that for six of DOD's 
eight major space system acquisitions, DOD has not been able to align 
delivery of satellites with ground control systems, user terminals, or 
both. Of the eight major space system acquisitions, five systems' 
ground control system efforts are optimally aligned to deliver 
capability with their companion satellites, while three are not. For 
the five space systems requiring user terminals, none was aligned. In 
some cases, capability gaps of 4 or more years have resulted from 
delays in the fielding of ground control systems or user terminals. 
When space system acquisitions are not aligned, satellite capability is 
available but underutilized, though in some cases, work-around efforts 
can help compensate for the loss or delay of capability. Moreover, when 
ground systems, user terminals, or both are not aligned with 
satellites, there are significant limitations in the extent to which 
the system as a whole can be independently tested and 
verified.<SUP>2,3</SUP>
---------------------------------------------------------------------------
    \2\ In making determinations about whether space system 
acquisitions were aligned, we examined whether there were gaps between 
fielding dates of satellite capabilities compared to ground system 
capabilities and whether lower percentages of user terminal types were 
planned to be fielded by the space system acquisitions' planned initial 
capability. Generally we considered aspects of a space acquisition 
unaligned if there was a gap of years, rather than months, between the 
fielding dates of significant capabilities. Regarding user terminals, 
we only considered these unaligned compared to satellite capabilities 
when user terminals did not meet DOD's measure of synchronization for 
military satellite communications space acquisitions. This measure, 
established by the U.S. Strategic Command, a primary user of DOD space 
systems, asserts that 20 percent of any type of user terminal should be 
fielded by a space system acquisition's initial capability date and 85 
percent should be fielded by its full capability date.
    \3\ It should be noted that while there are criteria for 
communications satellites, there are no criteria available in DOD that 
determine the optimum alignment or synchronization for the broader 
portfolio of satellite programs. This is principally because of 
inherent differences in satellite missions and their associated ground 
and user assets, according to officials involved in space system 
development as well as acquisition oversight.
---------------------------------------------------------------------------
Launch Manifest Issues
    Another risk facing DOD space programs for the next few years is 
the potential for increased demand for certain launch vehicles. DOD is 
positioned to launch a handful of satellites across missions over the 
next 2 years that were originally scheduled for launch years ago. Until 
recently, DOD had four launch pads on the east coast from which to 
launch military satellites. In 2009, DOD launched the final two GPS 
IIR-M satellites using the Delta II launch vehicle, thereby 
discontinuing its use of the Delta II line and its associated launch 
infrastructure. DOD now plans to launch most of its remaining 
satellites using one of DOD's EELV types--Atlas V or Delta IV--from one 
of two east coast launch pads. At the same time, the National 
Aeronautics and Space Administration (NASA) plans to use the Delta II 
to launch at least three major missions before that launch vehicle is 
retired. In addition, NASA is already manifesting other major missions 
on the Atlas V. Given the expected increased demand for launches--many 
of which are considered high priority--and the tempo of launches DOD 
has achieved with EELV, it appears that the launch manifest is crowded. 
As a result, if programs still struggling with technical, design, or 
production issues miss their launch dates, the consequences could be 
significant, as it may take many months to secure new dates. Some of 
DOD's satellites are dual integrated, which means they can be launched 
on either type of EELV. The Air Force deserves credit for designing the 
satellites this way because it offers more flexibility in terms of 
launch vehicle usage, but there are also cost and schedule implications 
associated with rescheduling from one EELV type to the other. Moreover, 
DOD can request its launch provider to speed up the transition time 
between launches, although this would also increase costs. 
Nevertheless, Air Force officials stated that they were confident that 
the higher launch rates could be achieved, especially if a particular 
satellite's priority increased. According to Air Force officials, they 
have already begun to implement means to address these issues.
 dod is taking actions to address space and weapon acquisition problems
    DOD has been working to ensure that its space programs are more 
executable and produce a better return on investment. Many of the 
actions it is taking address root causes of problems, though it will 
take time to determine whether these actions are successful and they 
need to be complemented by decisions on how best to lead, organize, and 
support space activities.
    Our past work has identified a number of causes behind the cost 
growth and related problems, but several consistently stand out. First, 
on a broad scale, DOD starts more weapon programs than it can afford, 
creating a competition for funding that encourages low cost estimating, 
optimistic scheduling, overpromising, suppressing bad news, and for 
space programs, forsaking the opportunity to identify and assess 
potentially more executable alternatives. Second, DOD has tended to 
start its space programs too early, that is, before it has the 
assurance that the capabilities it is pursuing can be achieved within 
available resources and time constraints. This tendency is caused 
largely by the funding process, since acquisition programs attract more 
dollars than efforts concentrating solely on proving technologies. 
Nevertheless, when DOD chooses to extend technology invention into 
acquisition, programs experience technical problems that require large 
amounts of time and money to fix. Moreover, there is no way to 
accurately estimate how long it would take to design, develop, and 
build a satellite system when critical technologies planned for that 
system are still in relatively early stages of discovery and invention. 
Third, programs have historically attempted to satisfy all requirements 
in a single step, regardless of the design challenge or the maturity of 
the technologies necessary to achieve the full capability. DOD has 
preferred to make fewer but heavier, larger, and more complex 
satellites that perform a multitude of missions rather than larger 
constellations of smaller, less complex satellites that gradually 
increase in sophistication. This has stretched technology challenges 
beyond current capabilities in some cases and vastly increased the 
complexities related to software. Programs also seek to maximize 
capability on individual satellites because it is expensive to launch.
    In addition, problematic implementation of an acquisition strategy 
in the 1990s, known as Total System Performance Responsibility, for 
space systems resulted in problems on a number of programs because it 
was implemented in a manner that enabled requirements creep and poor 
contractor performance--the effects of which space programs are still 
addressing. We have also reported on shortfalls in resources for 
testing new technologies, which coupled with less expertise and fewer 
contractors available to lead development efforts, have magnified the 
challenge of developing complex and intricate space systems.
    Our work--which is largely based on best practices in the 
commercial sector--has recommended numerous actions that can be taken 
to address the problems we identified. Generally, we have recommended 
that DOD separate technology discovery from acquisition, follow an 
incremental path toward meeting user needs, match resources and 
requirements at program start, and use quantifiable data and 
demonstrable knowledge to make decisions to move to next phases. We 
have also identified practices related to cost estimating, program 
manager tenure, quality assurance, technology transition, and an array 
of other aspects of acquisition program management that could benefit 
space programs. These practices are detailed in appendix I.
    DOD is implementing an array of actions to reform how weapons and 
space systems are acquired. For space in particular, DOD is working to 
ensure critical technologies are matured before large-scale acquisition 
programs begin; requirements are defined early in the process and are 
stable throughout; and that system design remains stable, according to 
the Director of Space and Intelligence under DOD's Office of the 
Secretary of Defense for Acquisition, Technology and Logistics. DOD 
also intends to follow incremental or evolutionary acquisition 
processes versus pursuing significant leaps in capabilities involving 
technology risk. The Director of Space and Intelligence also told us 
that DOD is revisiting the use of military standards in its 
acquisitions and providing more program and contractor oversight. The 
approach described to us by the Director of Space and Intelligence 
mirrors best practices identified in our reports. Moreover, some 
actions--described in the table below--have already been taken to 
ensure acquisitions are more knowledge-based.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Congress has also acted on a broader scale through the Weapon 
Systems Acquisition Reform Act, which was signed into law on May 22, 
2009.\4\ The goal of this new statute is to improve acquisition 
outcomes in DOD, with specific emphasis on major defense acquisition 
programs (MDAP) and major automated information systems. According to 
the President of the United States this legislation is designed to 
limit cost overruns before they spiral out of control and will 
strengthen oversight and accountability by appointing officials who 
will be charged with closely monitoring the weapons systems being 
purchased to ensure that costs are controlled. DOD states in its 2010 
Quadrennial Defense Review \5\ that the law also will substantially 
improve the oversight of major weapons acquisition programs, while 
helping to put MDAPs on a sound footing from the outset by addressing 
program shortcomings in the early phases of the acquisition process. 
DOD also states that it is undertaking a far-reaching set of reforms to 
achieve these goals and to improve how DOD acquires and fields critical 
capabilities for current and future wars and conflicts.
---------------------------------------------------------------------------
    \4\ Pub. L. No. 111-23, 123 Stat. 1704 (2009).
    \5\ Department of Defense, Quadrennial Defense Review Report 
(Washington, D.C., Feb. 1, 2010).
---------------------------------------------------------------------------
additional decisions on leadership, organization, and support are still 
                                 needed
    The actions that the Air Force and Office of the Secretary of 
Defense have been taking to address acquisition problems are good 
steps. However, there are still more significant changes to processes, 
policies, and support needed to ensure that reforms can take hold. 
Recent studies and reviews examining the leadership, organization, and 
management of national security space have all found that there is no 
single authority responsible below the President and that authorities 
and responsibilities are spread across the department. In fact, the 
national security space enterprise comprises a wide range of government 
and nongovernment organizations responsible for providing and operating 
space-based capabilities serving both military and intelligence needs.
    In 2008, for example, a congressionally chartered commission (known 
as the Allard Commission) \6\ reported that responsibilities for 
military space and intelligence programs were scattered across the 
staffs of DOD organizations and the intelligence community and that it 
appeared that ``no one is in charge'' of national security space. The 
same year, the House Permanent Select Committee on Intelligence 
reported similar concerns, focusing specifically on difficulties in 
bringing together decisions that would involve both the Director of 
National Intelligence and the Secretary of Defense.\7\ Prior studies, 
including those conducted by the Defense Science Board and the 
Commission to Assess U.S. National Security Space Management and 
Organization (Space Commission),\8\ have identified similar problems, 
both for space as a whole and for specific programs. While these 
studies have made recommendations for strengthening leadership for 
space acquisitions, no major changes to the leadership structure have 
been made in recent years. In fact, an executive agent position within 
the Air Force that was designated in 2001 in response to a Space 
Commission recommendation to provide leadership has not been filled 
since the last executive resigned in 2007.
---------------------------------------------------------------------------
    \6\ Institute for Defense Analyses, Leadership, Management, and 
Organization for National Security Space: Report to Congress of the 
Independent Assessment Panel on the Organization and Management of 
National Security Space (Alexandria, VA, July 2008).
    \7\ House Permanent Select Committee on Intelligence, Report on 
Challenges and Recommendations for United States Overhead Architecture 
(Washington, DC, October 2008).
    \8\ Department of Defense, Report of the Commission to Assess U.S. 
National Security Space Management and Organization (Washington, DC, 
Jan. 11, 2001).
---------------------------------------------------------------------------
    Diffuse leadership has a direct impact on the space acquisition 
process, primarily because it makes it difficult to hold any one person 
or organization accountable for balancing needs against wants, for 
resolving conflicts among the many organizations involved with space, 
and for ensuring that resources are dedicated where they need to be 
dedicated. Many of the cost and schedule problems we identified for the 
GPS IIF program, for instance, were tied in part to diffuse leadership 
and organizational stovepipes, particularly with respect to DOD's 
ability to coordinate delivery of space, ground, and user assets. In 
fact, DOD is now facing a situation where satellites with advances in 
capability will be residing for years in space without users being able 
to take full advantage of them because investments and planning for 
ground, user, and space components were not well-coordinated.
    Congressional and DOD studies have also called for changes in the 
national security space organizational structure to remove cultural 
barriers to coordinating development efforts and to better incorporate 
analytical and technical support from an organization that is augmented 
with military and intelligence community expertise.
    Finally, studies have identified insufficient numbers of 
experienced space acquisition personnel and inadequate continuity of 
personnel in project management positions as problems needing to be 
addressed in the space community. Our own studies have identified gaps 
in key technical positions, which we believed increased acquisition 
risks. For instance, in a 2008 review of the EELV program, we found 
that personnel shortages at the EELV program office occurred 
particularly in highly specialized areas, such as avionics and launch 
vehicle groups.\9\ These engineers work on issues such as reviewing 
components responsible for navigation and control of the rocket. 
Moreover, only half the government jobs in some key areas were 
projected to be filled. These and other shortages in the EELV program 
office heightened concerns about DOD's ability to effectively manage 
the program using a contracting strategy for EELV that required greater 
government attention to the contractor's technical, cost, and schedule 
performance information. In a recent discussion with GAO, the Director 
of Space and Intelligence under DOD's Office of the Secretary of 
Defense for Acquisition, Technology and Logistics stated that the 
primary obstacle to implementing reforms in space is the lack of 
``bench strength,'' primarily technical and systems engineering 
expertise.
---------------------------------------------------------------------------
    \9\ GAO, Space Acquisitions: Uncertainties in the Evolved 
Expendable Launch Vehicle Program Pose Management and Oversight 
Challenges, GAO-08-1039 (Washington, DC: Sept. 26, 2008).
---------------------------------------------------------------------------
Concluding Remarks
    In conclusion, DOD space is at a critical juncture. After more than 
a decade of acquisition difficulties, which have created potential gaps 
in capability, diminished DOD's ability to invest in new space systems, 
and lessened DOD's credibility to deliver high-performing systems 
within budget and on time, DOD is finally positioned to launch new 
generations of satellites that promise vast enhancements in capability. 
Moreover, recent program cancellations have alleviated competition for 
funding and may have allowed DOD to focus on fixing problems and 
implementing reforms rather than taking on new, complex, and 
potentially higher-risk efforts. But these changes raise new questions. 
Specifically, when can investments in new programs be made? How can 
reforms really take hold when leadership is diffuse? How can reforms 
take hold when there are still organizational barriers that prevent 
effective coordination? Lastly, how can acquisitions be successful if 
the right technical and programmatic expertise is not in place? 
Clearly, there are many challenges ahead for space. We look forward to 
working with the DOD to help ensure that these and other questions are 
addressed.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to answer any questions you or members of the subcommittee may 
have at this time.
                     contacts and acknowledgements
    For further information about this statement, please contact 
Cristina Chaplain at (202) 512-4841 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6a09020b1a060b0304092a0d0b05440d051c44">[email&#160;protected]</a> Contact 
points for our Offices of Congressional Relations and Pubic Affairs may 
be found on the last page of this statement. Individuals who made key 
contributions to this statement include Art Gallegos, Assistant 
Director; Greg Campbell; Rich Horiuchi; Alyssa Weir; and Peter Zwanzig.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                   appendix ii: scope and methodology
    In preparing this testimony, we relied on our body of work in space 
programs, including previously issued GAO reports on assessments of 
individual space programs, common problems affecting space system 
acquisitions, and DOD's acquisition policies. We relied on our best 
practices studies, which comment on the persistent problems affecting 
space acquisitions, the actions DOD has been taking to address these 
problems, and what remains to be done, as well as Air Force documents 
addressing these problems and actions. We also relied on work performed 
in support of our annual weapons system assessments, and analyzed DOD 
funding estimates to assess cost increases and investment trends for 
selected major space acquisition programs. The GAO work used in 
preparing this statement was conducted in accordance with generally 
accepted government auditing standards. Those standards require that we 
plan and perform the audit to obtain sufficient, appropriate evidence 
to provide a reasonable basis for our findings and conclusions based on 
our audit objectives. We believe that the evidence obtained provides a 
reasonable basis for our findings and conclusions based on our audit 
objectives.
    Senator Ben Nelson. Thank you.
    This really goes to Mr. Payton, General Kehler, and Admiral 
Dorsett. In 2001, the Space Commission, established in the 
National Defense Authorization Act for Fiscal Year 2000, to 
review the management and organization of space, concluded that 
a number of ``disparate space activities should be promptly 
merged, chains of commands adjusted, lines of communication 
opened, and policies modified to achieve greater responsibility 
and accountability.''
    Here we are, 9 years later. Has the situation changed since 
the Commission made this finding? If so, is it better or is it 
worse?
    I guess we start first with you, Secretary Payton.
    Mr. Payton. Yes, sir. A lot has changed since 2000 and 
2001: establishment of the Director for National Intelligence 
(DNI) and the assignment of the NRO to that Director; the 
acquisition rules that were established as a result of that 
2001 legislation have been changed again, and now space 
programs are back under the standard, routine acquisition 
policies that the rest of the Pentagon abides by.
    There has been a myriad of changes since that 2001 era. 
Recognizing that, Secretary Donley, back in December, asked Mr. 
Rich McKinney, an experienced Air Force employee, to look at 
how Air Force Headquarters should be organized, in light of all 
these changes since 2001. The results of Mr. McKinney's 
analysis will go to Secretary Donley in late March, early 
April. Mr. McKinney has surveyed 56 people, to include Congress 
and the Army, Navy, and Air Force, all across the country. So, 
he has collected a wealth of data and is distilling that into 
some recommendations for Secretary Donley to consider.
    We are responding to all the changes that have occurred 
since 2000 and 2001, and Secretary Donley will have that to 
digest here, within a few weeks.
    Some of the potential suggestions do include help from 
Congress, and so, we will be fully open and transparent with 
Congress if we decide to move down certain paths.
    Senator Ben Nelson. General Kehler?
    General Kehler. Sir, I would offer that, in the management 
of space activities, there are two major and complementary 
segments that we have to look at. One is the operational 
segment, and the other is the acquisition segment.
    For operations, I would say, unequivocally, we are far 
better today than we were in 2001. It is clear who is in charge 
of our space operations, and that begins with the President 
giving the mission responsibilities to the Commander of U.S. 
Strategic Command (STRATCOM) whose predecessors have 
established the functional component for space. It's a joint 
activity, where we have now pulled together the operational 
pieces of what used to be a fragmented activity. I think that 
now 6, 7, or more years of combat experience have helped hone 
how we do space operations. My take on this is that, in the 
operational side of this equation, we have made great strides, 
and we are far better for it today.
    On the acquisitions side, I think I would give us a mixed 
review. In my own command, for example, AFSPC, as a result of 
that committee's work in 2001, I now have a hybrid major 
command in the Air Force. I have a command that has 
responsibility to organize, train, and equip space forces to 
give to General Chilton at STRATCOM, but I also have an 
acquisition arm inside AFSPC; I'm the only one of the Air Force 
major commands like that. That was done specifically so we 
could pull operations and acquisition and requirements, from a 
four-star perspective, all together, and to make clear where 
the accountability and authorities were in all of that. So, in 
that regard, I think that we have also come a long way inside 
the Air Force.
    The question now is, in light of the changes that Secretary 
Payton mentioned, whether we are where we need to be. I think 
that's where this review that Secretary Donley has begun is 
good and it's timely. We'll look forward to discussing this 
with the Secretary as we go forward.
    Certainly, there are some places where we still have work 
to do in the management area. The question is, in light of the 
changes that occurred since 2001, how best to go forward. We 
are participating in that study. It's focused inside the Air 
Force, but, of course, it has implications for other things, as 
well, and we're looking forward to that being completed.
    Senator Ben Nelson. How would that relate to policy? I 
understand operations. I understand acquisition. But, what 
about policy, to make sure that the overall picture is complete 
and all the pieces are in place, or what it takes to put all 
the pieces in place? Somebody has to truly be in charge to make 
all those decisions and see how each and every one of these 
pieces fits together to make the picture. What would you say to 
that?
    Mr. Payton. Yes, sir, I would offer, that is part of the 
charter that Secretary Donley laid out for this comparatively 
short study. How we relate to the rest of the Pentagon, to OSD, 
and how we relate to the other Services is part of the scope of 
that study.
    Senator Ben Nelson. All right.
    Admiral Dorsett?
    Admiral Dorsett. Mr. Chairman, I agree with General Kehler, 
that, on the operations side, there is great progress and 
improvement that's been made, in terms of operational 
management and oversight of space activities. But, I also 
share, I think, your concern that it's not just policy, it's 
not just acquisition, but it's the resources and how they are 
managed across DOD. While I'm probably a little bit out of my 
lane here, from my vantage point, there are a fair number of 
different players, with different roles and responsibilities 
across OSD, and it is not as clear to me that this is, perhaps, 
necessarily, the perfect organizational alignment. Whether it's 
within the secretariat of OSD itself or whether it's within the 
Joint Staff, there are different players and different 
organizations that have responsibilities, and it could probably 
be tuned up a bit.
    In terms of the Navy, I do want to bring to your attention, 
within the last year, the Chief of Naval Operations (CNO), Gary 
Roughead, made a couple of significant changes that have 
streamlined the Navy's focus on space and its management of 
space.
    In my office, the Deputy CNO for Information Dominance has 
assigned one individual responsibility for space. We had 
multiple flag officers on the Navy staff, previously, that had 
responsibility for space.
    In the fleet, he stood up the 10th fleet. The commander of 
the 10th fleet, a three-star admiral, is now the one individual 
who's responsible for space, operationally, for the Navy. In 
the secretariat, my compatriot, Dr. Federici, has that 
responsibility. So, we've streamlined our organizational 
alignment, and we're already seeing the benefits of that in the 
dialogue.
    We have some actions to take to actually make some 
additional progress. But, the alignment, organizationally, I 
think, has been very positive for us.
    Senator Ben Nelson. Thank you.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    Thank you all for your testimony and service.
    I apologize I was late because of other meetings.
    General Kehler and Mr. Payton, I want to focus on space and 
the potential impacts of the National Aeronautics and Space 
Administration (NASA) budget changes to what you do. The 
Evolved Expendable Launch Vehicle (EELV) certainly assures our 
access to space, has a remarkable success record, and is a real 
workhorse. But, as we all know, assured access to space is not 
cheap, and the cost is trending up. In that context, I want to 
understand what you think of the decisions, just announced with 
regard to NASA, to retire the Shuttle very quickly and, even 
more significantly, cancel the Constellation program. How will 
that affect future launch costs that you deal with? If you all 
could offer your thoughts on that.
    Mr. Payton. Yes, sir. In fact, on February 1st, I called a 
dear friend of mine, Bill Gerstenmaier, over in NASA 
headquarters, and he was very open to work with the Air Force 
and the entire DOD as NASA puts together their plan for the 
future.
    Clearly, we share an industrial base with NASA. We share an 
industry workforce with NASA. That industrial base is, in many 
places, not healthy. Concentrating more flights per year in the 
EELV program would possibly help us in acquiring the components 
of a launch vehicle. But, we have to be very careful and 
understand and manage that relationship very closely, because 
it would not be beneficial for either organization to have a 
unique EELV for NASA applications and a unique EELV for DOD 
applications. That would aid neither agency.
    If EELV does become part of NASA's future, either through 
government flights or commercial flights, we would have to 
watch very closely any design changes, as well as any 
production line changes of that sort of detail, and work very 
closely with NASA to understand and make sure we both end up 
with a better product.
    Senator Vitter. Let me back up, because I was really 
focused on something a little different.
    Mr. Payton. Okay.
    Senator Vitter. Maybe the more direct way to ask my 
question is this. This administration wants to cancel the 
Constellation program. Does that have an impact on you all, 
and, if so, what is it?
    Mr. Payton. Tomorrow, I have a session with several NASA 
folks, and NRO folks, to understand their immediate and longer-
term future for the cancellation of Constellation and so that 
we can learn what the ramifications and the ripple effect could 
be. But, again, that's a relationship we intend to manage and 
understand very closely, and NASA has been very cooperative 
with us.
    Senator Vitter. General?
    General Kehler. Sir, in looking at the NASA decision, first 
of all, we were asked, by the Augustine panel, to provide some 
input prior to the decisions, which we did. In that assessment 
that we provided before the decisions were made, we listed 
almost two columns. Column one was a set of what we saw as 
opportunities. As you look at the NASA decision today, the 
investment that is planned there, in terms of research and 
development for a new liquid engine, is a good opportunity that 
we would like to collaborate with them on. We see that as a 
good opportunity for the country, going forward. We see their 
desire to improve the launch infrastructure--especially on the 
east coast, related to the Kennedy Space Center, where we and 
the Air Force join at Cape Canaveral Air Force Station--as a 
benefit.
    We also see an opportunity, here, with the increased demand 
on commercial activities. We have said for a very long time, 
that part of our ``assured access to space'' plan includes 
commercial launch vendors that are viable. This pulling on 
commercial, we also think is a positive thing.
    There is a challenge, here, regarding solid rocket motors, 
and that's the most immediate challenge that we see. The 
largest demand today, on the solid rocket motor industrial 
base, comes from NASA, although DOD, the Air Force, and the 
Navy, as well, rely on that same industrial base for both the 
land-based and the sea-based strategic deterrent, for other 
launch-vehicle solid-rocket strap-ons, for example, that we 
need for EELV and other things. Part of the review that's now 
going on, that Mr. Payton is heading, is, in fact, drilling 
down into that area of concern that we have, to find out 
whether that's a real concern, or whether it is not. I can't 
give you the details of that today, because what we recommended 
prior to the decision was, if this is the decision that's made, 
we will then have to go off and sit down and take a hard look 
at what the implications will be for the industrial base. That 
is where we stand today.
    We don't have answers yet. What we do have is a potential 
concern. Perhaps it will turn out not to be a concern, but we 
don't know that yet.
    Senator Vitter. Let me explore that a little bit, because I 
don't understand how it wouldn't be a concern, at the end of 
the day. As I understand it, for solid-rockets, there's a set 
industrial base. The majority of support comes from NASA. The 
minority of support comes from DOD. If that majority support 
from NASA goes away, and you still need to have and depend on 
that industrial base, I assume your costs go way up, absent 
some other help or some other factor. Am I missing something?
    Mr. Payton. I don't know, and that's the issue. That would 
be an obvious concern, but I don't have facts that say that is, 
in fact, what will happen. I don't know what will happen. I 
think that we need to pursue the course that we are on here, 
which is, we have people off studying this, working with NASA, 
working with the rest of the partners that we have, to make 
sure that we understand it.
    Senator Vitter. Okay. Some initial estimates are that the 
booster cost, because of what I'm describing, could go up as 
much as 100 percent. Is that within the realm of possibility, 
based on what you know now?
    Mr. Payton. The information we've seen is that the 
propulsion systems for our EELVs might double in price, not the 
whole launch vehicle, but the propulsion which is both solid 
propellant and liquid propellant rocket engines.
    Senator Vitter. Okay. So, in fact, your admittedly early 
estimates would confirm a 100 percent figure for that category.
    Mr. Payton. For that specific part of the EELV equation. 
We're also looking at different ways to buy EELVs. That could 
perhaps save costs.
    Senator Vitter. Okay.
    Mr. Payton. There's a wealth of studies that we're doing 
right now to look at what an EELV should cost; a should-cost 
study.
    Senator Vitter. That look includes this block-buy approach?
    Mr. Payton. Yes, sir.
    Senator Vitter. Okay.
    If I can switch gears, quickly--and you may have covered 
this already, to some extent; I apologize, if you did. There is 
concern about not having a designated executive agent for space 
or Space Posture Review (SPR), even as we make major 
investments--nearly $11 billion in fiscal year 2011. Who, 
within DOD, is ultimately responsible for developing and 
coordinating that sort of departmentwide space strategy?
    Mr. Payton. The SPR was conducted with all elements of the 
Department. It was led by the OSD that handles policy for the 
SPR.
    Senator Vitter. So, the entity responsible for leading it 
is that office?
    Mr. Payton. For the SPR, yes, sir.
    Senator Vitter. When will the Secretary designate an 
executive agent for space?
    Mr. Payton. Secretary Donley has asked Rich McKinney, a 
very experienced Air Force individual, to look at how the Air 
Force should be organized, in light of many changes that have 
occurred in the past decade, relative to the authorities and 
responsibilities of the executive agent for space. Mr. 
McKinney's report, again, will be delivered to Secretary Donley 
in late March.
    Senator Vitter. Okay. Compared to that timing, what's the 
current status of the SPR?
    Mr. Payton. There will be an interim report that comes to 
Congress that, I understand, has been signed by the DOD 
representative, as of today. Then the Office of the DNI also 
has to sign that interim report, and then it can come over to 
Congress.
    Senator Vitter. Will that final version be done in time to 
inform the fiscal year 2012 budget within the Department?
    Mr. Payton. The interim report clearly will be. The final 
summation of the SPR will not be available until after the 
White House finishes a national space policy update.
    Senator Vitter. Okay.
    Ms. Chaplain, your testimony ties diffuse leadership to 
acquisition problems. What, exactly, do you mean by ``diffuse 
leadership,'' and how do you think it's affecting programs?
    Ms. Chaplain. In some of the programs we review, it becomes 
unclear if there's a real person in charge or a single point of 
authority to resolve conflicts and gaps in coordinating assets.
    When we looked at the GPS program, for example, we found 
disconnects between the ground segment, the space segment, and 
the user terminal. Sometimes these gaps added up to years. So, 
our question is, who is the person in charge to resolve these 
gaps and make sure resources are dedicated to where they need 
to be? We never really found that single point of 
accountability. We're looking at SSA now, and some of those 
questions come up again, like, who's really the point person 
for SSA? It's so broad, and it covers so many organizations.
    That is just what tends to happen in space, because there 
are so many players. Even outside of DOD, there's an 
Intelligence Community, there's NASA, there's the National 
Oceanic and Atmospheric Administration (NOAA)--any number of 
players involved in any one project. Who's the one that brings 
it all together and has a strong say in what's going on in 
these programs?
    I think it's echoed, in a large sense, in some of these 
studies that have been done per various congressional mandates.
    Senator Vitter. Okay.
    Mr. Chairman, if I could just hit one final topic, which is 
the National Polar-orbiting Operational Environmental Satellite 
System (NPOESS).
    Senator Ben Nelson. Sure.
    Senator Vitter. If I can turn to the Air Force leadership. 
Did the Air Force help initiate the decision to divorce NPOESS? 
What was your input into the process that led to that decision?
    Mr. Payton. The Air Force participated, along with the 
Office of Science and Technology Policy (OSTP) and NOAA and 
NASA and the National Security Council (NSC), to put together 
the White House decision on NPOESS.
    Senator Vitter. What was that input? Was the route that was 
taken--did it, in part, come from you, or was it enforced on 
the Air Force?
    Mr. Payton. It was a decision that OSTP made and the NSC 
made, but with multiple inputs from the Air Force on 
alternative future programs. If the programs stayed together, 
what would the future look like? So, our job was to offer 
technical advice and warfighter needs, and to offer the 
potential ramifications of certain decision paths.
    Senator Vitter. Did the Air Force have a fundamental 
opinion whether its interests would best be served with a 
divorce, or not?
    Mr. Payton. We deferred that to the NSC.
    Senator Vitter. What steps are being taken to ensure that 
Defense recoups the technologies it has already funded?
    Mr. Payton. In fact, the OSTP and the NSC sent all the 
participants a letter defining the near-term immediate steps. 
We helped put that letter together, and it includes harvesting 
the sensor technologies and gaining access to all the 
intellectual property that is necessary for future designs. So, 
we will have access to all of that.
    Our initial step, though, is to work with the Joint Chiefs 
of Staff (JCS) and do a military user requirements scrub to 
determine what the best requirements are for the warfighter 
that the Air Force would then design into a successor 
spacecraft for our part of the weather picture that we are 
responsible for, which is one of the three orbits; the Air 
Force will field the systems necessary to satisfy one of the 
three orbits that everybody needs.
    Senator Vitter. Okay.
    Final question, jumping back to NASA-related issues. 
Obviously, canceling the recommendation, which is not law yet, 
of canceling Constellation is a major departure from the past. 
Was the Air Force explicitly asked the impact on you of 
canceling Constellation before the decision was made?
    Mr. Payton. No, sir.
    Senator Vitter. Okay.
    Thank you, Mr. Chairman.
    General Kehler. Sir, may I clarify--on the executive agent 
question that you asked, just one other point?
    Senator Vitter. Sure.
    General Kehler. I sensed, in the question, that maybe there 
is a view that there is not an executive agent today. That is 
not so. The directive that implemented the Space Commission's 
recommendation about an executive agent says that the Secretary 
of the Air Force will be the executive agent. Then the 
Secretary can delegate that to the Under Secretary. Without an 
Under Secretary, we haven't delegated that authority anywhere, 
but the Secretary himself is still the executive agent for 
space for DOD.
    He has three primary responsibilities in that job: plan, 
program, and acquire. Space policy has always been under the 
purview of the Under Secretary of Defense for Policy. Just for 
clarification.
    Senator Vitter. General, my reaction to that would be, you 
can have a piece of paper that says the President of the United 
States is the executive agent, but that obviously wouldn't be 
meaningful, given his other responsibilities. Admittedly, to a 
lesser extent, my response to that would be, it's the same 
problem with the Secretary of the Air Force. Do you have a 
response to that?
    General Kehler. No, sir. I understand exactly what you're 
saying. I thought that what you were saying was that there was 
not an executive agent. Technically, there is.
    Senator Vitter. Thank you, Mr. Chairman.
    Senator Ben Nelson. Thank you, Senator Vitter.
    Ms. Chaplain, last year the GAO issued a report that 
resulted in some significant and very negative press coverage 
about the health and reliability of the GPS system. Could you 
update us on the GAO's assessment, now, of the GPS system?
    Ms. Chaplain. Yes. We're currently conducting a follow-on 
review. The two programs we looked at, on the satellite side 
last year, were the IIF program and the IIIA program. The IIF 
program has made some progress, and it's getting ready for a 
launch fairly soon.
    The IIIA program is meeting its schedule currently. We 
still have concerns about the compressed nature of the 
schedule, and all of the very difficult activities ahead for 
GPS IIIA, but it is not encountering any severe problems at 
this point.
    When we look at the health of the constellation, our 
findings are pretty similar to last year's. One thing we 
weren't discussing in last year's report, that should probably 
brought out more when we talk about it this year, is some of 
the options the Air Force has available to it to manage GPS if 
they experience some dips in the constellation availability. 
There are options that they have to get through those periods.
    Our concern is, you don't want to find yourself in a state 
where you're looking at those kinds of options; you want to 
make sure you do everything you can to keep the program 
healthy, resourced, and on track.
    Senator Ben Nelson. One of the key impacts to the Air Force 
looks to be the EELV upper-stage engine. The infrastructure 
cost may double, as we understand it, for the Air Force, 
because NASA has stopped buying these engines. Dr. Payton, 
General Kehler, could you enlighten us on this?
    Mr. Payton. Yes, Senator. That's part of the propulsion 
doubling end cost that we have seen. We haven't experienced it 
yet. It has been predicted. It's both the upper-stage engine, 
called an RL-10, and the first-stage engine, called and RS-68, 
on one of the EELVs.
    The company that makes those two rocket engines has shrunk 
its overhead, facility-wise, by 50 percent in the past few 
years, but with the drawdown of the Space Shuttle main engine, 
which that company also works on; and the cancellation of a 
rocket engine called the J2X, which is part of the Ares launch 
vehicle. If that does come about, even though they've already 
reduced their overhead dramatically in the past few years, they 
will still have more overhead, more facility space than they 
need to produce the first-stage engine and the second-stage 
engine. That's, again, part of the industrial-base 
ramifications that we have to manage very tightly.
    Additionally, the flight rates for the EELVs have not 
materialized, due to a drawdown in commercial launch sales. 
That has been part of the problem, too; just not enough rocket 
engines being built compared to what the original plans were.
    Senator Ben Nelson. That puts us at a disadvantage of some 
sort. Is it just economic, or is it the potential of not being 
able to have parts or replacement or anything that would relate 
to continuity?
    Mr. Payton. The first word out of my mouth, when I talk to 
either the Air Force folks or the industry folks, when it comes 
to launch, is reliability. We cannot afford a failure in a 
launch. So, we will not do anything that sacrifices 
reliability. We have, again, six studies ongoing right now, all 
the way from mission assurance to detailed should-cost studies, 
to look at how much manpower the industry is charging to the 
EELV program. So, we have a series of six studies going on 
right now to look at how we can maintain the mission assurance, 
maintain the reliability, and reduce these costs that we're 
seeing on the horizon.
    Senator Ben Nelson. Secretary Payton, the Air Force 
reconfigures and uses excess strategic assets for space launch. 
I understand there may be some issues arising, from a 
competition perspective, with regard to the use of these 
assets. Is there a way to save money, with respect to the 
assets, and avoid destruction costs? Does the Air Force have a 
view on this?
    Mr. Payton. These rockets, that use excess Intercontinental 
Ballistic Missile (ICBM) stages, are called Minotaurs. There 
are four different sizes of Minotaur. Every time we use one, we 
get Secretary of Defense approval to do that, for that very 
reason. But, these launchers launch satellites that are much 
smaller than what EELV rockets can launch. So, it's a different 
class, a different, almost, market space, a different market 
for these class of launchers, compared to EELVs.
    Senator Ben Nelson. All right.
    Ms. Chaplain, you mentioned in your testimony that one of 
the problems facing DOD in the future is a lack of adequate 
engineers and technicians with space experience. Is this a 
problem not only with DOD, but is it also just a general 
problem in the industry, as a whole?
    Ms. Chaplain. Yes, I think it is a general problem. The one 
thing to note is that NASA has some special flexibilities, in 
terms of hiring people and retaining them and recruiting them, 
that the DOD may not have on the space side, but, generally, in 
aerospace, I think there's an increasing shortage in key 
technical expertise, that everybody is dealing with.
    Senator Ben Nelson. From the standpoint of the Air Force--
and perhaps from the Navy, as well--Secretary Payton and Dr. 
Federici, could you give us some idea of your experience in 
being able to field technically competent engineers? While we 
may have it under control at the moment, or getting it under 
control, what does the future hold?
    Dr. Federici. Within the Navy, we have the Naval Research 
Lab (NRL), and they have been in the space engineering, space 
science and technology, for well over 50 years.
    Senator Ben Nelson. Does that mean you're growing your own, 
in effect?
    Dr. Federici. We use the NRL as pretty much a pipeline to 
grow engineers on the civilian side. We also have a military 
cadre there, as well, that augments it.
    We also have a very strong Navy element at the NRO, and we 
have had that element for a long time. I believe we have about 
240-plus people out there, all participating in acquisition 
programs. We also hold leadership positions out there. Admiral 
Liz Young is the systems engineer for the NRO. We also have 
Andrew Cox, who runs their Communications Directorate. Those 
are the key areas where we try to grow our people, and 
especially the people in the NRO--mostly military--and a 
civilian segment, as well. We try to take the military and try 
to move them back to the fleet, when we can, bring them back 
into space, as well, so that we always are bringing the fleet 
views of space support within this technology arm of the 
National Security Space Office.
    Senator Ben Nelson. Secretary Payton?
    Mr. Payton. The Air Force has something called an 
Acquisition Improvement Program for not just space, but across 
the board--air and space and cyber. Part of that is hiring 900 
new acquisition personnel for space itself. We've already 
brought on over 50 of those 900. That 900 will spread over the 
course of a few years. So, that's on one end of the spectrum, 
where we're attracting into Air Force space folks who are 
already skilled in space acquisition engineering.
    On the other end of the spectrum, there are brand new 
lieutenants. The Air Force Academy has a superb astrodynamics 
department, where the cadets actually design, build, and fly 
satellites. So, we're working the problem on both ends of the 
career spectrum.
    General Kehler. Since the Space and Missile Systems Center 
(SMSC) is in AFSPC--over the last year, or a little bit more 
now, we have seen a sharp increase in the number of young 
people coming out of college who are interested in coming to 
work at SMC, to the tune of almost 300. Now, there are reasons 
for why they are there. It has to do with the economy and some 
other issues, of course. But, nevertheless, that's about 300 
young people that we would not have had otherwise. We believe 
that--given the nature of the work that they will do there, and 
the fact that many of them were interested in interning with us 
before they actually came to work for us, we think that we will 
retain a sufficient number of them, or a high percentage of 
them. That's good news for us, and that's one of the brightest 
spots that we've had in a number of years. So, that piece is 
good.
    I think the experience level of our program managers is 
going up. We have committed to keeping some of our program 
managers in place longer, for example, than we had in the past, 
and I think that's paying some dividends, as well. So, working 
through this Acquisition Improvement Program, I think that we 
have seen some strides here. The question is whether we can 
sustain that. When the Air Force presence at the NRO, as well, 
which has been a very large presence over the years--we also 
see more experience there, and, in fact, some additional 
program management opportunities and other things out at the 
NRO, as well.
    The two places where we procure most of the Nation's 
national security space devices--AFSPC and the NRO--have seen 
some improvements over the last year or 2.
    Senator Ben Nelson. Mr. Secretary, over 80 percent of the 
satellite communications in Iraq and Afghanistan are handled by 
commercial satellites, and most of this capacity is purchased 
on an annual basis and funded through the supplemental or 
contingency operations funding. In your view, should there be a 
more strategic approach to buying commercial communications? 
What's the right mix of commercial and military capacity?
    Perhaps, General Kehler, I would begin with you.
    General Kehler. Mr. Chairman, there should be a more 
strategic view about how to go forward. There is no question 
that satellite communications is one of those places where we 
rely very heavily on what commercial can provide; and, as you 
say, we essentially buy it by the pound.
    As we look to the future, of course, we have tended to 
provide the very high-end protected communications. The Navy 
does UHF for tactical and operational purposes; we've now been 
launching the wideband global service satellite. But, we still 
see room in the future for commercial, and one of the issues 
that has been taken on in the SPR is, what that mixture should 
look like as we go forward.
    At the same time, we are also looking at what the 
architecture should be, with the cancellation of the 
Transformational Satellite System. What does that mean for the 
future of protected satellite communications and this mixture? 
We are back looking, again, to revalidate our requirements, so 
that we can understand what that mixture should be as we look 
at the future.
    Senator Ben Nelson. Okay. Thank you. I think that will 
suffice there.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Panelists, thanks for taking time to join us today.
    Welcome, General Kehler. I know you took the medium-length 
journey from Colorado to join us today; and I understand that 
you, in part, came to be a part of the wonderful ceremony we 
had in Emancipation Hall, with the WASP pilots. It was moving 
and inspirational.
    My mother was a pilot. She was inspired to become a pilot 
both by the example of Amelia Earhart and the WASPs. I 
remember, fondly, her throwing three or four of her children, 
including me, into the airplane, and off we went, in Arizona.
    I'm reminded, Mr. Chairman and Ranking Member Vitter, when 
we want to come together, it seems to be the American women 
that bring us together. It was very, very inspirational to be 
there today.
    Let me, if I might--and, Secretary Payton, turn to you, as 
well--to talk about NPOESS. I now understand we're calling it 
the Joint Polar Satellite System, and that seems to be an 
important step, as we move to reconfigure what we do, rename 
it, as well. I've watched its progress, or lack thereof, in 
some cases, both in the House of Representatives and now in the 
Senate. The budget has ballooned, and the schedule was slipped. 
But, I was encouraged by the President's decision to separate 
the acquisition responsibilities and move away from that tri-
agency management structure that a lot of reviewers, 
independent and internal, said was, in part, why we had some 
troubles.
    I think we have the beginnings of a workable program. I'm 
going to continue to follow its progress and look to you all 
for leadership in the Air Force. I'll give the Navy a pass for 
the time being. But, this is so important to have this 
continuity of weather and climate data.
    We haven't heard a lot of detail about the direction that 
we're going to take, so I'd appreciate if you'd share what you 
know of the timeline, the expected requirements for the morning 
orbit, and how you plan to determine them. In other words, will 
the legacy capabilities of the Defense Meteorological 
Satellites Program (DMSP) satellites be sufficient, or do you 
need capability along the lines of the NPOESS satellites?
    A lot of questions, but I'll yield time to you all to share 
your thoughts.
    Mr. Payton. Yes, sir. Part of the stress and strain inside 
the NPOESS program was a desire for both Earth science climate 
data and operational weather observations to come off of the 
same platform. That's difficult to do from an engineering 
perspective, as well as from a sensor resolution perspective. 
That's a difficult design systems engineering task. That's 
really why the program was delayed as long as it was. I think, 
fundamentally, that difference lies at the split of the 
program. For Earth sciences, that afternoon orbit is the best 
orbit for observing for Earth sciences purposes. For military 
operational weather observations, the early morning orbit is 
the best orbit. So that logic played into that division of 
responsibilities.
    We are still going through the details of what sort of 
military requirements would be necessary for that morning 
orbit. The JCS are doing that for us. The good news is that we 
have a large workforce, both in industry and the government; 
operators and acquirers that are familiar with this mission 
area. We don't have a learning curve with the people who are 
doing this, and so everything should be accelerated in that 
regard.
    Again, we're going to confirm military requirements for the 
morning orbit and fold in any other Earth science requirements 
that may be satisfied in that orbit. But, predominantly, the 
requirements scrub will be followed by acquisition decisions 
about which sensors we need, on what size platform, and then we 
can do the appropriate budgeting for the fiscal year 2012 
Future Years Defense Program.
    General Kehler. Sir, I would just add, we have two DMSP 
satellites left, and so, we have a little bit of flexibility 
here. We are faced with decisions that we have to make, but we 
don't have to make them today. We have to be deliberate about 
how we make those decisions. I think that's what Secretary 
Payton is suggesting, that we are on a pathway to make some 
deliberate decisions here.
    Every review panel that looked at our acquisition programs 
over the last, maybe, 10 years that I've been paying really 
close attention to this in leadership positions has cautioned 
us against trying to do too much on any one given platform. I 
think that's what Secretary Payton was just saying, as well; 
these are very difficult integration issues when it comes to 
that.
    At this point, the thinking is that we will still have a 
shared operational structure that will surround these various 
weather satellites, but that the acquisition will be placed in 
the right places for the right tasks. Now, it's important for 
us to figure out what those ``right tasks'' are, to put in the 
acquisition houses that are best set up to do those, and make 
sure that we can do that in a timely way, harvesting the 
technologies that have already been paid for, essentially, 
through the development of the NPOESS program.
    We now have to go do our homework and make sure that we 
understand what best way to go forward here so that we're not 
repeating any mistakes that have been laid out for us very 
capably and very painfully by a lot of the acquisition reviews.
    Senator Udall. Can and should we continue to ask you some 
hard questions about all of this as you reconfigure and make 
these decisions?
    General Kehler. Absolutely, sir, absolutely. [Laughter.]
    Yes, sir.
    Senator Udall. I know I have the support of the chairman in 
that regard.
    If I might, Mr. Chairman--cut me off if my time expires--
but I had two other questions.
    I'm excited about the restructuring of the National 
Security Space Institute (NSSI) and the construction that will 
begin to house it and the Advanced Space Operations School at 
Peterson. I'm a homer in that regard, just like Senator Nelson 
is for his State.
    You talked, I know, in your testimony about the synergy 
between space and cyber, and I know that was a part of why the 
24th was located under Space Command. I'd like you to expound a 
little bit more about those lessons and how you're gaining from 
the synergies that are in front of us.
    General Kehler. Yes, sir. First let me offer that, again, 
almost 9 years ago, when the Space Commission reported that we 
needed to do a better job preparing our space professionals, 
one of the outputs of that was to construct what is now known 
as the NSSI to do continuing education, if you will; 
postgraduate-level education for our space operations people, 
for our space acquisition people, for our space intelligence 
people, space weather people, and others who are all now part 
of that cadre of space professionals. It's a joint activity; 
Navy folks come, Army folks, a handful of marines, et cetera. 
We have now taken that NSSI and its continuing education, and 
we've aligned that under the Air University, so that it's going 
to get mature faster, we think, with a university structure 
over top of it. So far, it's going well. We will, in fact, 
break ground on a new building for them here in the not-too-
distant future.
    The second piece, though, is advanced operational training; 
and that we've aligned with the Air Force Warfare Center. That 
will be done in Colorado Springs, because that's where the 
expertise is. But, this is advanced operational training that 
prepares our people to go forward, that prepares people for 
General James and his operational activities. I'd be willing 
certainly to listen to his comments on this, as well.
    I think we have that aligned the right way now. I think we 
have it aligned for our future. As I look over my shoulder at 
the young space professionals that are coming behind us, I 
think they are far better than we have ever seen before for a 
lot of reasons. These are some of those reasons.
    Regarding the Air Force's decision to move out on the 
Secretary of Defense's direction to prepare for cyberspace 
activities, yes, the Air Force has done a couple of important 
things.
    First is, we have decided that the major command 
responsibility for cyber will be in AFSPC. We think there's a 
natural relationship there, engineeringwise, technologywise, 
and networkwise, where space is largely about networks. Cyber 
is largely about networks, and its operational business, in our 
view. So, putting it under a command like AFSPC made sense; 
standing up an operational organization--24th Air Force, which 
parallels General James' 14th Air Force for Space. Second is, 
training the people, essentially paralleling the way we are 
training space people, I think, has us on the right track for 
the future.
    So, all those pieces together we did based upon many of the 
things that we have done for space and the success that we have 
seen in doing those.
    Senator Udall. General James, do you care to comment?
    General James. Yes, sir. On the training aspect, as General 
Kehler said, really, there are two key areas. Number one is 
looking at how you grow up a space professional, and how you 
get them the depth that they need to execute the mission. I 
think over the last 10 years, as we've frankly been executing 
combat operations around the world, we've gained a lot of 
experience to know what do those space professionals have to 
know in order to support those combat operations around the 
globe. So, we've tailored our training to that.
    The second piece, as General Kehler mentioned, is the Air 
Warfare Center. We've really put into the curriculum there a 
lot more thinking about how you operate in an environment where 
space is absolutely essential, but it will be contested. We are 
also making sure our operators understand: How do we operate in 
those particular environments? What sort of experiments do we 
need to do at the Warfare Center so that all of this is 
relevant to the combat operation around the globe?
    We're really ramping up quite quickly with the Air Warfare 
Center to understand all of those implications as we send 
people to Red Flags and the Warfare School and those sorts of 
things. We're making a lot of progress in both of those areas.
    Senator Udall. Congratulations.
    I see my time has expired.
    Mr. Chairman, I have another question. We can go another 
round, if that works for you.
    What I hear you saying is, you have outer space, you have 
inner space, and the two of them are definitely linked, and 
there are lessons that apply to both realms.
    Thank you.
    Senator Ben Nelson. Thank you.
    General Kehler and Secretary Payton, has there been a 
decision as to how the fiscal year 2010 NPOESS funds and the 
fiscal year 2011 funds will be spent? I heard you say fiscal 
year 2012 is where you're beginning to look, but what about 
2010 and 2011?
    Mr. Payton. Senator, we would suggest continuing the 
industry work on the sensors and the spacecraft design and, of 
course, the continuing realtime operations and algorithm 
development that are going on, so that when the sensor 
information comes down, the computers on the ground can digest 
it. We need to continue that work for both NASA's utility and 
the Air Force's utility, because the sensors that the Air Force 
will need will probably be very similar to the sensors that are 
under construction right now.
    Senator Ben Nelson. General Kehler, do you have anything 
that you would like to add?
    General Kehler. No, sir. In light of the decisions, some of 
it is still being worked out, and it's being spent the way 
Secretary Payton says.
    Senator Ben Nelson. Admiral Dorsett and General Kehler, for 
years the committee has challenged the Department to pull 
together an integrated and funded satellite communications 
architecture. This follows up on the Afghan and Iraq question. 
To date, we really don't have any architecture. Given the 
significant increase in the use of manned and unmanned air 
systems, as publicly discussed by Secretary Gates and Secretary 
Donley, does a strategic plan exist to address the associated 
significant increase in satellite communications support for 
these systems? Perhaps equally important, is that plan fully 
funded?
    Admiral Dorsett. Mr. Chairman, I'm not aware that there's a 
plan, nor am I aware that it's fully funded. As I look at just 
the Navy's portion of satellite-based communications, I would 
say that my observation is that there's clearly a need for an 
integrated DOD-wide approach to space-based communications.
    As I discussed earlier about our MUOS challenges, we in the 
Navy have not even necessarily taken a completely integrated 
approach. The one thing that I can offer, though, is that our 
CNO focus on networks, on information, and on space, is at such 
a high pitch at this point that in our next budget 
deliberations, he's putting great pressure on us to focus on 
the networks, the communications, the flow of information. So, 
we are basically ramping up our focus on this.
    Across the Department, I certainly would applaud a more 
integrated approach. The Navy has gone it alone, with the 
communications satellite systems and programs that we've 
managed previously, sir.
    Senator Ben Nelson. Dr. Federici, I see you nodding 
approval.
    Dr. Federici. I agree. To answer your question from my 
perspective, there is no integrated communications architect. A 
lot of architecture work is ongoing in different pockets of DOD 
and the NRO and elsewhere.
    A lot of these architecture studies though, in my view, are 
being done separate from the planning and programming and 
budgeting process. Somehow, we need to develop mechanisms and 
appropriate structures to bring those together, and there needs 
to be somebody that's held accountable for this at a top level. 
That has not been done yet.
    Architecture work has been ongoing, but it's more 
architecture on paper, and it doesn't translate into budget and 
programs or impact programs. It doesn't necessarily have to be 
a program in itself, but we really need to impact programs. It 
could turn to a policy, but we can't have policies that are 
unfunded mandates. We need to make sure the policy, if it's 
being derived from an architecture, is then linked to programs 
appropriately, and appropriately funded, as well.
    Senator Ben Nelson. General Kehler?
    General Kehler. I couldn't agree more. We have done a 
series of individual architectures over the years for space. 
What we have not done is an integrated communications 
architecture, which is really what needs to be done, which is 
an air, space, and terrestrial architecture that would really 
pull all the pieces together. Work is underway to do such an 
architecture. That's a very difficult architecture to 
construct.
    I can tell you that the Chief of Staff of the Air Force has 
looked at me recently and said--much like the CNO has looked at 
his staff--and he has said: ``I want you to come back to me 
with a single air, space, and terrestrial Air Force network for 
one Air Force network that becomes part of the bigger 
architecture.'' But, in terms of across the Department, this is 
something that we know is a missing link, and something that we 
need to go get after.
    Senator Ben Nelson. Secretary Payton, will that study that 
the Secretary of the Air Force is working on be one of the 
essential elements to getting the architecture across the board 
for all the elements of air, terrestrial, and otherwise?
    Mr. Payton. Truthfully, the first step on air, terrestrial, 
and space communication requirements is being led by NII within 
OSD--NII and the Joint Chiefs--J-8. They're putting together 
something called a bandwidth study that looks at the total 
requirements--air, space, and terrestrial.
    Senator Ben Nelson. In the process of doing that, that 
could be the group that puts it together, but ultimately, there 
has to be somebody that will have responsibility for it. Could 
we have that as a result of the Secretary's study--if I 
understand what you're explaining in Secretary Donley's study?
    Mr. Payton. Yes.
    Senator Ben Nelson. You get both. I understand. You have to 
have the architecture, then you have to have somebody that's 
responsible for the policy, of seeing it through?
    Mr. Payton. To execute the programs and deliver the 
architecture.
    Senator Ben Nelson. Execute it?
    Mr. Payton. Yes, sir.
    General Kehler. Mr. Chairman, I don't think there's any 
lack of desire on the part of the Services or others to have 
such an architecture. This is really hard.
    Senator Ben Nelson. Even if we get somebody in place, it 
doesn't mean it's going to be a chip shot. Is that fair?
    General Kehler. It depends on how you shoot, sir. 
[Laughter.]
    Senator Ben Nelson. Some days, it's good golf. [Laughter.]
    General Kehler. Yes, sir.
    Senator Ben Nelson. Going back to the Air Force. Currently, 
there is no funding in the Air Force budget for a technology 
maturation line for overhead infrared capability. At the same 
time, the Missile Defense Agency (MDA) has included in its 
budget funds for a new infrared satellite capability for 
missile tracking. The age-old question: Have the Air Force and 
the MDA coordinated on the requirements and technology for the 
program, to your knowledge?
    Mr. Payton. No, sir. When he first got on the job, General 
O'Reilly came to talk to the Air Force about his ideas about 
this program called the Precision Tracking Space System (PTSS). 
We have to remember, though, that that program is for what they 
call midcourse tracking, where the rocket has already burned 
out and is now coasting through space. That is a different sort 
of infrared, different mission than overhead persistent 
infrared, which is looking for hot things, and globally. The 
PTSS will be more geographically constrained than what we can 
tolerate for the overhead persistent infrared sensor systems.
    Senator Ben Nelson. Okay.
    Senator Udall, would you like to finish up with your 
questions?
    Senator Udall. Thank you, Mr. Chairman.
    Let me just start out by thanking Dr. Federici and Admiral 
Dorsett for being here.
    The United States has been, is today, and will always need 
to be a maritime power, so my questions to the Air Force are 
not meant with any disrespect for the important roles that you 
play and the way in which you let us project force.
    General Kehler, you noted that approximately $3 billion 
will transfer to AFSPC in fiscal year 2011 to grow cyberspace 
professionals and provide integrated cyberspace capabilities to 
Joint Force commanders. Could you outline how that $3 billion 
breaks down?
    General Kehler. Yes, sir. It's existing money, first of 
all. It transferred as we pulled together cyberpieces from 
around the Air Force. It's not new money that we've put in the 
direction of cyber. So, first of all, it is largely to do those 
things that we have been doing for quite some time. Just as the 
Navy did, when they pulled together pieces of the Navy into 
their new organization, we pulled, largely, our communications 
and computer activities into my command and inside 24th Air 
Force.
    Much of what we are doing is continuing to provide those 
basic network communications, computer sorts of services that 
we had been doing in a scattered way throughout the Air Force, 
but now we've brought focus to all of that.
    The other thing that we are doing is, we're revising our 
training activities to make sure that we are now building 
cyberprofessionals from the beginning who have certain academic 
prerequisites, who enter our training pipeline, who go through 
a deliberate preparation time, much like we do with pilots or 
space operations people. We are putting all of those pieces 
together inside air education and training command.
    We are also continuing to provide expeditionary 
cyberforces, combat communications people, who go forward--some 
of them are in Haiti, for example, still as we speak; others 
are forward deployed in the U.S. Central Command area of 
responsibility, et cetera.
    Then, of course, we are working on a new operations center, 
which will be part of 24th Air Force, which will be our Service 
component to the joint cyberspace organization--STRATCOM today. 
If and when we get to U.S. Cyber Command, 24th Air Force will 
be part of that. That $3 billion a year does everything from 
purchasing long-haul communications that we have to purchase--
and, by the way, the demand continues to go up--through doing 
our normal communications functions--deployable air traffic 
control systems, all of the pieces that go with that--that 
we've inherited as part of the new cyberbusiness.
    Then, the new things that we're doing to be able to do the 
primary responsibility, which we have for our service in cyber, 
which is protecting ourselves and making sure that these 
intrusions that go on, while we may not be able to prevent them 
all or stop them all, that they don't impact our missions. So, 
our focus has become a mission-assurance-under-duress kind of a 
focus, so that we can continue to operate, even in the face of 
these intrusions that go on.
    Senator Udall. Two comments on those points before I turn 
to General James for my last question. I would anticipate that, 
much like other areas of endeavor in the civilian arenas, that 
soon we will be competing--the military, that is--Federal 
Government--for personnel with those who have needs to protect 
their own assets in cyberspace, whether it be the banking 
system or our electricity grid and a number of other areas in 
which we see those sorts of threats.
    I would also imagine that the ideal cyberprofessional would 
be an additional asset if they spoke Russian, Chinese, Hebrew, 
or French, given where some of the challenges are arising right 
now.
    General James, let me turn to you and talk a little bit 
about SSA. SSA is obviously crucial for keeping our assets 
safe. We're relying more and more on commercial capabilities to 
satisfy our requirements. At the same time, those commercial 
providers, I understand, need to be given access to accurate 
SSA, as well. This was being done through the Commercial and 
Foreign Entities (CFE) pilot program, I think, right? I 
understand that has been made permanent, transferred to 
STRATCOM. Can you update us on your efforts to make sure that 
we have the capacity to share that information between 
government and commercial satellite operators?
    General James. Yes, sir. The folks that do that are out at 
the Joint Space Operations Center at Vandenberg Air Force Base, 
and that's where all the data comes in from our worldwide 
sensors to make sure that we can track all the objects on orbit 
and then do, essentially, what we call conjunction assessments, 
which determine if one satellite is about to be hit by another 
piece of debris or another satellite. Over the last year, we've 
ramped up that capability. We were looking at about 110 
satellites at the beginning of 2009, and now, at the end of 
2009, we are really assessing over 1,100 operational satellites 
to determine if there is going to be a possible collision 
between that particular satellite and another satellite or a 
piece of debris.
    We've ramped up our capability, and that's primarily in 
support of what was the CFE program, now called SSA Sharing. 
So, we provide on the order of hundreds of assessments a week 
to various owner-operators around the globe to determine 
whether or not there is going to be a close approach.
    To date, over 50 satellites--owner-operators--have elected 
to maneuver their spacecraft, based on the data that we are 
providing to them. That's commercial entities, that's foreign 
entities--it really cuts across the gamut. That's what we have 
implemented with this Space Situational Awareness Sharing 
program.
    We're still in the middle of determining the level of 
accuracy of data we can provide, because there are certain 
capacities that we want to protect. But, that's all ongoing, to 
determine how we do that. But, the owner-operators around the 
globe have been relying on our Joint Space Operations Center to 
get them that information, and it has worked very well over the 
last year.
    Senator Udall. How much of that debris is from the Chinese 
weather bird that they unnecessarily destroyed? Was that over a 
year ago, now?
    General James. It's over 2 years ago.
    Senator Udall. Is it 2 years ago?
    Mr. Payton. January 2007.
    Senator Udall. I don't mean to sound whimsical, but I know 
that was--in retrospect.
    General James. The debris creation there was significant.
    Senator Udall. Yes, please.
    General James. I don't remember the exact numbers, but 
several-percentage-point increase in the overall total of space 
debris in the low Earth orbit area. So, yes, sir, we manage 
that quite closely, to make sure that none of that's going to 
impact our systems.
    Senator Udall. Maybe that was a lesson to the world, as 
unfortunate as maybe it was, that that's not necessary in the 
future to show a capability. Hopefully, there are other ways to 
communicate with each other.
    General James. Yes, sir.
    Senator Udall. Thank you, Mr. Chairman.
    Senator Ben Nelson. General Kehler, the Air Force has 
increased the budget for SSA programs. Why is this important? 
What happens if this request isn't fully supported? I'd like to 
know for the record how important this is so that we can 
consider that.
    General Kehler. Sir, as General James just said, today we 
are tracking over 21,000 manmade objects in Earth orbit--
debris, active pieces, or those that have outlived their 
usefulness or become dormant in some way.
    While there's a great volume of space there in which they 
can move, they're all traveling at a very high rate of speed, 
and as space becomes more congested, it's even more important 
that we understand where these objects are and what they're 
doing. First, we have a responsibility to help NASA understand 
for human spaceflight where this debris is and whether people 
are at risk. General James' people draw an imaginary bubble, if 
you will, around the International Space Station and around the 
Shuttle and other human-occupied vehicles when they're flying, 
to make sure that we can be very precise about what potential 
threats may be, because even relatively small objects traveling 
at those speeds--spacecraft, typically, are fairly fragile 
devices so, it's important that we understand where these 
objects are. First, for safety of flight. Second, to preserve 
capability and investment. This an issue not only for national 
security purposes, but for economic purposes, as well. Where we 
saw the unintended collision between the Iridium satellite and 
the dead Russian Cosmos satellite, we caught a glimpse of what 
can happen here if space becomes more congested and we're not 
able to keep pace.
    Much of the SSA investment is to move us from just being 
able to maintain a catalog to this term that we use, called 
situational awareness, which is a dynamic understanding of what 
is actually happening. Because the final reason that we need to 
make sure that we understand what's happening on orbit is so 
that we detect, if you will, acts that would be malicious in 
some way, whether they would be done as part of a conflict in 
the future or whether they would be done as part of an 
unintended consequences, even from a maneuver that might go on.
    With our investment, with the importance of what we do 
there, with the way not only our warfighters but our economy 
and others rely on what comes from space, it's very, very 
important for us to have a better and better and better 
awareness of what is happening in space.
    Sir, I would add one more point. That also extends to 
cyberspace, because there is a relationship between cyberspace 
and space, and our situational awareness in cyberspace needs to 
improve, as well.
    Senator Ben Nelson. Dr. Federici, the Navy's recent report 
on UHF augmentation is a shift from the previous approaches, 
and includes a revisit of commercial UHF options. This 
committee has supported a more aggressive approach to 
mitigation so this is a welcome development. What implications, 
if any, will this decision have for the Navy's fiscal year 2011 
budget? When will you be able to provide details of the 
commercial options?
    Dr. Federici. We have looked at several options in the 
past. We're going to revisit those options. We're going to look 
at some other offerings in the next few weeks. I believe we'll 
want to begin something soon. We'll need to be working with 
your staffs, in coordinating some of our thoughts. We really 
have to work with Admiral Dorsett's staff as well on any 
funding in fiscal year 2011 that may be needed once the bill is 
passed. So, that's something we'll need to work with your 
staffs on as well.
    But, it is an option that we have on the table now. We're 
going to press forward. We need to take a look at what those 
options all are. We need to do the best business-case analysis 
that's available, but we need to do it quickly; we need to get 
something underway.
    We have identified, as the report mentions, a number of 
mitigation options, but, when you take all the options 
together, they don't really give you a full capability of a 
single UHF. We really want to now explore that option. It could 
be a hosted payload, leased, or it could be a purchase. We want 
to take a look at that.
    Senator Ben Nelson. Admiral Dorsett, from an operational 
perspective, what are your major concerns about not having 
adequate UHF capability and plans to develop mitigation and 
augmentation capacity? If you didn't have it, what does that do 
to your operations?
    Admiral Dorsett. First of all, the approach that we are 
taking now, by looking at a commercially hosted payload, is the 
right approach. It reduces the risk that we otherwise would 
have. Last year, we made a decision that we could afford more 
risk, with the additional delay on the MUOS. We made a decision 
that we no longer could afford that risk.
    It does come down to an issue of risk and how much 
capability you're going to be able to provide to the 
warfighters. We're looking at this from a joint perspective, 
since we're providing this UHF capability across DOD. We're at 
the point right now where we need to do additional mitigations.
    I think today we're okay, but if there were to be any other 
delay in MUOS, or any delays in the entire MUOS constellation, 
we'd be placing the Joint Force at a level of risk that, 
frankly, would not be appropriate.
    So, I'm concerned about that from a warfighter's point of 
view. I'm also concerned about it from the provider-of-the-
capabilities' point of view.
    Senator Ben Nelson. In that regard, what are your thoughts 
on making the DOD UHF spectrum available to encourage 
commercial investment in meeting the long-term government 
communications requirements, as well? Do you have some thoughts 
about how that might work?
    Admiral Dorsett. I have not delved into it. I think Dr. 
Federici would be better to answer that. I'd only make one 
comment, and I'd say that that is part of what we're looking at 
when we're looking at mitigation. You have to put that into the 
calculation.
    Dr. Federici. That is an area we'll need to work with ASD 
NII on. I believe there's been precedent set in the past that 
that has been done; I believe, with VSAT. That is something 
I'll need to check, and I'll take for the record.
    Senator Ben Nelson. Okay.
    [The information referred to follows]

    We will continue to work with ASD NII on spectrum policies to 
encourage commercial firms to invest in solutions to meet our growing 
UHF spectrum warfighter communications requirements. In 1997, OSD did 
allow Hughes Corporation to use our LEASAT-5 spacecraft to support a 
contract with the Australian Defence Forces. We are exploring any good 
ideas that the commercial sector brings forward to fulfill our UHF 
communications needs. The Department will keep working with OSD to 
support existing commercial use of UHF government spectrum, as 
demonstrated in the attached 1997 memorandum (attached).
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Dr. Federici. So, that is an issue. It's government 
spectrum. We'll need to share that, subject to a number of 
conditions. So, we'll look at that. We'll take that for action.
    Senator Ben Nelson. All right. Thank you.
    The final question is for each of you. What one thing keeps 
you awake at night or disturbs you most when you look back over 
all the things we have to deal with?
    Secretary Payton?
    Mr. Payton. One of the things that's most frustrating to me 
is the space industrial base. Our costs are going up, because 
the number of second- and third-tier players are getting out of 
the space business. They are getting out because they cannot 
compete effectively with overseas competitors for worldwide 
market. So, that is increasing our costs.
    I worry that eventually it may even lead to reductions in 
reliability. This goes all the way from the satellite solar 
arrays to batteries on satellites to propulsion systems on 
satellites and on launch vehicles.
    The thing that worries me routinely, constantly, is the 
extra costs that we have to put out to redesign our systems for 
suppliers who are no longer there, to requalify new suppliers. 
That's a pervasive, difficult problem and our own export 
controls are hampering our industry.
    Senator Ben Nelson. General Kehler?
    General Kehler. Mr. Chairman, there is not a single 
operational or mission-related item that keeps me awake at 
night. That's because, in the hands of the young folks that we 
have operating these systems, they get the mission done. I 
think once the mission is in their hands and the hardware is in 
their hands, I don't worry about anything that is going on 
operationally.
    I share Secretary Payton's concern about the space 
industrial base. I'm not sure that it keeps me awake at night, 
but I do share his concern about the space industrial base.
    What does keep me awake at night is making sure that we can 
retain these marvelous young people that we have, and 
especially given that this is an All-Volunteer Force. Being 
able to retain the quality of people that we need is something 
that I will occasionally muse about so that I can satisfy 
myself that we're doing everything we possibly can to retain 
them. We do largely but they are in high demand in many places.
    I would add that one of the ways that we are addressing 
that is by increasing the use of our Air Guard and our Air 
Force reservists. Even when people decide to move on, we pat 
them on the back, tell them, ``thanks for your service,'' and 
we offer to hand them over to the Guard or the Reserves. We'll 
have to do that with cyberprofessionals, as well. We're having 
some success with that. But, I spend a fair amount of time 
being concerned about retention.
    Senator Ben Nelson. General James?
    General James. Yes, sir. From an operational perspective, 
again, as General Kehler said, I don't know if it keeps me up 
at night, but it's certainly at the top of my list, and that's 
understanding the expanding capabilities of all the nation 
states and actors around the globe with respect to space. That 
gets into the SSA component of not only tracking objects and so 
on, but truly knowing what is going on in that environment. 
What are these objects? What is the intent of the owner? What 
are their capabilities? You have smaller satellites that are 
difficult to understand what they are doing.
    Getting not just tracking information, but situational 
awareness, so that, ultimately, decisionmakers can make the 
right decisions, should actions be required to protect our 
systems or to operate our systems, is really the thing that we 
need to continue to improve upon. That is not only just 
sensors, like the Space Fence or the Space-Base Space 
Surveillance System, but it's also the melding of the 
intelligence component, because all of those things need to 
play together in order to give, ultimately, that knowledge to 
the decisionmakers to allow them to have that situational 
awareness and make the right decisions at the right time for 
the Nation.
    Senator Ben Nelson. Dr. Federici?
    Dr. Federici. Senator, at the beginning of the session, we 
talked a lot about an executive agent for space and the 
Commission report, almost 9 years ago. Living in acquisition 
for the almost 6 years that I have, and looking at a number of 
different acquisition programs--of course the Navy has--MUOS 
is, pretty much, a capital program, and a couple of small 
acquisition programs. I think the organization and management 
across DOD is a key issue, still. I know it's being worked; 
it's on the table again. I think clarity and more transparency 
would be really good things, especially for the Navy. We know 
all the right offices to go to, but there are several offices 
you need to work with, and it leads back to that question on 
architecture that was asked earlier. The Navy really welcomes 
the opportunities to participate in some of the Air Force space 
programs, as well as the NRO, to participate in acquisition 
programs so we can continue to grow our cadre, as well. Because 
just having one small program office called MUOS is not enough 
to continue to grow a large cadre. So, we welcome that 
opportunity, and we would like to keep it.
    Admiral Dorsett. Mr. Chairman, I'm concerned about the 
rising costs of our people and our systems, especially in the 
current fiscal environment and the projected fiscal 
environment. In the future, when we no longer receive Oversease 
Contingency Operations supplemental funds, I am concerned. I do 
lose sleep over this. I lose sleep over the potential that the 
Nation will not be able to afford the military that our 
taxpayers expect from us. These costs are pretty tremendous, 
and we're already seeing the stress as we're moving towards our 
POM-12 program development, and I expect to see that pressure 
increase in the future. It is a big concern of mine.
    Ms. Chaplain. At GAO, of course, we're paying----
    Senator Ben Nelson. I was so worried you'd say it's these 
gentlemen that keep you awake at night. [Laughter.]
    Ms. Chaplain. Right. [Laughter.]
    Yes, they keep me awake. Of course, I'm paid to worry about 
costs.
    Senator Ben Nelson. Watching over us. [Laughter.]
    Ms. Chaplain. I'm paid to worry about costs and schedule 
for space programs, which is more on the boring side of things, 
but I think these days we're worried about the outcomes of some 
of these acquisition problems, and all the capability gaps that 
we face, and canceled programs. Where does that leave us going 
forward? How do we get from this position of being a little 
behind in some areas to getting back to being ahead and making 
sure we can be ahead? Do we have the right strategy and 
resources to get there? When we have that discussion, I'd 
personally like to see it cut across government, cut across 
industry, and be very strategic.
    Senator Ben Nelson. Thank you.
    Thank you all. I appreciate it.
    Once again, thank you for your service, and those that work 
with you, day in and day out, who wear the uniform or who are 
civilian, who keep us safe.
    Thank you. We appreciate it.
    We're adjourned.
    [Questions for the record with answers supplied follow:]
           Questions Submitted by Senator E. Benjamin Nelson
   national polar-orbiting operational environmental satellite system
    1. Senator Ben Nelson. Mr. Payton and General Kehler, the Office of 
Science and Technology Policy has determined that the National Polar-
orbiting Operational Environmental Satellite System (NPOESS) 
meteorological satellite program should be dissolved and a new approach 
to weather and climate satellites adopted. As part of that program 
dissolution National Oceanic and Atmospheric Association (NOAA) and 
National Aeronautics and Space Administration (NASA) will take the 
afternoon orbit and the Air Force will take the early morning orbit. We 
understand that NOAA and NASA have set up transition teams to begin 
work on their part of this split program. What is the Air Force doing?
    Mr. Payton and General Kehler. The Department of Defense (DOD), to 
include the Air Force, NASA, and NOAA have formed a transition team to 
outline the transfer of efforts from the NPOESS contract to DOD, NASA, 
and NOAA management.
    The Air Force will conduct a requirements review, an analysis of 
alternatives (AoA), and then proceed in accordance with DOD 5200-series 
guidance and the Weapon System Acquisition Reform Act (WSARA). The 
results of the requirements review and AoA will inform the acquisition 
strategy and follow-on program content.
    Air Force Space Command will partner with SAF/US(D), OSD, NOAA, and 
NASA to ensure U.S. Transportation Command (TRANSCOM) requirements are 
met.

    2. Senator Ben Nelson. Mr. Payton, has there been a decision as to 
how the fiscal year 2010 and the fiscal year 2011 NPOESS funds will be 
spent?
    Mr. Payton. The fiscal year 2010 funds are to ensure the continuity 
in each orbit. Second flight unit copies of the instruments slated to 
fly on the afternoon orbit platform following the NPOESS Preparatory 
Project mission are the core focus of the NPOESS program's fiscal year 
2010 effort. The current plan is to continue executing the major 
efforts under the prime contract, carefully pace continued Microwave 
Imager Sounder and Space Environmental Monitor-NPOESS developments, and 
actively support the transition of the follow-on efforts supporting the 
Joint Polar Satellite System program.
    The plan for fiscal year 2011 is contingent on the transition 
activities in fiscal year 2010 as well as the path forward chosen to 
maintain continuity for the early morning orbit.

    3. Senator Ben Nelson. Mr. Payton, when there is such a decision, 
could you please provide the committee with a detailed breakdown for 
these funds, including any termination funds?
    Mr. Payton. Yes, once the agencies finalize their plans, we will be 
happy to provide a detailed cost breakout.

                      space situational awareness
    4. Senator Ben Nelson. General Kehler, the Air Force has increased 
the budget for space situational awareness (SSA) programs. Why is this 
important and what happens if this request is not fully supported?
    General Kehler. Awareness of space is vital to preserving safety of 
life for manned missions and safeguarding our national security and 
commercial interest in space missions. The space domain is becoming 
increasingly contested, congested, and competitive. Our need to operate 
and maintain awareness in the space environment is vital to our 
national security. SSA depends on being able to detect, track, and 
identify objects in space. Today we track over 21,000 active space 
systems; but of graver concern is the increasing number of small 
objects that we are unable to detect, track, assess, and determine 
intent because of the limitations of our existing capabilities.
    If Air Force Space Command (AFSPC) requests for funding of the SSA 
improvement plans are not supported, we unnecessarily put enormous 
investments in national security, civil, commercial and international 
space capabilities and services at risk. Our warfighters, our economy, 
and our way of life depend on space-based services, and we expect the 
dependence to grow into the future.

    5. Senator Ben Nelson. Admiral Dorsett, from the Navy's perspective 
as both a space operator and user of space assets, how important in 
your mind is this increased emphasis on SSA?
    Admiral Dorsett. The Navy is critically dependent on space assets 
for our warfighting and expeditionary missions. SSA is fundamental to 
conducting space operations and is essential to maintaining the 
advantage we enjoy in space. In today's contested and congested 
environment it is paramount that we are able to attribute malicious or 
hostile acts, to fully understand the space environment and the 
operational effects of spectrum interference, and to ensure safety of 
flight for space missions. The Navy relies on the Air Force for these 
capabilities and supports all the efforts to further enhance SSA to 
protect the Nation's and international community's space capabilities.

                ultra-high frequency mitigation options
    6. Senator Ben Nelson. Admiral Dorsett, from an operational 
perspective, what are your major concerns about not having adequate 
ultra-high frequency (UHF) capability and the plans to develop 
mitigation and augmentation capacity?
    Admiral Dorsett. The Navy recognizes that tactical narrowband 
communications are critical to the joint warfighter. We are committed 
to maintaining the current UHF constellation and delivering Mobile User 
Objective System (MUOS) as quickly as possible. We are meeting current 
acquisition requirements, but not demand. Demand for UHF services is 
growing every year. Acquisition programs are planned and funded to meet 
requirements, not necessarily demand.
    The Navy has prepared a series of mitigation options that can be 
incrementally implemented to minimize the operational impact of a loss 
or degradation to the current on-orbit UHF constellation. We have 
already implemented a payload reconfiguration to UFO satellite Flight 
11 which increased the number of available channels. This action was 
completed at no cost and with very low risk to the spacecraft. 
Additionally, the Navy continues to lease supplemental UHF resources 
from two commercial satellites, LEASAT and SKYNET, and is leasing an 
additional channel on an Italian space-based communications system 
(SICRAL). We are also pursuing options to make more efficient use of 
available satellite resources. The Integrated Waveform (IW), a software 
upgrade to UHF SATCOM tactical terminals and control system, is in 
development and will optimize UHF satellite channels by doubling the 
number of accesses that can be supported by a single 25 kHz channel. 
DOD is also in the process of finalizing a Memorandum of Understanding 
with the Australian Ministry of Defense to procure/use channels on an 
Australian-hosted payload in exchange for future use (commencing 2018) 
of equivalent UHF SATCOM accesses. Finally, we plan to assess the 
operational feasibility of TACSAT-4, an Office of Naval Research, Naval 
Research Laboratory, and Operationally Responsive Space Office 
initiative.

    7. Senator Ben Nelson. Dr. Federici and Admiral Dorsett, for many 
years, the Navy has used the commercial LEASAT satellites to provide 
the critical UHF satellite services. What are your thoughts on making 
DOD UHF spectrum available to encourage commercial investment in 
meeting long-term government communications requirements?
    Dr. Federici and Admiral Dorsett. Navy has had success with the 
LEASAT program by allowing a commercial vendor to provide UHF SATCOM 
services in DOD spectrum. Due to the delay to MUOS, Navy is 
investigating options for a UHF hosted payload; this approach would 
also result in Navy/DOD permitting a commercial vendor to operate a 
satellite that employs DOD spectrum. We are supportive of allowing 
commercial investment in systems that use the DOD spectrum if it 
enables DOD to satisfy military communications requirements.

                     operationally responsive space
    8. Senator Ben Nelson. General Kehler and General James, the new 
Operationally Responsive Space (ORS) office is working on responding to 
an urgent need of the U.S. Central Command (CENTCOM) for additional 
Intelligence, Surveillance, and Reconnaissance (ISR) capability through 
the ORS-1 satellite. This is important but the ORS fundamental work on 
the plug and play bus and sensor development work is also important. I 
am concerned that the basic work of the ORS office may be taking a back 
seat to the urgent need. In addition, the out-year budgets for ORS go 
down substantially. Can you explain how you will support ORS in the 
future?
    General Kehler. The President's budget includes significant funding 
to develop the technologies to enable ORS. $78 million of the fiscal 
year 2011 funding is dedicated to the basic work of the ORS office to 
develop enabling capabilities. In fiscal year 2011, the capability 
development funding includes Studies and Analysis, Systems Engineering 
and Enabling Technologies, Radio Frequency Modular Missions #1, Rapid 
Response Space Works, TacSat Planning and Launch Vehicles. The rest of 
the fiscal year 2011 funding for ORS, $15.7 million, is ORS-1 funding 
in response to the COCOM urgent need.
    General James. We do not believe that the basic work of the ORS 
office is taking a back seat to the CENTCOM urgent need. ORS essential 
tasks are to: (1) develop end-to-end enabling capabilities, and (2) 
respond to Joint Force Commander needs validated by TRANSCOM. AFSPC and 
JFCC SPACE strongly support this parallel approach to capability 
delivery for the Nation. From our perspective meeting, the CENTCOM need 
is an operational priority as is balancing enabler development.
    JFCC SPACE and AFSPC continue to work with the ORS Office, 
TRANSCOM, Services and our coalition partners to rapidly operationalize 
and balance the development of cost-effective, responsive technologies.

    9. Senator Ben Nelson. General James, are you involved in the 
operational military utility study for the sensor on the Tac-Sat 3 
satellite, and if so, what are the early conclusions?
    General James. Currently JFCC Space and AFSPC are not direct 
involved in the sensor aspects of the TacSat-3 Joint Military Utility 
Assessment (JMUA). We continue to maintain a close awareness of the 
JMUA technical progress. The full JMUA is not complete. Current 
observations are: (1) JMUA is in the data collection phase. (2) The 
operations in ``routine'' modes are progressing. (3) The ``tactical'' 
modes allow users to task/retask, process and downlink on Space Ground 
Link System and Ultra High Frequencies is ongoing. (4) The current data 
is statistically insufficient for JMUA determination.

    10. Senator Ben Nelson. General James, the ORS program gets the 
bulk of its requirements from the U.S. Strategic Command (STRATCOM). Do 
you see this as still the correct approach or would you recommend any 
changes?
    General James. The process by which the ORS Office receives 
requirements from STRATCOM is currently working. Urgent need 
requirements are submitted by Joint Force Commanders, Combatant 
Commands and Services. As the UCP assigned lead for DOD space mission 
and advocacy, STRATCOM validates the need and directs the ORS Office 
Director to lead an interagency group to develop potential solutions to 
address the need. These solutions are presented to the Commander of 
STRATCOM in approximately 90 days and based on the Commander's 
recommendations are then presented to the Executive Agent for Space in 
his oversight and Service Acquisition Executive role. So far there have 
been four needs submitted to the ORS office to investigate.

    11. Senator Ben Nelson. Admiral Dorsett, the Navy has also been 
very involved with the ORS program. The Naval Research Lab built the 
Tac-Sat 4 satellite, which will launch later this spring, and the Navy 
has representatives in the ORS program office. In your view, how is 
this new program doing and what should it keep doing or do differently?
    Admiral Dorsett. Navy recognizes the potential of ORS to rapidly 
augment, reconstitute, or replenish mission critical space capabilities 
needed by the fleet. Additionally, we see value in the ORS concept to 
rapidly infuse space technological innovations into operational use--
whether to support on-demand surge capabilities or reconstitute 
critical existing capabilities that are degraded or lost.
    I applaud the efforts of the ORS Office and its efforts to develop 
a multi-tiered approach to providing warfighting capability more 
rapidly at reduced costs. However, I do not support Service funding to 
build and store future ``enabling capabilities'' in advance of 
validated requirements. Additionally, it is difficult to fully assess 
and prioritize investment strategies before the prototype ``enabling 
capabilities'' are launched and operational. As the Navy's Resource 
Sponsor for Space, I would desire to see a concrete demonstration of 
operational value and performance of ORS ventures prior to committing 
service-specific funding.
    Further, while enabling capabilities ready for development and/or 
rapid launch are key to ORS success, I would recommend that equal focus 
and priority be placed on evaluating new and innovative approaches to 
using existing, on-orbit resources to address urgent Joint Force 
Commander requirements.

                    commercial and foreign entities
    12. Senator Ben Nelson. General James, with the increased 
challenging of tracking more and more space objects, and to avoid 
collisions in space, the pilot commercial and foreign entities program 
has become a permanent program under your STRATCOM responsibilities. 
Why is this program important and what, if any, challenges have you 
seen in transitioning to a permanent program?
    General James. This program continues to grow in importance, and, 
thanks to establishing this as a pilot program years ago, DOD and 
STRATCOM are now moving the program forward to a more operational 
posture. The Iridium-Cosmos collision of February 2009 revealed that no 
one space-faring nation or organization is immune to the risks and 
dangers of a congested space environment. Within our space surveillance 
resource capabilities, proactively coordinate with both U.S. Government 
and non-U.S. Government entities to take appropriate actions to avoid 
conjunctions since space debris is a danger to all. Fundamentally, SSA 
data sharing by TRANSCOM helps promote safety in space and confidence 
building. Our SSA data sharing is an excellent example of responsible 
and international cooperation. We have established a firm foundation of 
responsible behavior in space. The program enables TRANSCOM to 
establish sharing relationships with other owner/operators in order to 
share information to support safe and responsible space operations by 
all entities.
    Balancing information sharing with our national security 
responsibilities is a challenge. Keeping pace with, or ahead of the 
international demand for SSA has proven to be one on the most 
significant challenges. We have security concerns making sharing 
difficult, as well as challenges of contacting various satellite 
owners/operators. Currently, SSA sharing legislation requires formal 
agreements. Under emergency situations, such as predicted close 
approaches between satellites, we are authorized to provide 
notifications and share information without agreements. We are waiting 
for the delegation of authority to quickly enter into agreement with 
non-U.S. Governments.
    Finally, gathering, analyzing, and disseminating SSA places 
significant demands on our materiel and human resources. We have 
managed by updating and expanding some techniques, procedures, and 
increasing resources. As we provide SSA services to entities, we are 
finding that many new entities approach us for support, which will 
increasingly stress our resources and we will have to manage 
expectations and develop more efficient processes.

    13. Senator Ben Nelson. General James, are there any changes needed 
in the statutory authority for this program?
    General James. The language contained in the current legislation 
adequately addresses to whom the Department may provide SSA data and 
services, and the restrictions that are attached. This allows the 
Department to build a SSA sharing program meeting the constraints and 
limitations of the U.S. Government and the needs of the entity 
supported.
    While a statutory change is not necessary at this time, the 
requirement for a written agreement to be in place before sharing SSA 
information has provided significant challenges to our ability to share 
information. We have an interest in providing SSA services that support 
safety of flight, yet unless it is an emergency situation, we cannot 
provide such services without an agreement in place. The lack of an 
agreement has precluded us from providing some requested services 
directly to a customer, such as early orbit determination support. 
Early orbit support provides the launch agency with information to 
enable insertion of the satellite into its correct orbit, an activity 
we have an interest in supporting in hopes of preventing conjunctions 
between the new satellite and other objects, and for improving our own 
SSA regarding the new object. We are currently reviewing internal 
procedures to determine whether we can expedite requests for 
information by modifying internal processes to make this data exchange 
more timely and efficient. We are optimistic we can address this issue 
without a need for statutory change at this time.

                  commercial communications satellites
    14. Senator Ben Nelson. Mr. Payton, Dr. Federici, General Kehler, 
and Admiral Dorsett, over 80 percent of the satellite communications 
(SATCOM) in Iraq and Afghanistan are handled by commercial satellites. 
Most of this capacity is purchased on an annual basis and funded 
through the supplemental or contingency operations funding. In your 
view, should there be a more strategic approach to buying commercial 
communications and what is the right mix of commercial and military 
capability?
    Mr. Payton and General Kehler. Assured access to SATCOM under all 
conditions remains a critical capability for any warfighter. Wideband 
Global SATCOM (WGS) and Advanced Extremely High Frequency (AEHF) will 
greatly improve our capabilities, but commercial SATCOM are still 
needed to satisfy the entire demand. While supplemental or contingency 
funding is primarily used today to fund commercial leases on an annual 
basis, this short-term contractual model does not necessarily deliver 
the best fees and terms to the DOD. We are assessing many different 
commercial models, including different contractual models such as long-
term leases that would require Services to budget for commercial 
services instead of relying on yearly supplemental funding. This same 
study will also deliver a recommendation on the right balance between 
commercial and military capabilities.
    Dr. Federici and Admiral Dorsett. We agree with the Air Force that 
an integrated, DOD-wide approach to building a communications 
architecture is needed. A holistic Joint Space Communications Layer 
(JSCL) architecture, developed and assessed against current and future 
space capabilities, gaps, and vulnerabilities, will be critical in 
determining the right mix of commercial and military SATCOM for our 
warfighters. It will be important to conduct a risk, cost, and 
feasibility analysis to ensure sustainment of our MILSATCOM capability 
while exploring future partnerships with industry.
                                 ______
                                 
               Questions Submitted by Senator Mark Udall
                                delta ii
    15. Senator Udall. Secretary Payton, the Delta II rocket has been 
one of the most successful launch vehicles in history for putting 
commercial medium class satellites into orbit. However, the last Delta 
II government launch at Vandenberg Air Force Base (AFB) is scheduled 
for 2011. The current lease arrangement between the Air Force and NASA 
has allowed for numerous launches of commercial satellites performing 
national security missions. I am concerned that commercial space 
companies may lose access to launch capabilities after the last 
government Delta II launch at Vandenberg AFB. What assurances can you 
provide that commercial companies will continue to have access to the 
necessary infrastructure to put their satellites into orbit so as to 
avoid being forced to launch on foreign providers?
    Mr. Payton. The Air Force has responsibility for national assured 
access to space. Not only is the Air Force in compliance with the 
Commercial Space Launch Act, it is in the Air Force's interest to 
accommodate commercial companies with access to the launch 
infrastructure. As such, SpaceX has exclusive use of Space Launch 
Complex-40 at Cape Canaveral AFS to support both their government and 
commercial customers and the Air Force will continue to work with 
United Launch Alliance to support their commercial Atlas V and Delta IV 
customers at both the east and west coast launch ranges.

                           satellite imagery
    16. Senator Udall. General Kehler, leveraging commercial satellite 
imagery provides unique advantages over traditional sources. Our 
military can share unclassified commercial imagery with coalition 
partners, enabling maximum information awareness without compromising 
security. Can you tell how your command has utilized commercial 
satellite imagery to accomplish your mission?
    General Kehler. Commercial imagery is ideal for coalition sharing 
and in a humanitarian assistance/disaster response (HA/DR) context. 
While AFSPC maintains close contacts with commercial imagery consortia, 
the joint force commanders are the true end-users of commercial imagery 
services and gain access through DOD's lead at the National Geospatial 
Intelligence Agency. As you may be aware, Unified Commanders used 
commercial imagery for HA/DR following the 2004 tsunami in South Asia, 
recently in Haiti and Chile with the earthquakes, and domestically 
during the California wildfires. In short, the burgeoning commercial 
satellite imagery market can be a significant advantage for our 
warfighters.

    17. Senator Udall. General Kehler, do you envision mission areas 
where your command will more heavily rely on space and near-space 
commercial ISR capabilities?
    General Kehler. AFSPC, while not a direct consumer of commercial 
ISR, has a responsibility for leveraging any and all resources in an 
effort to provide integrated space forces and capabilities for STRATCOM 
missions. Commercial ISR capabilities are considered a viable option to 
meet many of the joint and coalition imagery needs; especially since 
the capabilities, timeliness, and accuracy of commercial services have 
improved over the past decade.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
              space strategy and acquisition difficulties
    18. Senator Vitter. Mr. Payton, Dr. Federici, General Kehler, 
General James, Admiral Dorsett, and Ms. Chaplain, this committee has 
long been concerned with the troubling space acquisition trend of 
schedule delays, Nunn-McCurdy breaches, and the increasing risk of 
capability gaps. What is being done to resolve the poor conditions of 
space acquisitions?
    Mr. Payton. Over the past decade and a half the Air Force has 
attempted to adapt the changing landscape of the industrial base, the 
force structure, and the increasing requirement needs of the 
warfighter, resulting in increased complexity and the pursuit, in 
several cases, of not yet mature technologies. To address these 
challenges, the Air Force is rigorously pursuing an Acquisition 
Improvement Plan (May 2009) which serves as the strategic framework for 
reinstilling excellence in space systems acquisition. The Acquisition 
Improvement Plan focuses on increasing the workforce; senior level 
certification of warfighter requirements; using Acquisition Decision 
Memorandum Cost Estimate Mean for costing; and multifunctional 
independent review teams for source selections. In addition, the Air 
Force is increasing accountability by establishing clear lines of 
authority. This plan postures the Air Force for success in space 
acquisition.
    Dr. Federici and Admiral Dorsett. We agree with the Government 
Accountability Office's (GAO) assessment that DOD has taken numerous 
actions to improve the acquisition process, including strengthening the 
requirements process, cost estimating, testing oversight, and 
acquisition policy. Additional improvements will result from 
development of a DOD-wide space architecture and close and continual 
partnership and communication between related program offices.
    General Kehler. We understand the past problems, have learned 
valuable lessons, and have a way forward. To address acquisition, we 
are guided by the Air Force's Acquisition Improvement Plan, which aims 
to recapture acquisition excellence through improving the requirements 
generation processes, instilling budget and financial discipline, 
improving major systems source selections, and establishing clear lines 
of authority and accountability within organizations. The plan also 
calls for revitalization of the acquisition workforce, which we are 
addressing through improved recruiting, training, and mentoring 
programs for military, civilian, Federally Funded Research and 
Development Centers, and System Engineering and Technical Assistance 
workforce. We are also continuing our efforts to retain skilled and 
experienced acquisition professionals to serve as mentors to transition 
their vast knowledge and skills to their successors.
    General James. I defer this question to Mr. Payton and General 
Kehler.
    Ms. Chaplain. We have not performed a comprehensive review of DOD's 
reforms but it is clear that DOD has been working to ensure that its 
space programs are more executable and produce a better return on 
investment. For example, DOD is working to ensure critical technologies 
are matured before large-scale acquisition programs begin; requirements 
are defined early in the process and are stable throughout; and that 
system design remains stable. DOD also intends to follow incremental or 
evolutionary acquisition processes versus pursuing significant leaps in 
capabilities involving technology risk. DOD is also revisiting the use 
of military standards in its acquisitions and providing more program 
and contractor oversight. These and other actions identified in our 
testimony address the root causes of problems, though it will take time 
to determine whether these actions are successful and they need to be 
complemented by decisions on how best to lead, organize, and support 
space activities.

    19. Senator Vitter. Mr. Payton, Dr. Federici, General Kehler, 
General James, Admiral Dorsett, and Ms. Chaplain, do you believe the 
condition is getting better?
    Mr. Payton. Yes, the Air Force Acquisition Improvement Plan will 
certainly improve space acquisition. Despite past problems that have 
plagued space acquisition, the Air Force is on track to deliver on 
several highly anticipated programs in the next year: Space Based 
Infrared System GEO-1, AEHF SV-1, Global Positioning Systems (GPSs) 
IIF, ORS SV-1, and Space-Based Space Surveillance Block 10.
    Dr. Federici and Admiral Dorsett. Yes, I believe space acquisition 
processes, program milestone reviews, and recurring schedule 
assessments are adding rigor, visibility, and improved oversight to 
critical space programs. The MUOS program is an excellent example, 
where improved oversight allowed Navy to identify the need for a 
National Review Team assessment to independently evaluate program 
``health.'' Our reviews and oversight mechanisms have reinforced the 
need to incorporate an ``end-to-end'' focus on program requirements, 
which directly led to improved efforts at synchronizing programs (i.e. 
MUOS, JTRS, and Teleport) to better provide comprehensive mission 
capability. While it will take time to fully realize the effects of 
changes we have made to date, the Navy is effectively moving forward in 
improving our space acquisition processes.
    General Kehler. The condition is definitely getting better. While 
the ultimate test will be in future results, we have taken significant 
steps toward addressing the acquisition issues, and we believe that our 
newest efforts in accordance with the Acquisition Improvement Plan and 
the WSARA will prove effective. In particular, our efforts are 
providing all stakeholders, from the program manager through the PEO, 
SAF, and ultimately up through DOD and Congress, with greater 
visibility into technology challenges. We have also improved our 
ability to balance performance requirements with the cost and schedule 
risks inherent in developing and fielding new technologies.
    General James. I defer this question to Mr. Payton and General 
Kehler.
    Ms. Chaplain. It will take more time before we will know with 
greater certainty whether conditions are improving. The GPS IIIA 
program is DOD's current forerunner in moving away from past practices 
and getting ``back to basics.'' The GAO was buoyed by DOD's efforts not 
to overreach in deciding to evolve the capabilities on GPS IIIA. 
Further, DOD has continued to work to ensure that requirements remain 
stable. However, these positive efforts are tempered by our concern 
that DOD has developed a deployment schedule that is optimistic.

    20. Senator Vitter. Mr. Payton, Dr. Federici, General Kehler, 
General James, Admiral Dorsett, and Ms. Chaplain, what more needs to be 
done?
    Mr. Payton. The Air Force will continue to follow through on 
bolstering the acquisition workforce and ensuring the Acquisition 
Improvement Plan is a success. Once these initiatives are fully 
implemented, I believe the Air Force will be on a better path to 
executing space acquisition programs and will assess what additional 
actions need to be taken.
    Dr. Federici and Admiral Dorsett. I agree with Ms. Chaplain of the 
GAO that acquisition reform will be difficult to achieve with growing 
gaps in space industrial base expertise, undisciplined contract 
management and oversight, insufficient resourcing for testing new 
technologies, and loss of innovation due to migration of small 
businesses out of the space industrial base. Our space industrial base 
must be protected and sustained. Additionally, we must ensure that the 
development of ground systems and terminals is synchronized with the 
development and on-orbit availability of our space systems, both to 
fully optimize end-to-end capability to the COCOMs, and to be good 
stewards of taxpayer dollars.
    General Kehler. Due to the long timelines for space acquisition, we 
need to remain committed to the Air Force's Acquisition Improvement 
Plan principles over many years to reap dividends. Stability of 
requirements, funding, and personnel are key in delivering programs as 
planned. We will continue to improve processes so that stakeholders 
have the necessary information to make the hard trade-offs in planning 
and executing our investment portfolio to improve our warfighter 
capabilities.
    General James. I defer this question to Mr. Payton and General 
Kehler.
    Ms. Chaplain. The actions that the Air Force and Office of the 
Secretary of Defense have been taking to address acquisition problems 
are good steps. However, there are still more significant changes to 
processes, policies, and support needed to ensure that reforms can take 
hold. Recent studies and reviews examining the leadership, 
organization, and management of national security space have all found 
that there is no single authority responsible below the President and 
that authorities and responsibilities are spread across the Department. 
In fact, the national security space enterprise comprises a wide range 
of government and nongovernment organizations responsible for providing 
and operating space-based capabilities serving both military and 
intelligence needs.
    Diffuse leadership has a direct impact on the space acquisition 
process, primarily because it makes it difficult to hold any one person 
or organization accountable for balancing needs against wants, for 
resolving conflicts among the many organizations involved with space, 
and for ensuring that resources are dedicated where they need to be 
dedicated. Many of the cost and schedule problems we identified for the 
GPS IIF program, for instance, were tied in part to diffuse leadership 
and organizational stovepipes, particularly with respect to DOD's 
ability to coordinate delivery of space, ground, and user assets. In 
fact, DOD is now facing a situation where satellites with advances in 
capability will be residing for years in space without users being able 
to take full advantage of them because investments and planning for 
ground, user, and space components were not well-coordinated.
    Congressional and DOD studies have also called for changes in the 
national security space organizational structure to remove cultural 
barriers to coordinating development efforts and to better incorporate 
analytical and technical support from an organization that is augmented 
with military and Intelligence Community expertise.
    Finally, studies have identified insufficient numbers of 
experienced space acquisition personnel and inadequate continuity of 
personnel in project management positions as problems needing to be 
addressed in the space community. Our own studies have identified gaps 
in key technical positions, which we believed increased acquisition 
risks.

    21. Senator Vitter. Mr. Payton, Dr. Federici, General Kehler, 
General James, Admiral Dorsett, and Ms. Chaplain, do you agree with the 
GAO assertion that we are facing potential capability gaps in critical 
areas?
    Mr. Payton. I defer this question to General Kehler and Lieutenant 
General James.
    Dr. Federici and Admiral Dorsett. Yes, I agree with the GAO. The 
Navy is critically dependent upon space to conduct our wartime mission 
as well as our core capabilities of forward presence, deterrence, sea 
control, power projection, maritime security, humanitarian assistance, 
and disaster response. As one of the largest users of space, we are 
concerned about capability gaps in communications, remote sensing, ISR, 
Positioning, Navigation, and Timing (PNT), missile warning, and 
weather. To address potential capability gaps in the UHF SATCOM mission 
area, the Navy has developed a multi-layer mitigation strategy that 
includes commercial space augmentation options and optimization of 
existing UHF ground and space-based resources.
    General Kehler. The GAO has asserted in recent testimony and 
reports that we are facing potential capability gaps in areas of 
missile warning, military communications, and weather monitoring and 
GPS.
    AFSPC is focused on continuing to deliver modernized MILSATCOM 
capabilities to warfighters. Our third generation MILSATCOM systems, 
DSCS and Milstar, are exceeding their design life and are continuing to 
provide substantial capability. We are delivering our fourth generation 
systems, WGS and AEHF, which will provide an order of magnitude 
improvement over existing capability. Even with our recent successes, 
the growing demand for MILSATCOM requires us to rely on commercial 
satellite capability into the foreseeable future.
    The GPS satellite constellation is extremely healthy. It is the 
largest constellation providing the greatest capability in GPS history. 
Since 1995, the Air Force has met or exceeded GPS performance 
requirements while providing worldwide users with 24/7/365 PNT service. 
In addition, STRATCOM and AFSPC recently initiated the GPS Expanded 24 
deployment configuration that will further improve GPS global coverage. 
While we face challenges in constellation sustainment, we have 
operational measures and modernization efforts that will allow us to 
maintain the required availability of 24 satellites with .95 
probabilities for the foreseeable future.
    General James. [Deleted.]
    Ms. Chaplain. Generally, the further a satellite acquisition 
delivery schedules slips, the more likely DOD is at risk of not 
sustaining current capabilities. In determining whether a gap could 
exist, we relied on DOD reports and testimonies, as well as our own 
understanding of individual satellite constellations, launch manifests, 
and requirements documents. Delays in both the NPOESS and MUOS programs 
have resulted in critical potential capability gaps for military and 
other government users. In addition, according to Air Force officials, 
they have requested information from the space community on how best to 
address a potential gap in missile warning capabilities.

    22. Senator Vitter. Mr. Payton, Dr. Federici, General Kehler, 
General James, Admiral Dorsett, and Ms. Chaplain, what capabilities are 
at the highest of facing a potential capability gap?
    Mr. Payton. Specific capability gaps and risks of capability gaps 
in the on-orbit, operational space portfolio are classified. The Air 
Force is available to provide these details in the appropriate setting 
upon request.
    Dr. Federici and Admiral Dorsett. In our view, the space 
capabilities facing the highest probability of a gap are with several 
classified, noncommunication programs. Additional detail can be 
provided in a classified venue. The UHF constellation has a lower 
probability of capability gap than those classified programs. Current 
analysis projects 70 percent predicted availability of the UFO 
constellation by March 2011. We have developed and funded a mitigation 
plan, including investigating the feasibility of a commercially hosted 
payload approach, to minimize any operational impact to the warfighter.
    General Kehler. [Deleted.]
    General James. SATCOM - Military SATCOM has the greatest potential 
for a capability gap. We are currently suffering an 80 percent lack of 
required capability and rely on commercial SATCOM to fill the 
shortfall.
    [Deleted.]
    Ms. Chaplain. See answer to question 21.

    23. Senator Vitter. Mr. Payton, Dr. Federici, General Kehler, 
General James, Admiral Dorsett, and Ms. Chaplain, what are we doing and 
what more can be done to prevent them?
    Mr. Payton. Specific capability gaps and risk of capability gaps in 
the on-orbit, operational space portfolio are classified. The Air Force 
is available to provide these details in the appropriate setting upon 
request.
    Dr. Federici and Admiral Dorsett. Numerous actions have been taken 
to improve the acquisition process, including strengthening the 
requirements process, cost estimating, testing oversight, and 
acquisition policy. Greater improvement would result from development 
of a DOD-wide space architecture, a central authority to implement it, 
and ongoing organizational alignments. Acquisition reform will be 
challenging with growing gaps in space industrial base expertise and 
loss of innovation due to migration of small businesses out of the 
space industrial base. Additionally, development of ground systems and 
terminals must be synchronized with the development of our space 
systems in order to fully optimize end-to-end capabilities for the 
warfighter.
    General Kehler. [Deleted.]
    General James. DMSP - A new DOD program will be constructed to 
address the morning orbit requirement, leveraging existing work by 
Northrop-Grumman and their subcontractors. To avoid a potential 
capability gap the program is exploring a plan to optimize service life 
of the remaining DMSP space vehicles and employ a Northrop-Grumman 
Aerospace System (NGAS) gapfiller, with a limited sensor suite if 
needed.
    SATCOM - We are analyzing current operations, identifying tactics, 
techniques, and procedures (TTPs), and implementing improvements to 
maximize satellite mission life. We are continuing to maximize our 
commercial SATCOM leases in addition to launching Wideband Global 
SATCOM satellites to prevent any significant SATCOM gaps.
    GPS - Although the GPS constellation can operate with 32 
operational satellites, the 14 AF/CC directed satellite operators at 2 
SOPS to maintain all satellites on orbit with residual operational 
value. These residual satellites do not provide operational capability 
day-to-day but hedge against risk of satellite failures. 2 SOPS 
operators are also employing tactics, techniques, and procedures that 
extend the life of our satellites well beyond their design life. A 
recently disposed GPS satellite was operated for 17 years or 240 
percent longer than its 7.5 year design life.
    [Deleted.]
    Ms. Chaplain. In the short-term, DOD can stretch out legacy system 
capabilities, develop gap filler satellites, or buy commercial services 
to prevent capability gaps, or even employ a combination of these 
solutions. For instance, managing power onboard legacy GPS satellites 
can alleviate potential gaps in coverage. Regarding NPOESS, the NOAA 
and NASA are to procure environmental satellites to meet NOAA 
requirements, and the Air Force is to procure its own satellites to 
follow the current satellites built under the Defense Meteorological 
Satellite Program (DMSP). According to an Office of Science and 
Technology Policy (OSTP) statement, DOD's plan for deploying DMSP 
satellites ensures continued weather observation capability in the 
short-term, but DOD would have to start a DMSP follow-on program in the 
fourth quarter of fiscal year 2011. At this juncture, many questions 
surround DOD's strategy for moving forward. The MUOS program office is 
addressing the potential capability gap by activating dual digital 
receiver unit operations on a legacy satellite, leasing commercial 
ultra-high-frequency SATCOM services, and examining the feasibility of 
expanded digital receiver unit operations on the legacy payloads of the 
MUOS satellites. Regarding early missile warning, DOD is currently 
assessing proposed solutions from the space community on how best to 
quickly field a missile launch detection sensor as a gap-filling 
measure. In the long-term, more realistic estimations of delivery dates 
and knowledge-based acquisition practices, such as proving critical 
technologies before initiating large-scale programs, can prevent the 
kinds of delays that have led to risks of capability gaps. A strategic 
investment strategy can also ensure that programs needed to sustain 
critical capabilities begin at the right time and are not cut back or 
delayed in order to fund other programs.

    24. Senator Vitter. Mr. Payton, given the Department is currently 
undergoing the development of the fiscal year 2012 budget, will the 
space posture review be completed in time to inform the fiscal year 
2012 budget?
    Mr. Payton. Yes, the final Space Posture Review will be completed 
summer 2010.

                   evolved expendable launch vehicle
    25. Senator Vitter. Mr. Payton and General Kehler, the Evolved 
Expendable Launch Vehicle (EELV) assures our access to space. This 
heavy launch vehicle has a remarkable success record and is the true 
workhorse for delivering our systems to space. As we all know, assured 
access to space is not cheap and the cost is trending up. In addition, 
I understand that decisions made within NASA to retire the shuttle and 
cancel the Constellation program will significantly affect future 
launch costs within DOD. Please elaborate on how NASA's change in 
mission has affected the cost of EELV. If not yet determined, when will 
you be able to fully assess the impact? Specifically, please explain 
the potential for cost increases and the affect on the industrial base.
    Mr. Payton and General Kehler. We are still examining the potential 
effects of NASA's decision on launch costs and the industrial base. 
Several efforts are underway within Air Force and AFSPC channels to 
make and internal assessment. We expect to have a sense of the way 
ahead in the summer.

    26. Senator Vitter. Mr. Payton and General Kehler, given assured 
access to space is a national interest, do you believe NASA should be 
partially responsible for addressing the cost increases?
    Mr. Payton and General Kehler. The Air Force and other government 
agencies must work together on current and future space programs to 
ensure this vital national capability. The Air Force, NASA, and NRO are 
in collaboration in the areas of range revitalization, propulsion 
strategy, and policy reform. We are also working to foster commercial 
participation at our launch ranges as part of our overall approach to 
space launch.

    27. Senator Vitter. Mr. Payton and General Kehler, would a change 
in EELV acquisition strategy, such as a block buy approach, help 
alleviate some of these cost increases?
    Mr. Payton and General Kehler. Predictable demand and stability in 
our buying process are the keys to implementing an effective 
acquisition strategy. As part of the launch services acquisition 
effort, we continue to look for ways to make EELV most cost-effective 
by working with the NRO and NASA for block buy opportunities.

    28. Senator Vitter. Mr. Payton and General Kehler, what are the 
benefits and costs to DOD in adopting such a block buy strategy?
    Mr. Payton and General Kehler. The Air Force anticipates a block 
buy approach would address industrial base stability issues, improve 
component/part reliability, enhance cost saving opportunities on 
recurring hardware through economies of scale, and reduce the 
significant contract administrative burden on both the government and 
the contractor. The current practice of procuring each launch service 
as a discrete and servable contract action forces the prime contractor 
to order single mission sets of hardware, or buy larger quantities at 
their own risk. Internal Air Force program office reviews and external 
reviews of the EELV acquisition approach suggest that it would be 
beneficial to acquire launch services in a block buy manner that 
enables the prime contractor to subcontract for economic order 
quantities.
    The Air Force does not anticipate any additional costs to launch 
services of a block buy approach; however, when the funds would be 
required may change. The Air Force and the National Reconnaissance 
Office are currently conducting a joint evaluation of various 
acquisition models to implement a block buy approach.

   national polar-orbiting operational environmental satellite system
    29. Senator Vitter. Mr. Payton, General Kehler, and General James, 
as I mentioned in my opening statement, the administration took 
dramatic steps in restructuring NPOESS. I have some significant 
concerns with respect to the tri-agency divorce and have yet to hear 
from the Air Force how they intend to cover their share of the orbits 
or the overall cost implications for doing so. Does the Air Force fully 
support the decision to divorce NPOESS?
    Mr. Payton. I defer this question to General Kehler and Lieutenant 
General James.
    General Kehler. The Air Force fully supports the Executive Office 
of the President decision and is working with the NOAA and NASA to 
implement this decision. The decision to proceed with separately 
managed acquisitions was made after a full range of ramifications was 
discussed and risk mitigations identified. The Air Force will be 
responsible for the early morning orbit and we are assessing options to 
ensure an effective acquisition strategy.
    General James. The current administration did take significant 
steps in restructuring the NPOESS. However, we will continue to partner 
with NASA and NOAA in those areas that have been successful in the past 
as directed by the President. In particular, a shared ground system has 
been highlighted as an area where our tri-agency relationship allowed 
for mission success.
    We are committed to the process of developing, testing, and 
launching a DMSP successor as directed by the President in his fiscal 
year 2011 budget. As you'll recall, the 2011 budget places sole 
responsibility for DMSP's early morning orbit with DOD.
    The Air Force intends to cover our share of orbits by smartly 
leveraging remaining DMSP satellites (F-19/F-20) and extend the 
constellation's useful life as long as possible. Vehicles F-19 and F-20 
are also a part of the service life extension program (SLEP) and were 
designed for extended life. Our current degradation rates for on-orbit 
DMSP satellites (both SLEP and non-SLEP) provide a high confidence that 
DMSP performance will exceed original design specifications.
    There are some significant cost implications for the Air Force due 
to NPOESS restructuring. These costs will be associated with the 
development and launch of a new program to replace DMSP.

    30. Senator Vitter. Mr. Payton, General Kehler, and General James, 
what is the current path forward for the Air Force?
    Mr. Payton. I defer this question to General Kehler and Lieutenant 
General James.
    General Kehler. The Air Force, working closely with OSD, has been 
an active participant on the triagency (DOD, NOAA, NASA) transition 
team activities.
    Specifically, the Air Force is currently examining the best way to 
provide for the early morning orbit. We are taking inputs from the 
warfighting community via STRATCOM, the requirements community via the 
Joint Staff, and our acquisition component via Air Force Space 
Command's Space and Missile Systems Center. Finally, we will take these 
inputs and synchronize them with the rest of Air Force's capability 
needs to arrive at a final recommendation to Under Secretary of Defense 
for Acquisition, Technology, and Logistics.
    The Air Force has options to consider for ensuring continuity of 
the morning orbit. Instrumental to our plan is the existence of two 
DMSP satellites currently scheduled for launch in 2012 and 2014. The 
Air Force may decide to rely on DMSP for the near future and start a 
new program in the fiscal year 2013-fiscal year 2014 timeframe. This 
would produce a satellite ready for launch in the early 2020s. A second 
option under Air Force consideration is whether or not to continue the 
Northrop Grumman Aerospace Systems effort to provide an NPOESS-like 
satellite in the 2018 timeframe.
    General James. We are committed to the process of developing, 
testing, and launching a DMSP successor as directed by the President in 
his fiscal year 2011 budget. As you'll recall, the 2011 budget places 
sole responsibility for DMSP's early morning orbit with DOD and 
afternoon orbit responsibilities to NOAA and NASA.
    We will smartly employ remaining DMSP satellites (F-19/F-20) in an 
effort to extend the constellation's useful life as long as possible. 
Placing these remaining vehicles in the appropriate orbit will aid our 
extension efforts while also avoiding coverage gaps. Vehicles F-19 and 
F-20 are also part of the SLEP and were designed for extended life. Our 
current degradation rates for on-orbit DMSP satellites (both SLEP and 
non-SLEP) provide a high confidence in the likelihood of DMSP 
performance beyond original design specifications. Ultimately, this 
will allow the DOD to meet presidentially-mandated responsibilities and 
avoid coverage gaps as we develop a DMSP-successor in the early morning 
orbit.

    31. Senator Vitter. Mr. Payton, General Kehler, and General James, 
what steps are being taken to ensure that DOD recoups the technologies 
it has already funded?
    Mr. Payton. I defer this question to General Kehler and Lieutenant 
General James.
    General Kehler. Reuse or harvesting of the NOPESS investments is 
paramount to DOD and NOAA follow-on programs. There are three 
categories of major developments on NPOESS; the suite of sensors, the 
spacecraft system, and the ground system (downlink receipt, 
transmission, algorithms, and product generation).
    Of these major elements, NOAA will use the Visible Infrared Imager/
Radiometer Suits, Cross-track Infrared Sounder (CrIS), Ozone Mapping 
and Profiler Suite, Advanced Technology Microwave Sounder (ATMS), and 
Microwave Imager/Sounder (MIS). The analyses planned by DOD will drive 
the extent to which elements DOD applies in its follow-on effort. The 
solution set is broad, and DOD has not determined its needs for the 
Northrop-Grumman space system or the appropriate NPOESS sensors. The 
Air Force's Space and Missile Systems Center is performing a technical 
evaluation of the currently designed NPOESS system to inform the 
upcoming AoA to determine the optimum material solution(s) for the 
validated need.
    General James. We are committed to being good stewards of taxpayer 
funds in developing the DMSP successor as directed in the 2011 
presidential budget. The DOD is performing a comprehensive review of 
meteorological requirements. This review will build on existing 
requirements and technologies resulting in an AoA.

    32. Senator Vitter. Mr. Payton, General Kehler, and General James, 
what are the potential legal implications for negating the NPOESS 
contract?
    Mr. Payton, General Kehler, and General James. A determination to 
negate and terminate the contract has not been made. In the event that 
a decision is made, the Government has well-known and established 
procedures already included in the contract and previously agreed upon 
by both parties. We have exercised these provisions in many cases in 
the past, most recently with TSAT.
    If the contract termination will involve a reduction in employment 
of 100 or more contractor employees, congressional notification will be 
made in accordance with the DOD Federal Acquisition Regulations (FAR). 
Obviously, if any claims are filed by the contactor during this period, 
these also will be dealt with in accordance with the FAR.
    The Air Force is committed to ensure that if a determination is 
made to terminate the contract, the dissolution process is managed as 
efficiently and effectively as allowed by law; we understand the 
process and have done it before.

                               bandwidth
    33. Senator Vitter. Mr. Payton, Dr. Federici, General Kehler, 
General James, Admiral Dorsett, and Ms. Chaplain, what is the current 
status of the comprehensive bandwidth study?
    Mr. Payton. I defer this question to General Kehler and Lieutenant 
General James.
    Dr. Federici and Admiral Dorsett. The comprehensive bandwidth study 
has been delivered to Congress.
    General Kehler. Currently, the Assistant Secretary of Defense for 
Networks and Information Integration is leading the comprehensive 
bandwidth study. This study is in the final stages and we anticipate 
its completion and submission in May.
    General James. Currently, the Assistant Secretary of Defense for 
Networks and Information Integration is leading the comprehensive 
bandwidth study. I understand that the study is nearing completion and 
in the final stages. I anticipate its completion and submission will be 
in the late April-May timeframe.
    Ms. Chaplain. We do not know the current status of the 
comprehensive study, as mandated by the National Defense Authorization 
Act for Fiscal Year 2009. At this time, GAO does not have work underway 
in the communications bandwidth area.

    34. Senator Vitter. Mr. Payton, Dr. Federici, General Kehler, 
General James, Admiral Dorsett, and Ms. Chaplain, is it safe to assume 
that our bandwidth needs show no sign of decreasing in the future?
    Mr. Payton. I defer this question to General Kehler and Lieutenant 
General James.
    Dr. Federici and Admiral Dorsett. The Navy depends on space 
capabilities now and expects the demand for space capabilities to grow, 
especially for SATCOM and the bandwidth it provides. The UHF narrowband 
SATCOM constellation today consists of eight UHF Follow-On satellites, 
two residual Fleet Satellites (FLTSAT), one Leased Satellite (LEASAT 
5), and leased capacity on SKYNET 5C. MUOS will begin to replace these 
systems in 2011. Based on evolving warfighting concepts, UHF SATCOM 
requirements are expected to grow, and MUOS, as designed, will be able 
to support those requirements. Commercially provided systems have the 
ability to augment, but not replace, national systems. Commercial 
capabilities continue to bridge the gap between requirements (demands) 
and capabilities (available resources). The Navy has utilized 
commercial communication satellites since the early 1970s to augment 
bandwidth requirements not fully satisfied by military communication 
satellites.
    General Kehler. The demand for SATCOM bandwidth is continuing to 
grow. One example of this growth is in the increased utilization of 
unmanned aircraft systems for ISR. This increase in operational 
platforms will require significantly more bandwidth to operate than is 
available today. Furthermore, as the threat continues to grow in the 
future, possessing enough protected communications capabilities to 
counter a hostile environment becomes increasingly crucial. The exact 
demand for SATCOM bandwidth necessary to operate in hostile and non-
hostile environments is identified as part of the JSCL effort.
    General James. Yes, the demand for SATCOM bandwidth is continuing 
to grow. For example, the 2010 Quadrennial Defense Review identified 
the need to expand manned and Unmanned Aircraft Systems (UASs) for ISR. 
This increase in operational platforms requires significantly more 
bandwidth to operate than is available today. Furthermore, as the 
threat continues to grow in the future, possessing enough protected 
communications capabilities to counter a hostile environment becomes 
increasingly crucial. The exact demand for SATCOM bandwidth necessary 
to operate in hostile and non-hostile environments is identified as 
part of the JSCL effort, which Air Force Space Command is a 
contributor.
    Ms. Chaplain. GAO does not have specific work underway in the 
communications bandwidth area. However, based on our work in Iraq, 
upcoming efforts in Afghanistan, as well as new wide area sensors and 
hyper-spectral imaging coming on line, the demand for bandwidth is on 
the increase, and not declining. The new technologies do not seem to 
consider their load on bandwidth capacity.

    35. Senator Vitter. Mr. Payton, Dr. Federici, General Kehler, 
General James, Admiral Dorsett, and Ms. Chaplain, what is the 
appropriate mix between DOD-provided and commercially-provided 
bandwidth?
    Mr. Payton, General Kehler, and General James. The mix of 
commercial-provided and DOD-provided bandwidth is a function of the 
specific capabilities required by the warfighter. Some capabilities, 
such as nuclear survivability and signal protection, are currently only 
provided by DOD systems. However, a significant portion of the 
warfighters' demand for unprotected SATCOM can and is being provided by 
commercial systems. The proper mix of capabilities versus capacity is 
currently being looked at as part of the JSCL effort. We are nearing 
completion with the requirements identification and validation portion 
of this effort. Once the requirements are clearly defined, an AoA will 
be completed that will address specific solutions, to include 
commercial and DOD options, identifying the correct mix to meet the 
warfighters' missions. It is expected that certain capabilities will 
continue to require DOD-provided SATCOM, but a significant portion of 
the overall capacity will be met commercially-provided SATCOM.
    Dr. Federici and Admiral Dorsett. An integrated, DOD-wide approach 
to building a communications architecture will help determine what the 
right mix of commercial and military SATCOM should be for our 
warfighters. Bandwidth requirements continue to increase, whether in 
support of humanitarian assistance/disaster relief operations, regional 
engagement, or major combat operations. The appropriate mixture between 
DOD and commercially-provided capacity will also be determined by the 
nature of the operating environment (benign, congested, contested, or 
denied).
    Ms. Chaplain. The GAO has not been requested to do work in this 
area and therefore we do not know what the mix of DOD and commercially-
provided bandwidth should be.

                    precision tracking space sensor
    36. Senator Vitter. Mr. Payton and General Kehler, as you are 
aware, this subcommittee is also responsible for oversight of ballistic 
missile defense. The Missile Defense Agency's (MDA) fiscal year 2011 
budget requests funding for a new space program called the Precision 
Tracking Space Sensor (PTSS). This proposed multi-billion dollar 
program must be thoughtfully planned across the Department and every 
effort should be taken to ensure that the appropriate acquisition 
management assessments take place for program execution. I understand 
that MDA has proposed a hybrid program office model for developing and 
acquiring this system and I am interested to hear if you have been 
briefed on the plan. Do you support this approach?
    Mr. Payton and General Kehler. We believe the PTSS hybrid program 
office is a sound approach whereby MDA and the lead Service could work 
side-by-side to address issues such as doctrine, training, and manning 
early within the design phase. This office would address PTSS Service-
related issues early in the acquisition process, thus minimizing costs. 
Incorporating Service-related issues early in the acquisition process 
will also reduce sustainment costs; and once PTSS is fielded this 
office will facilitate the transition and transfer of PTSS from MDA to 
the lead Service.

                     operationally responsive space
    37. Senator Vitter. Mr. Payton, General Kehler, and General James, 
as you are all well aware, this committee has been a strong proponent 
of ORS. In addition, General Chilton, the Commander of STRATCOM, has 
been quite vocal in increasing the responsiveness of our space 
recapitalization abilities. Yet, I was surprised to see that the fiscal 
year 2011 budget cuts funding for ORS by almost 25 percent. Is the Air 
Force committed to the ORS model?
    Mr. Payton, General Kehler, and General James. Yes, the Air Force 
is committed to the ORS concept of responsively launching small 
satellites.
    The budget has been relatively stable for ORS funding. It is 
approximately $100 million per fiscal year from fiscal year 2009 to 
fiscal year 2011 with some exceptions for launch vehicle expenditures, 
ORS-1 and congressional adds. The fiscal year 2009 funding is $135 
million higher than fiscal year 2011 due to three reasons. The Air 
Force reprogrammed $39 million into ORS when ORS-1 was initiated as an 
urgent need in fiscal year 2009. The fiscal year 2009 funding line 
contains $9 million for TacSat launch vehicle expenditures while fiscal 
year 2011 doesn't require any TacSat launch vehicle funding. 
Additionally, the original fiscal year 2009 request was increased by 
$87 million for congressional adds (Infrared Sensor Payload 
Development, Micro-Satellite Serial Manufacturing, LEONIDAS, Chip Scale 
Atomic Clock, and Missile Range Safety Technology).

    38. Senator Vitter. Mr. Payton, General Kehler, and General James, 
does the Air Force believe that the development of an ORS 
infrastructure that facilitates rapid reconstitution and reduces the 
fragility of space capabilities would greatly benefit the needs of the 
warfighter?
    Mr. Payton. Yes, the Air Force is continuing the development of 
capabilities and Concept of Operations for rapid assembly, integration, 
and test of modular spacecraft buses and payloads through the Rapid 
Response Space Works. This short-notice call-up and launch will greatly 
benefit the needs of the warfighter. Should on-orbit capabilities 
require augmentation or replenishment, the ORS infrastructure will 
deliver ``good enough to win'' solutions to the warfighter.
    General Kehler. Effects provided today through space-based 
platforms are no longer ``nice to have'' but a ``must have'' for the 
joint warfighter. The ability to ensure these effects will be available 
through phases of conflict is imperative. A responsive infrastructure 
is key to delivering responsive space capabilities. The Air Force is 
improving the responsiveness of the space infrastructure capability 
with organic initiatives and through the ORS program. The fiscal year 
2011 budget request for ORS includes funds for the development of the 
Rapid Response Space Works. This facility is expected to provide the 
opportunity for the Air Force to assemble, integrate, and test small 
spacecraft. The capability to do so may prove useful in meeting 
reconstitution and augmentation mission needs.
    Outside of ORS, the Air Force is investing in the future Satellite 
Operation Architecture and in the Launch Enterprise Transformation. 
Both of these investments show promise of improving the responsiveness 
of the entire space enterprise. Responsive infrastructure is key to the 
ability to rapidly provide space capabilities to the warfighter and 
improving the responsiveness of the space infrastructure will 
significantly offset the inherent fragility of space systems.
    General James. We believe the development of an ORS infrastructure 
would benefit the needs of the warfighter. Rapid reconstitution 
requires standardized plug and play technologies, availability of long-
lead, high demand/low density parts at the ready, boosters at the ready 
with trained crews, and a range infrastructure that is responsive to 
immediate launch demands.
    ORS solutions are designed to be complementary to the large, 
exquisite space systems that meet the bulk of our national military 
space needs, and to the increasing use of purchased commercial space 
products and services. ORS has a mix of attributes--responsiveness, 
flexibility, affordability, and assuredness--that is unique, relative 
to these other two approaches (U.S. Government systems and commercial 
space).
    To be successful at rapid reconstitution, the ORS infrastructure 
must continue to exercise innovative acquisition models, concepts, and 
incentives versus attempting to condense and adjust those of the 
mainstream space acquisition establishment. This is essential to 
ensuring rapid delivery of space capabilities to the warfighter.

    39. Senator Vitter. Mr. Payton, General Kehler, and General James, 
why the reduction?
    Mr. Payton. I defer this question to General Kehler and Lieutenant 
General James.
    General Kehler. In fiscal year 2010, $124.3 million was 
appropriated for ORS. The President's fiscal year 2011 budget requests 
$94 million for ORS. The $30.3 million difference is not due to a 
reduction in the level of effort. The fiscal year 2010 appropriation 
included $12.3 million in congressionally directed projects and $18 
million for the purchase of launch vehicles. The launch vehicle expense 
is not required in fiscal year 2011.
    General James. The reduction in ORS funding from fiscal year 2010 
and fiscal year 2011 of roughly $30 million is for two primary reasons. 
The fiscal year 2010 funding line contains approximately $18 million 
for launch vehicle expenditures not required in fiscal year 2011. 
Additionally, the original fiscal year 2010 request was increased by 
$12 million for congressional adds (Micro-Satellite Serial 
Manufacturing, LEONIDAS, Rapid Small Satellite Development Test 
Facilities, and Space Sensor Data Link Technology).

                            quality control
    40. Senator Vitter. Mr. Payton, Dr. Federici, General Kehler, 
General James, Admiral Dorsett, and Ms. Chaplain, contractor quality 
issues have had significant impacts on major defense space programs 
over the years. In your opinion, what more can be done to address 
quality control?
    Mr. Payton. All of our industry partners are improving their 
attention to assembly procedures, workforce training, and subcontractor 
management. However, this improvement is after several disconcerting 
incidents have occurred across the board. The rework and repetitive 
integration and test cycles required to overcome these errors create 
reliability risks by undoing work that had already been validated as 
successful. As a result, I would like to see better adherence to the 
processes and procedures our industry partners have already developed, 
published, and trained against. Following published procedures would 
have prevented a number of quality incidents from occurring.
    Dr. Federici and Admiral Dorsett. The UHF Constellation is 
comprised of systems that typically last well beyond their design 
lives. The satellites and their subsystems are of very good quality, so 
the Navy can't comment on negative impacts from major defense space 
program quality control problems. The Navy Space Systems Program Office 
along with our contractors is fully engaged in utilizing numerous 
quality control mechanisms that conform to industry standards. With 
these efforts the Navy expects high quality systems to be built for its 
UHF Constellation for years to come.
    General Kehler. There are four key things we can do to address 
quality control on our major defense space programs. They are: (1) 
Reinvigorating government expertise in manufacturing, quality, and 
software, (2) Placing upfront emphasis on quality control, (3) Holding 
contractors financially accountable for their quality control errors, 
and (4) Implement specifications and standards judiciously and regain 
the configuration control of the system by revitalizing the 
Configuration Management (CM) career field.
    Good quality in our major space programs is the result of strong 
and sustained emphasis and teamwork by both the government and 
contractors.
    General James. From my warfighter perspective, I remain concerned 
with space program quality control. JFGCC SPACE is tasked to employ 
space forces and we must have reliable systems to execute the mission. 
We exercise risk management and use survivability and redundancy as 
control measures to account for shortfalls. It is important we involve 
warfighters in establishing requirements to meet specific operational 
needs.
    Ms. Chaplain. Our work has emphasized the benefits of gaining 
knowledge about technologies, design, requirements, and other 
resources, e.g. people and suppliers, before embarking on major 
acquisitions. In my opinion, following a knowledge-based approach can 
help reduce quality problems that we have seen on DOD space programs 
because it would entail gaining more knowledge about potential 
suppliers and their strengths and weaknesses. In addition to more 
knowledge, DOD needs to obtain and analyze more comprehensive data 
regarding prime contractors and their key suppliers which could be used 
to improve quality. Further, DOD space officials have commented that 
they recognize that today's workforce is smaller and less experienced 
than previous workforces and the parts and the process quality issues 
are a major detriment.

    41. Senator Vitter. Ms. Chaplain, I understand that GAO is 
conducting a comprehensive quality review on contractor quality. Could 
you please share some of your preliminary thoughts?
    Ms. Chaplain. I can share a few. First, contractor quality issues 
are not just affecting DOD space programs. Some of the NASA and MDA 
programs we have reviewed have experienced similar problems. Second, 
parts quality problems can have devastating effects. The ones 
experienced by GPS and AEHF satellite program added months to the 
schedule and increased cost. Quality problems have also contributed to 
failures in flight tests at MDA. Third, there are mechanisms in place 
to address these problems and agencies are working together. The 
question GAO is focused on is whether and how these can be more 
effective and what additional steps government agencies involved in 
space and missile defense can take to increase interagency 
collaboration.

                       global positioning system
    42. Senator Vitter. Ms. Chaplain, our hearing last year occurred 
shortly after GAO issued a report about a potential gap in the GPS 
constellation. During that hearing you explained that that if both the 
GPS IIF and the GPS IIIA programs are executed on schedule, there is 
only a 80 to 90 percent probability that the constellation will stay 
above 24 satellites. You further explained that such a probability 
should not be a significant cause for alarm because there are measures 
that can be taken in managing the life of our current satellites. What 
is the current assessment on the potential gap in GPS?
    Ms. Chaplain. As I testified in front of your subcommittee in March 
2010, the results of our assessment of the GPS constellation appear to 
be similar to what we reported last year. Final results of this 
analysis will be available this summer. Since we last reported, the GPS 
IIF program has been further delayed, and we remain concerned about the 
Air Force's ability to deliver GPS IIIA satellites as promised, given 
that the Air Force aims to deliver them 3 years faster than the IIF 
satellites.

    43. Senator Vitter. Ms. Chaplain, how is the GPS IIIA program 
structured in comparison to the IIF program?
    Ms. Chaplain. The GPS IIIA program has been structured by the Air 
Force to prevent the mistakes made on the IIF program. According to the 
GPS wing, the GPS IIIA program is using an approach that emphasizes 
requirements stability, upfront systems engineering, adherence to 
stringent parts/materials standards, active risk management, and full 
program funding. The intent of this ``back to basics'' approach is to 
address the development challenges which have affected numerous recent 
space acquisition programs. Furthermore, according to Air Force 
officials, the IIIA contractor retained some of its workforce from the 
IIR-M program and plans to incorporate a previously developed satellite 
bus--efforts that reduce program risk. Table 1 identifies the key 
differences in program framework for IIF and IIIA.

------------------------------------------------------------------------
                                        GPS IIF             GPS III
------------------------------------------------------------------------
Requirements....................  Addition of         Not allowing an
                                   requirements        adjustment to the
                                   after contract      program to meet
                                   award.              increased or
                                                       accelerated
                                                       requirements.
Development.....................  Immature            Incremental
                                   technologies.       development,
                                                       while ensuring
                                                       technologies are
                                                       mature.
Oversight.......................  Limited oversight   More contractor
                                   of contractor,      oversight with
                                   relaxed             government
                                   specifications      presence at
                                   and inspections,    contractor
                                   and limited         facility; use of
                                   design reviews.     military
                                                       standards; and
                                                       multiple levels
                                                       of preliminary
                                                       design reviews,
                                                       with the
                                                       contractor being
                                                       held to military
                                                       standards and
                                                       deliverables
                                                       during each
                                                       review.
------------------------------------------------------------------------
Source: GAO analysis based on discussion with the GPS program office and
  program documentation.


    44. Senator Vitter. Ms. Chaplain, if it's better positioned for 
success, why do you have a concern about the schedule goals for GPS 
IIIA?
    Ms. Chaplain. We continue to believe the IIIA schedule is 
optimistic given the program's late start, past trends in space 
acquisitions, and challenges facing the new contractor. With respect to 
satellite development, for example, DOD has taken significant steps to 
reduce schedule risks and these should better position DOD for success 
than in the past. But the delivery date is 3.5 years less than the GPS 
IIF program and we have not yet seen a major satellite program in the 
past decade or so that has met its original delivery date, let alone 
one with an ambitious schedule. Our concerns also extend to the ground 
and user components for GPS--which have a history of significant 
schedule delays. To increase confidence in the schedule for delivering 
the ground control system for IIIA (the next generation operational 
control segment known as OCX), the GPS wing added 16 months of 
development time to the effort. This means that OCX is now scheduled to 
be fielded after the May 2014 launch of the first GPS IIIA satellite.

                     minotaur space launch vehicles
    45. Senator Vitter. General Kehler, I want to ask you about the 
Orbital/Suborbital Program (OSP), which allows the Air Force to use 
decommissioned ballistic missile assets to build Minotaur space launch 
vehicles. Minotaur has been a low-cost and reliable launch option for 
the Air Force, with 16 of 16 successful missions to date. In a memo 
dated October 19, 2009, you expressed a desire to use Minotaur rocket 
for launching small defense payloads, saying: ``The Minotaur family of 
launch vehicles provides a moderately responsive and more cost 
effective small launch capability.'' Can you elaborate on the utility 
of the OSP?
    General Kehler. The OSP leverages our inventory of decommissioned 
ballistic missiles to provide effective and low-cost small launch 
capability through the Minotaur family of launch vehicles. Sustaining 
OSP assures some of our emerging small launch needs can be met. OSP 
does not exclude other launch vehicle providers from competing for 
small launch opportunities.

    46. Senator Vitter. General Kehler, for what types of applications 
are Minotaurs currently used, and how does the Air Force plan to employ 
them in the future?
    General Kehler. The Minotaur family of launch vehicles use 
decommissioned ballistic missile assets to provide an effective, low-
cost small launch capability. Minotaur launch vehicles are currently 
used as targets for missile defense testing and to launch scientific 
and research payloads. This year, Minotaur will launch the Defense 
Advanced Research Projects Agency's Hypersonic Test Vehicle, the Space 
Based Space Surveillance spacecraft, TacSat-4, a Space Test Program 
spacecraft, and ORS-1. We expect to continue using Minotaur, as well as 
other small launch vehicles, to deliver small spacecraft to orbit and 
perform suborbital research missions in the future.

    [Whereupon, at 4:20 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                       WEDNESDAY, MARCH 17, 2010

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                       STRATEGIC FORCES PROGRAMS

    The subcommittee met, pursuant to notice, at 2:40 p.m. in 
room SR-232A, Russell Senate Office Building, Senator E. 
Benjamin Nelson (chairman) presiding.
    Committee members present: Senators E. Benjamin Nelson, 
Begich, Sessions, and Vitter.
    Majority staff members present: Madelyn R. Creedon, 
counsel; and Richard W. Fieldhouse, professional staff member.
    Minority staff member present: Daniel A. Lerner, 
professional staff member.
    Staff assistants present: Kevin A. Cronin and Brian F. 
Sebold.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Ann Premer, assistant to Senator Ben 
Nelson; Lindsay Kavanaugh, assistant to Senator Begich; Rob 
Soofer, assistant to Senator Inhofe; and Sandra Luff, assistant 
to Senator Sessions.

   OPENING STATEMENT OF SENATOR E. BENJAMIN NELSON, CHAIRMAN

    Senator Ben Nelson. I call this subcommittee hearing to 
order. The Strategic Forces Subcommittee is meeting today. Good 
afternoon. Before we begin, I have one administrative 
announcement. The open portion of this hearing will continue 
until approximately 3:45 p.m., at which point we will recess 
and immediately move to SVC 217, the Capitol Visitor Center, 
where we will reconvene at 4 p.m. for a closed briefing. This 
briefing will be for members and designated staff only.
    We welcome all of our witnesses today to discuss strategic 
and nuclear forces of the Air Force and the Navy. Appearing 
before the subcommittee are: Dr. Bradley Roberts, Deputy 
Assistant Secretary of Defense for Nuclear and Missile Defense 
Policy; Lieutenant General Frank Klotz, Commander, Air Force 
Global Strike Command (GSC); Lieutenant General Mark 
Shackelford, Military Deputy, Office of the Assistant Secretary 
of the Air Force for Acquisition; Major General Donald Alston, 
Assistant Chief of Staff, Strategic Deterrence and Nuclear 
Integration, U.S. Air Force; Major General David J. Scott, 
Director, Operational Capability Requirements, and Deputy Chief 
of Staff for Operations, Plans, and Requirements, U.S. Air 
Force; and Rear Admiral Stephen Johnson, Director of Strategic 
Systems Programs, U.S. Navy.
    The new Quadrennial Defense Review (QDR) reaffirms that the 
United States must prevent and deter conflict by maintaining 
both strong conventional and nuclear forces. Until such time as 
the administration's goal of a world free of nuclear weapons is 
achieved, nuclear capabilities will be maintained as a core 
mission for the Department of Defense (DOD). It will maintain a 
safe, secure, and effective nuclear arsenal to deter attack on 
the United States and on our allies and partners.
    Today's hearing will discuss issues associated with 
maintaining the nuclear deterrent and the conventional 
operations of the long-range bomber force. When we scheduled 
this hearing, we had assumed that the Nuclear Posture Review 
(NPR), which was supposed to be submitted with the QDR and 
budget request, would have been submitted as well. 
Unfortunately, that's not the case, so some of the policy and 
nuclear force structure decisions have not yet been announced. 
Dr. Roberts, I will ask you later in this hearing to provide an 
update on the NPR and when we might expect to receive it.
    General Klotz, this is your first opportunity as the 
Commander of the new GSC to testify before this committee, so 
we look forward to hearing your plans for the new command and 
how this will improve the Air Force nuclear enterprise. While 
the new command has all of the Air Force nuclear-capable assets 
assigned to it, I also understand that this is not exclusively 
a nuclear command or an effort to recreate the old Strategic 
Air Command. I'd like to understand in more detail how the 
operational control of bomber aircraft will be managed, the 
relationship to Air Combat Command, including how the B-1 fits 
into this picture, and how the new command will influence the 
requirements process for the next generation long-range strike 
capability.
    Keeping the bomber force flying and fully capable to serve 
in its demanding conventional role is essential. All of these 
aircraft are old, the B-52 being the oldest, and all need to be 
modernized and maintained well into the future. The B-52s will 
have been flying for 80 years when they retire around 2040 
under the current plan. These aircraft have a unique capability 
to sustain long loiter times to provide a broad variety of 
ordnance when and where needed.
    General Shackelford and General Scott, we look forward to 
hearing from you how all of the bomber aircraft are performing 
and the plans and funding needed to meet the mission-capable 
rate goals.
    Over the last 2\1/2\ years, the Air Force has taken many 
actions to correct the problems that were uncovered after Labor 
Day weekend 2007, when a B-52 bomber unknowingly carried 
nuclear weapons across the country. General Alston, you've been 
working on fixing these problems for a while. We'd like to hear 
from you how you think we're doing, what the successes are, and 
what you still worry about.
    Admiral Johnson, the Navy has embarked on an ambitious 
replacement program for the Ohio class ballistic missile 
submarines. This will be a costly program that's going forward 
without the benefit of an NPR. We look forward to hearing from 
you about this major undertaking, including the plans, the 
schedule, and the funding that will be needed.
    Last week the subcommittee held a hearing on space systems. 
In that hearing we had a good discussion about solid rocket 
motors and other aspects of the space launch industrial base. 
General Klotz and Admiral Johnson, I would like to hear your 
thoughts on this industrial base, as it is the same one that 
supports the ballistic missiles, and what each of you are doing 
to address those concerns.
    Again, welcome to all our witnesses. I'd like to note that 
each of the prepared statements that we've received will be 
included in the record without objection. Let me say also that 
I hear there may be another vote coming, so we'll try to work 
around that schedule.
    Senator Vitter, would you like to give an opening statement 
at this time?

               STATEMENT OF SENATOR DAVID VITTER

    Senator Vitter. Thank you very much, Mr. Chairman. I'll 
submit my written statement for the record and just focus on 
some highlights of that.
    First of all, I certainly also look forward to the 
administration's NPR as soon as possible. Obviously, this 
discussion is a little bit partial and incomplete without it, 
so we await that and await filling in major blanks as we get 
that. I do believe we're at a particularly critical time and a 
turning point for the DOD nuclear enterprise and we all need to 
be focused on making sure that happens properly.
    In that vein, I would quote the Congressional Commission on 
the Strategic Posture of the United States, which said that as 
the number of warheads decreases, the importance of our triad 
of strategic delivery systems dramatically increases. They 
rightly noted that each leg of the triad provides ``unique 
contributions to stability.'' As ``the overall force shrinks, 
their unique values become more prominent.'' I think this is 
very important to keep our eye on.
    Lastly, I would simply underscore the chairman's comments 
about the position of our industrial base, particularly with 
regard to solid rockets. I am very concerned, as I mentioned 
here previously, about the dramatic change in course proposed 
at the National Aeronautics and Space Administration (NASA) and 
what it would do to our solid rocket industrial base, which 
would have, in my opinion, a major negative impact on a lot of 
your capability and the costs of keeping that capability up. I 
look forward to General Klotz and others' discussion of that.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Vitter follows:]
               Prepared Statement by Senator David Vitter
    Thank you very much, Mr. Chairman. I join you in welcoming our 
witnesses.
    Today's hearing focuses on the Department's fiscal year 2011 
request for the Department of Defense (DOD)-wide strategic forces 
programs. The fiscal year 2011 request signifies a critical turning 
point for the DOD nuclear enterprise.
    With the exception of the Ballistic Missile Submarine (SSBN(X)), 
many of these funding requests are unfortunately designated by the 
Department as placeholders awaiting the delayed release of the 
administration's Nuclear Posture Review. Nonetheless, as noted by the 
bipartisan Congressional Commission on the Strategic Posture of the 
United States, as the number of warheads decreases, the importance of 
our triad of strategic delivery systems dramatically increases. The 
commission rightly notes that each leg of the triad provides ``unique 
contributions to stability'' and as the ``overall force shrinks, their 
unique values become more prominent.'' In this context, I look forward 
to hearing how DOD views the future of the triad, and in light of 
possible future reductions in warheads, how the Department views the 
continued and heightened importance of maintaining and modernizing a 
capable triad.
    One of the most significant and substantial investments in delivery 
vehicle modernization is the Ohio class SSBN replacement. At more than 
$6 billion budgeted over the next 5 years for research and development 
and an estimated 12 ships at $6-$7 billion each, the SSBN(X) is an 
extraordinary yet necessary investment. Nonetheless, development and 
eventual procurement cost as well as schedule must be a critical 
consideration before going forward. I look forward to discussing what 
steps are being taken early to ensure that requirements are 
established, capabilities are affordable, and that the follow-on is 
delivered both on time and within budget.
    Another vital area of the nuclear enterprise supported by the 
Quadrennial Defense Review and the budget request is the Next 
Generation Bomber (NGB). The budget includes $200 million for the NGB 
in fiscal year 2011 and a total of $1.7 billion over the next 5 years. 
I fully support the administration's efforts in this area.
    As for other Air Force related programs, the fiscal year 2011 
budget continues funding to conduct an Analysis of Alternatives study 
for a follow-on Long-Range Standoff capability and dedicates 
significant resources, more than $800 million in the out-years to being 
research, development, test, and evaluation for that effort. I 
understand that a decision regarding the inclusion of a nuclear 
capability awaits further direction from the President, and I look 
forward to hearing more from our witnesses on the contributing benefit 
of our current Long Range Stand-off nuclear capability, and what the 
lack of a nuclear air launched cruise missile could mean for the 
nuclear triad. For the intercontinental ballistic missile (ICBM) force, 
the fiscal year 2011 budget requests more than $320 million to continue 
the commitment of sustaining the Minuteman. This continued 
reinvigoration is an essential investment to ensure the sustainment of 
the ICBM force through 2030.
    The Strategic Posture Commission expressed significant concern with 
the dwindling solid rocket motor infrastructure, responsible for 
supporting the majority of the strategic triad. Simply stated, the 
commission maintains that the submarine-launched ballistic missiles 
(SLBMs) and ICBMs are not being sustained: ``There are no new missile 
production programs planned for more than a decade and decisions on 
follow-on ICBMs and SLBMs have not been made.'' In the meantime, we 
have no other missile development programs utilizing solid fuels, all 
exacerbated by the administration's decision to retire the Shuttle and 
cancel the Constellation Program. As we learned during our space 
posture hearing last week, the cancelation of National Aeronautics and 
Space Administration (NASA) programs has ramifications that go far 
beyond NASA itself and I look forward to hearing more from our 
witnesses.
    Mr. Chairman, I welcome our witnesses, thank them for their 
service, and anticipate a fruitful discussion.

    Senator Ben Nelson. Thank you, Senator Vitter.
    The panel is fairly large today, as we can see, so I would 
hope that each of you would highlight your comments as best you 
can, having already taken your written statements into the 
record. We would begin with you, Dr. Roberts.

   STATEMENT OF BRADLEY H. ROBERTS, Ph.D., DEPUTY ASSISTANT 
  SECRETARY OF DEFENSE FOR NUCLEAR AND MISSILE DEFENSE POLICY

    Dr. Roberts. Thank you, sir, and thank you for the 
opportunity to be here today.
    Let me address directly your question about the state of 
the NPR and the report of the review. The review has been under 
way for 11 months following the legislative mandate and a 
presidential study directive. It is wrapping up. The report 
itself is nearing completion and we expect completion and 
delivery here to Congress within the next few weeks at the 
most. We're very much in the end game.
    We do recognize the delay. We apologize for the delay, and 
we regret it. But there was the need to be thorough in the 
review and the need to ensure that we had official agreement at 
the highest level on how to approach a balanced strategy for 
reducing nuclear dangers in the 21st century.
    I can report that the report itself will be organized 
around five key policy objectives. The first of those is to 
prevent nuclear performance and nuclear terrorism. The second 
is to reduce the role of nuclear weapons in U.S. military 
strategy. The third is to maintain effective strategic 
deterrence at lower force levels. The fourth is to strengthen 
regional deterrence, and assure U.S. allies and partners. The 
fifth objective is to sustain a safe, secure, and effective 
nuclear arsenal.
    Let me highlight two of the main themes that bear on the 
discussion today, two of the main findings of the review. The 
first is that under the New Strategic Arms Reduction Treaty 
(START) the United States should retain the triad. This is 
reflected in the fiscal year 2011 budget submission, which 
reflects commitments to sustain the intercontinental ballistic 
missile (ICBM) in the manner directed by Congress, to begin the 
development of the follow-on class for the Ballistic Missile 
Submarine (SSBN) force, to sustain the bomber force, and to 
upgrade the B-2s over the coming 5-year period.
    You will also hear discussion today of a study that the 
Department has underway which will bring forward results in the 
next budget. It is a study of the requirements of a long-term 
mix of nonnuclear strike capabilities, nonnuclear ballistic 
missiles, cruise missiles, and bombers, and how those are 
integrated in the emerging strategic environment. This is a 
study that's underway and will be concluded in time to impact 
the fiscal year 2012 budget.
    I said that there are two themes from the NPR bearing on 
today's discussion. The first is sustaining the triad under New 
START. The second is to recommend a plan for sustaining the 
stockpile, a plan that's consistent with the requirements of 
the National Defense Authorization Act for Fiscal Year 2010, 
the stockpile management plan described therein. In support of 
this commitment, we've requested a 13 percent increase in the 
National Nuclear Security Administration's fiscal year 2011 
budget in order to modernize the complex, in order to 
strengthen surveillance of the stockpile, and in order to 
strengthen the science, technology, and engineering base in the 
nuclear complex.
    This budget also supports the life extension programs (LEP) 
for the 76 and 61, and it allows for a follow-on LEP study for 
the W-78.
    I hope that in setting out these two themes from the NPR 
we're helping to inform today's discussion. I look forward to 
the opportunity to answer any questions you might have, but 
also to come back and discuss the NPR in its entirety within a 
relatively short period of time.
    Thank you.
    Senator Ben Nelson. Thank you.
    General Klotz.

  STATEMENT OF LT. GEN. FRANK G. KLOTZ, USAF, COMMANDER, AIR 
                  FORCE GLOBAL STRIKE COMMAND

    General Klotz. Chairman Nelson and Ranking Member Vitter: 
It's an honor to appear before you today for the first time as 
the Commander of Air Force GSC. I thank you for the opportunity 
to talk a little bit about the Air Force's newest major 
command.
    GSC has now assumed responsibility for both the ICBM and 
the long-range nuclear-capable bomber force. In 16 months we've 
gone from a provisional headquarters here at Bolling Air Force 
Base in Washington, DC, of about 100 people, to a command 
comprising over 23,000 Air Force professionals at 5 different 
operational bases across the United States.
    The fundamental mission of Air Force GSC is to provide for 
safe, secure, and effective forces for nuclear deterrence and 
for global strike, both to deter aggression against the United 
States and to provide assurance to our allies. We perform this 
mission with a very elite and highly professional, disciplined 
team of American airmen who have a special trust and 
responsibility for the most powerful weapons in our Nation's 
arsenal.
    The Minuteman III ICBM and the nuclear-capable B-52 and B-2 
bombers have been and, most importantly, remain very important 
elements and components of the U.S. Armed Forces. The ICBM with 
its unmatched responsiveness and the bomber with its tremendous 
flexibility provide unique and complementary capabilities to 
the Nation's strategic nuclear triad.
    As you rightly pointed out, Mr. Chairman, the bombers of 
GSC also offer critically important conventional capabilities 
to the combatant commanders. Even though it's a truism that the 
creation of GSC resulted largely from concerns about the state 
of the Air Force nuclear enterprise, this command takes the 
conventional role of the B-52 and the B-2 very, very seriously. 
To that end, GSC will continue to work very closely with Air 
Combat Command and the other major commands that are part of 
the combat air forces to continuously develop and refine 
weapons and tactics for employment of the bombers in 
conventional operations.
    I look forward to the opportunity to discuss these and 
other issues this afternoon.
    [The prepared statement of General Klotz follows:]
          Prepared Statement by Lt. Gen. Frank G. Klotz, USAF
                              introduction
    Chairman Nelson, Ranking Member Vitter, distinguished members of 
the subcommittee, it is an honor to appear before the Senate today for 
the first time as the Commander of Air Force Global Strike Command. 
Thank you for the opportunity to discuss the Air Force's newest major 
command.
    Today, I would like to provide a brief update the establishment of 
Global Strike Command; the enduring importance of the intercontinental 
ballistic missile (ICBM) and long-range, nuclear-capable bomber to our 
national security; and the steps necessary to sustain and modernize 
these forces to ensure they remain safe, secure, and effective.
                             command update
    Upon assuming office in summer 2008, Secretary of the Air Force 
Michael Donley and Air Force Chief of Staff General Norton Schwartz 
launched a comprehensive, multi-faceted roadmap designed to restore a 
culture of compliance and rebuild the nuclear enterprise. Air Force 
Global Strike Command was established as a key part of this roadmap. 
This command is a visible commitment to the nuclear enterprise, clearly 
aligning the ICBM and long-range, nuclear-capable bomber forces under a 
single chain of command, providing focused oversight and advocacy of 
the Air Force's nuclear forces.
    The command was founded on the premise that as important as other 
defense priorities may be, none are more important than the 
responsibility for operating, maintaining, securing and supporting 
nuclear weapons. For if there is one unchanging, immutable truth about 
this awesome capability, it is that it demands constant and undivided 
attention. This was true in the past, it is true now, and it will be 
true in the future, regardless of the size or composition of the 
Nation's nuclear deterrence and global strike forces.
    Last year, in a speech in Prague, Czech Republic, President Obama 
made this point perfectly clear. ``Make no mistake,'' he said, ``as 
long as these weapons exist, the United States will maintain a safe, 
secure, and effective arsenal to deter any adversary, and guarantee 
that defense to our allies.'' The critical importance of this 
undertaking was again underscored in the 2010 Quadrennial Defense 
Review Report, which states, ``Until such time as the administration's 
goal of a world free of nuclear weapons is achieved . . . [w]e will 
maintain a safe, secure, and effective nuclear arsenal to deter attack 
on the United States, and on our allies and partners.''
    This then is the fundamental mission of Air Force Global Strike 
Command--to develop and provide safe, secure, and effective nuclear 
deterrence and global strike forces both to deter attacks and assure 
our allies. It performs this mission with an elite, highly disciplined 
team of American airmen with special trust and responsibility for the 
most powerful weapons in our Nation's arsenal.
    Global Strike Command is being established in a methodical, step-
by-step fashion. The first step was to stand-up a provisional command 
in January 2009, at Bolling Air Force Base (AFB), in Washington DC, 
under the leadership of then Brigadier General Jim Kowalski, now a two-
star and the Vice Commander of Air Force Global Strike Command.
    The next step took place on August 7, when General Schwartz 
formally activated Air Force Global Strike Command in a ceremony at 
Barksdale AFB, LA, the site of the command's permanent headquarters.
    The first actual transfer of forces occurred on December 1, when 
Air Force Global Strike Command assumed responsibility for the 
intercontinental ballistic missile mission from Air Force Space 
Command.
    Under the new command arrangements, 20th Air Force, headquartered 
at F.E. Warren AFB, WY and its three missile wings--at F.E. Warren AFB, 
at Malmstrom AFB, MT, and at Minot AFB, ND--now fall under Air Force 
Global Strike Command. On the same day, the command also took charge of 
the ICBM test mission of the 576th Flight Test Squadron at Vandenberg 
AFB, CA and the targeting analysis mission of the 625th Strategic 
Operations Squadron at Offutt AFB, NE.
    Just 6 weeks ago, on February 1, the transfer of forces to Air 
Force Global Strike Command was completed as responsibility for 8th Air 
Force and the long-range, nuclear-capable bomber mission was assumed 
from Air Combat Command. The 8th Air Force is headquartered at 
Barksdale and exercises command over the two B-52 wings, one at 
Barksdale, the other at Minot, as well as the B-2 wing at Whiteman AFB, 
MO.
    Since last year, significant changes have also taken place within 
these organizations as well. In August, 8th Air Force's assets for 
cyberspace operations moved to the newly-established 24th Air Force, 
headquartered in San Antonio, TX. Then in October, the remaining ``non-
bomber'' units of 8th Air Force were transferred to 9th and 12th Air 
Forces. The end-result is a leaner 8th Air Force focused exclusively on 
the long-range, nuclear capable bomber force.
    Additionally, in September, the Air Force reactivated the 69th Bomb 
Squadron to become the second operational B-52 squadron at Minot, thus 
mirroring Barksdale, which already had two operational B-52 squadrons. 
This move will help balance the workload between nuclear deterrence and 
conventional missions--not only at Minot, but across the entire B-52 
force. The new operational squadron will ultimately bring ten 
additional B-52s and over 800 additional operations, maintenance, and 
support personnel to Minot. The new people and jets have already begun 
to arrive in a phased deployment that will be complete by this spring.
    Finally, Air Force Global Strike Command will achieve full 
operational capability in late summer 2010 with about 1,000 personnel 
on board at the headquarters and approximately 23,000 people in the 
entire command. Of special note, the command will be a fully 
integrated, ``Total Force'' team--composed of Active Duty, Guard, 
Reserve, Government civilians, and contractors.
                 air force global strike command forces
    The Minuteman III ICBMs as well as the nuclear-capable B-52 and B-2 
bombers have been, and most importantly remain, essential components of 
the U.S. Armed Forces. Each makes important and unique contributions to 
the security of the Nation, as well as the security of the Nation's 
allies and friends.
    Of the three legs of the strategic nuclear triad, the ICBMs are the 
most responsive to national leadership. Continuously on alert and 
deployed in 450 widely dispersed locations, the size and 
characteristics of the overall Minuteman III force presents any 
potential adversary with an almost insurmountable challenge should they 
contemplate attacking the United States. Because an adversary cannot 
disarm the ICBM force without nearly exhausting their own forces in the 
process, and at the same time, leaving themselves vulnerable to sea-
launched ballistic missiles and bombers, they have no incentive to 
strike in the first place. In this case, numbers do matter. The ICBM 
contributes immeasurably to both deterrence and stability in a crisis.
    While the ICBM possesses unmatched responsiveness, both in terms of 
time-to-launch and time-to-target, the B-52 and B-2 bombers likewise 
possess significant and complementary capabilities and remain 
critically important components of the strategic nuclear triad. Their 
readiness levels can be visibly ratcheted up or down to demonstrate 
national intent. They can be dispersed to enhance their survivability. 
If ever launched toward their targets, they can be recalled should 
fast-breaking developments so dictate. They can also carry a 
comparatively large number of weapons with different capabilities. 
Bombers can avoid flying over sensitive areas in ways ballistic 
missiles may not be able to do. Just as the various components of the 
triad provide mutually reinforcing, complementary capabilities, so too 
do the two different bombers, with the B-52 providing unique, unmatched 
stand-off capabilities and the B-2 providing the capability to attack 
heavily defended targets.
    Finally, both of these bombers possess vitally important 
conventional, or nonnuclear, capabilities, as they convincingly 
demonstrated in the opening phases of both Operations Enduring Freedom 
and Iraqi Freedom. With ever-increasing capabilities to deliver highly 
precise and more effective munitions from bases in the United States or 
at forward deployed locations, the bomber offers important and unique 
capabilities to the combatant commander. While the creation of Global 
Strike Command clearly resulted from concerns related to the overall 
strength of the Air Force nuclear enterprise, the command nevertheless 
takes the conventional role of the B-52 and the B-2 very seriously. To 
that end, Global Strike Command will continue to work very closely with 
Air Combat Command and the other members of the Combat Air Forces to 
continuously develop and refine weapons and tactics for employing the 
bombers in conventional operations.
                     sustainment and modernization
    As important as the ICBM and long-range, nuclear-capable bomber are 
to national security, they are aging weapon systems. The Minuteman III, 
first deployed in the 1970s, is now nearly 40 years old. Moreover, much 
of the infrastructure--for example, missile silos, launch control 
centers, missile alert facilities, underground cables--were fielded 
even earlier with previous generations of the Minuteman. The last B-52H 
left the factory in 1962. The newest B-52 is older than the pilots who 
fly it, and in some cases twice their age. The B-2, the Nation's most 
advanced bomber, is considerably newer; but, even it is now over 20 
years old.
    Nevertheless, the Minuteman III and both bombers still have 
significant life left in them and will be a part of the Air Force 
inventory for many years to come. But, as with any aging system, each 
weapon system faces chronic problems ranging from vanishing vendors for 
spare parts to worn-out handling and test equipment. Additionally, 
original design specifications in some cases limit the integration of 
modern communications and data processing capabilities. Accordingly, 
the Air Force fiscal year 2011 budget request calls for increased 
funding to address sustainment and modernization, for both the missile 
and the bomber force.
    With respect to the Minuteman III ICBM, the Air Force is currently 
in a multi-year program to refurbish or modernize practically every 
inch of the Minuteman III--from the top of the nose cone to the bottom 
of the first stage nozzles. All three rocket motors have been 
overhauled with new propellant, the guidance system has been updated 
with new electronics, the propulsion system rocket engine (or post 
boost vehicle) is undergoing life extension, and the newer Peacekeeper 
ICBM reentry vehicles are being deployed on a portion of the Minuteman 
fleet. Meanwhile, other aspects of the weapon system have benefitted 
from substantial investment. To ensure connectivity with national 
command authorities, very low frequency communications equipment has 
been updated and new equipment has been added to receive MILSTAR 
transmissions. Communications capabilities will be further expanded to 
take advantage of the Advanced Extremely High Frequency satellite 
upgrades. To enhance the survivability of the weapon system, the 
missile alert and launch facilities are being equipped with new 
environmental control systems, new diesel generators, new electrical 
panels, and new batteries. These measures will not only extend the 
service life of the missile system, but will also enhance its 
maintainability and reduce the cost of ownership.
    Equally important, significant steps are being taken to enhance 
security in every facet of the ICBM system. Work was recently completed 
on reinforcing the concrete headworks at every launch facility, and 
progress continues on deploying a modified personnel access hatch 
designed to ``button-up'' a missile silo faster in case of emergency. 
Programs are underway to install security surveillance cameras at all 
the remote launch facility sites as well as all of the alert 
facilities.
    However, significant work remains, particularly in the realm of 
nuclear support equipment. For example, every weapon deployed to the 
missile field requires a thorough checkout from the Reentry System Test 
Set, which is overdue for replacement. Without it, not a single missile 
can be placed on alert. Associated cabling, junction boxes, and 
replacement parts are equally critical to keeping missiles on alert. As 
such, it is a reminder that sustainment of test equipment, handling 
equipment, and transportation equipment are very important to the 
effectiveness of a weapon system. Hard work is being done to improve in 
this area, and through a concerted effort with the system program 
office, the Air Force Nuclear Weapons Center, and the ICBM contractor 
team, this challenge will be overcome just as many others have been 
overcome over the years.
    All these measures are designed to sustain the Minuteman III force 
through 2020. In response to congressional direction, the Air Force is 
currently exploring the steps necessary to sustain the Minuteman III 
until 2030. Projections can and have been made about the potential 
service life of the motors and other hardware after undergoing the 
current upgrade programs; but, it's still too early to say with 
confidence just how long the Minuteman weapon system will be 
serviceable. The Air Force will continue to conduct a comprehensive 
program to inspect missile and reentry system components for signs of 
aging, and to perform periodic operational tests--both in the missile 
field as well as unarmed test flights from Vandenberg AFB, CA.
    The B-52 is also undergoing several programs in order to maintain 
its viability through 2040. Current initiatives include incorporating 
the 1760 data bus into the bomb bay to provide the capability to carry 
precision weapons internally. This upgrade will provide greater 
flexibility to the warfighter by practically doubling the smart weapon 
carriage onboard the B-52. The Combat Network Communications Technology 
acquisition program will support both nuclear and conventional 
operations by upgrading the B-52 fleet with tactical data link and 
voice communications capabilities. Efforts are also underway to enhance 
the aircraft's capability to communicate in a secure, protected mode as 
the Air Force's Advanced Extremely High Frequency Satellite comes on 
line. The Office of the Secretary of Defense has allocated $3.3 million 
to conduct an Analysis of Alternative to replace the air-launched 
cruise missile (ALCM). This effort began last summer when the Air Force 
identified initial requirements to ensure the B-52 standoff weapons are 
viable beyond 2020. This is not the entire list, but it illustrates the 
range of B-52 programs underway.
    As for the B-2, a new active electronically scanned array (AESA) 
radar is currently being fielded, and the B-2 is also beginning a 
modernization effort to improve the Defensive Management System on the 
aircraft. This will allow the B-2 to continue operations around the 
world in more advanced threat environments while decreasing the 
maintenance required to operate the system. Funding will also be 
increased for the Weapon System Support Center Software Integration 
Laboratory, which enables testing of current as well as developmental 
aircraft systems. New terminals will need to be installed on the 
aircraft to enable it to communicate in secure, protected modes via the 
Air Force's new Advanced Extremely High Frequency satellites--a task 
made more challenging by its unique low observable (LO) requirements. 
Efforts are also underway to address the sustainability of aft decks 
and to improve the process for maintaining the aircraft's LO 
capability.
    It is also worth noting that Air Force Global Strike Command has 
lead command responsibilities for the venerable UH-1N Huey helicopter 
that currently supports field operations and security at all three 
missile bases. While this helicopter remains a serviceable aircraft, 
and has been an undeniably reliable workhorse for the Air Force, thanks 
to the expertise and efforts of the Air Force's helicopter squadron 
leaders and contractor logistics support, the UH-1N fleet is aging and 
its ability to meet post-September 11 security requirements is 
constrained by cargo capacity, range and speed. It also lacks the 
necessary all-weather capability to support nuclear security response 
and convoy missions today.
    The Air Force has initiated the acquisition process for replacement 
of aging UH-1N aircraft. On February 16, General Cartwright, Vice 
Chairman of the Joint Chiefs of Staff, approved the Common Vertical 
Lift Support Platform (CVLSP) capabilities document stating the Joint 
Requirement Oversight Committee's priority is the rapid fielding of the 
CVLSP to meet immediate warfighter needs. The next major milestone is 
for the Secretary of the Air Force for Acquisition, Global Strike 
Command, and the Air Force Materiel Command's Aeronautical Systems 
Center to present the acquisition strategy to senior Defense Department 
leadership for review as part of the Material Development Decision. 
This effort is driving toward a projected initial operation capability 
of six aircraft to missile wings in fiscal year 2015. With this 
acquisition, the Air Force will be increasing both crew force and the 
number of aircraft that can successfully execute the mission anytime 
they are called upon.
                               conclusion
    The nuclear deterrence and global strike forces of the Air Force 
remain vitally important to the Nation, as well as to the United 
States' friends and allies around the world. For the men and women of 
Air Force Global Strike Command that means we have an extraordinarily 
important mission; noble and worthy work to perform; work that demands 
the utmost in professionalism, discipline, excellence, pride and 
esprit.
    Everyone across America--and the world--should know and never doubt 
that the senior leadership of the Air Force is extremely proud of the 
airmen who currently serve in Eighth and Twentieth Air Forces, and what 
they do every day. Indeed, our airmen are doing truly magnificent 
work--flying sorties and performing alert duties; keeping our bombers 
flying and our missiles ready; defending our flight lines and launch 
facilities; deploying to Southwest Asia and Guam; supporting our 
airmen, their families and retirees; and caring for our wounded 
warriors. With every sortie, every alert tour, every shift, every post 
and every support activity--they demonstrate over and over that they 
rank among the best and brightest airmen who have ever served in the 
U.S. Air Force.
    As Secretary of Defense Gates noted in his remarks to the bomber 
and missile personnel at Minot AFB 15 months ago, ``Handling nuclear 
weapons--the most powerful and destructive instruments in the arsenal 
of freedom--is a tremendous responsibility. We owe you the attention, 
the people, and the resources you need to do the job right . . . .Yours 
is the most sensitive mission in the entire U.S. military.''
    This new command reflects the Air Force's firm and unshakable 
conviction that strategic nuclear deterrence and global strike 
operations require a special trust and responsibility--one that we take 
very seriously. Air Force Global Strike Command will serve as a single 
voice to maintain the high standards necessary in the stewardship of 
our Air Force's strategic deterrent forces.
    Thank you.

    Senator Ben Nelson. Thank you.
    General Shackelford.

   STATEMENT OF LT. GEN. MARK D. SHACKELFORD, USAF, MILITARY 
DEPUTY, OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE FOR 
                          ACQUISITION

    General Shackelford. Mr. Chairman and Senator Vitter: Thank 
you very much for offering me the opportunity to speak with 
your committee today.
    Air Force Acquisition has a number of modernization 
programs applicable to each of the three bombers to support our 
commitment to long-term support for those bombers out into the 
future. At the same time, we're doing the appropriate risk 
reduction and requirements refinement for a future bomber or 
long-range strike capability.
    I look forward to your questions.
    [The prepared statement of General Shackelford follows:]
        Prepared Statement by Lt. Gen. Mark D. Shackelford, USAF
    The Air Force continues to modernize and support its bomber fleet 
with over $5.5 billion planned over the Future Years Defense Program 
(FYDP) in modernization and sustainment investments. The B-2, B-52 and 
B-1 bombers each have programs to ensure their viability into the 
future.
                                  b-1
    The B-1B Lancer has maintained an unflagging deployed presence 
since September 11, 2001 in support of Operations Enduring Freedom and 
Iraqi Freedom. During that time, the B-1 fleet and its crews have flown 
more than 6,900 missions and amassed more than 70,000 combat hours. In 
Operation Enduring Freedom alone, the B-1 has employed nearly 40 
percent of all munitions while flying only 5 percent of all sorties.
    Given the B-1's critical contributions to today's fight and its 
corresponding high operations tempo, the Air Force places great 
emphasis on sustaining the B-1 fleet. B-1 sustainment efforts currently 
address several issues which, if left unchecked, could critically limit 
aircraft availability and leave a gap in our power projection 
capability. Although these modifications represent a significant 
investment, they are critical to supporting our deployed combat forces 
by ensuring continued B-1 availability.
    The Air Force's primary B-1 modernization effort is the Fully 
Integrated Data Link (FIDL). FIDL gives aircrew enhanced situational 
awareness and combat effectiveness by incorporating Link-16 data link 
and Joint Range Extension Beyond Line-of-Sight capabilities. FIDL also 
provides the backbone infrastructure for a substantial upgrade to the 
existing cockpit including modern multi-function color displays that 
provide aircrew with a new level of fused data.
    The Air Force continues to develop the highly successful Laptop 
Controlled Targeting Pod (LCTP) modification for the B-1. Begun in 2007 
as a response to a U.S. Air Forces, U.S. Central Command Urgent Need 
Request and operational since 2008, LCTP provides the B-1 with 
targeting pod capabilities via the Sniper Advanced Targeting Pod (ATP). 
The B-1 combined with the Sniper ATP delivers an unprecedented level of 
payload precision to the fight. Efforts continue to outfit the entire 
B-1 fleet for Sniper operations and provide a Moving Target Kill 
capability via employment of laser-guided weapons.
                                  b-2
    The B-2 Spirit Advanced Technology Bomber provides a lethal 
combination of range, payload, and stealth, and remains the world's 
sole long-range, low observable bomber. It is the only platform capable 
of delivering 80 independently targeted 500-lb Joint Direct Attack 
Munitions (GBU-38). While B-2 availability has steadily increased over 
the past 5 years, in part due to enhancements in low observable 
maintenance such as the highly successful Alternate High Frequency 
Material program, it faces increasing pressures to upgrade avionics 
originally designed over 20 years ago. The three increment Extremely 
High Frequency Satellite Communications and Computer Upgrade program 
(EHF SATCOM and Computer Upgrade) seeks first, in Increment 1, to 
upgrade the Spirit's flight management computers as an enabler for 
future avionics efforts. Increment 2 integrates the Family of Beyond-
line-of-sight Terminals (FAB-T) along with a low observable antenna to 
provide secure, survivable strategic communication, while Increment 3 
will connect the B-2 into the Global Information Grid. Increment 1 of 
EHF SATCOM and Computer Upgrade is currently in Engineering and 
Manufacturing Development (EMD) and on track to begin procurement in 
fiscal year 2011 for fleet installations beginning at the end of fiscal 
year 13. The Department is also investing in the B-2's Defensive 
Management System to ensure continued survivability. This will allow 
the B-2 to continue operations in more advanced threat environments 
while decreasing the maintenance required to operate the system.
    We will also replace the B-2's original radar antenna, upgrade 
selected radar avionics and change the radar operating frequency as 
part of the Radar Modernization Program (RMP). The Low Rate Initial 
Production (LRIP) contract for the first six production radar kits was 
awarded in December 2008, with the second and final full-rate buy for 
the remaining seven ship sets awarded in November 2009. Seven radar 
ship sets were previously procured during development and are currently 
being installed in fleet aircraft. Upon delivery and installation of 
the radar ship sets, the twenty aircraft
    B-2 fleet will have completed its radar modernization efforts. The 
developmental units will be retrofitted to the final production 
configuration. Thanks in large part to congressional support, the RMP 
acquisition strategy was modified to include life-of-type component 
buys to avoid diminishing manufacturing source issues during the 
production run.
                                  b-52
    The B-52 Stratofortress is our Nation's oldest frontline long-range 
strategic bomber with the last airframe entering service in 1962. The 
Air Force has invested in modernization programs to keep the platform 
viable and operationally relevant. Major B-52 modernizations include 
the Combat Network Communications Technology (CONECT), EHF SATCOM, 
Strategic Radar Replacement (SR2), and 1760 Internal Weapons Bay 
Upgrade programs. CONECT provides an integrated communication and 
mission management system with machine to machine datalink interfaces 
for weapons delivery. The digital infrastructure provided in CONECT is 
the backbone for EHF SATCOM and SR2. The EHF SATCOM program integrates 
the FAB-T providing assured, survivable two-way strategic command and 
control communications. The SR2 program, starting in fiscal year 2010, 
integrates a modern non-developmental radar to address systemic 
sustainment issues, replacing the legacy APN-166 radar. Finally, 1760 
Internal Weapons Bay Upgrade provides internal J-series weapons 
capability through modification of Common Strategic Rotary Launchers 
and an upgrade of stores management and offensive avionics software. 
Updated with modern technology the B-52 will be capable of delivering 
the full complement of jointly developed weapons and will continue into 
the 21st century as an important element of our Nation's defenses.
    The fiscal year 2011 PB began funding for technology industrial 
base sustainment in anticipation of a future long range strike (LRS) 
platform program. This effort develops and demonstrates LRS 
technologies and concepts in support of Air Force Global Strike and 
Global Persistent Attack Concepts of Operations. This effort will 
provide capability improvements in the areas of strike responsiveness, 
survivability, lethality, connectivity, and affordability. The 
Quadrennial Defense Review-directed LRS study will help inform and 
shape the requirements for LRS.
    The sustainment and modernization efforts briefly outlined above 
will ensure our bomber fleet's continued ability to project global 
power through enhanced combat capability and lethality, survivability, 
and supportability. I wish to thank the committee for it's continued 
support of the Air Force's global strike mission.

    Senator Ben Nelson. General Alston.

STATEMENT OF MAJ. GEN. C. DONALD ALSTON, USAF, ASSISTANT CHIEF 
 OF STAFF, STRATEGIC DETERRENCE AND NUCLEAR INTEGRATION, U.S. 
                           AIR FORCE

    General Alston. Mr. Chairman, Ranking Member Vitter: Thank 
you very much for the privilege to testify before you this 
afternoon.
    I have been in my position as the Assistant Chief of Staff 
of Strategic Deterrence and Nuclear Integration for just the 
last 15 months that the organization stood up. We stood it up 
in November 2008. But actually I arrived in the position to be 
working the challenges the Air Force has just a couple of days 
after our event that you mentioned in your opening remarks. So 
I look forward to discussing and answering your questions with 
regard to the variety of initiatives that we've undertaken with 
regard to process, structure, and culture in order to have the 
positive impacts that are required for us to perform at the 
level demanded by nuclear weapons.
    I look forward to your additional questions on this.
    [The prepared statement of General Alston follows:]
         Prepared Statement by Maj. Gen. C. Donald Alston, USAF
                              introduction
    Chairman Nelson, Ranking Member Vitter, distinguished members of 
the subcommittee, thank you for the opportunity to discuss Air Force 
strategic programs.
    Twenty months ago, the Air Force began taking comprehensive action 
to strengthen performance in the nuclear mission area and to determine 
the long-term actions necessary to build a culture of excellence within 
the Air Force nuclear enterprise. Credible and reliable nuclear 
deterrence is essential for our security and that our allies and 
friends, and the Air Force have a pivotal role in this vital mission 
area. Air Force senior leadership continually emphasizes that there is 
no mission more sensitive than safeguarding nuclear capabilities and 
maintaining nuclear deterrence, and that the Air Force has a sacred 
trust with the American people to safely operate, maintain and secure 
nuclear weapons. The strategic plan we developed nearly a year and a 
half ago provided the initial direction and framework to begin 
addressing the findings and recommendations from a variety of internal 
and external reports. I intend to use the six strategic objective of 
our roadmap to update the committee on the initiatives underway to 
support the Secretary of the Air Force and Chief of Staff's number 1 
priority, which is to continue to strengthen the Air Force nuclear 
enterprise.
   rebuild a culture of accountability and rigourous self-assessment 
   dedicated to high standards of excellece in the air force nuclear 
                               enterprise
    Regardless of the size or structure of our nuclear force, every 
action by every Airman must be executed with precision and reliability. 
Perfection is the standard each and every time and a robust self-
assessment and inspection process to effectively uncover, analyze, and 
address systemic nuclear weaknesses is an important tool in our effort 
to rebuild a nuclear-aware and focused culture.
    The Air Force Inspector General (IG) has implemented centralized, 
independent oversight of Air Force nuclear inspections and assessments, 
while preserving major command (MAJCOM) authorities and 
responsibilities for training and readiness of their assigned forces.
    To robust our inspection process, we have developed standardized/
centralized training for all IG team members with nuclear inspection 
duties, and a MAJCOM certification program for nuclear inspection 
teams. We also formed a core team of inspectors that accompany major 
command inspection teams to ensure consistent application of standards. 
We have also mandated an increase in no-notice inspections.
    Inspection policy changes include increasing the frequency and 
intensity of inspections while limiting or eliminating advanced notice. 
Other changes include:

        <bullet> Ensuring 100 percent oversight by the Air Force 
        Inspection Agency of all nuclear inspections
        <bullet> Re-emphasizing no- and limited-notice inspections

                <bullet> Mandating a no-notice Limited Nuclear Survey 
                Inspection be executed between each full-scale Nuclear 
                Surety Inspection (NSI)

    Increased depth and rigor of nuclear inspection activities have 
enhances our ability to identify and document discrepancies as a means 
to improve processes and procedures.
    In the exacting world of nuclear weapons, a perfect pass rate would 
not be realistic or desirable. A unit must have 750 items in 100 
percent compliance with established standards in order to receive a 
``satisfactory'' rating, therefore an ``unsatisfactory'' rating does 
not directly translate to an inability of a unit to accomplish its 
mission nor does it indicate a compromise of the safety, security and 
reliability of nuclear-responsible forces. Instead, it indicates a 
deviation from the extremely high standards we demand and expect in 
this mission area and we are committed to finding those deviations, 
determining what caused them, and correcting the deviations as a means 
of enhancing our stewardship of the nuclear deterrence mission.
           rebuild nuclear enterprise and codify career paths
    Credible deterrence requires capable systems and competent people. 
To overcome the erosion of nuclear expertise, the Air Force set forth a 
path to examine education and training across the enterprise, improve 
identification and tracking of nuclear experience and expertise, and 
establish a force development governance construct to ensure continual, 
formalized senior leadership involvement in the development of future 
nuclear leaders.

    Senator Ben Nelson. Thank you.
    General Scott.

    STATEMENT OF MAJ. GEN. DAVID J. SCOTT, USAF, DIRECTOR, 
OPERATIONAL CAPABILITY REQUIREMENTS, AND DEPUTY CHIEF OF STAFF 
    FOR OPERATIONS, PLANS, AND REQUIREMENTS, U.S. AIR FORCE

    General Scott. Mr. Chairman, Mr. Ranking Member: As the 
Director of Requirements for the Air Force, I work hand-in-hand 
with the major commands on the requirements throughout, whether 
it's from a bomber force or the fighter force, but all those 
requirements. I will work directly with General Klotz on the 
requirements that he has, or hand-in-hand with General 
Shackelford to hand off the requirements for the acquisition.
    Many of the things that you see in the beginning of the 
phase of the Joint Capabilities Integration and Development 
System (JCIDS) and the Air Force Requirements Oversight Council 
are the things that we'll be working, and work the conventional 
side of that. Sir, I'm looking forward to your questions also.
    [The prepared statement of General Scott follows:]
           Prepared Statement by Maj. Gen. David Scott, USAF
    Good morning Chairman Levin, Ranking Member McCain, and 
distinguished members of the subcommittee. Thank you for the 
opportunity to address this committee regarding Air Force Strategic 
Forces and the current conventional operations for B-52, B-1, and B-2. 
All three of our long range strike platforms remain engaged in today's 
fight while retaining an ability to meet future challenges. Air Force 
bombers have been on rotating deployment to SWA since September 11.
    The B-52 amplifies the consistent message of long range U.S. 
airpower in a theater such as U.S. Pacific Command (PACOM) where 
distance drives decisions. Equipped with advanced targeting pods, the 
B-52s can also provide real-time ISR with full motion video, enhanced 
situational awareness, a demonstrable over watch presence, and 
precision joint fires in support of Commander, U.S. Pacific Command 
objectives. While our B-52 fleet remains heavily tasked and is 
currently supporting the deployed operations on a 1-to-3 dwell, it 
continues to meet a constant nuclear commitment with the nondeployed 
forces.
    The B-52 brings some unique maritime support capabilities to the 
Pacific theater, a theater defined by the immensity of the Pacific 
Ocean. In a broad ocean area surveillance or in an anti-shipping role, 
the B-52 provides an important force multiplier to the fleet and Joint 
Forces Air Component Commander. B-52s equipped with advanced targeting 
pods and armed with joint direct attack munitions (JDAM) provide 
persistence over the battle field or the fleet which significantly 
contributes to the effectiveness of the joint force's ability to 
respond to critical land, sea, or air threats.
    The B-1 is in the ongoing fight in Afghanistan and provides long 
range persistent airpower in direct support of the North Atlantic 
Treaty Organization, U.S., and Afghan troops. The B-1 provides real-
time ISR with full motion video, enhanced situational awareness, a 
demonstrable over watch presence, and precision joint fires in support 
of coalition objectives. B-1s added SNIPER Advanced Targeting Pod 
capability in summer 2009, to provide air crew with positive ID 
capability and the ability to share video with forces on the ground. 
The Air Force developed this capability--in response to a Central 
Command tasking--on an accelerated 18 month timeline. This allows the 
ability to combine precision targeting, precision weapons, and 
persistence to the joint commander.
    Demonstrating a worldwide deterrence capability with our nuclear 
forces is vital to protecting both the United States and our allies. 
The B-2 and B-52 are tasked to provide dedicated support to U.S. 
Strategic Command (STRATCOM). This is done via the Global Deterrence 
Force; our recent reorganization of the B-52 fleet to add a fourth 
active duty squadron, the 69th bomb squadron, at Minot which is 
designed to optimize support for the STRATCOM mission. While deployed, 
the units meet Air Tasking Order mission requirements for both ground 
alert and scheduled sorties to support STRATCOM's objectives.
    Air Force bombers are also currently supporting U.S. PACOM's 
Continuous Bomber Presence to assure allies and support U.S. interests 
in the Pacific region. Air Force bombers have been deployed to U.S. 
PACOM (Andersen Air Force Base) since 2003--currently, the B-2 and B-52 
cover this tasking. Each B-52 deployment brings aviators, maintainers 
and support forces for what is growing from a 120-day to a 179-day 
period. B-2s rotate in behind every two B-52 rotations.
    U.S. PACOM deployed bombers support a variety of exercises, often 
in conjunction with other Combat Air Force assets. Training missions 
include local sorties, exercises, and 24-hour global power missions to 
ranges in Hawaii, Alaska, and Australia. Significant exercises include 
Northern Edge in the Alaskan ranges and Valiant Shield in the vicinity 
of Guam. Northern Edge is an annual Air Force exercise where bombers 
integrate with F-22, F-15, and F-16 fighters as wells as E-3 Airborne 
Warning and Control System to conduct simulated composite force 
integrated strikes against ground and air defenses. Valiant Shield was 
a joint exercise with the U.S. Navy where B-2s and F-15Es exercised 
with naval aviation assets from two Carrier Strike Groups 
simultaneously, marking the largest mass of U.S. naval forces since the 
Vietnam War.
    The Air Force continues our commitment to future long-range strike 
capabilities, as part of a comprehensive, phased plan to modernize and 
sustain our bomber force. We will continue planned legacy bomber 
sustainment and modernization to increase the conventional capabilities 
of the bomber fleet.
    Thank you for the opportunity to address this subcommittee. I look 
forward to your questions.

    Senator Ben Nelson. Thank you.
    Admiral Johnson.

STATEMENT OF RADM STEPHEN E. JOHNSON, USN, DIRECTOR, STRATEGIC 
                  SYSTEMS PROGRAMS, U.S. NAVY

    Admiral Johnson. Thank you, Mr. Chairman. The Strategic 
Systems are impeccably supported by the Secretary of the Navy, 
the Chief of Naval Operations, and by your committee in all 
aspects of our program.
    We have returned three SSBNs to strategic patrol in the 
past 12 months. USS Alabama, Her Majesty's Ship Victorious, and 
USS Alaska have all completed their demonstration and shakedown 
operations and all are ready or already on strategic patrol.
    Last December, it was the USS Alaska, the third of those 
three SSBNs to return to strategic operations, that conducted 
the 130th consecutive successful flight of the Trident II D5 
missile. This record of successful flight tests is unmatched by 
any other missile system in the world.
    I would also like to thank the committee for its strong 
support of the Ohio Replacement Program and I look forward to 
our discussion today in that area.
    The men and women of the Strategic Systems Program are 
committed to the highest standards of safety, surety, and 
reliability for our systems. We sincerely appreciate the 
committee's support.
    [The prepared statement of Admiral Johnson follows:]
            Prepared Statement by RADM Stephen Johnson, USN
    Chairman Nelson, Senator Vitter, distinguished members of the 
Strategic Forces Subcommittee. Thank you for this opportunity to appear 
before you to discuss our Navy's nuclear enterprise, today's force and 
the efforts to ensure the continued reliability of our submarine 
strategic forces, and the Ohio Class Replacement to maintain continuous 
strategic deterrence.
                        navy nuclear enterprise
    Strategic Systems Programs is impeccably supported by the Secretary 
of the Navy, the Chief of Naval Operations and by your committee in all 
aspects of our program. We appreciate this strong support and remain 
vigilant in executing our strategic deterrent mission. Strategic 
Systems Programs continues to maintain a safe, reliable, and secure 
environment for our strategic assets. We continue to focus on the 
custody and accountability of the nuclear assets you have entrusted to 
the Navy.
    Earlier this year, the Navy took a significant step to better 
define the roles and responsibilities associated with the safety and 
security of our strategic weapons. The Secretary of the Navy signed an 
instruction strengthening Strategic Systems Programs' role as the 
program manager and technical authority for technical operations, 
safety, security, and maintenance of the Navy's nuclear weapons and 
nuclear weapons systems.
    Strategic Systems Programs (SSP) will continue to sustain our high 
standards and focus on two major areas which include; (1) fully meeting 
operational and fleet support requirements and (2) recruiting and 
retaining the highest quality personnel to execute our strategic 
mission. I established senior executive level management for field 
operations and am implementing continuous on-site evaluation. These 
actions have improved the rigor applied to daily operations, increased 
the level of accountability, created an environment of self-assessment, 
and placed priority on implementing corrective actions. SSP has also 
placed a high priority on the recruitment, development and retention of 
a highly-skilled workforce. These two focus areas shape the way in 
which we manage our day-to-day operations and set the culture to 
sustain our strategic deterrent for the long-term. The men and women of 
Strategic Systems Programs and our industry partners remain dedicated 
to supporting the mission of our Sailors on strategic deterrent patrol 
and our marines and sailors who are standing the watch to ensure the 
security of the weapons we are entrusted with by this Nation. I would 
like to take a moment to address a few of the major initiatives 
underway within the Navy that address the sustainment of our sea-based 
deterrent and ensure its future viability.
                             today's force
    We have returned three SSBNs to strategic patrol in the past 12 
months. USS Alabama (SSBN 731), HMS Victorious and USS Alaska (SSBN 
732) have all completed Demonstration and Shakedown Operations and are 
ready for or already on strategic patrol. Our 14 U.S. Navy SSBNs, 8 of 
which are homeported in the Pacific and 6 in the Atlantic Fleet, 
continue to provide a credible, survivable, and reliable sea-based 
strategic deterrent for our national leadership.
    In December, the USS Alaska (SSBN 732), the third of the three 
SSBNs to return to strategic operations, conducted the 130th 
consecutive successful flight test of the Trident II (D5) missile as 
part of her Demonstration and Shakedown Operation. This record of 
successful flight tests is unmatched by any other missile launch 
system. Therefore, I am pleased to report to you that the Trident 
Strategic Weapons System continues to demonstrate itself as a credible 
deterrent and meet the operational requirements established for the 
system almost 30 years ago.
    USS Nevada (SSBN 733) will soon complete her Engineering Refueling 
Overhaul, enter post availability testing, prepare for her 
Demonstration and Shakedown Operation and return to the operational 
cycle in spring 2011. Two more of our submarines, USS Tennesse (SSBN 
734) and USS Pennsylvania (SSBN 735) are undergoing Engineering 
Refueling Overhauls which will maintain the viability of these 
platforms through the service life of the Ohio class.
    The Trident II (D5) weapons system is nearing its 20th year of 
deployment. We must continue to be vigilant of age-related issues to 
ensure the high reliability needed for a strategic weapons system. With 
the Trident II (D5) missile planned for operational deployment through 
2042 to match the Ohio class hull life extension, D5 hardware will age 
beyond our previous experience base and will be operational almost 
twice as long as any previous sea-based strategic deterrent. Therefore 
SSP has adjusted our testing to focus on older missiles in order to 
best predict aging characteristics. For example, the missile 
successfully fired by the USS Alaska (SSBN 732) was approximately 17 
years old.
                       d5 life extension program
    The Trident II (D5) missile service life is being extended to 2042 
to match the Ohio class submarine service life. This is being 
accomplished through an update to missile electronics and guidance 
packages to address obsolescence and continuous production of critical 
components such as rocket motors.
    SSP has restructured our D5 life extension program to ensure 
sufficient time for additional missile electronics design evolutions. 
The flight test schedule has been realigned by a few months to allow 
for data analysis and to incorporate any test changes. The initial 
introduction of the D5 life extended missiles to the Fleet has shifted 
from fiscal year 2013 to fiscal year 2017. This shift, which is cost 
neutral until fiscal year 2013, will provide more time to ensure the 
successful deployment of the life extension program, while allowing us 
to continue to meet our ship-fill requirements. This modest schedule 
shift will also allow SSP to better accommodate the any potential 
outcomes of the Nuclear Posture Review and the New Strategic Arms 
Reduction Treaty. Ninety percent of the Trident II (D5) life extension 
component procurement remains on track to support missile production.
    One area of concern for the Trident II (D5) life extension program 
is the decline in the Solid Rocket Motor Industrial Base. The Navy is 
maintaining a continuous production of solid rocket motors and should 
be in production through 2023. However, we have faced significant cost 
challenges as both the National Aeronautics and Space Administration 
and Air Force demand have declined and will continue to experience 
those cost increases as demand continues to shrink further in future 
years.
    Another key to the success of the Trident II, D5 life extension 
program is the life extension of the W76, Mk4 warhead refurbishment 
known as the W76-1, which we are executing in partnership with the 
Department of Energy. The W76-1 refurbishment maintains the military 
capability of the original W76 for approximately an additional 30 
years. This program will provide the Navy with the weapons we need to 
meet operational requirements throughout the Ohio service life and the 
planned follow-on platform.
                            ohio replacement
    Congress approved the first significant funding request for the 
Ohio Replacement program in the fiscal year 2010 budget. Thank you for 
your strong support. The Ohio Replacement will be a strategic, national 
asset whose endurance and stealth will enable the Navy to provide 
continuous, uninterrupted survivable strategic deterrence into the 
2080s.
    The Ohio Replacement Analysis of Alternatives study was completed 
and is being reviewed within the Navy. It will support the Milestone A 
review, which is planned for the spring 2010. The Navy's fiscal year 
2011 budget provides the required research, development, test, and 
evaluation investment to support the lead ship construction beginning 
in fiscal year 2019.
    The United States and the United Kingdom (U.K.) have maintained a 
shared commitment to nuclear deterrence through the Polaris Sales 
Agreement since April 1963. The U.S. will continue to maintain its 
strong strategic relationship with the U.K. for our respective follow-
on platforms, based upon the Polaris Sales Agreement. The Ohio 
Replacement program includes the development of a common missile 
compartment that will support both the Ohio Class Replacement and the 
successor to the U.K. Vanguard Class.
                        nuclear weapons security
    Our Marines and Navy Masters-at-Arms are providing an effective and 
integrated elite security force at both of our Strategic Weapons 
Facilities. The U.S. Coast Guard, Maritime Protection Force Units have 
been commissioned at Kings Bay, GA and Bangor, WA. These coastguardsmen 
and the Navy vessels they man provide a security umbrella for our Ohio 
class submarines as they deploy and return from their deterrent 
patrols. They form the basis of our Trident Transit Protection System.
    Mr. Chairman and distinguished members of this subcommittee, I 
sincerely appreciate your continued support of the Navy's nuclear 
enterprise. Your efforts will ensure the continued credibility, 
reliability, and safety of our Trident II (D5) Weapons System and its 
remarkable Trident II (D5) Missile, maintaining a record of success 
unmatched by any missile system. The men and women of Strategic Systems 
Programs are committed to the highest standards of safety, surety, and 
reliability of this remarkable system. I thank you again for the 
opportunity to appear before you today and am prepared to answer any 
questions you may have.

    Senator Ben Nelson. Thank you.
    Senator Begich has joined us. Do you have any opening 
comments you might like to make?
    Senator Begich. No, I will pass, Mr. Chairman.
    Senator Ben Nelson. You'll pass? We just mentioned the SSBN 
Alaska.
    Senator Begich. We like that. [Laughter.]
    Senator Ben Nelson. Dr. Roberts, is there any particular 
reason that this report is late? Is it just taking too much 
time to develop it? Because the questions that come about then 
are, is everything in the report in the budget or are there 
things that are going to be outside the budget that will come 
about as a result of this report?
    Dr. Roberts. The budget that was submitted reflects the 
results of the NPR and we don't expect subsequent changes. The 
following years' budgets may reflect some additional 
initiatives.
    The delay is essentially a reflection of the fact that this 
third NPR since the Cold War is more comprehensive and complex 
than the prior two. The first, the 1994 NPR, was a strictly 
internal DOD planning activity and set out the key theme, lead 
but hedge: lead to reduce nuclear risks, but hedge against the 
possibility of a Russian turn to the worse by maintaining 
current force structure capability.
    There was an unclassified summary of that report made 
available in Powerpoint form a year or 2 after the fact, but it 
was very much an internal DOD force planning exercise.
    The 2001 NPR received slightly broader interagency review, 
but was still essentially an internal planning DOD activity. 
This NPR reflects the fact of the legislation that required a 
comprehensive review of arms control strategy and an integrated 
look at nonproliferation and other emerging 21st century 
threats, to include nuclear terrorism. This, of course, 
dovetailed with the instinct of the administration to take a 
very broad look.
    The legislation also mandated that this would be a DOD-led, 
but interagency, review of policy, strategy, and capabilities. 
So as we have moved through our work we have found a very 
complex landscape. Additionally, we were given the framework of 
the Prague speech and the desire to both take concrete steps to 
reduce nuclear roles while at the same time maintaining not 
just deterrence, but strategic stability and assurance of our 
allies. Accomplishing this very broad set of objectives in a 
balanced and comprehensive way has required a lot of analytical 
work and a lot of debate at every level in the executive 
branch.
    We've learned, moreover, that our leadership wishes to be 
very deliberative in moving through these discussions. We had 
set two deadlines, the original deadline and a fallback 
deadline, and we learned that we simply need to allow the 
leadership to work its way through the issues to the point 
where it's satisfied with the result. We think we're just about 
at that point right now.
    Senator Ben Nelson. General Klotz, you recently assumed 
this command, as you indicated. How has the transition of 
bombers and ICBMs gone so far and what's left to be 
accomplished in that regard?
    General Klotz. Thank you very much, Mr. Chairman. My sense 
is it has gone very well and the feedback I get from the airmen 
at each of our bases reinforces that opinion. We have started 
this whole process in a very systematic, methodical way, 
beginning with a program plan that was developed by General 
Alston and others in the Air Force headquarters that had 
literally hundreds of action items to be completed as part of 
the transfer of forces to GSC.
    As soon as we stood up our headquarters on the 7th of 
August, we set about as a command working through each and 
every one of those steps. We established working groups with 
both Air Force Space Command, from which we assumed the ICBM 
mission, and with Air Combat Command, from whom we assumed the 
B-52 and B-2 missions. We had working groups. We had weekly 
videoteleconferences. We had periodic meetings at the two-star 
level, then ultimately a meeting between myself and the 
commanders of both those organizations to ensure that we had 
crossed every t and dotted every i in terms of assuming those 
forces.
    So we did, in fact, assume the ICBMs on the 1st of December 
of last year and the long-range bomber force on the 1st of 
February this year. We continue to have a relationship with 
both Space Command and Air Combat Command. I anticipate that 
those relationships will be very intense through the end of 
this fiscal year as they continue to discharge some of the 
responsibilities they have from a financial point of view, and 
also well into the future, particularly with Air Combat 
Command, since they have the responsibility as the lead major 
command for developing conventional weapons and tactics which 
will apply to not only the aircraft which they have 
responsibility for, but for both the B-52 and the B-2.
    Senator Ben Nelson. The Nuclear Weapons Center at Kirtland 
Air Force Base, of course, is responsible for maintaining 
nuclear weapons and systems, but it's not under GSC. Is this a 
good decision for it not to be under GSC?
    General Klotz. I think it's a good decision, but I will 
caveat that by saying we need to constantly check how we're 
doing and assess the strong points of that change as well as 
ways we can improve it.
    Let me tell you why I think it's a good decision. To some 
extent--and Admiral Johnson can talk to this in greater 
detail--we've taken a page from the Navy's playbook in the 
sense that they have, as I understand it, a single entity which 
has responsibility for what happens inside a weapons storage 
area. The technical operations that take place there are all 
managed by a single group.
    In many respects, it was fragmented in the Air Force 
enterprise by having each wing commander or each base 
responsible for the actions and activities that took place 
inside the weapons storage area. We thought, given the critical 
self-assessment we went through after the Minot incident, which 
you mentioned, that we ought to adopt a process by which we had 
a single organization responsible for activities that went on 
in the weapons storage area regardless of where they were, 
whether they were on a bomber base or whether they were on a 
missile base, and whether they were in a missile base in North 
Dakota or a missile base in Montana or Wyoming.
    So, having said that, I have gone out and I visited weapons 
storage areas at all of our bases. I've been very impressed 
with the enthusiasm, the energy, and the sense of purpose and 
seriousness on the part of the Air Force Nuclear Weapons Center 
personnel that are operating inside the weapons storage areas. 
I'm very optimistic about that, but I will caveat that by 
saying we need to constantly go back and make sure that we have 
it right.
    Senator Ben Nelson. A final question in that area. There 
was a concern that getting personnel to transfer to the new 
command might be a challenge for recruiting and retention. How 
has that gone thus far?
    General Klotz. Quite the opposite, Mr. Chairman. I have 
been very pleased that people have been signing up in large 
numbers to come to Air Force GSC, both Active Duty military as 
well as government civilians and contractors. I think there are 
a couple of reasons for that. Many of the people who come are 
those who served in Strategic Air Command or in the nuclear 
enterprise for a number of years. They understand the 
seriousness which the Secretary of Defense, the Secretary of 
the Air Force, and the Chief of Staff of the Air Force have 
placed on continuing to strengthen the nuclear enterprise. They 
think that it is important, worthy, and noble work to do, and 
they want to participate. So it's an opportunity for them to 
come back and do that.
    The other reason I think is probably a little more 
esoteric, in the sense that people are motivated by the fact 
that they're coming and standing up a brand new organization. 
So rather than going into an organization which already exists 
and fitting in and perhaps maybe improving it, they have an 
opportunity to create an organization essentially from whole 
cloth. A lot of people find that a very exciting prospect and 
they want to be in on the ground floor and, as I said, we've 
had no lack of people signing up to come and work in the 
headquarters and in our units.
    Senator Ben Nelson. Let's hope that continues. Thank you.
    Senator Vitter.
    Senator Vitter. Thank you.
    Thank you, General Klotz. You didn't even mention the two 
other key factors. The food and the Saints' Superbowl win 
helps, too. [Laughter.]
    Dr. Roberts, I was happy to hear your comments about the 
nuclear triad. Given that, when will the Department make a 
decision with respect to the design of the next generation 
bomber and its nuclear capabilities?
    Dr. Roberts. I believe that will be a consequence of the 
study that's under way on this future look at conventional 
strike, the future role of the bomber, and the follow-on cruise 
missile. These are meant to be part and parcel of an integrated 
look at strike.
    Senator Vitter. How would you lay that out in terms of a 
timetable with regard to the bomber after the NPR?
    Dr. Roberts. For the study and the budget result? We would 
expect to put forward the results of this study in the fiscal 
year 2012 budget.
    Senator Vitter. Okay.
    General Scott. Sir, I don't want to jump in, but I'm part 
of the Under Secretary of Defense study team and I can give you 
timelines. We've just kicked off that particular study team. 
The family of systems that they're looking at are what they 
call long-range strike. Within that family of systems will be 
the long-range persistent strike aircraft, the conventional 
prompt global strike, and then the standoff weapons and the 
standoff platforms.
    In about the May timeframe, we'll start talking about it, 
but it's a 1-year study that we're working with RAND on.
    Senator Vitter. Okay, thank you.
    General Scott. Yes, sir.
    Senator Vitter. General Klotz, how important do you believe 
the ICBM force is in the triad, and specifically how critical 
do you think a 450-single warhead ICBM force is?
    General Klotz. The ICBM, in my view, is extraordinarily 
important to the triad and to our overall defense posture. 
Without saying a specific number, I think the numbers really do 
matter. By presenting a potential adversary with a fairly 
large, complex target set that he would have to deal with 
should he contemplate attacking the United States, having a 
large number of ICBMs literally forces any adversary to exhaust 
his entire force in an attempt to defeat it or to disarm it. In 
the process, if he does that, then he's still faced with the 
other two elements or components of the triad, the manned 
bomber and the submarine-launched ballistic missile (SLBM), 
which will provide for continuing deterrence after that 
attempt. So I think that's extraordinarily important.
    The other point is that the ICBM is perhaps the most 
responsive of all elements of the triad because it is land-
based. It's located in the continental United States, and there 
are multiple and redundant communication paths to the launch 
control centers, so a very responsive system.
    By touting the strengths of the ICBM, I continue to be a 
champion for the manned bomber, as you would expect the 
Commander of Air Force GSC to be, but also for the SLBM because 
of its tremendous survivability and power that it also brings 
to the deterrent and assurance equation.
    Senator Vitter. General, going back to your comments about 
the ICBM, I assume you think whatever the number is, there's a 
big difference between that number in a single-warhead force 
versus multiple warheads, the same number of warheads. Can you 
comment on the difference and what that means strategically?
    General Klotz. Again, I think the key and critical point 
from not only a deterrence point of view, but also from the 
stability point of view, is the number of silos or delivery 
systems you have, not so much the warheads. Indeed, as we were 
going through the negotiations for the START II Treaty, a 
treaty which, by the way, was never ratified, the assumption, 
which I think continues to hold true, is that as both sides go 
to lower numbers of warheads on delivery vehicles, it creates 
an inherently more stable situation in a crisis.
    So again, I think keeping the numbers of ICBMs at a robust 
number gives you the option to reduce the number of warheads 
and still provide for the stability in a crisis that we seek 
through the ICBM leg of the triad.
    Senator Vitter. Okay, thank you.
    Admiral Johnson, last week the Air Force confirmed during 
our space posture hearings that the cost of some components of 
the Evolved Expendable Launch Vehicle are likely to rise 
significantly, maybe as much as 100 percent, as a result of the 
administration's decision to retire the Shuttle and cancel 
Constellation. How will this proposed NASA change in mission 
affect the cost of Trident D5 life extension rocket motors and 
what sort of gap in the industrial base does this raise the 
prospect of?
    Admiral Johnson. Senator, we are in low rate initial 
production (LRIP) and intend to remain in LRIP for at least the 
next 10 years. The change in the industrial base and the 
national orders for large-diameter rocket motors cause more of 
the fixed costs to fall upon the Navy's production cost. We 
expect to see a rise, not of the order that you referred to in 
your question, but we do expect to see a rise of 10 to 20 
percent. We are working with DOD and with the two companies 
involved to control those costs. But they will increase. We 
have seen increases and they will continue.
    On the other side of that equation, because we intend to 
remain in production for the next 10 years or so, that provides 
a warm industrial base for the work that comes. So I would 
describe the industry as fragile. The government plays an 
important role in managing that industrial base and I think 
that it is manageable. The costs will go up.
    Senator Vitter. For that solid rocket industrial base, 
right now doesn't NASA business represent the majority for them 
and DOD business represent the minority? So I guess my question 
is, if in fact--and this isn't decided by Congress, that 70 
percent majority business, whatever it is from NASA, just goes 
away, it strikes me as a layperson that that is going to 
probably cause you more than a 10 or 20 percent cost problem. 
What am I missing?
    Admiral Johnson. At the surface level, were we to not take 
action that would exactly be the result. The difference in the 
manufacturing requirement for the NASA is so much larger--even 
as big as the Trident missile is, it is so much larger than 
ours, I think we can control those costs by closing down 
portions of the facilities and removing those costs from the 
Trident program. But we cannot completely eliminate that. We 
don't know exactly what those costs are going to be.
    So I think there's a very valid concern. There's no doubt 
our costs are going to go up. I don't think they'll double, but 
there's absolutely no doubt it's going to be significant and 
it's going to be a difficult cost for the Navy to absorb.
    Senator Vitter. Thank you, Mr. Chairman.
    Senator Ben Nelson. Senator Begich.
    Senator Begich. Mr. Chairman, thank you very much.
    I'm going to actually follow up on what Senator Vitter just 
talked about. I want to, if I can, just probe a little bit on 
the costing factor, and I'm not sure who would be the best, but 
I'll look to you, Rear Admiral Johnson. The estimate you give 
is 10 to 20 percent. Give me an assurance in how you come to 
that number? I'm new to all this, about a year and a half in 
now, but I have come to the conclusion estimates aren't the 
most accurate any more. No disrespect to any of the military 
folks, but it seems like every meeting I go to there is an 
estimate, and then I go to another meeting and the estimate's 
just a little off. A little off in the military is millions and 
billions.
    So help me understand why you think it's only 10 to 20 
percent when those fixed costs are going to be spread no matter 
what? Help me understand that.
    Admiral Johnson. Yes, sir. They've already gone up once.
    Senator Begich. How much did it go up last time?
    Admiral Johnson. On an individual rocket motor set price, 
it went up about $1.8 million per set, so that's about an 18 
percent change already. I'll take that for the record and give 
you an exact number so you can have it.
    Senator Begich. That would be great.
    [The information referred to follows:]

    The cost of an individual rocket motor set has increased $1.667 
million from fiscal year 2008 to fiscal year 2010, a change of 20.48 
percent. This increase was formulated using the expected negotiated 
unit cost of the fiscal year 2010 Rocket Motor contract.

    Admiral Johnson. So it's already gone up as I testify 
before you today. Then of course, I said ``at least,'' as a 
minimum, not less than 10 or 20 percent. We don't really know 
the full extent at this moment. We're working on that. I don't 
expect it will double yet again, but it's going to be a sizable 
cost for the Navy.
    Senator Begich. When you say you're working on it, is that 
an internal process with the contractors to come to an 
understanding or is it just an internal process that you're 
coming to with your team to guesstimate what it might be?
    Admiral Johnson. Strategic Systems Programs is part of an 
interagency task force headed by the Office of the Secretary of 
Defense (OSD) Industrial Policy, that has members from all the 
parties involved, and are examining that together. Congress has 
requested a plan, not a study but a plan, by June. It's that 
team, that interagency team that I referred to, that will 
bring, I think, a credible solution forward to the committee on 
time in June. That's my expectation.
    My position was based on an increase already seen.
    Senator Begich. That's fair.
    Admiral Johnson. So I don't think I'm too far off from you 
when the dust settles.
    Senator Begich. To make sure I understand--and I apologize, 
I wasn't here for all your folks' opening; I was still down on 
the floor--are the industry folks part of that discussion or 
not?
    Admiral Johnson. Yes.
    Senator Begich. Yes. For this June plan that's coming 
forward, that's been requested?
    Admiral Johnson. Yes. There's an industry role. This team 
was at one of the manufacturers, ATK, in February with a group 
of 16. So this is very credible work, this interagency task 
force, and that lies behind some of the unwavering position, 
even though I wiggled a little bit.
    Senator Begich. I want to echo what I know the chair and 
the ranking member talked about with the industrial base when 
it comes to the rockets, that it is a concern to me also in how 
we manage it. It sounds like, obviously, you see it as not only 
a short-term, but a long-term concern, and how to maintain 
that. The cost component is becoming a bigger issue.
    You anticipate the June plan will be on time?
    Admiral Johnson. Yes, sir.
    Senator Begich. Do you think the plan will be detailed 
enough for us to understand the next stages, short-term and 
long-term, to ensure that we have the industrial base there, 
and also the resources to meet those needs?
    Admiral Johnson. That level of question is really an OSD 
question. Of course, it's their study and their responsibility. 
But I have great confidence in this group and I don't think 
they will let you down, sir.
    Senator Begich. Great. Thank you very much. Again, I just 
want to echo the chair. I appreciate your comments.
    Let me, if I can, just ask a couple more quick questions. 
I'm not sure who the right person will be to answer it, so 
whoever jumps in first will be the right person. Actually, this 
one's easy. This one's for, I'll specify it to General 
Shackelford, if I could. That is, you talk about the Future 
Years Defense Program and modernization and sustainment for the 
bomber fleet, I think it's about $5 billion and some. Can you 
just give me a little bit on how that investment will work to 
maintain the bombers? How will that be used, if you can help me 
there a little bit?
    General Shackelford. Thank you, Senator.
    Senator Begich. Did I pick the right person to ask?
    General Shackelford. Yes, sir.
    Senator Begich. Okay, good.
    General Shackelford. We have investments going to all three 
bombers with the intent on not just sustaining the capability, 
but modernizing where it's appropriate. For instance, in the B-
1 we have computer issues that we need to deal with, so we're 
putting in a fully integrated data link that includes a 
backbone with communications technology for a Link 16 data link 
as well as the beyond-line-of-sight (BLOS) capability.
    This has as part of it new displays, which provide 
additional information to both cockpits of the B-1, the 
internal diagnostic computer that provides status of health 
information to the crew, some modernization of components 
within the radar, as well as in terms of a major capability 
improvement the laptop-controlled targeting pod, which has been 
very well received in Southwest Asia in the war, which allows 
us to collect nontraditional intelligence, reconnaissance, and 
surveillance data, as well as target our Joint Direct Attack 
Munition, and our Global Positioning System (GPS)-guided 
weapons from the bomber itself.
    Moving over to the B-2, we have the combat network 
communications technology which now also provides a digital 
backbone to what was a very dated infrastructure within the 
aircraft itself, and allows us to do things like BLOS retasking 
of the aircraft.
    Similarly, as we look to the future, for now what is a 
strategic nuclear-capable bomber, the extremely high frequency 
(EHF) radio communication and computer mod starts out with a 
new computer, because all of our bombers are common in being 
maxed out on computer capacity. It starts out with that 
computer mod, then moves into the integration of terminals to 
talk to the newer satellite systems as they come on line over 
the next several years.
    We're looking at a strategic radar replacement to upgrade 
what is also a fairly dated radar with the B-52. At the same 
time, we're bringing on capability to use the GPS weapons out 
of the internal bomb bay. We can carry them externally, but 
putting them on internally and then integrating that into the 
aircraft is a very, very important upgrade.
    Then in the case of the B-2, the same EHF radio mod. This 
one brings on a computer, it brings on a new antenna to give us 
capability to talk to those satellites as they get on orbit and 
we get the receivers into the bomber itself. We're also 
updating the radar with a modernization program that just 2 
days ago reached required assets available for four aircraft in 
terms of its ability to be used by the warfighter in a 
contemporary sense.
    Senator Begich. Let me ask you another, to tee off of that. 
I appreciate that. It gives me a little sense of what the 
upgrades are. Do you think, for either one of you, the 2011 
budget requests are sufficient, not only for what you're 
planning here, but other needs within the bomber fleet?
    General Shackelford. With respect to the modernization 
program?
    Senator Begich. Yes, and sustainment.
    General Shackelford. I believe we're in good shape there. 
There is a shortfall we're working on the B-1 side, on the 
vertical situation display unit. That is fallout of previous 
execution issues which have now been corrected.
    Senator Begich. What's the size of that shortfall? I've run 
out of time here.
    General Shackelford. I'll have to get you that dollar 
figure.
    Senator Begich. Could you do that for the record, just so I 
understand what that gap is there?
    [The information referred to follows:]

    The current B-1 shortfall in fiscal year 2011 3600 is $33.2 
million. If not fixed before the end of April, B-1 will be at risk to 
complete VSDU and FIDL flight test in fiscal year 2011.

    Senator Begich. Generally you feel good, but you're 
examining now to figure out how to resolve; is that a fair 
statement?
    General Shackelford. As we were working to keep the fully 
integrated data link in that diagnostic computer on track, the 
piece that we had to tap to give the funds to those was the 
vertical situation display unit.
    Senator Begich. It came from one to the other.
    General Shackelford. Right. We didn't have sufficient funds 
in the program line to cover that over the last year. We're 
working on reprogramming and asking for more there.
    Senator Begich. If you could show me what that is at some 
point, that would be great, and just get it to us.
    Thank you very much.
    Thank you, Mr. Chairman.
    Senator Ben Nelson. Thank you.
    Senator Sessions. We do have a vote that's being called at 
3:30 p.m.
    I'll be brief, Mr. Chairman. I will submit some questions 
for the record.
    Last year, I think, General Alston and Admiral Johnson, you 
testified about Air Force test flights and that the Air Force 
conducts three flight tests each year of the Minuteman III ICBM 
and the Navy conducts four test flights of the Trident to 
determine weapon reliability as required to meet your 
estimation of the strategic command requirements. Would you 
explain why that testing is necessary?
    General Alston. Let me take it from the Air Force side 
since that's a responsibility that now falls under Air Force 
GSC. We do a lot of different tests, Senator Sessions, with the 
ICBM, not just flight testing. It's part of a broad family of 
testing that takes place every month at a missile wing, which 
goes through annual tests of the electronic launch capabilities 
associated with it.
    But at the end of the day we feel we need to fly at least 
three actual flights from Vandenberg and launch them out into 
the Pacific Range to Kwajalein to see if it all comes 
together--the command and control, the equipment, and the 
missile silo, as well as the booster itself and elements of the 
reentry system--to make sure that this whole system of systems 
comes together.
    We derive important data from the process of actually 
configuring these missiles for launch, as well as data from 
telemetry as the missile flies through the boost phase and 
through the trajectory phase, all the way down to the reentry 
phase.
    We'd like to do more. I know the Department of Energy (DOE) 
would clearly like us to do more tests. We talked earlier in a 
response to a question from the chairman or the ranking member 
that as we drive toward lower numbers of warheads that means 
every time we test an ICBM we test less reentry systems. So 
there is less data available for DOE.
    But I don't see any substitute for actually doing a very 
robust flight test program. We do not have the great advantage 
of our flying Air Force in the sense that every time an 
airplane takes off and goes for a flight and lands to a certain 
extent you're doing an operational test of that aircraft, not a 
formal test, but you're making sure all the systems work. So 
for the ICBM there's no other way we can do it.
    Senator Sessions. I think that makes sense to me as a 
layperson looking at it, because there are so many 
complexities, so many thousands of components and computer 
capabilities, systems, and other things that go into this 
system.
    Mr. Chairman, I just wanted to highlight these facts with 
respect to the annual ICBM flight testing because I want to 
bring our attention to the fact that similar flight testing for 
the ground-based interceptor (GBI), which is a long-range 
interceptor that will be part of the National Missile Defense 
system. According to the Missile Defense Agency (MDA), it plans 
to acquire only 22 GBIs for the purpose of flight testing. This 
will be the 30 in Alaska plus the ones in California. According 
to their test plans to date, 19 of the 22 are expected to be 
consumed through 2019, which isn't a robust testing system, but 
it's a couple of years maybe or maybe a little less.
    That leaves only three GBIs in the inventory then over the 
12 years from 2020 through 2032. It means I guess one flight 
test every 4 years as the system has aged some. General Klotz, 
while we have an assembly line up and running, might it not be 
smarter to go on and add to our inventory more GBIs so that we 
could maintain at least a minimum level of testing through the 
next decade?
    General Klotz. Senator, with respect, that's a question 
really for the MDA to answer. I can tell you how the Air Force 
would approach it and how the Air Force GSC approaches it. We 
need sufficient assets in our Minuteman III inventory, as well 
as the equipment that goes with it, to conduct a minimum of 
three tests per year.
    We face a particular challenge that perhaps the MDA does 
not, and that is our Minuteman IIIs were first deployed in the 
1970s, so one of the things that's important for us in the 
testing program is not just to make sure things work, but to 
see how the system ages and whether it ages gracefully or 
whether there are other defects in the system, either at the 
design or as a result of longevity, that we're not aware of 
through ground testing.
    Senator Sessions. Dr. Roberts, I guess you have the 
responsible oversight of this. Do I have your assurance and can 
we be assured that you will examine what appears to me to be a 
gap in our capability for the kind of minimal testing that 
looks to be required?
    Dr. Roberts. Certainly.
    Senator Sessions. We've reduced the number of GBIs being 
produced dramatically, more than I think we should. But we've 
done that. I guess that's a firm decision that is not likely to 
be reversed. But that does suggest to me that, with fewer 
systems in the ground ready to launch, we ought to be sure that 
they're safe and reliable, and I hope that you will look at 
that. It would be cheaper to me to complete that inventory now 
than having to reconstitute an entire assembly line a decade 
away.
    Thank you.
    Senator Ben Nelson. Thank you.
    The vote has been called. I have a question, then we'll 
reconvene at the Capitol Visitor Center.
    General Alston, in the Air Force nuclear roadmap, which is 
the strategy document for fixing the Air Force nuclear 
enterprise, 10 key actions were identified. We've talked about 
some of these, but I have a question about two more. The first 
is to create strategic plans that address long-term nuclear 
requirements--cruise missile, bomber, dual capable aircraft, 
ICBM. Has that plan been developed, and would it be available 
to be provided to Congress?
    The second is to charge the Under Secretary of the Air 
Force with ongoing broad policy and oversight responsibility 
for nuclear matters. Now, we've just confirmed a new Under 
Secretary here. The statutory requirement for the Under 
Secretary of the Air Force and for all Service Under 
Secretaries is that they shall be the chief business management 
officer for their respective Services. With this change, will 
the roadmap action designate the Under Secretary with oversight 
and policy for nuclear matters? Will it be implemented or not, 
and if it isn't, what kind of implementation might be required?
    It's a long question. I'm going to have to run in a minute.
    General Alston. Yes, sir. Mr. Chairman, I think I can be 
brief with these. I may have to turn and depend on Lieutenant 
General Shackelford a bit. But we have, particularly over the 
last year, examined through our stewardship responsibilities 
what actions are appropriate with the air-launched cruise 
missile, how do we get the Minuteman III to 2030, which 
Congress has directed us to do, our partnership with DOE for 
the LEP for the B61. We don't have responsibility for that 
weapon end to end, but we do have great equities in that 
particular process.
    We looked at all of our platforms and our capabilities and 
we found that we did not have the kind of content that good 
stewardship would require. So we have begun a process that will 
put a follow-on standup capability. It's now entering the JCIDS 
process, the DOD requirements process, this spring, with 
analysis of alternatives to commence in the fall.
    We have a roadmap to get the Minuteman to 2030, which 
continues to be refined. The acquisition community actually has 
structured plans across the systems in order for us to 
understand and more thoroughly add content as the resourcing 
requirements mature.
    So I would say that right now we have taken the appropriate 
action that we set out to do and we've set ourselves on a 
course for more improved stewardship of our strategic delivery 
capabilities than where we were a year ago. I believe that's on 
course.
    With regard to the Under Secretary, the Under Secretary has 
authority to stand in for the Secretary for all the 
responsibilities that the Secretary of the Air Force has. But 
we felt that for a point of emphasis in our roadmap, without 
any compelling authoritative power behind it other than it 
being the Air Force strategic vision for our nuclear 
enterprise, and it being an expression of the Chief of Staff 
and the Secretary on the courses of action and the course they 
set for our Air Force with regard to the nuclear enterprise, it 
was important to us to designate the Under Secretary to 
emphasize the value that was seen in that position having a 
specifically articulated responsibility to support the 
development and stewardship of the nuclear enterprise.
    That was the motivation by the Chief of Staff and the 
Secretary to put that content in the roadmap, and we are 
delighted that our Under Secretary is on board and able to help 
us do the heavy lifting that's still required.
    Senator Ben Nelson. That was short. Thank you.
    We'll reconvene downstairs at the Office of Senate Security 
after the vote. We are adjourned.
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator David Vitter
                                ssbn(x)
    1. Senator Vitter. Admiral Johnson, during the recent full 
committee Navy posture hearing, both Admiral Roughead and Secretary 
Mabus stressed the importance of getting the design of the Ohio class 
follow-on done properly, thoroughly, and thoughtfully. Please explain 
the design process going forward, how you will prevent requirements 
creep once a production decision is made, and ultimately what is being 
done to ensure that the program is affordable, delivered on time, and 
delivered within budget.
    Admiral Johnson. The Ohio Replacement Program plans to employ a 
design process similar to the successful design/build process employed 
on the Virginia class SSN. This process combines the expertise of 
designers, system experts, component developers, production personnel, 
and operators to develop a producible design meeting system 
requirements. Properly phased design efforts are essential to limit 
changes during construction and to support a planned 84-month 
construction period.
    Detailed requirements will be refined during development and review 
of the Capability Development Document. The single mission of the Ohio 
replacement platform is strategic deterrence. Once the requirements for 
the platform are established, any potential changes will be vetted 
through the Configuration Steering Board (CSB) process. CSB reviews of 
proposed requirements changes will be conducted annually, consistent 
with the guidance in Department of Defense (DOD) Instruction 5000.2 and 
Section 814 of the Duncan Hunter National Defense Authorization Act 
(NDAA) for Fiscal Year 2009. During construction, changes will be 
implemented only if funds are identified and schedule impacts are 
mitigated.
    Affordability will be an integral part of the design process. Use 
of parts common with the Virginia, Seawolf, and Ohio submarines will 
reduce component development costs. Where practical, the Ohio 
Replacement Program will leverage known successful systems, components, 
and construction processes from the Virginia submarine program as well 
as incorporating the SONAR Acoustic Rapid Commercial Off-The-Shelf 
Insertion and the Common Submarine Radio Room philosophy currently used 
fleet wide in the submarine force.
    In addition, the Ohio Replacement Program benefits from investment 
by the United Kingdom (U.K.) in the Common Missile Compartment (CMC). 
The United States and the U.K. have agreed to share the Nonrecurring 
Engineering (NRE) costs of designing a CMC. The U.K. will pay 12.5 
percent of the total design NRE for the common compartment. To date, 
the U.K. has invested over $280 million. Each nation will fund 100 
percent of any design costs associated with country-unique 
requirements.

    2. Senator Vitter. Admiral Johnson, given the missile compartment 
of the SSBN(X) is a co-development effort between the United States and 
the U.K., to what extent would a British decision to only construct 
three instead of four submarines have on the United States in terms of 
overall cost?
    Admiral Johnson. The U.S.-U.K. have agreed to share the costs 
associated with NRE to design a CMC for both nations' replacement SSBN 
programs. This cost share arrangement for NRE is unaffected by any 
future procurement decision by the U.K. with respect to the number of 
successor SSBNs they produce.
    The United States has the opportunity to explore cooperative 
arrangements for production in order to reduce costs for both nations. 
Larger numbers of submarines, or in this case, missile compartments, 
will lower costs on a per item basis. This effect is most significant 
in the first few units produced. While there is a cost advantage to the 
United States if the U.K. were to build four missile compartments, 
savings to the United States are dominated by the first three U.K. 
missile compartments built. Therefore the impact is minimal.

              next generation air-launched cruise missile
    3. Senator Vitter. General Shackelford, a key component to the 
flexibility and credibility of the bomber force is the mix of effective 
penetrating and stand-off missiles. In the past, the Air Force has 
asserted that this mix is essential to the viability of this leg of the 
triad and the fiscal year 2011 budget includes funding to continue the 
study of the next generation air launched cruise missile (ALCOM). 
Nonetheless, I understand that the decision on whether this next 
generation missile will be convention or nuclear has yet to be made and 
is pending the Nuclear Posture Review (NPR). Does the Air Force still 
maintain that the bomber leg of the triad can be maintained without a 
new or modernized long-range stand-off capability?
    General Shackelford. I defer to my colleague, Major General Alston, 
to address the question in that he is more familiar with the details of 
this matter.
    General Alston. The Air Force recognizes that a robust long-range 
strike capability is essential to strategic deterrence and that 
modernizing the legacy bomber fleet, while pursuing new long-range 
strike technologies, ensures a viable airborne strategic deterrent over 
the long-term. Per the NPR, an Analysis of Alternatives (AoA) for a 
follow-on ALCM will begin in the fall of 2010. The AoA results, 
expected by mid-2012, will better inform the Air Force and DOD on the 
best options for the long-range stand-off capability as part of the 
airborne leg of the traditional nuclear triad.

                         next generation bomber
    4. Senator Vitter. General Klotz, General Shackelford, General 
Alston, and General Scott, the 2006 Quadrennial Defense Review (QDR) 
made the decision to develop a follow-on bomber, and you have made it 
clear that you support the development of a new bomber. However, last 
April, Secretary of Defense Gates opted not to pursue a development 
program for a follow-on Air Force bomber until there was a better 
understanding of the need, the requirement, and the technology. As part 
of this effort to better understand the requirements for a new bomber, 
Secretary Gates stood up a Tiger Team to do an in-depth study of long-
range strike in the new QDR. However, on reading the new QDR, on page 
33, it looks like there still has not been a decision to move forward 
with a new bomber program, but instead, the Department has commissioned 
yet another study. What conclusions were drawn by the Tiger Team 
regarding the development of a new bomber?
    General Klotz. I defer to my colleague, Major General Scott, to 
address the question in that he is more familiar with the details of 
this matter.
    General Shackelford. I defer to my colleague, Major General Scott, 
to address the question in that he is more familiar with the details of 
this matter.
    General Alston. The Tiger Team identified a mix of capabilities 
that would be required of a family of systems to create the desired 
deterrent effects, or successfully strike, if required. The ongoing 
study is examining what mix of legacy and future platforms will be 
required to present the needed capabilities.
    General Scott. The Department has determined that additional 
analysis is needed to fully understand how all potential long-range 
strike options could contribute to the country's National Defense and 
National Military Strategies and Objectives before large amounts of 
funding are committed to an acquisition program. During the 2010 QDR, a 
Secretary of Defense-directed Tiger Team was established to complete an 
in-depth study of long-range strike--including the Long-Range Strike 
Platform (LRSP) need, requirement, and technology. The team's 
conclusions were supportive of pursuing a new LRSP but identified the 
need for additional analysis to explore options for reducing costs and 
accelerating fielding timelines. Based upon the need for additional 
analysis, the Secretary of Defense chartered a subsequent study to 
examine a broader array of long-range strike issues and options 
including the appropriate mix of long-range strike capabilities; 
upgrades to legacy bombers; manned and unmanned force structure 
numbers; stand-off and penetrating platform ratios; stand-off cruise 
missile requirements; intelligence, surveillance, and reconnaissance 
(ISR) demands; airborne electronic attack requirements; and 
conventional Prompt Global Strike needs. The study results will be 
available in the fall of 2010.

    5. Senator Vitter. General Klotz, General Shackelford, General 
Alston, and General Scott, what progress has been made in conducting 
the new long-range strike study required by the 2010 QDR?
    General Klotz. I defer to my colleague, Major General Scott, to 
address the question in that he is more familiar with the details of 
this matter.
    General Shackelford. I defer to my colleague, Major General Scott, 
to address the question in that he is more familiar with the details of 
this matter.
    General Alston. The RAND project for the Long-Range Strike study 
identified a series of tasks to be examined in order to inform 
decisions on the future size, character, and composition of U.S. forces 
for detecting, locating, identifying, tracking, engaging, disrupting, 
destroying, and assessing targets in adversary countries. The Air Force 
is scheduled to receive a series of midterm briefs on these tasks 
throughout the summer and a final brief in early fall. The study is on 
track to be completed by February of next year.
    General Scott. A summary of the RAND, IDA, and APL project 
description for the Long-Range Strike (LRS) study directed by 2010 QDR 
is listed below:
Objectives
        <bullet> Inform decisions bearing on future size, character, 
        and composition of U.S. forces for detecting, locating, 
        identifying, tracking, engaging, disrupting, destroying, and 
        assessing targets in adversary countries
        <bullet> Consider future adversaries with both modest and 
        sophisticated anti-access capabilities
        <bullet> Evaluate alternative future capabilities and 
        architectures including supporting infrastructure
        <bullet> Use a range of scenarios depicting theater-level 
        conflict in the 2020-2030 timeframe
Approach
        <bullet> Task 1: ID scenarios and operational objectives using 
        at least two MCOs in 2020-2030 with Joint Country Force 
        Assessment (JCOFA) threat projections and Multi-Service Force 
        Deployment (MSFD) scenarios
        <bullet> Task 2: Assess LRS system capabilities and limitations 
        including survivability and weapon effectiveness and 
        considering off-board ISR, EA, C3, MILDEC, cyber, forward 
        basing, AR, and PED support
        <bullet> Task 3: Develop at least three affordable LRS 
        portfolios characterized by the absence of a new bomber, 
        procurement of a new stand-off bomber, and the fielding of a 
        penetrating bomber (manned or unmanned)
        <bullet> Task 4: Assess the effectiveness of each LRS portfolio 
        with 1v1, mission, and campaign level analyses
        <bullet> Task 5: Examine robustness of each alternative force 
        structure in the face of potential threat counters to include 
        cost imposition of low observable (LO) versus counter LO 
        competition
        <bullet> Task 6: Examine the flexibility of each LRS portfolio 
        to adapt to multiple conflicts and operations across the threat 
        spectrum with qualitative implications of each force on future 
        U.S. nuclear posture
Schedule
        <bullet> Analytical Approach Briefing: March 2010
        <bullet> Midterm Brief on Tasks 1-2: May 2010
        <bullet> Midterm Brief on Task 3: June 2010
        <bullet> Midterm Brief on Task 4: July 2010
        <bullet> Final Briefing: September 2010
        <bullet> Final Report Delivered: February 2011
Conclusion
    The study is on pace as described above. The scenarios, threats, 
and target sets have been approved. The LRS Working Group is in the 
process of defining the LRS portfolios described in Task 3.

    6. Senator Vitter. General Klotz, General Shackelford, General 
Alston, and General Scott, what will the three contractors (RAND, IDA, 
and Johns Hopkins University's Applied Physics Laboratory) reportedly 
hired to do analysis for this study be expected to produce?
    General Klotz. I defer to my colleague, Major General Scott, to 
address the question in that he is more familiar with the details of 
this matter.
    General Shackelford. I defer to my colleague, Major General Scott, 
to address the question in that he is more familiar with the details of 
this matter.
    General Alston. OSD has established the scope and parameters of 
this study and is using interim progress checks to ensure the study 
remains relevant, focused, and provides analysis necessary for 
answering how to best meet the Nation's future Long-Range Strike 
requirements through the optimum mix of platforms and capabilities.
    General Scott. A summary of the RAND, IDA, and APL project 
description for the LRS study directed by 2010 QDR is listed below:
Objectives
        <bullet> Inform decisions bearing on future size, character, 
        and composition of U.S. forces for detecting, locating, 
        identifying, tracking, engaging, disrupting, destroying, and 
        assessing targets in adversary countries
        <bullet> Consider future adversaries with both modest and 
        sophisticated anti-access capabilities
        <bullet> Evaluate alternative future capabilities and 
        architectures including supporting infrastructure
        <bullet> Use a range of scenarios depicting theater-level 
        conflict in the 2020-2030 timeframe
Approach
        <bullet> Task 1: ID scenarios and operational objectives using 
        at least two MCOs in 2020-2030 with JCOFA threat projections 
        and MSFD scenarios
        <bullet> Task 2: Assess LRS system capabilities and limitations 
        including survivability and weapon effectiveness and 
        considering off-board ISR, EA, C3, MILDEC, cyber, forward 
        basing, AR, and PED support
        <bullet> Task 3: Develop at least three affordable LRS 
        portfolios characterized by the absence of a new bomber, 
        procurement of a new stand-off bomber, and the fielding of a 
        penetrating bomber (manned or unmanned)
        <bullet> Task 4: Assess the effectiveness of each LRS portfolio 
        with 1v1, mission, and campaign level analyses
        <bullet> Task 5: Examine robustness of each alternative force 
        structure in the face of potential threat counters to include 
        cost imposition of LO versus counter LO competition
        <bullet> Task 6: Examine the flexibility of each LRS portfolio 
        to adapt to multiple conflicts and operations across the threat 
        spectrum with qualitative implications of each force on future 
        U.S. nuclear posture
Excursions
    IDA with the support of the Johns Hopkins APL are on task to 
provide analysis for excursions which RAND is not equipped to handle. 
For example, IDA will address the LO/counter LO capabilities with 
respect to a penetrating bomber versus advanced air defenses.
Schedule
        <bullet> Analytical Approach Briefing: March 2010
        <bullet> Midterm Brief on Tasks 1-2: May 2010
        <bullet> Midterm Brief on Task 3: June 2010
        <bullet> Midterm Brief on Task 4: July 2010
        <bullet> Final Briefing: September 2010
        <bullet> Final Report Delivered: February 2011

    7. Senator Vitter. General Klotz, General Shackelford, General 
Alston, and General Scott, can you certify that all the participants 
will not have a potential conflict of interest with regards to their 
work?
    General Klotz. I defer to my colleague, Major General Scott, to 
address the question in that he is more familiar with the details of 
this matter.
    General Shackelford. I defer to my colleague, Major General Scott, 
to address the question in that he is more familiar with the details of 
this matter.
    General Alston. Yes. Evaluation of the initial investigation of 
conventional long-range strike options, prepared for the Under 
Secretary of Defense for Policy (USDP) dated February 2010, has 
determined RAND to be uniquely positioned to conduct this study in a 
short time. The study will be conducted in an unbiased manner that will 
achieve transparent results that are accessible to policymakers making 
resource allocation decisions. RAND has a long history of providing 
objective, independent analysis of complex problems for OSD, the Joint 
Staff, the combatant commands, and all of the Services and has recently 
published work detailing the development of the anti-access threat.
    General Scott. All participants bring an unquestioned desire to 
ensure we deliver to the Nation the best possible Long-Range Strike 
solution in order to defend our country's strategic interests. The 
agencies involved in this work are primarily ``think tanks'', and were 
selected precisely for their work on previous studies covering all 
aspects of our national defense.

    8. Senator Vitter. General Klotz, General Shackelford, General 
Alston, and General Scott, when do you expect this study to draw to a 
close?
    General Klotz. I defer to my colleague, Major General Scott, to 
address the question in that he is more familiar with the details of 
this matter.
    General Shackelford. I defer to my colleague, Major General Scott, 
to address the question in that he is more familiar with the details of 
this matter.
    General Alston. The Secretary of Defense has tasked his study 
directors to report results in September 2010.
    General Scott. The Secretary of Defense has tasked his study 
directors to report their results by September 2010. The entire LRS 
study schedule is shown below:
Schedule
        <bullet> Analytical Approach Briefing: March 2010
        <bullet> Midterm Brief on Tasks 1-2: May 2010
        <bullet> Midterm Brief on Task 3: June 2010
        <bullet> Midterm Brief on Task 4: July 2010
        <bullet> Final Briefing: September 2010
        <bullet> Final Report Delivered: February 2011

      number of bombers in fiscal years 2011-2015 force structure
    9. Senator Vitter. General Klotz, General Shackelford, General 
Alston, and General Scott, with regard to the Future Years Defense 
Program force structure set out in the new QDR for the Air Force, the 
QDR proposes five long-range strike wings with up to 96 primary mission 
aircraft. According to the latest Air Force Almanac, the Air Force has 
153 bomber aircraft. I understand some of these aircraft are dedicated 
to testing, but over 50 aircraft for testing seems like a lot. Do you 
plan on retiring any bomber aircraft in the near future?
    General Klotz. Air Force Global Strike Command (AFGSC) has 
responsibility for two types of long-range, nuclear-capable bombers: 
the B-2 Spirit and the B-52H Stratofortress.
    Total Aircraft Inventory (TAI) for the B-2 is 20, of which all 20 
are combat-coded. All B-2 training and test activities employ combat-
coded aircraft.
    TAI for the B-52H is 76, of which 54 are combat-coded, 18 are 
training, and 4 are test.
    As stated in the unclassified Fact Sheet on the 1251 Report 
released by the White House Press Office on 13 April 2010, some of the 
Air Force's deployable nuclear-capable bombers will be converted to 
conventional-only bombers (not accountable under the treaty), and up to 
60 nuclear-capable bombers will be retained. AFGSC has not recommended 
retiring any B-2 or B-52 aircraft.
    General Shackelford. I defer to my colleague, Major General Scott, 
to address the question in that he is more familiar with the details of 
this matter.
    General Alston. The Air Force has no plans to retire any bomber 
aircraft, currently retaining 96 combat-coded aircraft in its Primary 
Mission Aircraft Inventory (PMAI): 36 B-1s (nonnuclear), 16 B-2s and 44 
B-52s. Overall, the Air Force fields 162 TAI bombers with the 
additional jets required to meet fleet training, maintenance, attrition 
reserve, and testing needs. These are vital support functions for 
keeping our operational edge (96 PMAI) in the highest state of 
readiness.

----------------------------------------------------------------------------------------------------------------
                                                                         TAI                      PMAI
----------------------------------------------------------------------------------------------------------------
B-1.........................................................                       66                        36
B-2.........................................................                       20                        16
B-52........................................................                       76                        44
                                                             ---------------------------------------------------
                                                                                  162                        96
----------------------------------------------------------------------------------------------------------------

    General Scott. The total number of bombers in the Air Force 
inventory is 162 (66 B-1, 20 B-2, and 76 B-52 aircraft). 96 represents 
the total number of combat coded aircraft with the difference being 
made up from training, backup, attrition reserve, and test airframes. 
The table below shows the breakdown by aircraft type and coding. The 
attached slides show the geographic location, coding, and correct 
number for each bomber in the Air Force inventory. At this time, the 
Air Force has no plans to retire any of the 162 bombers currently in 
the inventory.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                       Combat Coded                                        Attrition
                     Airframe                            Total             (CC)        Training (TF)     Backup (BAI)     Reserve (AR)      Test (CB)
--------------------------------------------------------------------------------------------------------------------------------------------------------
B-1...............................................              66               36               16                9                1                4
B-2...............................................              20               16                0                4                0                0
B-52..............................................              76               44               16               11                2                3
--------------------------------------------------------------------------------------------------------------------------------------------------------

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    10. Senator Vitter. General Klotz, General Shackelford, General 
Alston, and General Scott, what are the assumptions underlying what 
appears to be a substantial reduction in the number of bombers?
    General Klotz. See answer to question #9.
    General Shackelford. See answer to question #9.
    General Alston. The Air Force has no plans to reduce the number of 
bombers. The life of the airframe, combined with operational relevancy, 
is continually balanced against current and future Long-Range Strike 
requirements to determine the proper force size. Additionally, we 
continually evaluate the legacy and future fleet size to meet national 
security priorities in a resource constrained environment.
    General Scott. See answer to question #9.

                              qdr red team
    11. Senator Vitter. General Klotz, General Shackelford, General 
Alston, and General Scott, I understand Secretary Gates appointed a so-
called Red Team of retired senior officers and outside defense experts 
to provide an outside assessment of the QDR. I also understand that the 
Red Team reviewed the QDR's assessments and conclusions through the 
summer of 2009, and submitted a memo to Secretary Gates in the fall of 
2009. What did the QDR Red Team have to say about long-range strike and 
the development of a next generation bomber aircraft?
    General Klotz. I defer to my colleague, Major General Scott, to 
address the question in that he is more familiar with the details of 
this matter.
    General Shackelford. I defer to my colleague, Major General Scott, 
to address the question in that he is more familiar with the details of 
this matter.
    General Alston. A10 was not involved with the QDR's Red Team 
assessment and was not briefed on the results of the study.
    General Scott. The QDR Red Team, led by General Mattis, Commander, 
U.S. Joint Forces Command (JFCOM), and Dr. Marshall, Director, Net 
Assessment, was established at the request of the Secretary of Defense 
to provide alternative viewpoints on recommendations generated during 
the QDR. These included such areas as risk assumptions related to 
future security environment challenges, force mix options, and the 
force planning construct. When the Secretary of Defense appointed the 
QDR Red Team, we understand he assured the panel members that their 
insights would help inform his decision-making and would not be subject 
to outside review, with a final memorandum going directly to him. The 
Air Force was not privy to the QDR Red Team memorandum or any of the 
specific recommendations put forward by the panel.

    12. Senator Vitter. General Klotz, General Shackelford, General 
Alston, and General Scott, what was the Red Team's assessment of the 
QDR's long-range strike pronouncements?
    General Klotz. AFGSC is a field command focused on the day-to-day 
operations, maintenance, security, and support of its subordinate 
bomber and missile units. It does not directly participate in the OSD-
led LRS Working Group for the 2010 QDR LRS Study.
    General Shackelford. See answer to question #11.
    General Alston. See answer to question #10.
    General Scott. See answer to question #10.

                       nuclear weapons in europe
    13. Senator Vitter. Dr. Roberts, forward deployed nuclear weapons 
in Europe represent a longstanding military and political commitment to 
the defense of Europe and our North Atlantic Treaty Organization (NATO) 
allies. However, counter to the interests of all NATO allies, a small 
coalition of European nations has called for the removal of U.S. 
weapons from Europe. Will the NPR address the important role the 
extended U.S. nuclear umbrella plays on nonproliferation?
    Dr. Roberts. Yes. The NPR report articulates five objectives, of 
which one is strengthening regional deterrence and reassuring U.S. 
allies and partners. In that context, the NPR report outlines the 
elements of a credible U.S. nuclear umbrella comprised of the strategic 
forces of the U.S. triad, non-strategic nuclear weapons deployed 
forward in key regions, and U.S.-based nuclear weapons that could be 
deployed forward quickly to meet regional contingencies. It also states 
that the United States will continue to assure allies and partners of 
the U.S. commitment to their security and to demonstrate this 
commitment through various initiatives designed to enhance regional 
security architectures.
    The NPR report acknowledges that U.S. security relationships are 
important not only in deterring potential threats, but also to serve 
our non-proliferation goals. These relationships demonstrate to 
neighboring states that their pursuit of nuclear weapons will only 
undermine military or political advantages. They also reassure 
nonnuclear U.S. allies and partners that their security interests can 
be protected without their own nuclear deterrent capabilities.

                       nuclear surety inspections
    14. Senator Vitter. General Alston, over the past year, we have 
been informed of a number of nuclear surety inspection (NSI) failures 
at a variety of units across the country. These no-notice 
investigations are a critical component of the Air Force's renewed 
emphasis on nuclear oversight and assess all aspects associated with 
security of our nuclear forces. Noting the rigor of the standards have 
increased since the incident in 2007, how do you assess the 
effectiveness of the new testing regime in identifying problems?
    General Alston. The extensively overhauled NSI process is resulting 
in consistent and vigorous application of appropriately high standards. 
The increased inspection proficiency of individual inspectors, the 
volume of inspectors involved, and the increased number of no-notice or 
limited notice inspection is providing for higher quality refined 
assessments of performance. The level of detail derived from the NSI is 
enabling better trend analysis and better targeted improvements by our 
units. Major commands use discrepancies found during inspections, 
combined with other assessment tools, to continually improve processes 
and procedures.

    15. Senator Vitter. General Alston, as you are aware, the Strategic 
Posture Commission asserted that leadership was an essential element in 
inspiring people to ``feel they are doing important work and are valued 
for it.'' Without a dramatic change in culture, such leadership and 
organizational changes are bound to fail. Is the culture changing?
    General Alston. Yes, culture change is vital. We have been taking 
deliberate steps to achieve the shift we're seeking.
    By concentrating all our operational strategic forces under a 
single commander responsible for establishing and enforcing standards 
and holding leadership at all levels accountable, we set conditions for 
culture change. We took equivalent action with regard to all nuclear 
sustainment.
    In addition to increased focus on inspections and the inspection 
process, we have also taken action across the Air Force to change the 
way every airman perceives the nuclear mission. We baselined every 
professional military education course--officer and enlisted--and 
modified or added nuclear elements to curricula as appropriate.
    We updated Air Force doctrine to include a greater focus on 
deterrence.
    Culture change is difficult and takes time. Consistent application 
of exacting standards, setting common expectations, performing every 
day with precision and reliability--and validating that performance 
with engaged leadership--are some of the conditions we have set to 
achieve the sustained excellent results we are after.

                          weapons storage area
    16. Senator Vitter. General Alston and General Klotz, I was 
extremely pleased to learn that the Air Force made a budget request in 
fiscal year 2010 to recertify the Barksdale weapons storage area (WSA), 
and Congress ultimately appropriated $77 million for the project. What 
are your thoughts regarding the WSA at Barksdale Air Force Base which 
was decertified for nuclear storage a number of years ago?
    General Alston. The Air Force is reviewing the implications of the 
NPR, the New START, and the 2010 NDAA mandated 1251 Report which 
suggests a range of Air Force nuclear force structure associated with 
New START limits. The Air Force will continue to ensure it has 
sufficient infrastructure to meet all current and future nuclear 
mission requirements, to include a Barksdale WSA.
    General Klotz. The WSA at Barksdale stood down in December 2007. 
This action was taken as a result of planned reductions in the number 
of deployed Advanced Cruise Missiles (ACMs) and ALCMs and, at the same 
time as a means of avoiding the costs associated with bringing the 
Barksdale WSA up to revised DOD security standards.
    In an ideal world, reestablishing the WSA at Barksdale would 
benefit the nuclear enterprise by eliminating the risks inherent in 
relying upon a single WSA at Minot to support B-52H ALCM operations. 
Additionally, having two WSAs would aid in maintaining a knowledgeable 
and experienced WSA workforce within the larger Air Force nuclear 
enterprise.
    We've taken initial steps to identify needed upgrades to security 
and control systems and current storage facilities to meet DOD 
requirements for weapon storage. Our current estimate for a full and 
complete recertification totals $108.5 million. To the best of our 
knowledge, the proposal in Congress for $77 million to be appropriated 
for the Barksdale WSA in fiscal year 2010 never made it into the final 
bill.
    Reestablishing a WSA at Barksdale must of course compete at the Air 
Staff against other Air Force priorities for limited resources and 
manpower.

    17. Senator Vitter. General Alston, can you give me some insight as 
to what scenarios and outcomes might preclude the Air Force from moving 
forward with the recertification of the Barksdale WSA?
    General Alston. Overall required force levels, combatant commander 
requirements, and operational considerations are a few of the 
considerations that will help inform a decision on taking further 
action to recertify the Barksdale WSA.

    18. Senator Vitter. General Klotz, how important is the 
recertification of the Barksdale WSA for your mission?
    General Klotz. See answer to question #16.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                  nuclear arms life extension programs
    19. Senator Sessions. Dr. Roberts, with respect to the W78 Life 
Extension Program (LEP), can you tell me if the NPR will take any 
option--i.e., refurbishment, reuse, replacement, or a combination of 
these--off the table?
    Dr. Roberts. The NPR report outlines a strategy for sustaining a 
safe, secure, and effective nuclear deterrent for as long as nuclear 
weapons exist. Although the NPR report expresses a policy preference 
for refurbishment and reuse in decisions to proceed from study to 
engineering development, the laboratory directors will provide findings 
associated with the full range of LEP approaches and to make a set of 
recommendations based solely on their best technical assessments of the 
ability of each LEP approach to meet critical stockpile management 
goals.

    20. Senator Sessions. Dr. Roberts, what are the factors to consider 
when establishing these guidelines for future LEP work?
    Dr. Roberts. Several key principles will guide future U.S. 
decisions on stockpile management. The United States:

        <bullet> Will not conduct nuclear tests, and will seek 
        ratification and entry into force of the Comprehensive Nuclear 
        Test Ban Treaty.
        <bullet> Will not develop new nuclear warheads. LEPs will use 
        only nuclear components based on previously tested designs, and 
        will not support new military missions or provide for new 
        military capabilities.
        <bullet> Will study options for ensuring the safety, security, 
        and reliability of nuclear warheads on a case-by-case basis, 
        consistent with the congressionally mandated Stockpile 
        Management Program.

    The full range of LEP approaches will be considered: refurbishment 
of existing warheads, reuse of nuclear components from different 
warheads, and replacement of nuclear components.
    In any decision to proceed to engineering development for warhead 
LEPs, the United States will give strong preference to options for 
refurbishment or reuse. Replacement of nuclear components would be 
undertaken only if critical Stockpile Management Program goals could 
not otherwise be met, and if specifically authorized by the President 
and approved by Congress.

    21. Senator Sessions. Dr. Roberts, under what conditions would you 
not consider reuse or replacement options?
    Dr. Roberts. The full range of LEP approaches will be considered: 
refurbishment of existing warheads, reuse of nuclear components from 
different warheads, and replacement of nuclear components.

    22. Senator Sessions. Dr. Roberts, last fall, with respect to LEPs, 
Secretary Gates said at an Air Force Association meeting that we needed 
``in one or two cases probably new designs that will be safer and more 
reliable.'' Will the NPR support the Secretary's view that in one or 
two cases, new designs may be necessary?
    Dr. Roberts. Secretary Gates' concern has been that the deterrent 
remains safe, secure, and effective. He explicitly said that his focus 
was ``not about new capabilities, it is about safety, security, and 
reliability.'' The NPR concludes that the United States can meet its 
requirements without developing new nuclear weapons. As Secretary Gates 
states in the preface to the NPR, ``The NPR calls for making much-
needed investments to rebuild America's aging nuclear infrastructure. 
These investments, and the NPR's strategy for warhead life extension, 
represent a credible modernization plan necessary to sustain the 
nuclear infrastructure and support our Nation's deterrent.''

    23. Senator Sessions. Dr. Roberts, will this include a new design 
that will make current warheads, such as the W78 safer and more 
reliable--and which will exercise the skills of our nuclear scientists?
    Dr. Roberts. The NPR report outlines the following principles to 
guide future U.S. stockpile management decisions:

        <bullet> The United States will not conduct nuclear testing, 
        and will pursue ratification and entry into force of the 
        Comprehensive Nuclear Test Ban Treaty.
        <bullet> The United States will not develop new nuclear 
        warheads. LEPs will use only nuclear components based on 
        previously tested designs, and will not support new military 
        missions or provide for new military capabilities.
        <bullet> The United States will study options for ensuring the 
        safety, security, and reliability of nuclear warheads on a 
        case-by-case basis, consistent with the congressionally-
        mandated Stockpile Management Program. The full range of LEP 
        approaches will be considered: refurbishment of existing 
        warheads, reuse of nuclear components from different warheads, 
        and replacement of nuclear components.

    Changes made to the stockpile would be in line with these 
principles and would remain consistent with basic design parameters by 
including components that are well understood and certifiable without 
underground nuclear testing.
    This approach to stockpile management will enable us to protect the 
human capital base--including the expertise to design, develop, 
engineer, and manufacture nuclear warheads--by fostering a stockpile 
management program that fully exercises these capabilities.
    These principles and the stockpile sustainment strategy articulated 
in the NPR support the goals of the NDAA on stockpile management 
related to increasing the safety, security, and reliability of U.S. 
nuclear warheads.
    The nuclear weapons laboratories have been directed to explore the 
full spectrum of options and in doing so will exercise the skills of 
our nuclear scientists. This position is strongly supported by National 
Nuclear Security Administration (NNSA) leadership.

                                b61 lep
    24. Senator Sessions. Dr. Roberts, the Fiscal Year 2010 Energy and 
Water Conference Report did not provide the full request for the 
nonnuclear study of the proposed B61-12. How important is it that the 
NNSA be able to expeditiously proceed with a nuclear and nonnuclear LEP 
on the B61?
    Dr. Roberts. The B61 bomb is the cornerstone of the U.S. extended 
deterrence commitment to NATO and a key component of air-delivered 
strategic deterrence. It is also one of the oldest warheads in the 
stockpile and has components dating from the 1960s. DOD is committed to 
a full (nuclear/nonnuclear) life extension of the B61 bomb and to the 
provision of a nuclear capability for the Joint Strike Fighter (JSF).
    The B61 LEP study will address options to enhance surety, sustain 
effectiveness, optimize the use of limited NNSA production capacity, 
and reduce costs over the long-term. Life-extended B61 bombs must be 
introduced into the stockpile by 2017 to avoid gaps in capability for 
both B-2-delivered strategic and Dual-Capable Aircraft (DCA)-delivered 
non-strategic nuclear missions.
    The 2017 timeline is driven by two factors:

        <bullet> Critical components in the B61 will reach end-of-life 
        starting in 2017; if not updated, aging weapons will need to be 
        removed from service.
        <bullet> U.S. F-16 DCA begin to reach end-of-life starting in 
        2016; a nuclear-capable JSF will replace these aircraft 
        beginning in 2017.

    Although JSF initial operating capability has experienced a 13-
month slip, we still plan to implement JSF nuclear capability by 2017.

    25. Senator Sessions. Dr. Roberts, in an unclassified response, 
what are some of the considerations that are involved with the urgency 
of the LEP of the B61?
    Dr. Roberts. Life-extended B61 bombs must be introduced into the 
stockpile by 2017 to avoid gaps in capability for both B-2-delivered 
strategic and dual-capable aircraft (DCA)-delivered non-strategic 
nuclear missions.
    The 2017 timeline is driven by two factors:

        <bullet> Critical components in the B61 will reach end-of-life 
        starting in 2017; if not updated, aging weapons will need to be 
        removed from service.
        <bullet> U.S. F-16 DCA begin to reach end-of-life starting in 
        2016; a nuclear-capable JSF will replace these aircraft 
        beginning in 2017.

                            b61 jason review
    26. Senator Sessions. Dr. Roberts, the conferees last year required 
a JASON review of the ``national security and extended deterrence value 
of the B61 for both strategic and tactical purposes in light of nuclear 
terrorism risks and military threats.'' Are you concerned that the 
mandate for this JASON study is beyond the technical capacity of JASON?
    Dr. Roberts. The committee's mandate for the proposed JASON study 
delves into matters of policy and strategy which are beyond the scope 
of traditional JASON studies. Past JASON studies have customarily 
focused on technical, not policy, issues. The JASON advisory group, 
however, has the capacity for drawing in various subject matter experts 
including technical and policy experts.

    27. Senator Sessions. Dr. Roberts, won't the NPR speak to these 
issues and isn't that the more appropriate venue for a review of the 
value of the B61?
    Dr. Roberts. The B61 bomb is the cornerstone of our extended 
deterrence commitment to NATO and a key component of air-delivered 
strategic deterrence. It is also one of the oldest warheads in the 
stockpile and has components dating from the 1960s.
    To provide options to continue the U.S. nuclear presence in Europe, 
the Department is committed to a full (nuclear/nonnuclear) life 
extension of the B61 bomb and to the provision of a nuclear capability 
for the JSF. The B61 LEP study will address options to enhance surety, 
sustain effectiveness, optimize the use of limited NNSA production 
capacity, and reduce costs over the long-term.

    [Whereupon, at 3:28 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                       WEDNESDAY, APRIL 14, 2010

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

      STRATEGIC FORCES PROGRAMS OF THE NATIONAL NUCLEAR SECURITY 
                             ADMINISTRATION

    The subcommittee met, pursuant to notice, at 2:32 p.m. in 
room SR-222, Russell Senate Office Building, Senator E. 
Benjamin Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Ben Nelson, Reed, 
Bingaman, Sessions, and Vitter.
    Majority staff members present: Madelyn R. Creedon, 
counsel; and Roy F. Phillips, professional staff member.
    Minority staff member present: Daniel A. Lerner, 
professional staff member.
    Staff assistants present: Kevin A. Cronin and Paul J. 
Hubbard.
    Committee members' assistants present: Carolyn A. Chuhta, 
assistant to Senator Reed; Ann Premer, assistant to Senator Ben 
Nelson; Jonathan Epstein, assistant to Senator Bingaman; Rob 
Soofer, assistant to Senator Inhofe; and Lenwood Landrum and 
Sandra Luff, assistants to Senator Sessions.

   OPENING STATEMENT OF SENATOR E. BENJAMIN NELSON, CHAIRMAN

    Senator Ben Nelson. The hearing will come to order.
    Good afternoon and welcome. Our witness this afternoon, 
flying solo, is Tom D'Agostino, the Administrator of the 
National Nuclear Security Administration (NNSA).
    Today, the Strategic Forces Subcommittee will discuss the 
defense programs at NNSA, which is responsible for maintaining 
the safety, security, and reliability of the Nation's stockpile 
of nuclear weapons. The NNSA and the Department of Defense 
(DOD) work closely together to ensure that the delivery systems 
and the nuclear warheads present a reliable deterrent for the 
United States. Previously, this subcommittee heard testimony 
from the Military Services on the delivery systems that carry 
nuclear warheads and weapons. Today, the subcommittee will 
focus on the NNSA activities to maintain those nuclear warheads 
and weapons without testing.
    Maintaining nuclear warheads and weapons that are more than 
20 years old without testing is a challenging task. Over the 
years, however, NNSA has made significant investments in people 
and experimental facilities, including the world's most 
advanced computational capability, to maintain and sustain the 
nuclear stockpile.
    Today, I think many would be surprised to know that NNSA 
and its scientists would tell you that they know more about the 
technical physics of these weapons than their predecessors did 
during the heyday of underground nuclear testing.
    The challenge, however, is to use, maintain, and to pass on 
to future generations the skills necessary to maintain the 
nuclear weapons into the future and for as long as they're 
needed. After years of surveillance work, NNSA has discovered 
and repaired previously unknown manufacturing defects, and is 
now focused on issues that will continue to occur with aging 
warheads.
    For the most part, the signs of aging are understood. High 
explosives crack, wires become brittle, rubber and plastics 
degrade, metals corrode, and obsolete parts must be replaced 
with newer parts. Since 1992 and the development of the 
Stockpile Stewardship Program (SSP), the NNSA has discovered 
and repaired problems that previously would have required a 
nuclear test to resolve. This expanded knowledge of the 
stockpile has allowed the NNSA to discover problems and 
develop, implement, and verify a fix, all without testing.
    All of the experimental facilities planned in the early 
days of SSP are now in place. As a result, the attention is 
turned to the plants and facilities that do the work to 
maintain the stockpile. These facilities and plants are where 
the people who make the parts, and assemble and disassemble, 
work. NNSA and Congress have an obligation to make certain that 
these people have a safe working environment and the tools to 
efficiently carryout their mission.
    New tritium facilities are in place at Savannah River Site 
(SRS), and the new Uranium Storage Facility just opened at the 
Y-12 site at Oak Ridge. The Kansas City plant is on track to 
move to its new facility in the near future. But, there is more 
work to be done. The last major facilities that are needed are 
the Uranium Processing Facility (UPF) at Oak Ridge, and the 
Chemical and Metallurgical Research Replacement (CMRR) Facility 
at Los Alamos National Laboratory (LANL).
    With these multibillion-dollar facilities in place, and the 
new high-explosive facility at Pantex, the NNSA will be fully 
capable of maintaining the nuclear weapons for as long as 
they're needed. President Obama is committed to making sure, 
while reducing the number of nuclear weapons, that there is a 
long-term effort to build new facilities and continue the SSP 
so that the deterrent remains safe, secure, and effective.
    Next week, the full committee will hold a hearing on the 
new Nuclear Posture Review (NPR). Mr. D'Agostino, you will be a 
witness, as we just discussed, at that hearing. But, today 
we'll focus on the work and the budget of the NNSA as it 
fulfills its ongoing mission and the new missions outlined for 
it in the NPR.
    Your prepared statement, sir, will be included in the 
record.
    Senator Vitter, the ranking member, would you have some 
opening remarks you'd like to make?

               STATEMENT OF SENATOR DAVID VITTER

    Senator Vitter. Yes. Thank you, Mr. Chairman.
    I'll submit my full opening statement for the record, but I 
just want to highlight four points.
    First of all, welcome, Mr. Administrator. Thank you for 
your very important ongoing work.
    This request clearly is just the first payment on what has 
to be a sustained period of investment. I'm very glad that 
we're finally on this course of increased investment. I think 
the key is that we start it immediately, that we make sure we 
start with a significant enough investment, and, most 
importantly, that we make sure we stay the course, because 1 or 
2 years of this investment clearly isn't going to get the job 
done.
    This investment is important for the safety and security of 
nuclear weapons, what we have now. It's even more important if 
we want to reduce the numbers of our nuclear weapons, as is 
proposed in the New Strategic Arms Reduction Treaty (START). We 
absolutely have to have this sustained period of investment for 
that to be even under consideration, and I look forward to this 
starting.
    Mr. Administrator, I'd love for you to address if this 
START is good enough? The national lab directors had argued for 
much more, to begin with, about a billion dollars a year; and 
so, I'm very curious about what is lost between that billion 
and this $624 million, and how we'll deal with that over a full 
10-year plan, or longer.
    Mr. Chairman, I also want to use the opportunity to state 
that I think the new NPR inappropriately limits the ability of 
our complex to ensure the highest level of safety, security, 
and reliability. That will be a part of the ongoing discussion, 
as well. In constraining the ability to design new weapons and 
exercise our full new scientific capabilities, I think we're 
limiting safety. I think that limits intellectual growth; 
limits new concepts, design work; and limits our ability, 
therefore, to achieve maximum safety.
    Finally, I want to underscore that, clearly, the B61 Life 
Extension Program (LEP) is among the most significant and time-
critical funding elements of this fiscal year 2011 request. 
Technology maturation for many components should have begun, 
really, at least 2 years ago. The longer we wait, the tougher 
that is, as a 2017 deadline continues to mount.
    I look forward to hearing if any additional policy 
roadblocks remain to prevent that work from moving forward on 
that critical B61 LEP.
    Thank you very much, Mr. Chairman.
    [The prepared statement by Senator Vitter follows:]
               Prepared Statement by Senator David Vitter
    Today's hearing focuses on the fiscal year 2011 request for the 
National Nuclear Security Administration (NNSA). The administration's 
request takes a concerted and long overdue step forward in starting to 
address the long-term needs of the nuclear weapons complex. This 
request, the first payment on what must be a sustained period of 
investment, should be assessed carefully to determine over the course 
of this investment if enough of the near-term needs are being 
adequately funded. Prior to having this request trimmed down by almost 
half by the White House, the National Lab Directors originally argued 
for almost a billion dollar increase and I look forward to hearing from 
our witness why this budget, an increase of $624 million, more 
adequately address our complex needs than the higher level of funding 
requested by the laboratories.
    With the recent release of the delayed Nuclear Posture Review (NPR) 
we now have a blueprint to assess this administrations path forward for 
the nuclear weapons complex. Unfortunately the NPR constrains our the 
ability to design new weapons and exercise the scientific capabilities 
necessary for the development of even safer and more secure weapons, 
the NPR dangerously limits intellectual growth by prohibiting new 
concept design work and establishing a restrictively high bar for the 
replacement of antiquated and in many cases 60-plus year old technology 
existing in current weapons systems.
    The physical and intellectual infrastructure, as highlighted a year 
ago by the Strategic Posture Commission, is in dire shape. The fiscal 
year 2011 budget dedicates significant resources to continue the design 
and construction of the Chemistry and Metallurgy Research Replacement 
Facility (CMRR) at Los Alamos and the Uranium Processing Facility at Y-
12. Both projects are critical pillars of the future weapons complex, 
but CMRR is undoubtedly a priority and I question why the budget 
intends to fund both on parallel paths rather than expedite the 
infrastructure necessary to the pit manufacturing mission. As for the 
intellectual infrastructure, the budget allocates funding to help 
stabilize the lab workforce at 2010 levels; however, given the large 
downward trend of scientists over the past decade, I question if 
stabilization is enough, especially given the imminent workload 
increases of the B-61 Life Extension program.
    The B-61 Life Extension program is arguably among the most 
significant and time critical funding elements of the fiscal year 2011 
request. However, I understand that the full scope of B-61 work won't 
be fully defined until the completion of the 6.2A study in 2011. At the 
same time, technology maturation for many components should have began 
more than 2 years ago and the longer we wait to define the scope, 
pressure on meeting the 2017 deadline will continue to mount. With the 
release of the NPR and the affirmation by the President on the need for 
a B-61 in the future, I look forward to hearing if any additional 
policy roadblocks remain preventing work from moving forward on this 
critical life extension program.
    Section 1251 of the National Defense Authorization Act for Fiscal 
Year 2010 requires a report on the plan for the nuclear weapons 
stockpile, nuclear weapons complex, and delivery platforms. The report 
requires a plan and estimated budgetary requirements over a 10-year 
period for enhancing the safety, security, and reliability of the 
stockpile; modernizing the nuclear weapons complex; and maintaining the 
delivery platforms for nuclear weapons. This bipartisan requirement is 
eagerly anticipated by Congress and I look forward to hearing more from 
our witness on NNSA's long-term requirements as well as when we should 
receive this congressionally-mandated report.
    The fiscal year 2011 budget represents a welcome and long overdue 
recapitalization of the nuclear weapons complex. It is the first 
installment and must be sustained at increased levels far past the 5 
years outlined in the request. I thank you Mr. D'Agostino for your 
leadership and your service and I look forward to a fruitful 
discussion.
    Thank you, Mr. Chairman.

    Senator Ben Nelson. Thank you.
    Do you have some opening remarks that you'd like to make, 
Mr. D'Agostino?

STATEMENT OF HON. THOMAS P. D'AGOSTINO, ADMINISTRATOR, NATIONAL 
     NUCLEAR SECURITY ADMINISTRATION, DEPARTMENT OF ENERGY

    Mr. D'Agostino. Yes, Mr. Chairman. If I could, I also have 
a written statement to submit for the record.
    Thank you, Mr. Chairman and members of the subcommittee. 
I'm pleased to appear before you today to discuss the 
Department of Energy's (DOE) fiscal year 2011 budget request 
for the NNSA.
    When I last appeared before the subcommittee, the focus of 
my testimony was the continued transformation of an outdated 
Cold War nuclear weapons complex, and moving it towards a 21st-
century nuclear security enterprise, and our initial efforts in 
implementing the President's nuclear security agenda.
    Since that time, we've defined a portfolio of programs to 
carry out the President's nuclear security agenda. Our fiscal 
year 2011 request for these programs is $11.2 billion, an 
increase of over 13 percent from last year. In developing this 
portfolio, Secretary Chu and I worked very closely with 
Secretary Gates to ensure that we remain focused on meeting DOD 
requirements. This request fully supports, and is entirely 
consistent with, the new nuclear strategy outlined last week in 
the administration's NPR.
    The NPR lays out the nuclear deterrence policies for the 
next decade. For the NNSA, the impacts are significant. The NPR 
documents the President's commitment to provide the NNSA the 
resources required to support his nuclear security agenda and 
maintain the safety, security, and effectiveness of the nuclear 
deterrent without underground testing.
    I understand there'll be a separate full committee hearing 
later this month to discuss the details of the NPR. I look 
forward to that hearing next week.
    To summarize, the NPR provides the direction for the NNSA 
to maintain the stockpile through enhanced surveillance with an 
appropriate LEP for the weapons remaining in the stockpile. It 
renews our commitment in human capital, the critical cadre of 
scientific, technical, and engineering experts who underpin our 
stockpile management work; our support for nuclear 
nonproliferation and counterterrorism missions; and 
recapitalizes the aging infrastructure used to support the 
stockpile and conduct a full range of nuclear security 
missions. Our budget request for the NNSA supports this 
direction completely.
    Within our overall request, weapons activities increases 
nearly 10 percent, to a level of $7 billion; defense 
nonproliferation increases nearly 26 percent, to a level of 
$2.7 billion; and naval reactors increases more than 13 
percent, to a level of $1.1 billion.
    Our request can be summarized in four components that, 
collectively, ensure that we implement the President's 
direction: First, our request describes the NNSA's crucial role 
in implementing the President's nuclear security agenda, 
including his call to secure all vulnerable nuclear materials 
worldwide within 4 years. The $2.7 billion request for nuclear 
nonproliferation programs includes several efforts that are 
directly linked to the President's agenda, including nearly 
$560 million for Global Threat Reduction Initiative to secure 
vulnerable materials; over $1 billion for our Fissile Material 
Disposition Program to permanently eliminate 68 metric tons of 
surplus weapons-grade plutonium and more than 200 metric tons 
of surplus highly-enriched uranium; and over $350 million for 
nuclear nonproliferation verification research and development 
programs to provide technical support for arms control and 
nonproliferation.
    The second component of our investment is in the tools and 
capabilities required to effectively manage our nuclear weapons 
stockpile. Because the NNSA, DOD, and the White House were all 
intimately involved in the formulation of the NPR from the 
start, much of the early analysis enabled NNSA to formulate a 
budget request that already responds to many of the 
recommendations in the recently released NPR. We concluded very 
early on that maintaining the safety, security, and 
effectiveness of the enduring deterrent would require increased 
investments to strengthen an aging physical infrastructure and 
to help sustain a depleting technical human capital base. Our 
request includes more than $7 billion to ensure the 
capabilities required to complete ongoing life extension work; 
to strengthen the science, technology, engineering base; and to 
reinvest in the scientists, technicians, and engineers who 
carry out the entire NNSA mission.
    These activities are consistent with the new Stockpile 
Management Program (SMP) responsibilities, outlined in the 2010 
National Defense Authorization Act (NDAA), and are consistent 
with the path forward, outlined in the NPR. As Vice President 
Biden highlighted in a recent speech, ``We need to continue to 
invest in a modern, sustainable infrastructure that supports 
the full range of NNSA's mission, not just stockpile 
stewardship.'' He stated, ``This investment is not only 
consistent with our nonproliferation agenda, but essential to 
it.'' There is a bipartisan consensus that now is the time to 
make these investments to provide the foundation for future 
U.S. security, as noted by Senator Sam Nunn and Secretaries 
George Shultz, Henry Kissinger, and William Perry last January.
    This leads me to the third component: our investment in 
recapitalizing our infrastructure and deterrent capability into 
a 21st-century nuclear security enterprise. As the Vice 
President also said last month, ``Some of the facilities we use 
to handle uranium and plutonium date back to the days when the 
world's great powers were led by Truman, Churchill, and Stalin. 
The signs of age and decay are becoming more apparent every 
day.''
    So, our request includes specific funds to continue the 
design of the UPF at the Y-12 facility, and the construction of 
the Chemistry and Metallurgy Research Replacement (CMRR) 
Facility at Los Alamos. The naval reactors request includes 
funds to address the Ohio-class replacement, including a new 
reactor plant, and our need to refuel one of our land-based 
prototypes to provide a platform to demonstrate the 
manufacturability of the Ohio replacement core, and to 
realistically test systems and components.
    Mr. Chairman, investing now in a modern, sustainable 
nuclear security enterprise is the right thing to do. The 
investment will support the full range of nuclear security 
missions, including stockpile stewardship, nuclear 
nonproliferation, arms control, treaty verification, 
counterterrorism, nuclear forensics, and emergency management, 
along with naval nuclear propulsion.
    Finally, the fourth component, and one that ties all our 
missions together, is our commitment to aggressive management 
reform across the NNSA. With increased resources provided by 
Congress comes increased responsibility on our part to be 
effective stewards of the taxpayers' money and to ensure that 
the NNSA is an efficient and cost-effective enterprise. We take 
this responsibility very seriously. We initiated a zero-based 
security review to implement greater security efficiencies and 
drive down costs, while sustaining and even improving our 
security capabilities. Our supply-chain management center has 
already saved taxpayers more than $130 million, largely through 
eSourcing and combining purchasing across our enterprise.
    Last month, I announced the new contracting and acquisition 
strategy that includes, among other items, an initiative to 
consolidate site operations at Y-12 National Security Complex 
and the Pantex Plant into a single contract, with the option 
for the phase-in of the SRS tritium operations. The proposed 
single-contract award will further strengthen our ability to 
achieve the ambitious goals set by the President in his budget 
request, and is consistent with my vision to move forward to a 
fully integrated and interdependent enterprise that will 
enhance mission performance, reduce cost, and strengthen 
private-sector partnerships. While many of the details still 
need to be worked out, we believe these efforts can save the 
taxpayers more than $895 million over the next decade.
    Finally, NNSA's leadership team stresses performance and 
financial accountability at all levels of our organization. In 
2009, our program met or exceeded 95 percent of the performance 
objectives. We continue to reduce the percentage of carryover, 
uncosted, uncommitted balances in several of our 
nonproliferation programs.
    Mr. Chairman, these investments made to date in the nuclear 
security enterprise provide the tools to address a broad array 
of nuclear security challenges. However, we must continue to 
cultivate the talents of our people to use these tools 
effectively, because our dedicated workforce is ultimately, in 
the end, the key to our success.
    Thank you, Mr. Chairman. I'll look forward to your 
questions.
    [The prepared statement of Mr. D'Agostino follows:]
            Prepared Statement by Hon. Thomas P. D'Agostino
    Thank you for the opportunity to present the fiscal year 2011 
President's budget request for the National Nuclear Security 
Administration (NNSA). This budget request will allow the NNSA to meet 
its commitments to the American people to provide for nuclear 
deterrence, to reduce nuclear dangers around the world, and to provide 
the capabilities to address the broader national security challenges of 
the 21st century.
    At this time last year, the focus of NNSA efforts was the 
continuing transformation of the Cold War-era weapons complex to a 21st 
century Nuclear Security Enterprise, and transformation of the 
composition and size of the U.S. nuclear weapons stockpile. 
Simultaneously, we were in the very early stages of defining the 
efforts necessary to address the President's policy statements on 
securing the most vulnerable nuclear materials worldwide.
    During the first 15 months of the Obama administration, we have 
been fully engaged with the Department of Defense (DOD) and the 
Interagency on the Nuclear Posture Review, and with the Department of 
State on a New Strategic Arms Reduction Treaty (START) Agreement and a 
broad menu of nonproliferation agreements with our international 
partners.
    NNSA efforts this past year defined a portfolio of programs to meet 
the President's nuclear security agenda for the future. The fiscal year 
2011 President's budget request for this portfolio is $11.2 billion, an 
increase of more than 13 percent from last year. In the development of 
this portfolio, Secretary of Energy Chu and NNSA Administrator 
D'Agostino worked closely with Secretary of Defense Gates and other DOD 
officials to ensure that we remain focused on meeting the DOD's 
requirements. As a result, the budget request for Weapons Activities 
increases nearly 10 percent to a level of $7 billion; Defense Nuclear 
Nonproliferation increases nearly 26 percent to a level of $2.7 
billion; Naval Reactors increases more than 13 percent to a level of 
$1.1 billion; and, the request for Federal oversight and staff included 
in the Office of the Administrator account increases by 6.5 percent to 
a level of nearly $450 million. NNSA's budget request also includes 
associated outyear projections in a Future Years Nuclear Security 
Program (FYNSP) that identifies resources needed to meet the continuing 
requirements for significant long term investments in the Nuclear 
Security Enterprise deliverables, capabilities, and infrastructure.
    The fiscal year 2011 President's budget request for the NNSA can be 
summarized in four core components that, collectively, ensure that the 
NNSA implements the President's overall nuclear security agenda, 
introduced in his April 2009 Prague speech, re-enforced during the 
State of the Union Address on January 27, 2010, and embodied in the 
Nuclear Posture Review.
          implementing the president's nuclear security vision
    The budget request highlights NNSA's crucial role in implementing 
President Obama's nuclear security vision, including his call for an 
international effort to secure all vulnerable nuclear material around 
the world within 4 years. The request for these efforts is $2.7 billion 
(an increase of 25.8 percent over the current year). Key 
nonproliferation programs reflect significant increases from last year, 
including;

        <bullet> Nearly $560 million for the Global Threat Reduction 
        Initiative (an increase of 68 percent over the current year) to 
        secure vulnerable nuclear materials around the world within 4 
        years, and to provide a comprehensive approach to deny 
        terrorist access to nuclear and radiological materials at 
        civilian sites worldwide;
        <bullet> Over $1 billion for our Fissile Materials Disposition 
        program (an increase of 47 percent over the current year) for 
        construction of the Mixed Oxide (MOX) Fuel Fabrication Facility 
        and the Waste Solidification Building, design of the Pit 
        Disassembly and Conversion Facility, and meeting our commitment 
        to support Russian plutonium disposition activities;
        <bullet> More than $590 million for Material Protection, 
        Control, and Accounting and Second Line of Defense activities 
        to accelerate securing nuclear materials in the Former Soviet 
        Union and other Asian states, as well as worldwide efforts to 
        deter, detect, and respond to nuclear smuggling events; and,
        <bullet> Over $350 million for the Nonproliferation and 
        Verification Research and Development programs (an increase of 
        10 percent over the current year) to provide the key technical 
        support for the President's arms control and nonproliferation 
        agenda.

                 managing the nuclear weapons stockpile
    Based on a preliminary analysis of the draft Nuclear Posture 
Review, the Department concluded that maintaining the safety, security, 
and effectiveness of the nuclear deterrent without nuclear testing--
especially at lower stockpile numbers--requires increased investments 
to strengthen an aging physical infrastructure and to sustain a 
depleting technical human capital base across the Nuclear Security 
Enterprise. As such, we are requesting more than $7 billion (an 
increase of 9.8 percent over the current year) in the Weapons 
Activities appropriation to:

        <bullet> Ensure the capabilities required for stockpile 
        management and for the completion of ongoing Life Extension 
        Programs are available;
        <bullet> Strengthen the Science, Technology, and Engineering 
        base capabilities that underpin stockpile stewardship, without 
        nuclear testing, as well as all other NNSA nuclear security 
        activities; and,
        <bullet> Reinvest in the scientists, technicians, and engineers 
        who perform the mission across the Nuclear Security Enterprise.

    The President's budget request is consistent with the principles of 
the Stockpile Management Program outlined by Congress in the National 
Defense Authorization Act for Fiscal Year 2010.
   recapitalizing our nuclear infrastructure and deterrent capability
    These increases represent an investment in transforming our 
outdated nuclear weapons complex into a 21st century Nuclear Security 
Enterprise. This request includes funds to continue the design of the 
Uranium Processing Facility at the Y-12 facility; the design and 
construction of the replacement for the Chemistry and Metallurgy 
Research facility at the Los Alamos National Laboratory; and, 
conceptual design for the recapitalization of Naval Reactor's Expended 
Core Facility at the Idaho National Laboratory. Investing in a modern, 
sustainable nuclear security infrastructure supports the full range of 
NNSA's nuclear security missions, including:

        <bullet> Stockpile stewardship;
        <bullet> Nuclear nonproliferation and disarmament;
        <bullet> Arms control treaty monitoring;
        <bullet> Nuclear forensics;
        <bullet> Counterterrorism and emergency response; and,
        <bullet> the nuclear Navy.

    Additionally, the request supports the recent Department of Defense 
decision to recapitalize the sea-based strategic deterrent. The Ohio-
class ballistic submarines, the most survivable leg of the Nation's 
strategic deterrent, are reaching the end of their operational life. 
The request will enable Naval Reactors to continue reactor plant design 
and development efforts begun in 2010 for procurement of long-lead 
reactor plant components in 2017, in support of Navy procurement of the 
first Ohio-class submarine replacement in 2019. Providing the Ohio-
class replacement a life-of-the-ship reactor core will require 
substantial advances in manufacturing technology to provide a new 
cladding and a new fuel system. The request also supports the refueling 
of a land based prototype reactor, providing a cost effective test 
platform for these new technologies.
    Continuing NNSA Management Reforms. With the increased resources 
provided by Congress comes an increased responsibility to be effective 
stewards of the taxpayer's money. NNSA will continue to promote 
proactive, sound management reforms that save money, improve the way we 
do business, and increase efficiency. Following are a few of the 
efforts already underway:

        <bullet> A Zero-Based Security Review initiative has led to 
        efficiencies in our site security programs, helping drive down 
        those costs while sustaining core physical security 
        capabilities.
        <bullet> An Enterprise Re-engineering Team is implementing 
        ideas for improving the way NNSA does business, such as:
        <bullet> A Supply Chain Management Center has already saved the 
        taxpayers more than $130 million since its inception in 2007 
        and is expanding its focus. Two key elements of the Center are:

                <bullet> eSourcing--an electronic sealed-bidding and 
                reverse auction function; and,
                <bullet> Strategic Sourcing--where our Management and 
                Operating contractors use their combined purchasing 
                power to negotiate multi-site commodity contracts with 
                vendors.

        <bullet> A moratorium on new, NNSA-initiated Reviews and re-
        direction of those resources to improve Contractor Management 
        Systems and operations and oversight across the Nuclear 
        Security Enterprise.
        <bullet> Issuing new NNSA Operating Principles to guide the 
        priorities and decision processes of entities that perform NNSA 
        work consistently across the Nuclear Security Enterprise.
        <bullet> Applying a new performance-based model, best business 
        practices, and lessons-learned across the Nuclear Security 
        Enterprise. The model, pioneered at our Kansas City Plant, 
        provides greater contractor flexibility and accountability; 
        better focused, risk-based oversight; eliminates redundant and 
        non-value-added reviews; and, improves efficiencies and 
        availability of Federal and contractor resources to support the 
        full scope of NNSA missions.
                <bullet> Reducing contractor expenses through 
                renegotiation of health and dental plans, using common 
                contracts for administration and supplies, and 
                converting plant shifts for five 8-hour days to four 
                10-hour day shifts.

        <bullet> Retaining the critical Federal workforce

                <bullet> Piloting for the Department a 5-year Office of 
                Personnel Management Demonstration Project on Pay-for-
                Performance and Pay Banding to test new Human Resource 
                concepts to recruit and retain a high caliber staff by 
                providing faster pay progression for high-performing 
                employees, and to build on the workforce planning 
                system to better identify competency needs and gaps.
                <bullet> Conducting a Future Leaders Program and 
                sponsoring Historically Black Colleges and 
                Universities, Hispanic Serving Institutions, Native 
                American Serving Institutions, and other intern and 
                fellowship programs to bring into government the best 
                and brightest talent in science, engineering, business, 
                and other technical positions to ensure that when our 
                aging workforce retires, it is replaced with competent, 
                well-trained, and experienced professionals to carry on 
                the mission work of the NNSA.

    Finally, NNSA continues to emphasize performance and financial 
accountability at all levels of our operations. NNSA needs to assure 
the committee and the taxpayers that the we are an excellent steward of 
the programs and funds Congress entrusts to us to carry out the 
President's nuclear security vision. In 2009, NNSA met 95 percent of 
its stated program performance objectives, and, over the past 2 years, 
NNSA successfully executed consecutive, large annual funding increases 
in several of our nonproliferation programs while reducing uncosted, 
uncomitted balances. We are ready to meet the challenge of executing 
the additional program increases supported by the fiscal year 2011 
President's budget request. Our Federal and contractor staff and our 
contracting processes are in place to initiate immediately the 
increased mission work both in the U.S. and abroad. The NNSA will be a 
leader in successful program and financial execution for the Department 
of Energy and for the U.S. Government.
    The NNSA is not operating on a ``business-as-usual'' basis. The 
budget request represents a comprehensive approach to ensuring the 
nuclear security of our Nation. NNSA will ensure that our strategic 
posture, our nuclear weapons stockpile, and our infrastructure, along 
with our nonproliferation, arms control, emergency response, 
counterterrorism, and naval propulsion programs, are melded into one 
comprehensive, forward-looking strategy that protects America and its 
allies.
    Maintaining the nuclear weapons stockpile is the core work in the 
NNSA. However, the science, technology, and engineering capabilities, 
which enable the core work, must also continue to focus on providing a 
sound foundation for ongoing nonproliferation and other threat 
reduction programs. The investment in nuclear security is providing the 
tools that can tackle a broad array of national security and energy 
challenges and in other realms. NNSA now has the tools, but must 
continue to cultivate the talents of the people to use them 
effectively.
    The NNSA is developing the next generation of scientists, 
engineers, and technicians required to meet our enduring deterrence 
requirements as well as the critical work in nonproliferation, nuclear 
counterterrorism, and forensics. People are ultimately our most 
important resource. We are working closely with our national 
laboratories to develop and retain the necessary cadre of the best and 
the brightest to successfully carry out all of our technically 
challenging programs into the foreseeable future.
    Following are more detailed descriptions of each of the four 
specific NNSA appropriations.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Ben Nelson. Thank you.
    Senator Bingaman, do you have some opening remarks you 
might want to make?
    Senator Bingaman. I'll just wait for questions, Mr. 
Chairman. Thank you.
    Senator Ben Nelson. Thank you.
    You mentioned the NPR, and it supports the decision, in the 
New START, to reduce the nuclear weapons stockpile to 1,500 
deployed nuclear weapons. It's a reduction from the maximum of 
2,200 deployed nuclear weapons allowed under the Moscow Treaty, 
but this number doesn't represent the size of the total 
stockpile, which is considerably larger than the number of 
deployed weapons. What is your understanding of the impact that 
the NPR and START will have on the total stockpile size?
    Mr. D'Agostino. The total stockpile size is a size that 
includes, as you described, sir, the operationally deployed 
warheads and a reserves stockpile--a classified number, at this 
point--to essentially backup the operationally deployed 
warheads. Because we do have to do maintenance, it requires a 
bit of movement back and forth. Also, as part of that, because 
we hadn't been actively involved--and this is that phase we're 
entering into, is this active LEP management--we hadn't been as 
actively involved in that. Now that we have a defined and clear 
path forward, DOD will be looking at whether or not, and by how 
much, we ought to be looking at the reserve stockpile and 
changing the size of that. Decisions on that point have not yet 
been made, because as we note, the NPR was just released last 
week. So we want to phase those in as we move forward.
    Senator Ben Nelson. In that regard, will you be able to, as 
far as you know right now, retire and disassemble more nuclear 
warheads than previously scheduled? Or will it have any impact 
on that?
    Mr. D'Agostino. In addition to the operationally deployed 
and reserve stockpile, there are a set of warheads in a 
dismantlement queue. Our last report that we provided, about 2 
years ago to Congress, laid out an accelerated dismantlement 
path for those warheads, and for that third queue to be taken 
apart. We're proceeding on marching down that plan that we had 
laid out 2 years ago. It's a fairly aggressive plan.
    The question that has to come to play, that we will be 
looking at as we develop our fiscal year 2012 budgets in the 
out-years, is whether it makes sense to take another bite and 
try to even go faster taking down that retired set of warheads, 
or are those resources better spent on taking care of the 
warheads that we have right now? That's an ongoing discussion, 
right now, that I'm having with DOD. We're looking at various 
options on that, but we remain committed to taking apart all 
those warheads in that retirement queue by 2022. Granted, 
that's 12 years from now, but we are talking about a number of 
warheads, and they are nuclear warheads, so we want to make 
sure that we don't rush. Safety's the most important thing, 
from my standpoint.
    Senator Ben Nelson. Now, there are different categories of 
nondeployed warheads. Some are active, reserve, and some are 
inactive, while some are in line, waiting for dismantlement. 
Can you tell us the current categories of these nondeployed 
warheads? Will the category or will the situation change under 
NPR?
    Mr. D'Agostino. I think the NPR allows us to look at 
changing the situation. I don't have the details on how it 
would change, at this point. It's important that there are a 
couple of things happening at the same time. One is extending 
the lives and actively getting into finishing the W76 warhead 
and doing the design work and costing studies needed for the 
B61 warhead. That's incredibly important. As we move forward in 
that, we'll be in the position to look at whether we should 
accelerate our retirement of the retired warheads and/or 
whether we should move those warheads that are in the active 
and inactive reserve into the retirement category. Those are 
decisions made by DOD, they're advised upon by my organization, 
particularly since we look very closely at which warhead 
systems are reaching their end of life, and in what manner, and 
what sequence we ought to be taking these apart.
    Senator Ben Nelson. Now, in terms of the categories, can 
you outline the nature of each category?
    Mr. D'Agostino. The categories, right now, are 
operationally deployed strategic warheads; an active and 
inactive reserve set of warheads to back up the operationally 
deployed warheads; and the third queue are the retired 
warheads, warheads that are being retired, but they're awaiting 
dismantlement. There's a significant number of warheads there, 
and we have to balance our resources between taking care of the 
stockpile and retiring warheads.
    Senator Ben Nelson. In that regard, even though you can't 
talk about the classified total number of these nondeployed 
warheads, will we be able to handle the maintenance 
requirements of each of those warheads?
    Mr. D'Agostino. Yes, very much so. What the NPR allows us 
to do is provide certainty in the work plan. Where we are right 
now is translating the broad NPR requirements into very 
specific 20-year plans. We have a document called the 
Requirements Planning Document (RPD) and the Program and 
Planning Document (PPD). These are the detailed documents that 
say what warhead gets worked on at what time sequence. So, the 
fact that we have this type of certainty, that we are going to 
work on the W76, finish the production of the W76; we are 
proposing to actively engage in the full B61 LEP, including the 
nuclear life extension; and that we are going to start 
studying--this is more from a laboratory side--what we might 
and what are the best approaches to dealing with the W78 
warhead--that certainty allows us to allocate resources at the 
Pantex plant and the Y-12 plant, which are the hands-on people 
on the warhead components, with some degree of certainty.
    Senator Ben Nelson. In connection with the Pantex 
operation, the budgets for those operations are down from 
fiscal year 2010 levels, at a time when Pantex will be 
conducting full-rate production of the W76 life extension and 
will be increasing the dismantlement rate, even though you say 
that perhaps things will be delayed on some dismantlement. Why 
is the budget down? It looks to me like maybe the operation 
tempo is up, but the budget's down. It's not that I want 
budgets up, but I want to make certain that they're correlated.
    Mr. D'Agostino. Right. The budget we asked for, for the 
NNSA overall, allows us to do the work at the Pantex plant. 
There's an element in the President's budget request where we 
take, early on, and we allocate resources to each of the sites. 
Because of final questions on how much goes through what 
particular site, there is an element of the President's request 
called the headquarters account. Essentially, it's the Defense 
Program's General Harencak, who's sitting behind me--as the 
requirements become better defined, we allocate those resources 
out to the sites.
    Since we're talking about next year's budget, there are 
still resources to be allocated out to take care of any 
reductions or perceived reductions at the site. Obviously we 
don't spend the money in headquarters so that money gets spent 
at our laboratories and production plants.
    I wanted also to clarify my comment on the accelerated 
dismantlement rate. We submitted a plan to Congress, in a 
classified report, that we accelerated our dismantlement rates 
from the 2006 levels. So, now we are currently operating on the 
plan we submitted to you, sir, 2 years ago. We aren't going to 
accelerate on top of that plan, unless we have the freed-up 
resource at our plants to do that.
    Senator Ben Nelson. In terms of Pantex and the operations, 
are you satisfied that you have enough financial resources in 
the budget to be able to do what the plan is?
    Mr. D'Agostino. Yes, sir. I'm satisfied.
    Senator Ben Nelson. Okay. Thank you.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    Mr. Administrator, thanks again for your service.
    As I noted briefly in my opening statement, the center 
directors seem to have suggested a level above what we're 
looking at for fiscal year 2011. We're looking at an increase 
of $624 million. My understanding is, they suggested an 
increase of $1 to $1.2 billion. What's the difference? What are 
we not doing in this request? How do you anticipate meeting 
those needs in the future?
    Mr. D'Agostino. When we worked the internal budget process 
last year, I asked for input, broadly. Defense Programs runs 
that input process. About this time last year, we received 
feedback that said, ``Yes, in order to do, broadly, the kind of 
work we think that might happen''--this is before, by the way, 
we knew what the requirements actually were--``we think, on the 
order of about a billion-plus is needed.'' This is, again, just 
as a reminder, without any real requirements. As the year 
progressed last year, and the NPR was moving through its paces, 
the requirements became clearer. My staff and I were very aware 
that the requirements were happening, but because the NPR is 
drafted within the Federal Government and doesn't involve a 
broad range of people outside of our laboratories, our labs and 
plants don't become aware of all of those requirements. So, I 
can take their input and work it down.
    Additionally, early on what we had were what I would call 
power-point level of quality, with respect to budget input. 
But, what we had, as the year progressed last year, was a 
greater level of clarity on what it actually takes to do 
maintenance, build buildings, do work on the stockpile and as 
the stockpile requirements came through. So, I took a look at 
that request against the power-point-quality level of request, 
and applied their actual requirements to that. That brought 
that number down into our internal budget process. The 
resources we have, and the increases we have in the President's 
budget, are exactly what I feel is needed in order to satisfy 
the requirements.
    I've talked to our folks at the labs and plants. They 
understand that. They agree with me, that what we have right 
now is what we need. Will folks always want more money? I 
think, early on, it's hard to find a program manager that 
doesn't want increased resources.
    A final and very important filter, frankly, from my 
standpoint, is our ability to appropriately execute the 
resources to get the job done. The layout that we have before 
us here, is what I feel is a significant increase, and it's 
what is required to get the job done.
    Senator Vitter. Okay. Certainly, Mr. Administrator, I 
assume you agree that this project has to be sustained over 
many years. We have asked for, in the authorization language, a 
10-year plan about this. When do you expect that we'll get that 
plan, in significant detail?
    Mr. D'Agostino. This is the Stockpile Stewardship and 
Management Program Plan?
    Senator Vitter. Right.
    Mr. D'Agostino. We are working on that plan. It's going to 
be a 10-year plan. It will indicate, to the best of our 
ability, the 10-year program stream that we will need. We 
expect to get that plan to the Hill in early May, if not by the 
1st of May, which is what my target is. My internal target is 
to get that up by the first, but it's certainly within the next 
few weeks, sir.
    Senator Vitter. Okay. I know it's not finalized yet, but 
can you describe, roughly, what you think the funding line over 
time of that plan will look like? Obviously, we have a 
significant increase proposed here. Over those next 10 years, 
what would you expect that proposal to look like, in terms of 
dollars?
    Mr. D'Agostino. As you said, sir, the plan is not final, 
and I actually haven't seen the tables. But, I will point out 
that the program we have in front of the committee today takes 
the--just the weapons activities account--I'm setting aside 
nuclear nonproliferation, for the time being--but, just the 
weapons activities grows, as you pointed out--it starts at $7 
billion in fiscal year 2011, and it grows to $7.6 billion in 
fiscal year 2015. From that standpoint alone, I expect--because 
the out-years will be deep into the actual construction of 
these large facilities at Los Alamos and Y-12, and we'll be 
into the work on the actual stockpile, the B61 warhead--will be 
in the production of that--that the increase will continue on 
into the out-years, years 6 through 10.
    But, I want to caveat, I haven't seen the budget tables 
yet. It's my best expectation, at this point, that we'll see 
that increase continue. But, we will also, in parallel, 
continue to drive down and look at cost efficiencies, as I 
described in my oral opening remarks.
    Senator Vitter. Okay. In my statement, I highlighted the 
B61 life extension. I know the fiscal year 2010 Appropriations 
bill did not fully fund your request for that. In unclassified 
terms, could you please share why that project is urgently 
needed, and the complexities associated with the plan, and why 
future delays imposed by Congress would be particularly 
detrimental?
    Mr. D'Agostino. Certainly. The B61 warhead is one of our 
oldest warheads in the stockpile, from a design standpoint and 
actual warheads in the stockpile. As General Chilton has 
pointed out in the past, as I've pointed out in the past, we 
have components in that warhead that have vacuum tubes. They 
are pretty hard to make these days. It could be hard to find 
somebody that actually has them. We can't continue to operate 
in this manner, where we're replacing things with vacuum tubes.
    Neutron generators and power supplies and the radar, 
essentially, are components that have to be addressed in this 
warhead.
    Also, I think, importantly, the work on this warhead will 
provide our first real opportunity to actually increase the 
safety and security of that warhead, and put 21st century 
safety and security into that warhead. So, when we work on 
warheads from now on, I'd like to be in the position of saying, 
``We made it safer. We made it more secure. We increased the 
reliability to ensure that we would stay very far away from 
ever having to conduct an underground test.''
    Senator Vitter. Okay. Once we are beyond the B61 scope of 
work, do you anticipate a significant sort of recalculation of 
necessary fiscal year 2012-and-beyond funding?
    Mr. D'Agostino. I think it's important to note that the 
work that we are proposing in the fiscal year 2011 request--
whether we're talking about our major capital projects, the 
uranium and plutonium facilities that we're proposing, or 
whether we're talking actually about work on the stockpile 
itself--a good part of this work is work in the design phase or 
in the, what we call, defining the cost, scope, and schedule, 
because these are defined activities; they have a beginning, a 
middle, and an end. For these types of projects, we will be 
establishing performance baselines. In other words, the 
Government's commitment, or the executive branch's commitment, 
to saying, ``I'm going to deliver such-and-such, by a certain 
date, for a certain dollar amount, on a certain dollar 
stream.'' We expect for our two large facilities and the B61 
warhead to be in that performance baseline decision point in 
fiscal year 2012 and fiscal year 2013. At that point, those are 
the numbers that I want to lock in and commit to from a 
multiple-year standpoint, and will lock in and commit to 
getting the job done for those projects.
    We have to expect increases and decreases and adjustments 
in our program as we have a better understanding of what it 
takes to do a design.
    If I could just add a little bit more to that. We know that 
there have been some important changes in DOE lately, with 
Secretary Chu and with Deputy Secretary Poneman on approaches 
to large projects. In particular, one I want to point out for 
large capital projects is making sure that we know what we're 
going to build before we start building it. It's this idea of 
getting very close to finishing the design work before 
committing to a performance baseline. On these large 
facilities, particularly the capital projects, our goal is to 
get to 90 percent of design prior to construction, pouring 
concrete in the ground, and then finding out. Because that way 
we're assured, we have a much greater confidence that we know 
what a project costs and how long it will take.
    Senator Vitter. Okay.
    Thank you, Mr. Chairman.
    Senator Ben Nelson. Senator Bingaman?
    Senator Bingaman. Thank you very much.
    Tom, thank you for your service.
    You testified to this subcommittee, last year, that the Los 
Alamos Neutron Science Center (LANSC) was an important tool to 
help maintain the stockpile. I wanted to be sure that's still 
your view.
    Mr. D'Agostino. It's absolutely my view that the LANSC 
provides the important experimental data that we need to help 
validate our codes, as well as help our scientists. It helps us 
in the basic science area as it well helps us in the energy 
area as we look at nuclear energy and being able to have 
materials that can handle neutron flux environments well.
    Senator Bingaman. Thank you. Let me ask about the CMRR 
Facility. The budget you've given us doesn't have in it any 
cost estimates. I guess your statement, just a few minutes ago, 
related to this. When would we expect to have firm cost 
estimates and completion dates for that project?
    Mr. D'Agostino. I expect, in calendar year 2012--whether it 
bridges into fiscal year 2012 or 2013--I'd have to double 
check. It's going to take us a good year and a half more of 
design work to be confident. I think the most important thing 
is our desire to get DOE's reputation back on track, with 
respect to large facilities. We do have programs in DOE that do 
well in this, and what we've learned is that getting the design 
work largely completed, or getting it to around the 80 to 90 
percent level is what it takes in order to do that. So, we're 
going to work on that approach here for these two facilities. 
My expectation is about the 2012 timeframe to get that done. If 
it takes longer though, sir, I'm willing to push back the 
performance baseline by a year in order to make sure I know 
what we're asking for. I think, in the long run, that will be 
the right thing to do.
    Senator Bingaman. Has the decision been made as to whether 
that CMRR Facility will manufacture plutonium pits?
    Mr. D'Agostino. I don't think there's any decision needed, 
sir. Here's how I would describe that. The plutonium pits are 
manufactured in a building called PF4. It's a building at Los 
Alamos that was brought up in the 1980s. It's 20, 25 years old. 
We're in the midst of upgrading that facility, working on the 
ventilation systems and the power systems and the like. The 
CMRR Facility will do a couple of things for us. It will do the 
materials characterization work that we need to characterize 
plutonium material for nuclear forensics work and for the 
stockpile. It will do the analytical chemistry that's needed to 
do the surveillance work on the stockpile, which means if we 
take a stockpile pit, we take a little sample of that, and we 
send it over to the CMRR facility so that analysis can be done, 
so we can understand the aging of that warhead. Finally, there 
will be a component of this facility that will include storage. 
One of the things that we found that we're having problems with 
is making sure that we have the adequate and appropriate 
storage for all of our material. So, it will provide those 
three functions. We will not make pits in the CMRR Facility. 
We'll make them in the existing older facility.
    Senator Bingaman. As I understand it, the Defense Nuclear 
Facility Safety Board (DNFSB) has criticized the PF4 facility 
for its safety envelope under a worst-case accident scenario. 
Does NNSA have a campaign to reduce or remove plutonium from 
that facility to deal with that?
    Mr. D'Agostino. Senator, we absolutely have a campaign to 
do that. We have a campaign to do a couple of things. One, the 
concern of the DNFSB is a concern of mine in that the analysis 
was an unbounded analysis. That said, if the facility was 
completely full of plutonium, and all the worst things 
happened, then we would have a release. What we have done since 
then is taken a look at how much material is actually in the 
building, versus the building filled up to the rafters with 
plutonium. That reduced the risk to the public by a factor of 
15, so that's a significant reduction. We're still not 
satisfied with that reduction.
    What we're doing, even though the risk has been reduced by 
a factor of 15, is packaging and taking material out, and we've 
incentivized the laboratory to accelerate its packaging. Item 
two is, we've reduced the amount of--what we call fire loading, 
material in the building that could catch fire, because the 
accident was a fire accident. The building breaks open, there's 
a fire, and then the wind carries everything out. If we reduce 
the amount of fire-loaded material and add fire upgrades, that 
also causes the risk to the public to go down.
    We're moving material out; we've reduced the fire loading; 
and we're also putting in some--not ventilation adjustments, 
but, in essence, doors that will close automatically, to reduce 
the risk even further. I'm confident that the right steps are 
being taken.
    Senator Bingaman. Let me ask about the scientific and 
engineering complex that has been considered there at Los 
Alamos. I believe your budget proposes to cancel that. This was 
intended to house many of the scientists at the lab in a single 
facility. What is the plan for a facility of this sort? Is 
there an alternative course that you plan to follow?
    Mr. D'Agostino. Yes, sir. I would characterize it slightly 
differently, if I could, sir. We canceled the approach that the 
lab was proposing to the Federal Government, which was a third-
party-financed approach which we felt did not meet the 
requirements. First of all, it did not meet the requirements 
that we had laid out, with the administration, and it did not 
meet the Office of Management and Budget requirements for 
third-party financing. So, we're working with the laboratory, 
right now, on a different approach. We do need, frankly, a 
place to put our scientists at the laboratory. We don't have 
the solution yet. The Defense Programs organization hasn't 
closed on that particular approach yet. I don't have anything I 
can say right now to you, sir. But, I'll be glad, once we close 
on that approach, to communicate back to you, once we close on 
what that may be.
    Senator Bingaman. Thank you very much.
    Mr. Chairman, I may have some questions to submit in 
writing, but thank you very much.
    Senator Ben Nelson. They will be received.
    Senator Sessions.
    Senator Sessions. Thank you.
    Mr. D'Agostino, we appreciate your being with us today.
    One of the things that is really crucial to the START 
ratification process is the commitment, that we believe is 
there, to modernize the nuclear weapons program. It's part of 
our 2010 Defense bill, and it says, ``Must have a plan to 
modernize U.S. nuclear deterrent and estimated budget 
requirements over 10 years.''
    I was just going to tell you that there are a lot of 
concerns about this treaty. I don't think it's critical to our 
national defense, and I will try to be cooperative so people 
can celebrate all these meetings and signing all these 
documents. It makes them feel good. But, we need to know 
whether or not you have the money and the plan in place to 
modernize the arsenal. If it's not there, I think Senator 
Lieberman was quoted as saying that he didn't think the treaty 
could be ratified. I guess I see there is $5 billion for the 
first 5 years, but what kind of plan is there for the second? 
Are we backloading the funding here to sometime when some new 
administration would have to come up with the money, not the 
one that's signing this treaty? To put it all bluntly. 
[Laughter.]
    Mr. D'Agostino. Senator, the fiscal year 2011 budget is not 
just a budget for 1 year. Within the program that we've 
submitted, we have a 5-year lookahead. The program does go up 
significantly from fiscal year 2011 through fiscal year 2015. 
We do owe you a 10-year plan to describe what years 6, 7, 8, 9, 
and 10 look like, as well. Our commitment is to get that plan 
to you. I believe that what's not needed is a 1-year step-up, 
which, frankly, we do have a significant increase from fiscal 
year 2010 to fiscal year 2011, but it has to be a long-term 
commitment that crosses administrations and crosses Congresses 
and the like. That's our approach, sir.
    Senator Sessions. I understand that. But you testified last 
summer that, ``We anticipate that identified funding levels for 
the out-years may not be sufficient to meet the post-NPR 
stockpile requirements, including science-based stewardship, 
recapitalization of the aging plutonium and highly-enriched 
uranium facilities.'' Do you still stand by that?
    Mr. D'Agostino. No, I stand by the President's budget. Last 
summer, I didn't know where we were going to end up with the 
year. What we have here is a plan that does what the NPR asked 
for. The NPR lays out broad requirements, we've submitted a 
program and budget that has a very significant set of well-
understood work for the next decade on working on the nuclear 
weapons themselves.
    Senator Sessions. But, you haven't identified, yet, the 
funding for the out-years, that's correct. Yes or no?
    Mr. D'Agostino. Yes. I've identified funding for the next 5 
years, but I haven't----
    Senator Sessions. The next 5 years. Excuse me.
    Mr. D'Agostino. For the years 6 through 10, I have that 
plan in place. I haven't gotten it out in public yet.
    Senator Sessions. Will it call for more spending per year, 
in years 6 through 10 than 1 through 5?
    Mr. D'Agostino. I haven't seen the details of the plan yet, 
or the tables. We don't have approval on the tables. My 
expectation is that, because we will be entering into the 
construction phase of some of these facilities, that the $7.6 
billion that we have in year 5 will continue, appropriately, to 
increase to reflect that.
    Senator Sessions. Where does $7.6 billion come from?
    Mr. D'Agostino. That's the amount of money in our weapons 
activities account in fiscal year 2015. Right now, our weapons 
account has $7 billion in fiscal year 2011, that $7 billion 
increases to $7.6 over a 5-year period.
    Senator Sessions. But, you have a new responsibility, a big 
new responsibility. I thought you were getting $1 billion a 
year from the Secretary of Defense to do the New START plan to 
modernize?
    Mr. D'Agostino. I gave you the total number, sir, which is 
an element of that, is the resources provided by DOD.
    Senator Sessions. You're cutting other expenditures within 
the account?
    Mr. D'Agostino. I'm trying to drive efficiencies, because 
this is not just a matter of getting more money, it's making 
sure the resources we have in our base account are spent well.
    Senator Sessions. I couldn't agree more about that. But 
this $5 billion for this project in the first 5 years, as I 
understand it, is that about $1 billion a year you plan to 
apply? Or does it ramp up over the 5 years?
    Mr. D'Agostino. Since, I haven't seen my years 6, 7, 8, 9, 
and 10, I can't give you a solid answer to that. But very 
shortly, you'll be getting the 10-year plan and we will have 
that level of detail for you.
    Senator Sessions. I just want to say, I learned something 
here, when I first came to the Senate, President Clinton had a 
lot of increases in the defense budget in the out-years, and I 
realized he's going to be out of office, but he wasn't spending 
his money this year to get it started. So, I'm trying to make 
the point that this is not going to be a pleasant process if 
you don't have us really good numbers that we can believe in, 
and with credibility, and a real commitment is there to improve 
our stockpile.
    With regard to the W78 and W88, it seems that the NPR 
raises the bar to make it more difficult to recommend 
improvements or replacement options. Why would we constrict 
ourselves in the options that we would have to make the arsenal 
safer and more reliable?
    Mr. D'Agostino. Senator, I don't believe we are 
constricting ourselves. After taking a look at the NPR, the lab 
directors feel that the NPR provides them the flexibility they 
need in order to maintain the stockpile, including the W78 and 
the W88.
    Senator Sessions. They work for you guys, and they pretty 
much follow orders. But, I'm going to ask you again, do the 
restrictions that are included in any way weaken the options 
that might be available in the future as we work to replace and 
modernize these weapons systems?
    Mr. D'Agostino. I believe the NPR does not provide any 
restrictions to modernize. So, there's no impact, there's 
flexibility for the lab directors to study all types of 
approaches to do life extensions on the warheads. The NPR is 
real clear on that, sir.
    Senator Sessions. All right. We'll review that.
    Mr. D'Agostino. Yes, sir.
    Senator Sessions. I would just note, if you want to save 
some money, you have $6 billion in cleanup money, is that 
correct, in your budget?
    Mr. D'Agostino. In the DOE budget, yes, sir.
    Senator Sessions. Another $6 billion of stimulus money for 
cleanups, that's $12 billion. That right? Counting the money 
that was in the stimulus bill?
    Mr. D'Agostino. I'm more confident on the environment 
management work money. I don't keep track of the stimulus 
money.
    Senator Sessions. If you want to look for a place to save 
money, I suggest that $12 billion would be a good place to 
start and that you have plenty of money to modernize our 
nuclear arsenal. Otherwise, we may not have a treaty to sign.
    Thank you, Mr. Chairman.
    Senator Ben Nelson. Senator Reed.
    Senator Reed. Thank you very much.
    Thank you, Mr. Director.
    Just in a general question--we have a challenge of 
modernizing our nuclear stockpile in both deployed and 
stockpile weapons, et cetera. Is there any significant 
difference, in terms of the status of ground-based, air-
launched, or sea-launched systems, in terms of their 
modernization or their status?
    Mr. D'Agostino. I can answer part of that.
    Senator Reed. Yes.
    Mr. D'Agostino. It's probably better addressed to DOD.
    Senator Reed. Right.
    Mr. D'Agostino. General Chilton and Mr. Miller will be 
here, I think, next week.
    Senator Reed. Yes, sir.
    Mr. D'Agostino. My sense is, from the sea-launch 
standpoint, for example, I--because I'm a former submarine 
officer, I keep track of the trends----
    Senator Reed. I know there was something I liked about you. 
[Laughter.]
    Mr. D'Agostino. We do have work that we have in our program 
request to do the design work on the follow-on Ohio-class 
submarine core.
    Senator Reed. Right.
    Mr. D'Agostino. An element of that, obviously, is the 
replacement of the Ohio-class submarine. There is significant 
work and discussions underway within Strategic Systems Program 
organization on how we best move forward on that Trident 
replacement submarine. There's a general understanding that 
this is the most survivable leg of our deterrent, and there's a 
commitment to work with the Navy on getting this piece done. My 
element of the budget, as I described earlier, is over a $100-
million increase in the naval propulsion program just to do 
that work on the Ohio-class submarine replacement, as well as 
refuel the reactor core on the prototype facility.
    From a submarine standpoint, I'm confident. But, I'll have 
to leave it to my colleagues in DOD to deal with the other part 
of your question, sir.
    Senator Reed. Very good. You are already beginning to 
undertake the work for the design of the new reactor system for 
the follow-on to Ohio.
    Mr. D'Agostino. Absolutely, sir. This budget gets this 
going in high gear.
    Senator Reed. One of the other aspects of the naval system 
is that their spent fuel is currently stored in the water basin 
up at naval reactors facilities in Idaho Falls, and the 
facility is 50 years old. It's been described to me as a design 
that is not the most modern.
    Mr. D'Agostino. Right.
    Senator Reed. I don't want to denigrate it, but it's a 
swimming pool with--am I getting too far off the point here?
    Mr. D'Agostino. Getting pretty close, sir.
    Senator Reed. Swimming pool with material in it.
    Mr. D'Agostino. Right.
    Senator Reed. So, what are we going to do to recapitalize 
that, in terms of the disposition of the fuel?
    Mr. D'Agostino. The facility you're referring to is the 
Expended Core Facility, ECF, for short. This is a facility 
that's done great work for the Nation. It's a facility that is 
in need of upgrading. Just like our plutonium and uranium 
facilities, which were there in the 1950s, and were designed to 
1950s standards and the like, as we take a look at the work 
that we anticipate out into the future, with cores coming out, 
we know this facility is not going to be able to cut it. So we 
have $40 million requested in the fiscal year 2011 budget on 
the ECF. We're going to be working with the Office of 
Management and Budget. Once we establish the performance 
baseline again--is to make sure that those out-year funds are 
there to support this activity.
    Senator Reed. You might have covered this already. But, 
what opportunity did you have to participate and observe this 
week's summit meetings?
    Mr. D'Agostino. I was intimately involved with it. Because 
it was a nuclear security summit, our folks in the NNSA were 
actively involved in the workups to this.
    Senator Reed. Yes.
    Mr. D'Agostino. It's taken almost a year, frankly, worth of 
effort in securing commitments from other nations to protect 
their material, to repatriate highly-enriched uranium or 
plutonium that either United States or Russia had provided; and 
to convert research reactor cores from highly-enriched uranium 
to low-enriched uranium. Starting on Sunday, it culminated with 
a set of bilateral meetings, and Monday, with our counterparts 
from other nations, and then the summit yesterday, where we 
actually secured commitments and received agreement on a 
integrated work plan. My organization was actively involved. I 
was there for the last 3 days.
    We're quite excited about this many countries that are 
interested in dealing with this global problem, and addressing 
it in a very systematic way. Being an engineer, I like to see 
things follow a certain work plan, with requirements and our 
goal is to have an agreed work plan and meet regularly and 
report back up to our presidents regularly on how we're doing. 
Two years from now, we'll have another opportunity to ask the 
world, ``Did we do what we said we were going to do?'' I think 
that's very important, that followup.
    Senator Reed. This integrated work plan encompasses all of 
the nations that participated?
    Mr. D'Agostino. All of the nations, and possibly more. Some 
nations have a lot less to do than others. Obviously the United 
States and Russia have a fair burden and moral obligation as 
well as programmatic obligation to do this work. But, you've 
probably heard the announcements about Ukraine agreeing to give 
up the material they have and allowing us to bring that back to 
Russia; and agreements with Canada, as well, on bringing back 
U.S. material. We have secured agreements from various nations 
to allow us to put security upgrades in their facilities, put 
radiation detectors in their seaports, and have them take over 
that responsibility, and agree to sustain that. It was, 
frankly, remarkable.
    The last piece of it, which is something that many on the 
committee know about, is an agreement by Russia and the United 
States to sign the Plutonium Management Disposition Agreement. 
This, unfortunately, had been in negotiation, I'm afraid to 
say, for 10 years. We finally got it signed, and it's an 
important part--that way, what we'll do is get the 
International Atomic Energy Agency to verify that both nations, 
the United States and Russia, will be eliminating 68 metric 
tons of plutonium, plus a couple of hundred metric tons of 
highly-enriched uranium to go with that. So, it's quite a set 
of days. We're quite happy with that.
    Senator Reed. Thank you very much.
    Mr. D'Agostino. Thanks.
    Senator Reed. Thanks for your testimony.
    Mr. D'Agostino. Thank you sir.
    Senator Reed. Thank you, Mr. Chairman.
    Senator Ben Nelson. Thank you.
    You heard my colleagues from the other side raising 
questions about adequate financing and funding for the job that 
is going to be required as part of the New START. Based on what 
you now know, certainly with the current budget, years 1 
through 5, do you believe that there's adequate funding for the 
United States to fulfill our obligations under the Treaty as it 
relates to the nuclear arsenal?
    Mr. D'Agostino. Yes, Mr. Chairman, I do believe that.
    Senator Ben Nelson. Is it your opinion on years 6 through 
10, based on what you know at the present time and what you 
will be submitting as part of the 10-year plan, that there will 
be plans for adequate funding in those out-years, as well?
    Mr. D'Agostino. Yes, Mr. Chairman. Our goal is to put 
together that 10-year plan to describe the work, as we 
understand it today.
    Senator Ben Nelson. Yes.
    Mr. D'Agostino. In recognizing that, as our project 
baselines are established, my goal is that those project 
baselines--as this plan is dynamic, change from year to year, 
and those project plan numbers get inserted into this plan.
    Senator Ben Nelson. There is no effort, as far as you're 
concerned, that the front-end funding is light, inadequate, or 
is a smaller number than it should be, in anticipation that the 
out-years would be funded at a higher level. In other words, so 
that the funding should be adequate for each and every one of 
those years, based on the budgeting process that we have as 
part of Congress.
    Mr. D'Agostino. That's right, sir. We put forward a program 
that meets the requirements and is executable. It doesn't make 
sense for the executive branch to put together a political 
budget, because, in the end, what we're trying to do is get the 
job done, and get it done in a way that best uses the 
taxpayers' dollars and meets the requirements. That's what we 
have in our budget submission, sir.
    Senator Ben Nelson. You don't believe that partisanship or 
any kind of political pressure is being placed on this 
budgeting process, as far as you're concerned?
    Mr. D'Agostino. Not as far as I'm concerned. I was 
intimately involved in putting this budget together, and 
received great support in doing so. In understanding that we 
needed to recapitalize our infrastructure, we needed to 
increase our resources in the science area, and that we needed 
to work on the stockpile. Sir, that's what we have before us.
    Senator Ben Nelson. Okay, thank you. In connection with 
some facilities modernization efforts, there've always been 
people saying that the current facilities, in many instances, 
are in shambles; that they're not current, they're not up-to-
date, they're not state-of-the-art, but that does not seem to 
be borne out by the facts, because you have, over the last 
several years, increased the level of facilities management 
during these recent years. Maybe you can tell us a little bit 
about some of the things that you've done so far on some of the 
facilities, recognizing that I think there are two major 
facilities that are going to have to have more than some work 
done on them.
    Mr. D'Agostino. Right, certainly, absolutely, sir. We've 
done a significant amount, as you pointed out. I'll give you 
some quick examples.
    Senator Ben Nelson. Sure.
    Mr. D'Agostino. At Sandia, for example, we've done work on 
a facility called the Microsystems Engineering Science 
Application facility. This is a facility that was critically 
important. It added on to an older facility, called the 
Microelectronics Development Laboratory. But, this facility, we 
knew we needed it, because, as components were getting smaller, 
we knew that we could pack more capability into a smaller size. 
When we're talking about nuclear warhead designs, size and 
weight are huge factors in the equation. So, that facility was 
up and running, supported by and authorized by Congress within 
the last 10 years.
    Additionally, within the last 10 years, we built a facility 
called the Tritium Extraction Facility. This facility was 
vitally important to reestablishing the Nation's capability to 
produce and extract tritium for use in the deterrent, also 
vitally important, something that could get done.
    We've saved the hardest for last, if I could put it one 
way.
    Senator Ben Nelson. Sure.
    Mr. D'Agostino. The hard work is the uranium and plutonium 
work. These are the last two big facilities that have to get 
done. They are multibillion-dollar facilities. I won't kid you, 
sir, these are expensive. But, at the same time, we were trying 
to get as much out of what we had. Now we're at the point where 
we have to recapitalize those. But, just as with any large 
operation, any organization needs a recapitalization budget to 
replace buildings as they get old. We expect that to continue 
on, at the couple-of-hundred-million-dollar-per-year level.
    Finally, one last point, if I could. Up at LANL, which had 
a very old administration building, it was the center building. 
It was one of the very first structures that went up in the 
early days of the Cold War. That facility was torn down and 
replaced with a new modern structure at LANL.
    We are turning the enterprise around. But, we are now left 
with our big jobs, and that's what we have to get done over the 
next 10 years.
    Senator Ben Nelson. In connection with the two new 
facilities, what portion of the design would be complete before 
construction starts?
    Mr. D'Agostino. My goal is to get design as close to 90 
percent as possible before construction starts. The reason why 
I can't give you an exact number now is, it's hard for me to 
look out in the future and find out, ``Should I wait another 
year and spend another X-million dollars to get that last 5 
percent? Or do I have enough now to go on? Does that last 5 
percent really matter with respect to performing a baseline?'' 
But, our goal is to get into this 80- to 95-percent range on 
complete design before we start asking for increased resources 
from you, sir, and other committees, on the actual construction 
itself.
    Senator Ben Nelson. Are you planning to get any kind of an 
independent cost estimate (ICE) of these facilities before you 
start making budget requests for significant amounts of money?
    Mr. D'Agostino. Absolutely. DOE recently--I would say, 
within the last 2 months, put out a new policy on project 
management. The new policy had a couple of key elements to it. 
One, I've just alluded to, which is this idea of doing as much 
design work before you commit to the construction. The second 
one is ICEs at each of the critical decision points. In the 
past, we would only do this ICE at one of the major critical 
decision points. We're going to do them at each of the four 
critical decision points. The third element is making sure that 
we have qualified project managers, and the right number of 
them on each of the projects. There's an algorithm that's been 
developed, and an approach and a desire to make sure we have 
enough project managers on the project.
    There are a couple of others, but for the sake of brevity, 
we could submit those details for the record, if you'd like. Or 
I could provide a copy of that.
    Senator Ben Nelson. I think that would be helpful.
    Mr. D'Agostino. Yes, sir.
    [The information referred to follows:]

    As a result of the Department of Energy (DOE)/National Nuclear 
Security Administration (NNSA) residing on the GAO's High Risk List for 
Project Management Execution, the Department conducted a Root Cause 
Analysis (RCA) with resultant Corrective Action Plan (CAP-July 2008). 
The participants in this RCA were all experienced, senior members of 
the Department. The second most significant root cause of project 
failures was determined to be the lack of Federal staff (both contract 
professionals and project professionals) assigned to the project 
management team. The corrective action for this particular item 
resulted in the development of an algorithm by the Office of 
Engineering and Construction Management (OECM) that when used would 
predict the necessary Federal staffing levels. This model was based 
upon a similar model utilized by NavFac. Although the Federal project 
staff can be supplemented with contractor personnel, there remain 
certain ``inherently Federal'' functions that must be executed by 
Federal staff and cannot be allocated to contractors.
    After conducting a review of this model, NNSA adopted additional 
criteria into the algorithm that more closely reflected the actual 
staffing methodologies used within NNSA and the complexities of NNSA 
projects, as compared to a linear $/FTE concept suggested by the 
original OECM model. NNSA then utilized the model to predict the 
necessary staffing levels of the five largest NNSA projects. The 
model's predictions were closely aligned to the Federal Project 
Director's staffing plans. The results indicated that NNSA had a 
staffing deficit on these five projects in fiscal year 2012. Further 
decisions regarding the funds to support the Federal Project staffing 
have been deferred until the fiscal year 2013 budget formulation.
    To address the immediate needs of Chemical Metallurgy Research 
building Replacement project and Uranium Processing Facility project, 
NA-10 has assigned a senior Federal Project Director to establish a HQ 
Project Support Office which will provide oversight of all activities 
for these critical projects. Additional NA-10 staff have been assigned 
to work under this FPD's direction.
    NNSA is committed to the overall improvement of project management 
within NNSA and the eventual, near-term removal of NNSA from the GAO's 
High Risk List. As such, NNSA will continue development of the 
logistics necessary to obtain the additional required staff to support 
these critical NNSA projects.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Ben Nelson. One of the concerns about the treaty is 
whether we are going to be in a position to be able to do 
everything we need to do, as well as everything else that's 
required as part of the overall operations of the facilities?
    Mr. D'Agostino. Right.
    Senator Ben Nelson. Is there any concern on your part about 
your ability to build these two facilities simultaneously?
    Mr. D'Agostino. No. They're in two different geographic 
locations. The key will be sticking to our principles, our 
project management principles; making sure we spend more time 
up front on the design; working with the DNFSB; ensuring that 
we have the safety built into these designs; and the thinking 
is done upfront, instead of trying to backfit features in after 
the design is starting to lock itself down. So, I think we 
have--the DNFSB and the NNSA go back and forth on these things, 
and appropriately so. But, the good news is, we're having 
fairly significant amount of dialogue on these facilities with 
the DNFSB. I wouldn't have it any other way. I think it's very 
important to get that independent input.
    Senator Ben Nelson. Congress has required your agency to 
have a net reduction in square feet at each site. Now, in 
tearing down some of the old excess facilities and to budget 
for the decommissioning and demolition (D&D) for each old 
building that a new one would replace, are you in a position to 
where you think that you're going to have a net reduction in 
square footage, but at the same time be able to handle the 
ongoing operations? Apparently you've not funded the D&D 
processes in recent budgets.
    So, two questions. One, are you going to be able to get 
there with the reduction in square feet, but still have enough 
to do what needs to be done? How are you going to be able to 
fund the D&D costs?
    Mr. D'Agostino. Okay. Yes, we will be able to have square-
foot reductions. Early on, when we looked about the shift from 
going from an old Cold War nuclear weapons complex to a 21st 
century national security enterprise, we felt that we could 
take 9 million square feet out of the enterprise. That number 
probably doesn't mean anything, except if I put it into 
context. We have 36 million square feet of space, and we 
believe we can take 9 million square feet down as we 
consolidate our functions, which we want to do with this 
plutonium and uranium, as we get into smaller more modern 
facilities. We believe we can take it down to 9 million square 
feet.
    Another element, which is not a matter of taking square--
saying you've moved out of the old buildings, or the old 
buildings have to come down. We're working with Dr. Triay. At 
Y-12, for example, we're doing a consolidation of highly-
enriched uranium, and we've completed the movement of all the 
highly-enriched uranium that was spread out in that Y-12 valley 
into this new facility that we've just built, this highly-
enriched uranium materials facility. That will allow us, 
ultimately, to take that 150 acres of highly secure space, 
shift the fence to--only have 75 acres of space that we're 
protecting, and all that work that's outside now is available 
for the Environmental Management (EM) organization. Senator 
Sessions talked about this AARA money, that $6 billion. That 
money will be used to take down those facilities.
    Senator Ben Nelson. I see.
    Mr. D'Agostino. We don't have, at this point, every single 
square foot being taken down. We don't have the details of that 
plan yet. But, for the most part, we're working the EM 
organization to help us out on that.
    Senator Ben Nelson. As the new facilities are being built, 
is your budget adequate for facilities maintenance? In other 
words, so we don't end up with significant deferred maintenance 
that's not covered within a budget, but obviously it's a cost 
that will come due at some point in the future, and usually 
when there's no money available to take care of it. Are you 
planning for that, budgetwise, as well?
    Mr. D'Agostino. In an ideal world, you'd always want to do 
more maintenance. What we're trying to do is balance the 
tradeoff between taking facilities down and stopping 
maintenance; anticipating which facilities, and stopping 
maintenance on those facilities, and reallocating the resources 
to the fewer sets of facilities that we have right now.
    I have a separate office that looks into this. The numbers 
vary from site to site. I'm comfortable with fiscal year 2011. 
This is a challenge that General Harencak is working on at the 
Pantex plant, for example, right now. We're trying to solve a 
small facilities maintenance problem there. But, at the same 
time, we feel that overall in fiscal year 2011, we're okay. 
I'll have to get back to you with an answer on the out years.
    Senator Ben Nelson. Okay. Thank you.
    [The information referred to follows:]

    During the construction of replacement facilities, National Nuclear 
Security Administration balances the amount of maintenance and 
operational funding it provides for an existing capability until the 
replacement becomes available. This balance considers the inherent 
risks of meeting the mission requirements as well as the safety of 
continued operations in existing facilities, while attempting to 
minimize unnecessary expenses.
    The Readiness in Technical Base and Facilities (RTBF) program 
provides the funding necessary to maintain the operations, and to 
reduce the risk of their continued operations. This RTBF funding is 
provided to the weapon sites in three categories; namely, operations, 
risk reduction, and transformation. All sites are provided RTBF funding 
in each of these categories, however the risk reduction category 
continues to be a priority at Y-12 and Los Alamos National Laboratory 
in order to provide for safe and compliant operations of the existing 
facilities, while Uranium Processing Facility (UPF) and Chemical and 
Metallurgical Research Replacement (CMRR) are constructed. RTBF support 
is critical to the sites' ability to manage risk in the hazardous 
Uranium and Plutonium facilities.
    Support for risk reduction is included in the Future Years Nuclear 
Security Plan targets and in the case of HEU and Pu facilities, 
additional funding through line item projects is also provided to 
further reduce the risk, namely 9212 NFRR and TA-55 Risk Reduction. It 
is vital that support for RTBF operations, risk reduction, and line 
item projects continues until the startup and operation of UPF and CMRR 
is complete.

    Senator Ben Nelson. The NPR states that the United States 
will ``study options for ensuring the safety, security, and 
reliability of nuclear warheads on a case-by-case basis.'' Have 
you established criteria that will be used to evaluate each 
warhead, on a case-by-case basis, to ensure the safety, 
security, and reliability of those nuclear warheads?
    Mr. D'Agostino. Sir, we'll take each warhead one at a time. 
The criteria we use is our surveillance data that we get out of 
taking the warheads apart and looking at them and finding out 
what components need to be replaced. When there's the right 
subset of work that has to be done, the decision gets made. We 
have pretty good sense about how the next 10 years look in this 
area. It's not like there are go/no-go points on each of these 
particular points, but, essentially, it's a conglomeration of, 
``We know when you're going to need to work on the organic 
materials in this warhead, and we're going to have to replace 
the neutron generator by this date. How about if we combine 
these two together and work on that as a joint life 
extension.'' So, it's a little dynamic from that standpoint, 
but the next 10 years worth of work is fairly well clear. 
Finish the W76 production; work on the B61, the neutron 
generators, the power supplies, and the like; work on the 
radar; work on the nuclear explosive package to get the safety 
and security in it; and then we know we're going to have to 
touch the W78, for reasons that are better off discussed in 
either a closed session or in a classified report for the 
record.
    Senator Ben Nelson. In that regard, some warheads, as I 
understand it, don't have all the safety features that were 
identified by the Drell panel back in the 1990s. Is there a 
plan to incorporate, let's say, all of the safety features in 
each warhead and weapon? Will this require any new pit designs 
or existing pits to be remanufactured or reused?
    Mr. D'Agostino. Let me start with saying that our warheads 
are safe and secure now. As you accurately said, depending on 
which warhead we're talking about, if it's one of our newer 
warhead designs and we've had the opportunity to put more 
modern safety and security in it, we've done so.
    What we hope to do, particularly with the B61 warhead, is 
make adjustments that will allow us to make sure we continue to 
use insensitive high explosives, and make sure that we put the 
right kind of 21st century security into those warheads. Some 
of them may require a modification to a pit; because we have a 
number of pits available, some of them may allow us to reuse 
pits that we've had before.
    What the NPR allows us to do, which is very important for 
our lab directors and our scientific workforce, is, it allows 
us to study the full range of options, whether it's refurbish 
the existing one, reuse something that we've used before, or 
replace a component, because we think that's the best way to 
get 21st century safety and security--we have the flexibility 
to study all of those and present to the President and 
Congress, and get authorization from the President and 
Congress, to move down any one of those particular tracks.
    Senator Ben Nelson. There's always the question of having 
adequately trained and skilled staff. Can you give us some idea 
of how that is working for DOE? Are you encountering 
difficulties? If so, are you able to overcome those 
difficulties so that we keep adequate skilled staff?
    Mr. D'Agostino. We've come a long way in a year, Mr. 
Chairman. A year ago, there was a lot of uncertainty within my 
organization as to what the future held. In fact, you can go 
back further than a year, because there was a general view that 
we did not have a bipartisan consensus on the deterrent. We, of 
course, have a lot of very smart, capable folks that had plenty 
of options. In many cases, they took those options and left the 
organization.
    But, there is a solid group of dedicated people left. 
They're very excited about the plan that the President has laid 
out, because they believe that it's not only the right plan, 
but they believe that's a plan that can be sustained over time. 
That's the most important thing, is clarity in the work that's 
laid out before us. Frankly, I believe America is safer now, 
with clarity in the NPR, than we were before, because our 
workforce believes that the country cares about this.
    Senator Ben Nelson. Okay.
    Mr. D'Agostino. Not just the stockpile, sir, but also the 
nonproliferation and counterterrorism work and the like.
    Senator Ben Nelson. There is something about clarity, isn't 
there?
    Mr. D'Agostino. Yes, sir.
    Senator Ben Nelson. Is there any question I haven't asked 
you that I should? [Laughter.]
    Mr. D'Agostino. I felt I've answered a lot of questions, 
but----[Laughter.]
    --I'll be glad to take some more for the record, if that 
would help.
    Senator Ben Nelson. Let me check and see if we----
    Mr. D'Agostino. Yes.
    Senator Ben Nelson. Oh, this is the toughest one, I guess. 
[Laughter.]
    The NPR states that the United States will not develop new 
nuclear warheads, and that the LEPs will not support new 
military missions. In this context, what is your understanding 
of the word ``new''? How does this fit with the statutory 
definition of ``new"? There are some differences there, so 
perhaps you can help us understand that.
    Mr. D'Agostino. In my view, new nuclear warheads are 
warheads that are not based on previously-tested designs, or 
are warheads that provide a new military capability; for 
example, an enhanced electromagnetic pulse warhead, or a 
neutron bomb, or what has been euphemistically thrown around, 
the term ``bunker-buster,'' or a warhead that's designed to 
defeat chemical or biological agents. Those are new military 
capabilities. Our approach is to be very consistent with the 
NDAA 2010, which talked about the SMP, which said, ``Extend the 
life of existing warheads; ensure their safety, security, and 
reliability; to ensure that the stockpile can be extended 
without underground testing; to ensure that it provides an 
opportunity to reduce the size of the stockpile or reduce the 
numbers of different types of warheads; and to ensure that we 
prevent an accidental detonation or deliberate unauthorized use 
of a warhead,'' all within the current mission functions of the 
existing stockpile.
    This is very consistent, frankly, I believe, with the 
language of the 2003 NDAA, and what we looked at is to be new 
military capabilities to come to the front. It's my view that 
there was a desire on the part of Congress that you wanted to 
be aware of any work that was going on to enhance military 
capabilities. But, the language is very clear; it did not apply 
to life extensions.
    So, the approach we've laid out is a life extension 
approach, consistent with the SMP, which does not bring in new 
military capabilities, and it ensures us confidence of using 
the underground test data.
    Senator Ben Nelson. So, it's really tied to additional 
missions, or something that changes significantly what the 
prior mission would have been with existing weapons, is that 
fair to say?
    Mr. D'Agostino. Yes. That's right. I would add from a 
technical standpoint, that I have the underground test bar that 
I want to make sure I cross over each time. It also includes 
designs that are not based on previously tested designs. So, it 
would be both for me, but, at the bare minimum, for sure, the 
mission piece.
    Senator Ben Nelson. ``New'' is more tied to change than 
mission or design or capabilities, is that accurate, as well? 
If you expand a capability, would that create something new?
    Mr. D'Agostino. For example, taking a warhead that we have, 
that might currently be at X kilotons, and now making it 2X or 
3X. I don't want to put words in General Chilton's mouth, but 
he and I testified earlier this morning, and he described it 
from that standpoint, that the stockpile he has right now is 
what he needs to meet the current and expected future mission 
requirements. I believe, of course, he would be in a position 
next week to be able to describe that in a little bit more 
detail.
    Senator Ben Nelson. Sure. That would be an appropriate 
place for us to bring it up again.
    Mr. D'Agostino. Yes, sir.
    Senator Ben Nelson. I thank you very much for your patience 
and your testimony and responding to the questions. Obviously, 
the whole area of the treaty will be discussed even in more 
detail, and there may be different ideas, it appears, about how 
to pursue this. I thank you for enlightening us with your 
answers today, and I look forward to seeing you next week.
    Mr. D'Agostino. Thank you, Mr. Chairman.
    Senator Ben Nelson. Thank you.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Jeff Bingaman
                                  b-61
    1. Senator Bingaman. Mr. D'Agostino, in response to the Nuclear 
Posture Review (NPR), the National Nuclear Security Administration 
(NNSA) is proposing to undertake a life extension of the B-61 gravity 
bomb. My understanding is that for this year the effort will examine 
principally the non-nuclear components. Do you anticipate looking at 
the nuclear warhead and are the cost estimates reflective of that?
    Mr. D'Agostino. Yes. The fiscal year 2011 budget request for the 
B61 addresses the necessary funding to develop and assess nuclear and 
non-nuclear life extension options and pursue technology maturation 
initiatives that enable a first production unit date in fiscal year 
2017. The nuclear warhead scope is a critical element of the fiscal 
year 2011 study effort because it allows the development of life 
extension options to meet military requirements including extending the 
service life, implementation of enhanced safety features, and 
consolidation of four B61 weapon-types (B61-3, -4, -7, and -10) into a 
single weapon-type.
    While the fiscal year 2010 B61 study scope is currently limited to 
non-nuclear options, we have requested funding authorization to expand 
the study to include nuclear life extension options. This request is 
consistent with the planning and requirements contained in the fiscal 
year 2011 B61 budget request.

    2. Senator Bingaman. Mr. D'Agostino, you list out-year cost 
estimates of the B-61 gravity bomb totaling approximately $1.68 
billion. Does that estimate include only the weapons labs or the cost 
to assemble the refurbished weapon?
    Mr. D'Agostino. The B61 funding profile contained in the budget 
request includes only engineering and production development activities 
through fiscal year 2015 at the national laboratories and production 
plants. War reserve production activities at the plants will not begin 
until fiscal year 2016 and will continue through fiscal year 2021. 
Total program costs are being developed as part of the B61 Phase 6.2/2A 
Study and will be reported to Congress as part of the Nuclear Weapon 
Council authorization of Phase 6.3 in fiscal year 2012.

                                  w-78
    3. Senator Bingaman. Mr. D'Agostino, for fiscal year 2011 you are 
proposing to initiate a study on the Minuteman III W-78 warhead. Will 
it be a life extension program (LEP) of the existing warhead or will it 
consider different designs within the same military performance 
envelope?
    Mr. D'Agostino. In fiscal year 2011, the NNSA and the Department of 
Defense (DOD) will initiate a W78 Life Extension Phase 6.1 Concept 
Assessment Study. This study will carefully consider all options and 
will identify safety, security, and use control requirements as well as 
military priorities. As recommended in the NPR, this study will 
consider the possibility of using the resulting warhead on multiple 
platforms in order to reduce the number of warhead types in the nuclear 
weapons stockpile.

                            aging facilities
    4. Senator Bingaman. Mr. D'Agostino, do you support replacing the 
aging facilities for the NNSA service center at Kirtland Air Force Base 
that houses over 1,000 NNSA employees? If so, how?
    Mr. D'Agostino. Requirements for the NNSA service center and other 
DOE staff located in Albuquerque have been under consideration for 
several years. At present, NNSA is working to finalize requirements and 
assess options for best meeting them. These requirements encompass, for 
example, the number of potential occupants for the space, and any 
special capabilities or requirements needed for the space. Acquisition 
approaches may be considered, and these may include line item 
construction by NNSA, construction by GSA and lease by NNSA, or 
construction by a third party and lease by NNSA.
    For fiscal year 2011, you will note on page 34 of the fiscal year 
2011 budget request, Office of the Administrator--under the Other 
Related Expenses bullet, we highlight the increase for maintenance 
funding and additional local leased space to maintain the viability of 
the current NNSA service center complex.

    5. Senator Bingaman. Mr. D'Agostino, the budget for the 
nonproliferation verification research and development account is flat 
if not declining from fiscal year 2011 to fiscal year 2015. This is a 
critical program to develop new nuclear material sensors and satellites 
to detect detonations. Can you explain why this is?
    Mr. D'Agostino. The increase in funding from fiscal year 2010 to 
fiscal year 2011 supports and focuses this programmatic activity on key 
administration nonproliferation and arms control priorities. For 
example, a new capability will be created at the Nevada Test Site for 
testing and evaluation of new technologies that will ultimately support 
U.S. capabilities to monitor international treaties and cooperative 
agreements, such as the Nuclear Nonproliferation Treaty (NPT) and the 
Fissile Material Cutoff Treaty.
    Funding requirements for fiscal years 2012-2015 are being 
reevaluated as part of the fiscal years 2012-2016 budget process, which 
will consider the requirements for the new NTS capability. Any 
necessary revisions to the out-year budget requirements will be 
included in the fiscal year 2012 President's budget. Using the unique 
facilities and scientific skills of NNSA and the DOE national 
laboratories and plants, in partnership with industry and academia, the 
research and development program conducts research and development that 
supports nonproliferation mission requirements necessary to close 
technology gaps identified through close interaction with NNSA and 
other U.S. Government agencies and programs. This program meets unique 
challenges and plays an important role in the Federal Government by 
developing new technologies applicable to nonproliferation, homeland 
security, and national security needs.
    The research and development program's contribution is two-fold. 
First, it includes research, development, production, and delivery of 
space- and ground-based sensors to detect nuclear detonations. Second, 
the program leads the nonproliferation community's long-term research 
and development efforts in advancing next generation detection 
capabilities to detect foreign nuclear materials and weapons production 
facilities and processes.

    6. Senator Bingaman. Mr. D'Agostino, can you provide a total cost 
estimate for the construction of the three mixed oxide (MOX) facilities 
under the elimination of weapons grade plutonium program?
    Mr. D'Agostino. The Fissile Materials Disposition program is 
responsible for the construction of the facilities that will be used to 
dispose of surplus U.S. plutonium: (1) the MOX Fuel Fabrication 
Facility (MFFF); (2) the Waste Solidification Building (WSB); and (3) 
the Pit Disassembly and Conversion (PDC) Project. The MFFF and the WSB 
are baselined projects, with the MFFF scheduled to begin operations in 
October 2016 and the WSB scheduled to begin operations in September 
2013 to support MFFF cold start-up. The PDC Project is not yet 
baselined and the out-year funding associated with PDC should be 
regarded as a planning estimate that will be refined and validated when 
the Project Performance Baseline is approved (Critical Decision-2).
    Through fiscal year 2010, the total appropriated funding for all 
three construction projects is $3.5 billion. The approved MFFF total 
project cost (TPC) through fiscal year 2016 is $4.8 billion and the 
approved WSB TPC through fiscal year 2013 is $344 million. The funding 
profile in the table below corresponds to the funding profile given in 
the fiscal year 2011 request for the three projects.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                   Through                        Fiscal Year
                                                                    Fiscal  -------------------------------------------------------   Future     Total
                                                                  Year 2010     2011       2012       2013       2014       2015     Funding
--------------------------------------------------------------------------------------------------------------------------------------------------------
MOX OPC.........................................................    179,298     30,000     97,035    246,669    230,697     91,603      5,999    881,301
WSB OPC.........................................................     29,481     21,500     28,000     21,143                                     100,124
PDC OPC.........................................................    335,586    112,999     30,141     44,992     41,143     35,441        TBD        TBD
--------------------------------------------------------------------------------------------------------------------------------------------------------
  Total, OPC....................................................    544,365    164,499    155,176    312,804    271,840    127,044        TBD        TBD
========================================================================================================================================================
MOX TEC.........................................................  2,518,827    475,788    385,172    322,802    109,661    125,773     37,805  3,975,828
WSB TEC.........................................................    169,749     57,000     12,927      4,655                                     244,331
PDC TEC.........................................................    302,491     80,000    158,000    200,000    200,000    157,000        TBD        TBD
--------------------------------------------------------------------------------------------------------------------------------------------------------
  Total, TEC....................................................  2,991,067    612,788    556,099    527,457    309,661    282,773        TBD        TBD
========================================================================================================================================================
MOX TPC.........................................................  2,698,125    505,788    482,207    569,471    340,358    217,376     43,804  4,857,129
WSB TPC.........................................................    199,230     78,500     40,927     25,798                                     344,455
PDC TPC.........................................................    63,8077    192,999    188,141    244,992    241,143    192,441        TBD        TBD
--------------------------------------------------------------------------------------------------------------------------------------------------------
  Total, TPC....................................................  3,535,432    777,287    711,275    840,261    581,501    409,817        TBD       TBD
--------------------------------------------------------------------------------------------------------------------------------------------------------
OPC - Other Project Cost; TEC - Total Estimated Cost; TPC - Total Project Cost (OPC + TEC)
MOX and WSB funding profiles support their approved baselines; PDC are preliminary estimates in the out-years since the project is not baselined.

                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
               exercising the workforce with new designs
    7. Senator Sessions. Mr. D'Agostino, Secretary of Defense Gates 
told the Air Force Association on September 16, 2009, that larger 
investments in modernizing our nuclear infrastructure are necessary, 
including LEPs for our nuclear warheads, ``and in one or two cases 
probably new designs that will be safer and more reliable.'' New 
designs were deemed necessary by the Strategic Posture Commission not 
only to improve safety, security, and reliability of our warheads, but 
also to exercise the scientific workforce. Why are new designs 
important?
    Mr. D'Agostino. The laboratory directors and I agree that our 
nuclear arsenal can be maintained into the indefinite future through 
LEPs. To improve the safety, security, and reliability of our nuclear 
arsenal, the NNSA plans to upgrade limited life components (LLC) and 
materials, and incorporate more surety--safety, security, and use 
control--technology, whenever possible, through LEPs. LLC reaching 
their end-of-life will be upgraded with, hopefully, LLC that have 
longer expected lifetimes to reduce the number of times someone needs 
to touch a weapon. Certain materials will be upgraded with more 
attainable materials. The full range of LEP approaches will be 
considered on a weapon-by-weapon basis. The NPR states, ``In any 
decision to proceed to engineering development for warhead LEPs, the 
United States will give strong preference to options for refurbishment 
or reuse. Replacement of nuclear components would be undertaken only if 
critical Stockpile Management Program goals could not be otherwise met, 
and if specifically authorized by the President and [funding is] 
approved by Congress.'' In addition, active LEPs, such as the B61 LEP, 
further exercise the full spectrum of development work, from advanced 
and exploratory concepts through product realization, and develop the 
critical intuition, judgment, and confidence present only in 
experienced scientists and engineers who have applied their skills to 
real nuclear weapons design and development work. This work is 
essential to attracting and retaining the scientists and engineers 
necessary to sustain the Nation's nuclear deterrent.

    8. Senator Sessions. Mr. D'Agostino, do new designs imply new 
military capabilities or new warheads which must be tested?
    Mr. D'Agostino. No. As stated in the NPR, LEPs will use only 
nuclear components based on previously tested designs, and will not 
support new military missions or provide for new military capabilities.

    9. Senator Sessions. Mr. D'Agostino, is the replacement approach 
necessary for new designs, or can this be done through reuse?
    Mr. D'Agostino. The NPR directs that the full range of approaches 
be considered when studying weapon system life extension options. 
First, while we may develop a modification or alteration for an 
existing weapon, there will be no new nuclear component designs. If we 
retain a weapon's nuclear component designs, we consider that 
refurbishment. If we replace a weapon's current nuclear components with 
those originally designed for a different weapon system, we consider 
that reuse. If we replace a weapon's current nuclear components with 
nuclear components based on tested, but never fielded, designs, we 
consider that replacement. The full range of options will be considered 
during weapon LEPs. The intent of all life extension options is to 
maintain the current military characteristics while making the weapon 
safer, more secure, and more reliable.

                  risks of an aging nuclear stockpile
    10. Senator Sessions. Mr. D'Agostino, in June 2009, in response to 
a question for the record, you told this committee that: ``We incur 
more risk each year as the stockpile ages, crucial skills erode, and 
historic underground test data becomes less relevant. The recent Perry-
Schlesinger Report indicates that in order to keep a vital skills base 
we will need to evolve the legacy stockpile by demonstrating the 
capability to field modern warheads that have no new military 
capabilities. We have not fielded a modern warhead in 2 decades, and 
critical skills are deteriorating.'' Are you still of the view that we 
incur more risk each year as the stockpile ages?
    Mr. D'Agostino. The NPR and the President's budget for fiscal year 
2011, which was formulated to begin executing against the NPR policy 
direction, address the concern to which I spoke last year. The NNSA 
Science, Technology, and Engineering (ST&E) capabilities must be strong 
to sustain the Nation's nuclear deterrent. As the stockpile decreases 
in size, the role of ST&E in deterrence increases in importance. Our 
capabilities enable us to annually assess the stockpile, to resolve 
significant finding investigations (discovered departures from design 
and/or manufacturing specifications), to extend nuclear weapon 
lifetimes, to assess other nations' nuclear capabilities, and to 
dismantle retired weapons. The renewed sense of urgency created by this 
administration, combined with the very challenging technical program, 
create an environment that attracts highly-trained and motivated 
personnel. The rejuvenation of our scientists and engineers can be 
achieved through vigorous engagement of ST&E capabilities with 
sustainable programs, including LEPs, and an increased level of 
investment. The NNSA path forward will serve to attract, maintain, and 
manage the necessary Federal and contractor workforce to sustain 
nuclear deterrence, as well as other nuclear and energy security 
missions. This path sustains capabilities that also contribute to 
broader energy and security concerns and supporting U.S. leadership in 
ST&E.

    11. Senator Sessions. Mr. D'Agostino, how does the administration 
ameliorate this situation in its fiscal year 2011 budget request?
    Mr. D'Agostino. The Defense Programs fiscal year 2011 budget 
request increased investments in the nuclear infrastructure and a 
highly skilled workforce to ensure the long-term safety, security, and 
effectiveness of our nuclear arsenal. Specifically, the request 
includes an additional investment of $320 million for stockpile 
activities such as LEPs, advanced certification and plutonium 
sustainment, and $241 million for construction activities for the 
Chemistry and Metallurgy Research Replacement Facility, the Uranium 
Processing Facility, and High Explosive Pressing Facility. These 
amounts are in addition to funding that is traditionally considered to 
be within the base program. These additional funds will support skilled 
scientific, technical, and engineering workers who will work on the 
various stockpile and construction programs and who will enable Defense 
Programs to accomplish its mission and meet its deliverables to DOD.

    12. Senator Sessions. Mr. D'Agostino, will the administration 
evolve the legacy stockpile by demonstrating the capability to field 
modern warheads that have no new military capabilities?
    Mr. D'Agostino. Yes, the United States will sustain a safe, secure, 
and effective nuclear stockpile through LEPs, a process that will 
provide no new military characteristics and will not require 
underground nuclear testing. The administration is fully committed to 
funding this stockpile sustainment effort. NNSA and their laboratories 
work with DOD to develop a preferred life extension approach which is 
then presented to the Nuclear Weapons Council. A full range of 
technical approaches will be considered for each warhead undergoing 
life extension, including incorporating safety and security 
enhancements.

    [Whereupon, at 3:58 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                       WEDNESDAY, APRIL 21, 2010

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

    ENVIRONMENTAL MANAGEMENT FUNDING AND FUNDING UNDER THE AMERICAN 
                     RECOVERY AND REINVESTMENT ACT

    The subcommittee met, pursuant to notice, at 2:42 p.m. in 
room SR-222, Russell Senate Office Building, Senator E. 
Benjamin Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators E. Benjamin Nelson and 
Bingaman.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff member present: Daniel A. Lerner, 
professional staff member.
    Staff assistants present: Kevin A. Cronin and Breon N. 
Wells.
    Committee members' assistants present: Ann Premer, 
assistant to Senator Ben Nelson; Jonathan Epstein, assistant to 
Senator Bingaman; and Lenwood Landrum, assistant to Senator 
Sessions.

   OPENING STATEMENT OF SENATOR E. BENJAMIN NELSON, CHAIRMAN

    Senator Ben Nelson. This subcommittee hearing will come to 
order. I apologize for the delay. Votes seem to get in the way 
of the rest of our work. But we're starting nevertheless.
    I'm sorry my ranking member, Senator Vitter, is not going 
to be able to join us today. So I will fly solo here.
    Good afternoon, Dr. Triay, and welcome. We're pleased to 
have you here. This afternoon the Subcommittee on Strategic 
Forces meets to discuss the Department of Energy's (DOE) 
Environmental Management (EM) program budget request for fiscal 
year 2011 and the progress that has been made in implementing 
the $6 billion received under the American Recovery and 
Reinvestment Act.
    With us we have Dr. Inez Triay, the Assistant Secretary of 
Energy for Environmental Management.
    Cleaning up the vast quantities of radioactive and 
hazardous waste and contamination which are the result of the 
Cold War nuclear weapons and materials production programs is 
an expensive and daunting task. This cleanup effort has been 
ongoing for 20 years and will most probably require another 40 
years to complete, ironically about the same length as the Cold 
War itself. This effort is hugely expensive and technically 
challenging, with over $110 billion spent to date and 
approximately another $250 billion or so left to go.
    With President Obama's decision in the Nuclear Posture 
Review (NPR) to modernize the nuclear weapons complex, more 
facilities will fall to the Office of Environmental Management 
to clean up and tear down.
    Dr. Triay, you have a difficult job with many complex 
challenges facing you, not the least of which is the 
management, treatment, and disposition of the highly 
radioactive waste in the tanks at the DOE's Hanford, Savannah 
River, and Idaho facilities. Construction of the waste 
treatment plant at Hanford to deal with the 55 million gallons 
of waste stored at that site continues to be difficult as there 
are many unresolved technical and safety issues associated with 
the construction of the facility.
    The additional funds in the budget request dedicated to 
accelerating the design of the plant are certainly needed. But 
this committee wants to ensure that the technical and 
operational safety issues are resolved so that additional 
redesign is not needed again at some time in the future. This 
plan has been plagued by repeated changes in requirements and 
design, which has resulted in high concurrency in design and 
construction, all of which is factored into the increased cost 
of the project over the years.
    I recognize that the problems with this facility long 
predate your tenure as Assistant Secretary, Dr. Triay. But as 
you know all too well, you get to fix them. Last year, shortly 
after your confirmation this subcommittee held a hearing on 
your plans to implement the $6 billion in Recovery Act funding. 
According to the DOE Inspector General, implementation of this 
effort is now behind schedule.
    On the other hand, it's more important that these funds be 
spent wisely rather than quickly to really accelerate the 
cleanup efforts and to reduce overall program costs. If these 
funds help to substantially reduce the projected $250 billion 
or more necessary in future cleanup costs, then this money is 
being well spent.
    We look forward to your report on the projects and the 
progress of this effort as well. Obviously, there's a lot to 
discuss, so I want to keep my opening remarks short.
    Dr. Triay, your prepared statement will be included in the 
record and you may begin.

   STATEMENT OF HON. INES R. TRIAY, ASSISTANT SECRETARY FOR 
         ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF ENERGY

    Dr. Triay. Thank you very much, Chairman Nelson. Good 
afternoon to you and the members of the subcommittee, Senator 
Bingaman. I am pleased to be here today and to address your 
questions regarding the Office of EM's fiscal year 2011 budget 
request.
    EM's mission is to complete the legacy environmental 
cleanup left by the Cold War in a safe, secure, and compliant 
manner. I am very pleased that we are able to present to 
Congress a budget that positions the program to be fully 
compliant with our regulatory commitments and supports reducing 
the risks associated with one of our highest environmental risk 
activities, tank waste, as well as achieve footprint reduction 
across the legacy cleanup complex. My goal remains to complete 
quality cleanup work safely, on schedule, and within cost, in 
order to deliver demonstrated value to the American taxpayer.
    EM cleanup objectives will continue to be advanced in 
fiscal year 2011 by the infusion of $6 billion from the 
American Recovery and Reinvestment Act of 2009. Through April 
2010, the Office of Environmental Management has obligated $5.6 
billion and spent $1.7 billion respectively leading to 
thousands of jobs created and/or saved at our sites.
    In fiscal year 2011, EM will continue to draw on the $6 
billion of Recovery Act funds to advance key cleanup goals. 
Recovery Act funds allow EM to meet all of our regulatory 
compliance requirements in fiscal year 2011. This funding has 
also allowed EM to leverage base program dollars, enabling the 
reduction of our operating footprint from 900 square miles to 
approximately 540 square miles by the end of fiscal year 2011. 
This is a 40 percent reduction which will position the program 
to advance forward the ultimate goal of a 90 percent reduction 
by the end of fiscal year 2015.
    We are also able to accelerate the legacy cleanup at 
Brookhaven National Laboratory and the Separations Process 
Research Unit in New York, and the Stanford Linear Accelerator 
Center in California into fiscal year 2011 with Recovery Act 
funding.
    This budget request strikes a balance between maintaining 
support for EM's core commitments and programs, while 
strengthening investments in activities needed to ensure the 
long-term success of our cleanup mission. This budget request 
significantly increases EM's investments in science and 
technology areas that are critical to our long-term success.
    Specifically, this request targets $60 million in funding 
to Hanford's Office of River Protection to use in developing 
and deploying new technologies for treating tank waste. This 
funding is needed to address near-term technical risks that 
have been identified, but is also needed to leverage and bring 
forward new technologies that could help us mitigate the life 
cycle cleanup of these wastes.
    EM will also continue to strengthen and deploy groundwater 
and decontamination and decommissioning cleanup technologies. 
Specifically, we will continue the development of an integrated 
high-performance computer modeling capability for waste 
degradation and contaminant release. This state-of-the-art 
scientific tool will enable robust and standardized assessments 
of performance and risk for cleanup and closure activities. 
This tool will also help us better estimate cleanup time and 
cost and reduce uncertainties.
    The request also provides an additional $50 million to 
accelerate the Waste Treatment and Immobilization Plant at 
Hanford, boosting the budget for the plant to $740 million in 
fiscal year 2011. The additional funding will be used to 
accelerate completion of the design for the Waste Treatment and 
Immobilization Plant. Prior to design completion, it is 
critical that technical issues are addressed and incorporated 
in a timely manner. Our intent is to mitigate these risks early 
and get the design matured to 90 or 100 percent.
    The fiscal year 2011 request makes a significant investment 
in the decontamination and the decommissioning of the 
Portsmouth Gaseous Diffusion Plant located in Ohio. This 
investment enables EM to accelerate the cleanup of the 
Portsmouth site by 15 to 20 years, leading to a significant 
reduction in the duration and cost of the cleanup.
    Now that I have given an overview of our fiscal year budget 
request, I would like to take a few moments to discuss some of 
the areas I will be focusing on as the program moves forward. 
EM continues to adhere to a Safety First culture that 
integrates environment, safety, and health requirements and 
controls into all work activities. Our first priority continues 
to be the health and safety of our employees and the 
communities surrounding our cleanup sites. It is my duty to 
ensure that our workers go home as healthy as they came to 
work.
    Under my leadership, the program has embarked upon a 
Journey to Excellence. We have developed a new business model 
which provides a solid management base for EM to become an 
excellent high-performing organization. This implementation is 
key to performing our cleanup mission effectively and 
efficiently. A key component in this process is the alignment 
and understanding of headquarters and field operational roles 
and responsibilities. Toward that end, our management's 
attention will continue to focus on improving project 
performance, aligning project and contract management, 
streamlining the acquisition process, and continuing our very 
strong performance in awarding cleanup work to small 
businesses.
    We will continue to conduct construction project reviews. 
These reviews examine all aspects of a construction project, 
including project management, technology, and engineering. 
These reviews assess the progress of each of our major projects 
and determine their overall health and ability to meet cost and 
schedule goals. These reviews are scheduled approximately every 
6 to 9 months and are conducted to provide EM leadership the 
ability to proactively reduce project risk so that issues and 
solutions can be identified early, rather than react once 
problems are realized.
    With these improvements, we are confident that the EM 
program can succeed in its mission. Chairman Nelson and members 
of the subcommittee, I look forward to addressing your 
questions.
    [The prepared statement of Dr. Triay follows:]
                  Prepared Statement by Dr. Ines Triay
    Good afternoon, Chairman Nelson, Ranking Member Vitter, and members 
of the subcommittee. I am pleased to be here today to answer your 
questions on the President's fiscal year 2011 budget request for the 
Department of Energy's (DOE) Office of Environmental Management (EM).
                             program status
    In fiscal year 2011, EM will continue to build on over 20 years of 
cleanup progress and will focus on investments to sustain risk 
reduction and strengthen technology. EM has made substantial progress 
in nearly every area of nuclear waste cleanup, including stabilizing 
and consolidating high-risk material such as tank waste and surplus 
special nuclear material (SNM). Progress also includes the near 
completion of transferring spent nuclear fuel (SNF) from wet to dry 
storage and disposing of large quantities of transuranic (TRU) waste, 
low-level waste (LLW), and mixed low-level waste (MLLW). Much work 
remains but demonstrable progress has been made.
    EM will continue to seek ways to maximize reduction of 
environmental, safety, and health risks in a safe, secure, compliant, 
and cost-effective manner. The current EM life-cycle cost (LCC) 
estimate range, which covers the period of 1997 through completion, is 
$275 to $329 billion. This includes $82 billion in actual costs from 
1997 through 2009, and an additional estimate of $193 to $247 billion 
to complete EM's remaining mission.
    EM is analyzing its project plans to further optimize the program. 
This strategic planning effort will concentrate on the technical, 
programmatic, and performance challenges facing the cleanup projects. 
It is focused on footprint reduction and near-term completions to 
reduce monitoring and maintenance costs and on alternative approaches 
to disposition tank waste and surplus SNM and SNF.
    EM cleanup objectives will continue to be advanced in fiscal year 
2011 by the infusion of $6 billion from the American Recovery and 
Reinvestment Act of 2009 (Recovery Act). Through April 2010, EM has 
obligated $5.6 billion and spent $1.7 billion, respectively leading to 
thousands of jobs created and/or saved at the EM sites. The Recovery 
Act funding is being used to further drive the EM footprint reduction 
of 40 percent by September 2011, removal of 2 million tons of mill 
tailings at the Moab site, accelerate by 7 years the disposition of 
legacy TRU waste inventories at 11 sites, and build out the 
infrastructure needed to support high-level waste processing 
operations. EM will use Recovery Act funding to accelerate legacy 
cleanup completion at three small sites: the Brookhaven National 
Laboratory and Separations Process Research Unit in New York; and the 
Stanford Linear Accelerator Center in California. EM will continue to 
build on its success in utilizing small businesses to advance its 
cleanup objectives. In fiscal year 2009, EM obligated $697 million of 
Recovery Act funding and $1.6 billion of base program funding for a 
total of $2.3 billion awarded to small businesses.
                           program strategies
    EM continues to adhere to a ``Safety First'' culture that 
integrates environment, safety, and health requirements and controls 
into all work activities. EM's goal is to keep our employees, the 
public, our stakeholders, and the States where cleanup sites are 
located safe from radioactive and hazardous materials contamination. EM 
plans to continue improving safety performance by further integrating 
safety into all work activities and by incorporating requirements and 
controls into every project, with the goal of achieving zero accidents 
or incidents.
    EM's vision is to complete quality work safely, on schedule, and 
within cost in order to deliver demonstrated value to the American 
taxpayer. EM is introducing a new Business Model/Approach to achieve 
this vision. In addition to the safety performance goal, mentioned 
above, EM's new approach includes improving Project Management through 
restructuring the project portfolio, adapting the Office of Science 
construction project review model to EM projects, establishing 
performance metrics for EM operating projects, aligning project and 
contract management, and streamlining the acquisition process. EM is 
aligning Headquarters and Field Operations in order to streamline 
decisionmaking and improve efficiency. We plan to utilize science and 
technology to optimize the efficiency of tank waste, surplus SNM, SNF, 
and groundwater treatment and disposition. Through these changes, EM 
plans to achieve excellence in management and leadership with the 
objective of making EM the employer of choice in the Federal 
Government.
    EM will continue to conduct construction project reviews. These 
reviews examine all aspects of a construction project, including 
project management, technology, design, engineering, safety, 
environment, security, and quality assurance. The process relies on 
expert knowledge and experience of world-class engineers, scientists, 
and managers sourced from Federal staff, DOE contractors, engineering 
firms, national laboratories, and the academic community. These reviews 
assess the progress of each of its major projects and determine their 
overall health and ability to meet cost and schedule goals. Scheduled 
approximately every 6 to 9 months, these reviews are intended to reduce 
the risk of project failure by identifying existing and potential 
concerns in a timely manner. In fiscal year 2009, all five major 
construction projects were reviewed with the findings ranging from 
technical to financial. In fiscal year 2010, EM plans to conduct up to 
10 reviews of its major projects and other capital asset projects, as 
needed, to follow up on previous findings and continue to assess the 
ability of the project to meet its scope, schedule, and cost 
objectives. As such, these reviews will provide EM leadership an 
``early warning'' of possible problems so that corrections can be made.
                 highlights of fiscal year 2011 request
    EM's overarching goal is to complete the cleanup of the legacy of 
the Cold War in a safe, secure, and compliant manner, on schedule and 
within budget. EM will continue to pursue its cleanup objectives and 
regulatory commitments, overlaying risk reduction and best business 
practices. In fiscal year 2011, EM is well positioned to meet its 
regulatory compliance milestones.
    In fiscal year 2011, EM intends to reduce its operation footprint 
from 900 square miles to approximately 540 square miles, a 40 percent 
reduction, with the goal of achieving a 90 percent reduction by 2015. 
In fiscal year 2011, EM will also complete the legacy cleanup at 
Brookhaven National Laboratory and the Separations Process Research 
Unit in New York, and at the General Electric Vallecitos Nuclear Center 
and Stanford Linear Accelerator Center in California.
    EM's cleanup priorities have not changed and we remain committed 
to:

        <bullet> Activities to maintain safe, secure, and compliant 
        operations within the EM complex
        <bullet> Radioactive tank waste stabilization, treatment, and 
        disposal
        <bullet> SNF storage, receipt, and disposition
        <bullet> SNM consolidation, processing, and disposition
        <bullet> High priority groundwater remediation
        <bullet> TRU waste and MLLW/LLW disposition
        <bullet> Soil and groundwater remediation
        <bullet> Excess facilities decontamination and decommissioning 
        (D&D)

    EM's fiscal year 2011 budget request funds radioactive liquid tank 
waste activities that are a large part of the cleanup challenge EM 
faces at its Hanford, Savannah River, and Idaho sites allowing the 
program to progress on its tank waste retrieval commitments and fund 
construction on tank waste treatment facilities. The request also 
targets $60 million in funding for Hanford's Office of River Protection 
to invest in developing technology that can be inserted into the 
project's schedule that can yield significant cost savings and reduce 
the period of execution. Specifically, this funding will be utilized to 
solve near-term technical risks that have been identified and used to 
leverage and bring forth new technologies by focusing on such critical 
areas as: waste chemistry issues associated with characterization and 
separation; and advanced retrieval technologies. EM will continue to 
coordinate with the DOE Office of Science, national laboratories, and 
other Federal and private organizations to address technology gaps in 
tank waste processing technologies.
    The request also provides an additional $50 million to accelerate 
completion of the design of the Waste Treatment and Immobilization 
Plant (WTP) at Hanford--boosting the budget for the plant in fiscal 
year 2011 to $740 million. This funding will enable the acceleration of 
design and focus on mitigating project risks early and getting the 
design matured to 90 or 100 percent as quickly as possible.
    EM will also continue to strengthen and deploy groundwater and D&D 
cleanup technologies as they are vital to the long-term success of our 
mission. Specifically, EM will continue the development of an 
integrated, high-performance computer modeling capability for waste 
degradation and contaminant release. This state-of-the-art scientific 
tool will enable robust and standardized assessments of performance and 
risk for EM cleanup and closure activities. This tool will also help EM 
better estimate cleanup time and costs, and reduce uncertainties and 
risks associated with subsurface contaminant behavior and transport 
processes.
                    fiscal year 2011 budget request
    The Department's fiscal year 2011 budget request for EM is $6.05 
billion, of which $5.59 billion is for defense environmental cleanup 
activities. Examples of planned activities and milestones for fiscal 
year 2011 by site-specific categories are:

                                                      IDAHO
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                   Fiscal Year 2009    Fiscal Year 2010    Fiscal Year 2010    Fiscal Year 2011
 Fiscal Year 2009  Appropriation     Recovery Act           Request          Appropriation          Request
----------------------------------------------------------------------------------------------------------------
$489,239........................  $467,875..........  $411,168..........  $469,168..........  $412,000
----------------------------------------------------------------------------------------------------------------


        <bullet> Complete construction and readiness testing in 
        preparation for startup of operations of the Sodium Bearing 
        WasteFacility.

    The Sodium Bearing Waste Treatment Project supports DOE's EM 
mission of safely storing and treating liquid radioactive wastes. This 
project will treat approximately 900,000 gallons of sodium bearing 
waste stored in tanks that are 35 to 45 years old. The treatment of 
this waste will enable EM to meet the Notice of Noncompliance-Consent 
Order Modification to cease use of the Tank Farm Facility by December 
31, 2012. In fiscal year 2011, the Sodium Bearing Waste facility 
construction and readiness testing will be complete.

        <bullet> Ship CH-TRU waste to the Waste Isolation Pilot Plant 
        (WIPP), and dispose of MLLW and LLW, as required in the 
        1995Idaho Settlement Agreement.

    During fiscal year 2011, 5,700 cubic meters of CH-TRU waste will be 
shipped to WIPP for disposal. In addition, 2,050 cubic meters of MLLW/
LLW will be shipped for disposal by September 2011.

                                         LOS ALAMOS NATIONAL LABORATORY
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                   Fiscal Year 2009    Fiscal Year 2010    Fiscal Year 2010    Fiscal Year 2011
 Fiscal Year 2009  Appropriation     Recovery Act           Request          Appropriation          Request
----------------------------------------------------------------------------------------------------------------
$226,082........................  $211,775..........  $191,938..........  $199,438..........  $200,000
----------------------------------------------------------------------------------------------------------------


        <bullet> Continue characterization and certification of TRU 
        waste for shipment to WIPP.

    The Solid Waste Stabilization and Disposition Project is comprised 
of the treatment, storage, and disposal of legacy TRU waste and MLLW 
generated between 1970 and 1999 at Los Alamos National Laboratory 
(LANL). The end-state of this project is the safe disposal of legacy 
waste at LANL. In fiscal year 2011, LANL plans to package 2,000 drum 
equivalents of TRU waste for disposition, support of up to 3 shipments 
a week to WIPP, and disposition up to 300 cubic meters of LLW.

        <bullet> Maintain soil and water remediation.

    The LANL Soil and Water Remediation Project scope includes 
identification, investigation, and remediation of chemical and/or 
radiological contamination attributable to past Laboratory operations 
and practices. The remaining scope of the project includes 
characterization, monitoring, and protection of the surface and ground 
water at the Laboratory and approximately 860 Potential Release Sites 
left to be investigated, remediated or closed by evaluation and 
assessment of human health and ecological risks. In fiscal year 2011, 
activities include completion of characterization activities for Upper 
Canada del Buey, Two Mile, and Canyon de Valle Aggregate Areas.

                                                    OAK RIDGE
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                   Fiscal Year 2009    Fiscal Year 2010    Fiscal Year 2010    Fiscal Year 2011
 Fiscal Year 2009  Appropriation     Recovery Act           Request          Appropriation          Request
----------------------------------------------------------------------------------------------------------------
$498,688........................  $755,110..........  $411,168..........  $436,168..........  $450,000
----------------------------------------------------------------------------------------------------------------


        <bullet> Continue design for construction of annex and Building 
        3019 modifications for the Uranium-233 (U-233) down-blending 
        process.

    The Oak Ridge National Laboratory maintains the Department's 
inventory of U-233 which is currently stored in Building 3019. The 
fiscal year 2011 funding request will support the completion of 90 
percent design for construction of annex and building 3019 
modifications in preparation for future disposal. Benefits include 
reducing safeguards and security requirements and eliminating long-term 
worker safety and criticality concerns.

                                                    RICHLAND
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                   Fiscal Year 2009    Fiscal Year 2010    Fiscal Year 2010    Fiscal Year 2011
 Fiscal Year 2009  Appropriation     Recovery Act           Request          Appropriation          Request
----------------------------------------------------------------------------------------------------------------
$1,057,496......................  $1,634,500........  $993,503..........  $1,080,503........  $1,041,822
----------------------------------------------------------------------------------------------------------------


        <bullet> Continue remediation and facility D&D within the River 
        Corridor.

    In fiscal year 2011, cleanup activities in the River Corridor 
include: complete excavation of 3 of 5 100-H burial grounds; complete 
22 interim remedial actions at the 100 B/C Area; complete disposition 
of 8 facilities; and initiate interim safe storage of the 105-KE 
Reactor and D4 100K Area facilities. These efforts will assist in 
reducing the Richland site footprint by up to 40 percent in 2011.

        <bullet> Maintain base operations to treat and dispose of LLW, 
        MLLW, and TRU waste, as well as, ship CH-TRU waste to WIPP for 
        disposal.

    In fiscal year 2011, activities include: provide core management 
and base operations to store, treat, and disposition LLW, MLLW, and TRU 
waste at the Central Waste Complex and manage off-site commercial MLLW 
waste treatment/disposal contracts; provide base operations of disposal 
trenches for Hanford's MLLW; provide the base operations necessary to 
store and treat MLLW and TRU waste at the T Plant Complex; and to ship 
up to 1,825 cubic meters of CH-TRU waste.

                                                RIVER PROTECTION
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                   Fiscal Year 2009    Fiscal Year 2010    Fiscal Year 2010    Fiscal Year 2011
 Fiscal Year 2009  Appropriation     Recovery Act           Request          Appropriation          Request
----------------------------------------------------------------------------------------------------------------
$1,009,043......................  $326,035..........  $1,098,000........  $1,098,000........  $1,158,178
----------------------------------------------------------------------------------------------------------------


        <bullet> Manage the tank farms in a safe and compliant manner 
        until closure.
    The radioactive waste stored in the Hanford tanks was produced as 
part of the Nation's defense program. In order to protect the Columbia 
River, the waste must be removed and processed to a form suitable for 
disposal and the tanks stabilized. To accomplish these goals, in fiscal 
year 2011, activities include: complete two 242-A Evaporator Campaigns 
for space management; complete retrieval of two C-Farm Single-Shell 
Tanks; complete removal of six hose-in-hose transfer lines; initiate C-
200 Closure Demonstration Project; and continue to perform single-shell 
tank integrity evaluations.

        <bullet> Continue construction of the WTP complex.

    WTP is critical to the completion of the Hanford tank waste program 
by providing the primary treatment capability to immobilize (vitrify) 
the radioactive tank waste at the Hanford Site. The WTP complex 
includes five major facilities: Pretreatment Facility, High-Level Waste 
Facility, Low-Activity Waste Facility, Analytical Laboratory, and the 
Balance of Facilities. In fiscal year 2011, activities include: 
complete vessel upgrades for three spent resin collection and 
dewatering vessels to incorporate revised seismic assessment criteria 
at the Pretreatment Facility; complete civil engineering design (Title 
II) and Architectural design at the High-Level Waste Facility; complete 
80 percent of bulk process piping installation and 65 percent of bulk 
conduit installation at the Low-Activity Waste Facility; complete 90 
percent of bulk piping installation at the Analytical Laboratory; and 
accept delivery of the Anhydrous Ammonia System at the Balance of 
Facilities.

                                               SAVANNAH RIVER SITE
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                   Fiscal Year 2009    Fiscal Year 2010    Fiscal Year 2010    Fiscal Year 2011
 Fiscal Year 2009  Appropriation     Recovery Act           Request          Appropriation          Request
----------------------------------------------------------------------------------------------------------------
$1,361,479......................  $1,615,400........  $1,342,013........  $1,342,013........  $1,349,863
----------------------------------------------------------------------------------------------------------------


        <bullet> Continue consolidation and disposition of SNM.

    The receipt, storage, and disposition of materials at SRS allows 
for de-inventory and shutdown of facilities at other DOE complex sites, 
providing substantial risk reduction and significant mortgage reduction 
savings to the Department. In fiscal year 2011, activities include: SRS 
continue to receive weapons grade surplus non-pit plutonium from LANL 
and Lawrence Livermore National Laboratory; develop a program to reduce 
the risk to personnel and the environment by reducing the residual 
plutonium-238 contamination in the F Area Materials Storage Facility 
(235-F); continue processing nuclear materials as well as purchase of 
cold chemicals and other materials for operations of H Canyon and HB 
Line; support L to H shipments to H Canyon; and perform H Canyon/HB 
Line infrastructure upgrades.

        <bullet> Reduce radioactive liquid waste.

    The mission of the tank waste program at SRS is to safely and 
efficiently treat, stabilize, and dispose of approximately 37 million 
gallons of legacy radioactive waste currently stored in 49 underground 
storage tanks. In fiscal year 2011, activities include: continue 
operation of interim salt processing facilities; support H Canyon 
receipts of newly generated waste; continue operation of the Defense 
Waste Processing Facility and complete 297 canisters of glass waste; 
continue construction of the Salt Waste Processing Facility; continue 
saltstone production and disposal operations as well as vault 
construction; and support Tank 48 Return to Service Project.

                                           WASTE ISOLATION PILOT PLANT
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                   Fiscal Year 2009    Fiscal Year 2010    Fiscal Year 2010    Fiscal Year 2011
 Fiscal Year 2009  Appropriation     Recovery Act           Request          Appropriation          Request
----------------------------------------------------------------------------------------------------------------
$236,785........................  $172,375..........  $224,981..........  $234,981..........  $225,000
----------------------------------------------------------------------------------------------------------------


        <bullet> Operate WIPP in a safe and compliant manner and 
        dispose of CH and remote-handled (RH) TRU waste from 27 DOE 
        sites.

    WIPP in Carlsbad, NM, is the Nation's only mined geologic 
repository for the permanent disposal of defense-generated TRU waste. 
In fiscal year 2011, the budget request supports maintaining an average 
shipping capability of 21 CH and 5 RH-TRU waste shipments per week. In 
addition WIPP will increase characterization efforts at TRU waste 
generator sites to increase inventory of shippable waste and increase 
WIPP's efficiency.
                               conclusion
    Chairman Nelson, Ranking Member Vitter, and members of the 
subcommittee, I am honored to be here today representing the Office of 
Environmental Management. My program continues to pursue its cleanup 
objectives within the overall framework of achieving the greatest risk 
reduction benefit per radioactive content and overlaying regulatory 
compliance commitments and best business practices to maximize cleanup 
progress. We do that by continuing to address our highest priority 
cleanup activities in fiscal year 2011 while using Recovery Act funding 
to continue making progress on the twin goals of life-cycle cost 
management and footprint reduction. We are also integrating other 
equally important strategies into the cleanup activities so that we may 
complete quality work safely, on schedule and within cost thereby 
delivering demonstrated value to the American taxpayer.
    I am pleased to answer any questions you may have.

    Senator Ben Nelson. Thank you.
    I apologize for overlooking my colleague Senator Bingaman 
and giving him an opportunity to make an opening statement.
    Senator Bingaman. I was just here to ask questions, Mr. 
Chairman.
    Senator Ben Nelson. As a matter of seeking forgiveness, let 
me ask you to start with the questions.
    Senator Bingaman. Thank you. I'm glad to be here and I 
welcome Dr. Inez Triay. She's someone we claim in New Mexico. 
She got started at Los Alamos National Laboratory (LANL) as a 
scientist and then worked as field director for DOE down at 
Carlsbad at the Waste Isolation Pilot Plant (WIPP) there. So 
she has a lot of friends and strong admirers in New Mexico.
    Let me just ask a few questions, first about Los Alamos and 
then about the WIPP project, if I could. We have this consent 
order that's resulted from litigation with the State of New 
Mexico there in Los Alamos with regard to environmental 
cleanup. What is the annual budget that's needed in your view 
to meet the milestones that are set out in that consent order? 
Is what we have in this budget adequate to do that? Do we need 
to add additional money? What's your thought on that?
    Dr. Triay. The LANL cleanup program obtained about $211 
million of Recovery Act funds, and in addition the President 
has requested about $200 million for 2011. We are poised to 
meet all of our compliance milestones in 2011, and in addition 
Secretary Chu has called for a 45-day review, Senator Bingaman, 
of how we are delivering the cleanup work at Los Alamos. The 
National Nuclear Security Administration (NNSA) Act mandates 
that we essentially have no one from DOE directing NNSA 
officials or contractors. So we believe that there are 
opportunities for becoming more efficient and more effective 
when we do this 45-day review.
    We intend to brief you, your office, thoroughly on this. We 
know that you're extremely interested in finding those 
efficiencies and at the same time making sure that we have all 
the resources that are needed at Los Alamos in order to meet 
those compliance milestones. So we will be looking forward to 
that interaction in about 45 days from now.
    Senator Bingaman. On this issue of NNSA's authority and 
your efforts to accomplish the requirements that you have for 
EM there, would it make more sense to have a separate EM 
contract for the cleanup work at Los Alamos, instead of having 
to go through the NNSA to try to get them to get this done?
    Dr. Triay. In this 45-day review that Secretary Chu has 
called for, one of the things that is going to be looked at is 
exactly that type of question. So we are going to be looking at 
all options when it comes to how to effectively streamline the 
operation.
    I offer, however, that for the Recovery Act we are 
performing cleanup with the construct that we have now, with 
the NNSA contractor in charge of the cleanup, and we have been 
able to within the Recovery Act construct be very efficient 
when it comes to the cleanup of Technical Area-21, the old 
plutonium facility at Los Alamos that is right there at the 
center of the main town of Los Alamos.
    So we are going to take those lessons learned. We are going 
to take the lessons that we have learned over the many years 
that we have been working between NNSA and EM as fully 
partnered and we are going to come up with recommendations to 
the Secretary that are shared between EM and NNSA and fully 
brief you on the deliberations, as well as the recommendations.
    Senator Bingaman. There has been a lot of interest and 
concern there in northern New Mexico about this issue of 
possible contamination of water. I gather your office has been 
working with the Buckman Diversion that the City of Santa Fe is 
part of to put proper monitoring in place on that issue. Could 
you describe that briefly?
    Dr. Triay. Yes. The NNSA is crafting a memo of agreement 
and the EM Office is fully participating. We believe that the 
early detection of contaminants is essential with respect to 
this particular diversion project. We are very committed to 
working hand in glove with NNSA and with the State of New 
Mexico. We understand the huge importance of this effort and we 
believe that early detection is the way to press forward. So 
we're very committed to finishing that memo of agreement and 
moving forward with the funding necessary for that early 
detection.
    Senator Bingaman. I had a few questions on the WIPP 
project. Should I do those now as well?
    Senator Ben Nelson. Sure.
    Senator Bingaman. My understanding is that the WIPP 
operations in fiscal year 2011 have asked for an additional $7 
million to maintain current disposal operations. That's a 
figure I was given. Do you have any estimates as to what is 
required in order to maintain current operations there? I know 
they're proceeding with the disposal of waste at WIPP at a 
faster rate than was originally thought or planned for. I'd 
just be interested in any thoughts you have as to whether 
they're able to maintain that rate under the budget you've 
proposed?
    Dr. Triay. The WIPP project obtained Recovery Act funds, I 
believe $172 million, in addition to the President's request 
for fiscal year 2011. I think that, with respect to the 
throughput of waste, we are going to be able to meet all of the 
needs of the complex and be able to meet our compliance 
milestones, which are not for the WIPP, but that plant allows 
places like Idaho National Laboratory, like Savannah River 
Site, to meet the compliance milestones that they have.
    As always, we work very closely with our WIPP to try to 
integrate all of the needs of the complex and what are the 
throughputs that we can actually achieve. Because you are so 
knowledgeable on the WIPP operation, by increasing the 
throughput we get to economies of scale at the WIPP site. The 
more throughput of waste we have into the WIPP, the less the 
cost per unit per cubic meters disposed of becomes. So we are 
always coming up with strategic initiatives to try to increase 
that throughput. But between the Recovery Act and the 
President's request, we believe that all of the compliance 
milestones in the complex can be appropriately addressed in the 
area of transuranic wastes.
    Senator Bingaman. Let me ask one other question on WIPP. I 
understand that there's been some detection of rising levels of 
carbon tetra chloride from the waste drums that are disposed of 
at WIPP. I was wondering if you've reached a determination as 
to whether that poses any hazard, if there are measures being 
taken to compensate for that or deal with that problem?
    Dr. Triay. I'm happy to discuss this. We have been working 
with the New Mexico Environment Department and some of the 
levels of the organics, which are carbon tetrachloride, are 
elevated as a result of the waste that comes from Idaho. What 
we have done is we have instituted three measures. One of them 
is exactly as you described, which is to take measurements 
before the workers enter the different areas in the repository 
where there could be elevated organic levels.
    The other two measures involve mitigation. One of them 
deals with filtering of the actual waste, installing filters in 
the containers that have the actual waste that comes from 
Idaho, to ensure that in moving forward we don't continue to 
increase the levels of organics in the repository.
    The third one is that we have actually installed a 
filtration unit in the repository itself. We have been working 
with the New Mexico Environment Department because recently the 
Environmental Protection Agency changed some of the risk 
factors associated with carbon tetrachloride. Having said that, 
we are completely committed, Senator Bingaman, to make sure 
that these levels of organics do not pose any threat to our 
workers or to the public or the environment. So we are working 
very closely with the New Mexico Environment Department and we 
expect that these mitigations that we have put in place will 
actually address any potential issues.
    Senator Bingaman. Thank you very much. Mr. Chairman, thank 
you very much.
    Senator Ben Nelson. Thank you, Senator.
    EM received $6 billion from the Recovery Act funding, as I 
mentioned in my opening remarks. As you indicate in your 
testimony, $1.7 billion has been spent. My understanding is 
that you'll have until the end of 2011 to spend these funds. I 
assume there's a plan. Will you tell us what the plan is and 
will all the funds be necessary in the cleanup, or is it 
possible some of them might be returned to the Treasury?
    Dr. Triay. We have a substantial amount of work that has 
been designated for the Recovery Act. We believe that we are on 
track for our internal goal of spending the Recovery Act 
dollars by the end of 2011. We funded all of our projects to 80 
percent confidence.
    We intend to reduce the footprint of the entire EM complex 
by 40 percent by 2011. At the end of the day, the EM program 
that essentially involves the cleanup of 50 years of nuclear 
weapons production is a huge liability to the Federal 
Government and to your efforts. We believe that the investment 
of the Recovery Act is going to reduce that ultimate liability.
    For instance, with the Recovery Act we have identified $4 
billion of reductions in life-cycle costs. In addition to that, 
we have identified over $3 billion of cost avoidance moving 
forward. So the return on investment of the Recovery Act if you 
look at the amount of money that has been invested versus the 
amount of money that could be saved and avoided in terms of 
expenditures moving forward is on the order of 120 percent 
return on investment.
    We have been able to train workers and get them to work 
fast. We have 5,600 workers that are direct contractors. We 
have subcontractors from those prime contractors to DOE, and 
overall we have 9,200 workers. In the Recovery Act, we are 
going to be able to dramatically reduce the decontamination and 
decommissioning activities moving forward in this program, 
clean up soils and groundwaters, be able to dispose of 
transuranic and low-level waste, and ultimately reduce the 
contaminated areas of the EM cleanup dramatically by 2011.
    So I would submit that, based on the rate of expenditure, 
based on the amount of jobs that have been created and the 
amount of progress that we have already made and intend to 
make, this is a very good investment for the taxpayer.
    Senator Ben Nelson. Thank you.
    The goal of the stimulus funding was to accelerate the 
cleanup by dealing with the so-called shovel-ready projects 
that had not already been funded. In addition, it was to 
provide for jobs, and what I hear you saying is 9,200 workers. 
Last year I think the testimony was that you expected that 
there might be in the order of 13,000 contractors' jobs. Is 
that 9,200 the top number or is there still a possibility that 
there might be more with the expenditures in 2011?
    Dr. Triay. The way these jobs are counted, we count the 
actual employees that are working directly in prime contracts 
to DOE. Those in turn hire other subcontractors, and if you add 
those 2, that's the 9,200.
    In addition to that, the EM program utilizes a lot of 
materials, for instance the containers that we use for shipping 
waste to the WIPP that are manufactured in Carlsbad, NM. When 
you actually look at all of the individuals that have benefited 
from being part of the Recovery Act, our count is 16,000 
employees that have been part of these efforts, which then 
would include vendors such as the individuals that are 
manufacturing the containers that we use to ship the waste to 
WIPP, individuals that are providing the cement for some of the 
activities that are going on in South Carolina in terms of 
decontaminating, decommissioning, and dealing with reactors in 
South Carolina.
    When you count all of that, we have been able to 
substantiate 16,000 individuals actually benefiting from the 
Recovery Act. I would like to point out, if you allow me, that 
when we talk about subcontractors or vendors, the Recovery Act 
in the EM program truly has been a success story when it comes 
to small business. In 2009, between the base program and the 
Recovery Act, as well as the small businesses, the small 
business awards that came from our prime contractors, we 
awarded $2.5 billion to small businesses in fiscal year 2009.
    We counted what that meant. It's that over 20 percent of 
the dollars spent in 2009 went indeed to small businesses and 
were spent by small businesses. So I just point out that in 
terms of economic stimulus, I believe that we have good facts 
to show for the $1.7 billion that we have spent.
    Senator Ben Nelson. Very good.
    The original estimate was that about 60 percent of the 
funding would go to the Savannah River and Hanford sites. Is 
this still the plan?
    Dr. Triay. Yes. Hanford receives $1.9 billion and Savannah 
River $1.6 billion, respectively.
    Senator Ben Nelson. Are there any issues, technical or 
otherwise, that might interfere with Hanford or Savannah?
    Dr. Triay. The work at Hanford and Savannah River overall 
is going extremely well. At Hanford we have committed to a goal 
of 40 percent reduction and a dramatic reduction of the 
facilities that are contaminated with radioactivity, waste 
disposal, as well as soils and groundwater decontamination. If 
anything, our internal goals now surpass that 40 percent 
footprint reduction.
    At Savannah River, there is the same type of commitment to 
footprint reduction. Actually, at the beginning, we had some 
problems with the Savannah River Site, but the Recovery Act 
portfolio has been turned around and right now our internal 
goal for Savannah River footprint reduction is well over 60 
percent, even though the official commitment is 40 percent 
footprint reduction by 2011. We think that we can do better 
than that.
    At Savannah River, as a matter of fact, one of the main 
activities that we think that we can accomplish is the 
reduction of the amount of transuranic wastes that we have 
stored at the facility. We are going to be able to dispose of 
most of the transuranic waste from this large site, Savannah 
River, at the WIPP by the end of 2011.
    Senator Ben Nelson. The National Defense Authorization Act 
for Fiscal Year 2010 directed the Government Accountability 
Office (GAO) to report periodically on the Recovery Act cleanup 
efforts. These briefings will be provided every 120 days, with 
the next one due at the end of April. The last one was at the 
end of December 2009. Each site was to have a Recovery Act 
coordinator to monitor execution of the projects. In December, 
according to the GAO, Savannah River did not have one of these 
site coordinators. Do you know whether they do now?
    Dr. Triay. Yes, they do. What was done at Savannah River 
Site, instead of having a site coordinator, was that 
Headquarters deployed one of our senior executives to the 
Savannah River Site in order to address the project management 
issues that were encountered in the Savannah River Site 
Recovery Act portfolio at the beginning of the program. Now 
those project management issues have been addressed. We have 
implemented all of the corrective actions that the Office of 
Engineering and Construction Management oversees with respect 
to project management in the Recovery Act projects. One of the 
Federal project directors at the site, certified at the highest 
level of certification, has taken over the Recovery Act 
projects, and in addition to that we have been able to deploy a 
site coordinator to the Savannah River Site.
    Senator Ben Nelson. GAO also reported that these Recovery 
Act projects were going to be defined as either capital or non-
capital assets. What's the definition for each type of project, 
beyond a capital asset being a project above $20 million?
    Dr. Triay. What we noticed in the EM program was that we 
had whole entire programs, projects, and that we needed to 
restructure the portfolio, which in fact was something that 
Deputy Secretary Poneman encouraged in his last memo on project 
management to all of the departmental elements.
    The capital projects are essentially construction projects 
when we actually are building a particular facility. Cleanup 
projects are projects where we are not building a particular 
facility, but instead we're performing cleanup operations that 
then in turn modify the status of a particular facility. For 
instance, removing fixtures from a facility that is 
contaminated and sending that contaminated material to a 
landfill, as well as ultimately demolishing the facility. 
Essentially, it goes to the amount of assets that DOE has. For 
that reason, even though we're not building anything, we 
actually still count that as part of the project management 
portfolio that is part of DOE Order 413.
    Senator Ben Nelson. In their December review, GAO 
identified some potential issues that could impact success. I'd 
like to go through each of these issues and see if any of these 
have been in fact a problem. Number one, do sites have 
sufficient personnel to manage and oversee contracts for 
Recovery Act projects? I guess part of the answer would be when 
you're ahead of schedule, doing better than you thought, that 
would be the case. But overall do the sites have adequate 
personnel?
    Dr. Triay. We always struggle with the amount of Federal 
staff and to achieve that right balance when it comes to the 
amount of staffing. Some years ago, as a result of a National 
Academy of Public Administration report, the EM Office 
increased the Federal staff significantly, by about 300 Federal 
employees. So we think that we are poised to move forward with 
the Recovery Act as well as the base activities. Like you point 
out, our Recovery Act work is going very well, but we have 
added coordinators to all of the sites and those coordinators 
are trying to streamline the decisionmaking, the 
communications, between the site and headquarters. We think 
that that is probably a model that allows us to operate with 
less Federal staff moving forward.
    Senator Ben Nelson. With the influx of newly hired workers 
there, is it possible to sufficiently train them to work safely 
in hazardous environments?
    Dr. Triay. We have chosen the portfolio of the Recovery Act 
carefully to choose the type of activities where we have proven 
technologies with an established regulatory framework and a 
track record of training workers that come from construction, 
the construction field, training workers that come from 
different trades, into being able to work in the field of 
nuclear activities and in facilities that are heavily 
contaminated with radioactivity.
    Our safety record continues to be extremely solid and very 
robust. We have been actually encouraged by the interest that 
the existing workers have taken to train the new workers that 
are coming in to work on Recovery Act. So we have proven that 
the training, the work control, the integrated safety 
management approaches that we use in the EM program allow for 
an influx of workers and to maintain our safety record.
    Senator Ben Nelson. Now, can the existing disposal sites 
accommodate the newly created waste from Recovery Act projects, 
such as the demolitions and what have you?
    Dr. Triay. Absolutely. We have one Federal facility for 
low-level waste and that is the Nevada Test Site, and we have 
two commercial facilities for low-level waste. We heavily use 
Energy Solutions in Utah and what Energy Solutions tells me is 
that they can get better economies of scale if we actually send 
even more waste than what we're sending now.
    So I believe that the commercial facilities as well as the 
Federal facilities are adequate, and have adequate capacity to 
deal with the amount of waste that we have identified for 
disposal.
    With respect to the WIPP, I think that you heard Senator 
Bingaman asking me whether we even needed more resources to try 
to maintain the amount of throughput that we have achieved in 
2010 with the Recovery Act. So this is not a matter of lack of 
capability at the WIPP, which is for transuranic wastes, or for 
the facilities that are utilized for disposal of low-level 
waste.
    Senator Ben Nelson. Are you encountering any challenges 
with local or State environmental regulatory agreements that 
might delay complete projects? I heard Senator Bingaman ask 
about the lawsuit. Will this involve delay or in some way 
impede your progress?
    Dr. Triay. The case that Senator Bingaman was referring to 
actually was resolved. There was potential litigation, and we 
resolved that lawsuit with the fence-to-fence cleanup 
compliance order at LANL. We actually have worked 
collaboratively with the regulators. Our regulators meet with 
us often, not only at the site level, but also at the 
headquarters level. They have been cooperative. They are 
extremely interested in facilitating our Recovery Act 
activities.
    The portfolio itself was chosen for activities that have a 
well-established regulatory framework under the compliance 
agreements that were already part of the EM program and that 
have been negotiated and that had clear milestones. So I 
believe that the regulatory framework for the Recovery Act 
activities allows us to complete all the work in the portfolio, 
and we even have projects if some of the projects that we are 
moving forward with have some of the contingencies associated 
with them available for further effort. Even those projects 
also have a well-established regulatory framework that we can 
use to move forward.
    Senator Ben Nelson. In the January 2009 report to Congress, 
the cost to complete the balance of DOE's cleanup program based 
on projects that had been identified by that time was somewhere 
between $250 to $300 billion. Since that time, President Obama 
has issued the NPR, wherein he's committed to modernizing the 
nuclear weapons complex, the last two and the hardest, most 
expensive and complicated of the old facilities, and building 
some new facilities as well.
    In addition, we note that the fiscal year 2010 budget 
request doesn't include any out-years funding. So really the 
question I have is, is that $250 billion number inclusive of 
what has been proposed in the latest budget, or are we looking 
at $250 to $300 billion for what was known in 2009 and 
everything being discussed in 2010 or in the President's 
comments about replacement, was that on top of the number?
    Dr. Triay. About a year and a half ago, the EM program sent 
a report to Congress on excess facilities that had already been 
identified that were not currently part of the EM portfolio. 
The Recovery Act has allowed us to move forward with the 
decontamination and decommissioning of some of those excess 
facilities. But the price tag associated with those excess 
facilities was on the order of $5 to $9 billion, and that was 
not fully included in the life-cycle costs of the EM program 
because those were not facilities that were officially part of 
the EM portfolio.
    The Recovery Act has allowed a lot of the work that needs 
to occur  on  those  excess  facilities,  and  maybe  some  of  
the  work  at  Y-12 National Security Complex in Oak Ridge, at 
LANL, and other places to move forward. But the bottom line is 
that the excess facilities as a result of the future needs of 
the complex is indeed a number that always appears to be in 
some amount of flux, because the weapons complex moves forward 
identifying different facilities that now need to be part of 
the EM portfolio. That happens in a very interactive manner.
    But I think we have a good handle on the amount of effort 
that those excess facilities will require moving forward, and 
we have shared that with Congress in our report. In addition to 
that, we've worked very closely with NNSA to try to identify 
what else they might need in terms of excess facilities as we 
move forward with our portfolio in EM.
    Senator Ben Nelson. But at the end of the day, is it still 
going to be in the range of $250 billion or $300 billion, with 
all the adjustments? I realize this is dynamic, but obviously 
I'm concerned about what the moving parts and the changes can 
mean to the total projected figure.
    Dr. Triay. I hate to commit that it's going to be less, but 
I would like to offer the following. We have been extremely 
concerned about that life-cycle cost and we have been looking 
at investments that can actually significantly lower that life-
cycle cost. So like I was saying, for the Recovery Act 
investments we see return on investment that is on the order of 
120 percent. What that means is that the life-cycle cost will 
be reduced next year when we send our life-cycle cost to 
Congress as a result of the investment in the Recovery Act.
    So even if some of the additional facilities that were not 
in the life-cycle costs come in, my intent is for the life-
cycle cost to still be less than the life-cycle costs that you 
have delineated, even with the additional efforts of the excess 
facilities coming in. Not only the investments of Recovery Act, 
but in addition I talked about the investment in technology 
development and in particular in the area of tank wastes at the 
Savannah River Site and at the Hanford Site. We believe that 
with some of those investments that we have made and are making 
in the technology development portfolio, we can actually 
significantly reduce the life-cycle costs of the tank wastes by 
tens of billions of dollars and reduce the period of execution 
by decades.
    My intent is to not only accept those excess facilities as 
they need to come into the EM cleanup program, but work on the 
portfolio that I do have now so that that life-cycle cost 
decreases as a result of these investments that we're making 
now in Recovery Act as well as in technology development for 
the tank waste. That is my objective. I know that that is the 
objective of DOE. We know that this liability weighs large in 
your defense portfolio.
    Senator Ben Nelson. I know you'll do your best, and I 
suspect you know I'll be asking you the same question next 
year.
    Dr. Triay. I'm counting on it.
    Senator Ben Nelson. To see if there have been any changes 
that would modify that number.
    Dr. Triay. Very good, absolutely.
    Senator Ben Nelson. Thank you.
    The January 2009 report identified a number of enforceable 
milestones at several sites that were at risk of not being met. 
Will the recovery funds and the rest of the funds allow any of 
these milestones to be met that probably weren't going to be 
achieved according to that 2009 report?
    Dr. Triay. Absolutely. The Recovery Act has been 
instrumental in changing those facts. In fiscal year 2009, we 
completed successfully 72 out of 74 major milestones. 
Essentially, over 95 percent of the milestones were met. In 
fiscal years 2010 and 2011, we have on the order of the same 
amount of milestones and we intend to meet and complete 
successfully 100 percent of them.
    Senator Ben Nelson. Then can you, for the record, provide a 
list of those that have been achieved, as well as those that 
have yet to be accomplished?
    Dr. Triay. I would be happy to. As a matter of fact, the EM 
program decided to publish the milestones, the upcoming 
milestones, and the success that we have in meeting them on the 
web site, so that we can have meaningful dialogue with our 
colleagues that were concerned about exactly how many 
milestones are we meeting, how are we completing our efforts. 
So we would be happy to provide that for the record.
    Senator Ben Nelson. Very good.
    The statute that required that January 2009 report also 
directed the GAO to review the report. GAO completed its review 
and submitted its report in June. The GAO had several issues 
with respect to the report, but I'd like to just highlight a 
couple of them.
    The report was supposed to include an assessment of whether 
legislative changes or clarifications would improve or 
accelerate cleanup. The report did not address this 
requirement, as the report was submitted shortly before 
President Obama took office and this section was deferred to 
the new administration.
    In the year that you've been the Assistant Secretary, have 
you had an opportunity to make such an assessment, and if you 
did what are your results?
    Dr. Triay. We have made assessments in terms of what could 
be changed moving forward, and during the current tenure of the 
administration we actually have been sharing that within the EM 
program and we would be ready to start vetting that through the 
entire DOE. The situation was at that time, for the reasons 
that you describe, we felt that to get ahead of the new 
administration was something that was not useful for the EM 
program to do in this particular report.
    But we always complete analysis of the things that could be 
improved, things that could be considered, deliberations that 
we could make in a very, very complex regulatory framework, and 
we are always ready and prepared for those kinds of 
deliberations within the Department and ultimately within the 
administration.
    Senator Ben Nelson. The report was also supposed to list 
the major mandatory milestones and if those milestones were not 
going to be met to identify the reason. For example, was it a 
technical or a financial reason. This element wasn't addressed. 
Do you have some information for the record on that that you 
would submit?
    Dr. Triay. Absolutely, I'd be happy to do so.
    [The information referred to follows:]

    Most of Environmental Management's (EM) cleanup is performed under 
the Comprehensive Environmental Response, Compensation and Liability 
Act through Federal Facility Agreements and under the Resource 
Conservation and Recovery Act through various consent and compliance 
orders. EM's overall record of meeting regulatory milestones exceeds 90 
percent. EM is committed to meeting its regulatory obligations and is 
taking a number of steps to expand and improve the tools used to 
monitor and track regulatory compliance. The enforceable milestones at 
risk table, below, was produced in January 2009. Our more recent 
analysis of the 24 milestones in the table with commitment dates 
through September 30, 2011, shows that 4 have been met, one was 
partially met, and 19 have been renegotiated since the table was 
developed. One of the four milestones that was met and the partially 
met milestone were accomplished due to the availability of American 
Recovery and Reinvestment Act funding. The 19 that were renegotiated 
were at the Hanford site and were changed in consultation with our 
regulators to reflect mutual understandings of alterations in cleanup 
priorities, and the technical and sequencing complexities inherent in 
our environmental cleanup work.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    The web address for our compliance performance as measured by 
environmental agreement milestones met is: http://www.em.doe.gov/Pages/
CompliancePerformance.aspx.
    At that location, we post the past five quarters of Environmental 
Management's (EM) ``Environmental Compliance Scorecard.'' Those 
scorecards show that, for fiscal year 2010, EM met 95 percent of its 
141 major enforceable agreement milestones due.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Ben Nelson. Thank you.
    There's a significant quantity of uranium-233 stored at Oak 
Ridge. The material has special security and safety 
requirements for storage, but it's also potentially useful for 
medical isotopes to treat cancer. In May 2008 a DOE Inspector 
General report recommended that the material be retained. 
Nevertheless, EM is now tasked with disposing of the material. 
The budget request seeks funding for design in 2011, with the 
assumption that construction on the disposition facility will 
begin in 2012 and will cost between $400 and $500 million to 
build.
    Is there any effort in DOE to revisit the decision on 
disposition of the uranium-233?
    Dr. Triay. We're always poised to revisit that decision. 
This is an area that, with my work at Los Alamos, I've always 
understood the concerns of the Inspector General. At the time 
of the report of the Inspector General, we encouraged our 
colleagues in the Office of Science, in the Office of Nuclear 
Energy, to ask again from their cadre of experts, as well as 
private industry, to see whether there was need for this 
particular material and to see whether our plans were 
appropriate.
    Even after that last Inspector General report, we were 
informed by our colleagues in the Office of Science, the Office 
of Nuclear Energy, that normally have under their purview the 
radioisotopes that need to be utilized not only in the 
Department, but also in private industry, that there was no 
interest in retaining this material and that we should move 
forward expeditiously to disposition of it. They pointed out to 
us that the security costs associated with the facility where 
these materials were, actually adds a liability to the 
portfolio of the Office of Science.
    So I understand the value of radioisotopes, having worked 
so many years in the Isotope and Nuclear Chemistry Division of 
LANL. But from what we can ascertain as a result of this 
particular last analysis that was performed when that Inspector 
General report was issued, there is no value to this material 
at this moment, and we were asked to move forward with the 
disposition of this material.
    Senator Ben Nelson. The Defense Nuclear Facilities Safety 
Board (DNFSB) has raised a number of nuclear safety concerns 
about the efforts to redesign the waste treatment plant at 
Hanford. I understand that the basis of the concern is the need 
to technically understand the operational safety ramifications 
of the proposed changes. I also understand that there is 
progress between EM and DNFSB in resolving the changes, 
including the safety of the pulse-jet mixers.
    What's the schedule to resolve these issues and does the 
DNFSB have all the documentation that it has requested?
    Dr. Triay. There are two main areas, the pulse-jet mixers 
as well as the hydrogen generated in pipes and ancillary 
vessels. With respect to the pulse-jet mixers, we have a 
commitment for finishing addressing all the remaining issues by 
June 30. What we have done in that area is come up with a path 
forward that addresses some of the concerns that the DNFSB has 
had in terms of accumulation of waste in some of the vessels of 
the waste treatment plant by, in addition to completing the 
testing that we committed to completing, also making sure that 
we have the capability at the waste treatment plant to look 
into the vessels and make sure that accumulation is not 
occurring and, when it is occurring, a capability to move the 
waste out of those vessels and into smaller vessels, where it 
has been proven that effective mixing can indeed occur.
    So we believe that we can work effectively with the DNFSB 
to address the remaining issues associated with mixing of the 
waste at the waste treatment plant.
    With respect to the hydrogen generation pipes and ancillary 
vessels, the DNFSB and the Department have discussed the 
chartering of a group of experts, that actually has been 
chartered, to look at exactly how we are applying the code 
dealing with potential hydrogen behavior in these pipes and 
vessels. The group of experts' work is coming to resolution and 
we expect to be able to sit down with the DNFSB and make 
absolutely certain that they have all of their questions 
answered.
    We are confident that we're going to be able to do just 
that and that we're going to be able to assure the DNFSB that 
indeed this fast forward results in safe operations of the 
waste treatment plant after it starts treating waste.
    Senator Ben Nelson. The DNFSB also was worried that the 
process to assess hazards at the Hanford tank farm and the 
operating procedures are too complex or unexecutable, which can 
result in ad hoc changes. Do we have a schedule in place to 
resolve these issues?
    Dr. Triay. Absolutely. The field manager of the Office of 
River Protection is an expert herself on nuclear safety and she 
has taken an extremely active interest in addressing the issues 
that the DNFSB has laid out. We have a contractor at the tank 
farm at Hanford that is the same contractor that has operated 
the tank farms at the Savannah River Site for many years. So 
this gives us a unique opportunity to have the same type of 
procedures and protocols that were used at the tank farms at 
the Savannah River Site now adapted to the Hanford tank farms. 
The Savannah River Site tank farms have been operated safely 
for many, many years, even when we are actually encapsulating 
the waste already in glass form and we have vitrified a lot of 
the waste in the tank farms.
    So based on that, I am confident that we're going to be 
able to address the issues presented by the DNFSB. Both the 
contractor as well as the Federal staff are very committed to 
effective, efficient, and prompt attention to these issues 
pointed out by the DNFSB.
    Senator Ben Nelson. The EM program as well as other parts 
of DOE has had to supplement some underfunded pension funds. 
It's been particularly true at Savannah River Site. Do you see 
a need to add more money to these funds in fiscal years 2010 or 
2011?
    Dr. Triay. I'm sorry?
    Senator Ben Nelson. It's a matter of underfunding. In the 
past the EM program has had to supplement underfunded pension 
plans, in other words put more money in to bring them up to the 
required level.
    Dr. Triay. We actually, in the Department, have looked at 
the policy that was promulgated in order to fund pensions, and 
in 2010 and 2011, we intend to fund the Employee Retirement 
Income Security Act (ERISA) minimum as long as the fund doesn't 
fall below 60 percent. I believe that right now, both in 2010 
and 2011, we have an appropriate amount of funding delineated 
in our budget in order to meet the policy of the Department to 
fund to the ERISA minimum. So the funding request of 2011 is 
sufficient. The pension plan will be funded to the requirements 
mandated by law, and in 2010 we actually intend to look at 
exactly how much funding was designated for pensions, and we 
are going to be looking at that within the Department to make 
sure that we put all of the funding that we have to optimal use 
in 2010. No underfunding in 2011.
    Senator Ben Nelson. I urge you to be sure and do that, 
because any pattern of underfunding only mortgages the future 
further. So we'd rather have current requirements currently met 
and not have to make up underfunding at a later date. It's a 
budgetary nightmare, because it will come due.
    Dr. Triay. Absolutely.
    Senator Ben Nelson. You mentioned vitrified high-level 
waste. That's the question of what to do without Yucca 
Mountain. While the question is being studied for location, in 
the interim will additional storage facilities have to be 
constructed at any of the current sites?
    Dr. Triay. In our portfolio for the EM program, we 
considered that the waste was going to be stored, after it was 
encapsulated, in glass for decades. So far, we see minimal 
impact as a result of a potential delay for moving forward with 
an ultimate disposal for the high-level waste that is going to 
be generated as a result of vitrification.
    Also, borosilicate glass is an international standard for 
extreme protection of human health and the environment. So we 
think that continuing to encapsulate our high-level waste in 
glass is a robust path forward within the deliberations that 
the Blue Ribbon Commission will entertain.
    Senator Ben Nelson. That concludes my questions. Is there 
anything that you would like to add to what you've already said 
in your statement and the answers to the questions?
    Dr. Triay. Thank you for the opportunity. What I would like 
to add, sometimes it's not as clear the type of work that the 
EM program does to facilitate, to allow some of the critical 
activities of the NNSA portfolio. For instance, when it comes 
to nonproliferation activities both domestic and international, 
it is the work of the EM program that in great measure allows 
the work of the NNSA for things that need to happen in order to 
secure nuclear materials.
    We in the EM program are responsible for the consolidation 
of all of the plutonium from NNSA sites, as well as EM sites. 
We in the EM program are responsible for the consolidation of 
highly-enriched uranium fuel that comes from international 
efforts to reduce the nuclear proliferation issues. Recently we 
celebrated the fuel that came from Chile, and indeed that fuel 
is stored at the Savannah River Site under the purview of the 
EM program activities.
    All of the highly-enriched uranium, all of the uranium 
disposition as well as plutonium disposition activities are 
funded by the EM efforts working on the defense portfolio for 
the country. Our WIPP is the only deep geologic repository that 
is operational and that takes all of the waste associated with 
the activities related to anything that we do in the NNSA 
portfolio associated with plutonium.
    So thank you for the opportunity to point out that our work 
really facilitates in great measure important work of the NNSA 
sites.
    Senator Ben Nelson. Thank you, doctor. We appreciate your 
testimony.
    Thank you so much. With that, we're adjourned.
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Jeff Bingaman
                         environmental cleanup
    1. Senator Bingaman. Dr. Triay, Los Alamos is a National Nuclear 
Security Administration (NNSA) site and the NNSA directs the cleanup 
operations there. Does this pose a difficulty for you?
    Dr. Triay. The budgeting for and accountability of legacy 
environmental cleanup activities at Los Alamos National Laboratory 
(LANL) resides within the Office of Environmental Management (EM). 
However, section 3220 of the NNSA Act, 50 U.S.C. Section 2410, 
prohibits NNSA employees from being directed by Department of Energy 
(DOE) officers or employees. As a result, the EM program has the 
accountability for cleanup activities at LANL without the authority to 
direct the work. This arrangement has presented management challenges, 
and EM and NNSA are currently collaborating in the development of 
recommendations to improve cleanup performance at LANL. The EM program 
has demonstrated the benefits of clear lines of authority and 
accountability for the American Recovery and Reinvestment Act (ARRA) 
cleanup activities at LANL and could be used as a model for the other 
cleanup work at the laboratory.

    2. Senator Bingaman. Dr. Triay, would having a separate EM contract 
for cleanup at Los Alamos be desirable?
    Dr. Triay. Yes.

    3. Senator Bingaman. Dr. Triay, I understand that most of the 
stimulus funds will  be  used  to  clean  up  the  old  plutonium  
operations  facility  at  Los  Alamos  or TA-21. Will you need 
additional funds in the Los Alamos cleanup budget to continue this 
effort?
    Dr. Triay. TA-21 is a Los Alamos Recovery Act project and is 
currently scheduled to be completed by the end of fiscal year 2011.

    4. Senator Bingaman. Dr. Triay, the NNSA fiscal year 2011 budget 
request lists the demolition and decontamination of the old Chemistry 
and Metallurgy Research (CMR) Replacement facility between $200 to $350 
million. Do you think this is accurate and will you be directly 
responsible for it?
    Dr. Triay. My understanding of the NNSA fiscal year 2011 request 
for the old CMR facility is based upon the initial preconceptual cost 
estimate range. No, the Office of EM will not be responsible for this 
portion of the work at CMR, instead it will be the NNSA's 
responsibility.

    5. Senator Bingaman. Dr. Triay, are you aware of any analyses or 
experiments being conducted by DOE EM at the Waste Isolation Pilot 
Plant (WIPP) that are directed to high level waste disposition in salt 
formations?
    Dr. Triay. No, there are no analyses or experiments being conducted 
by the Office of EM at the WIPP that are directed to high level waste 
disposition in salt formations.

    6. Senator Bingaman. Dr. Triay, what activities does the EM program 
conduct that support the mission of the NNSA?
    Dr. Triay. The Office of EM supports critical nonproliferation 
consistent with the NNSA mission. Specifically EM activities in support 
of the NNSA mission include operations of:

        <bullet> Savannah River Site's L-Basin, which stores highly-
        enriched uranium, including most recently fresh fuel received 
        from Chile by the NNSA and transported to Savannah River for 
        disposition by EM;
        <bullet> K-Area at Savannah River Site, which stores plutonium 
        from around the NNSA complex;
        <bullet> H-Canyon at Savannah River Site, the only facility in 
        the United States capable of processing plutonium and uranium 
        for disposition; and
        <bullet> The WIPP, the world's only deep geologic repository, 
        for disposal of sealed sources and plutonium

    7. Senator Bingaman. Dr. Triay, how many EM sites has EM cleaned 
up?
    Dr. Triay. The Office of EM has completed 88 of 107 sites at the 
end of fiscal year 2009. We project that we will complete 5 more sites; 
1 in fiscal year 2010 and 4 by the end of fiscal year 2011, bringing 
the total to 93 of 107 sites.

    8. Senator Bingaman. Dr. Triay, how many sites remain?
    Dr. Triay. The Office of EM had 19 sites remaining as of the end of 
fiscal year 2009. We project that we will complete 5 more sites, 
bringing the remaining total down to 14 sites by the end of fiscal year 
2011.

    9. Senator Bingaman. Dr. Triay, will EM meet its milestones at WIPP 
and Los Alamos?
    Dr. Triay. The State of New Mexico is proposed to receive a total 
of $417 million in fiscal year 2011 funding for defense environmental 
cleanup, not including safeguards and security or program direction 
funding. With these funding levels, the WIPP and NNSA's site at LANL 
will be able to complete all milestones.

                 american recovery and reinvestment act
    10. Senator Bingaman. Dr. Triay, what additional work is taking 
place at Los Alamos as a result of ARRA funding?
    Dr. Triay. The Office of EM is spending more than $210 million on 
additional cleanup work at Los Alamos, much of it for soil and 
groundwater remediation as well as for deactivation and decommissioning 
of radioactive facilities. Cleanup of TA-21 is a Los Alamos Recovery 
Act project and is currently scheduled to be completed by the end of 
fiscal year 2011.

    11. Senator Bingaman. Dr. Triay, how many jobs have been created as 
a result of ARRA funding?
    Dr. Triay. As of June 30, 2010, the Office of EM has created or 
saved more than 10,495 jobs directly funded by the Recovery Act.

    [Whereupon, at 3:50 p.m., the subcommittee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
